<html>
<title> - WATER RESOURCES DEVELOPMENT ACTS: STATUS OF IMPLEMENTATION AND ASSESSING FUTURE NEEDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    WATER RESOURCES DEVELOPMENT ACTS: STATUS OF IMPLEMENTATION AND 
                         ASSESSING FUTURE NEEDS

=======================================================================

                                (116-26)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 10, 2019
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-659 PDF                 WASHINGTON : 2020   





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                 GRACE F. NAPOLITANO, California, Chair

DEBBIE MUCARSEL-POWELL, Florida,     BRUCE WESTERMAN, Arkansas
Vice Chair                           DANIEL WEBSTER, Florida
EDDIE BERNICE JOHNSON, Texas         THOMAS MASSIE, Kentucky
JOHN GARAMENDI, California           ROB WOODALL, Georgia
JARED HUFFMAN, California            BRIAN BABIN, Texas
ALAN S. LOWENTHAL, California        GARRET GRAVES, Louisiana
SALUD O. CARBAJAL, California        DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
LIZZIE FLETCHER, Texas               RANDY K. WEBER, Sr., Texas
ABBY FINKENAUER, Iowa                DOUG LaMALFA, California
ANTONIO DELGADO, New York            BRIAN J. MAST, Florida
CHRIS PAPPAS, New Hampshire          GARY J. PALMER, Alabama
ANGIE CRAIG, Minnesota               JENNIFFER GONZALEZ-COLON,
HARLEY ROUDA, California               Puerto Rico
FREDERICA S. WILSON, Florida         SAM GRAVES, Missouri (Ex Officio)
STEPHEN F. LYNCH, Massachusetts
TOM MALINOWSKI, New Jersey
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................  viii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   117

                               WITNESSES
                                Panel 1

Hon. R.D. James, Assistant Secretary of the Army for Civil Works, 
  Office of the Assistant Secretary of the Army (Civil Works):

    Oral statement...............................................     8
Major General Scott A. Spellmon, Deputy Commanding General for 
  Civil and Emergency Operations, U.S. Army Corps of Engineers:

    Oral statement...............................................    10
    Prepared joint statement of Hon. James and Major General 
      Spellmon...................................................    12

                                Panel 2

Rob Innis, Plant Manager, Sparrows Point, Maryland, 
  Lafargeholcim, on behalf of Waterways Council, Inc.:

    Oral statement...............................................    49
    Prepared statement...........................................    51
Chad Berginnis, C.F.M., Executive Director, Association of State 
  Floodplain Managers, Inc.:

    Oral statement...............................................    52
    Prepared statement...........................................    54
Tom Waters, Chairman, Missouri Levee and Drainage District 
  Association:

    Oral statement...............................................    65
    Prepared statement...........................................    67
Julie Hill-Gabriel, Vice President for Water Conservation, 
  National Audubon Society:

    Oral statement...............................................    81
    Prepared statement...........................................    82
Derek Brockbank, Executive Director, American Shore and Beach 
  Preservation Association:

    Oral statement...............................................    91
    Prepared statement...........................................    93
F. Martin Ralph, Ph.D., Director, Center for Western Weather and 
  Water Extremes, Scripps Institution of Oceanography, University 
  of California San Diego:

    Oral statement...............................................    97
    Prepared statement...........................................    99

                       SUBMISSIONS FOR THE RECORD

Letter of July 9, 2019, from Doug Wheeler, President & CEO, 
  Florida Ports Council, Submitted for the Record by Hon. Grace 
  F. Napolitano..................................................   117
Letter of July 10, 2019, from Nicole Vasilaros, Senior Vice 
  President of Government Relations and Legal Affairs, National 
  Marine Manufacturers Association, Submitted for the Record by 
  Hon. Grace F. Napolitano.......................................   119
Article, ``Breached Levee Sucks in Barges in Alexander County, 
  Highlighting Need for Repairs, Officials Say,'' by Gabriel 
  Neeley-Streit, The Southern, July 3, 2019, Submitted for the 
  Record by Hon. Mike Bost.......................................   120
Letter of February 14, 2019, from David P. Ross, Assistant 
  Administrator, Office of Water, Environmental Protection 
  Agency, Submitted for the Record by Hon. Brian J. Mast.........   122
Press Release of May 22, 2019, Issued by the Environmental 
  Protection Agency, Submitted for the Record by Hon. Brian J. 
  Mast...........................................................   124
Letter of May 1, 2019, from Robert Redfield, M.D., Director, 
  Centers for Disease Control and Prevention, and Administrator, 
  Agency for Toxic Substances and Disease Registry, Submitted for 
  the Record by Hon. Brian J. Mast...............................   124
Letter of April 16, 2019, from David D. Whiting, Deputy Director, 
  Division of Environmental Assessment and Restoration, Florida 
  Department of Environmental Protection, Submitted for the 
  Record by Hon. Brian J. Mast...................................   126
Letter of November 9, 2018, from David D. Whiting, Deputy 
  Director, Division of Environmental Assessment and Restoration, 
  Florida Department of Environmental Protection, Submitted for 
  the Record by Hon. Brian J. Mast...............................   127
Validation Study--Wrightsville Beach, North Carolina, June 2019, 
  Submitted for the Record by Hon. David Rouzer..................   128
Beach Renourishment Evaluation Report--Carolina Beach, North 
  Carolina, June 2019, Submitted for the Record by Hon. David 
  Rouzer.........................................................   129

                                APPENDIX

Questions from Hon. Eddie Bernice Johnson to Hon. R.D. James, 
  Assistant Secretary of the Army for Civil Works, Office of the 
  Assistant Secretary of the Army (Civil Works)..................   131
Questions from Hon. Jared Huffman to Hon. R.D. James, Assistant 
  Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works)............................   131
Questions from Hon. John Garamendi to Hon. R.D. James, Assistant 
  Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works)............................   133
Questions from Hon. Greg Stanton to Hon. R.D. James, Assistant 
  Secretary of the Army for Civil Works, Office of the Assistant 
  Secretary of the Army (Civil Works)............................   134
Questions from Hon. Peter A. DeFazio to Major General Scott A. 
  Spellmon, Deputy Commanding General for Civil and Emergency 
  Operations, U.S. Army Corps of Engineers.......................   134
Questions from Hon. Grace F. Napolitano to Major General Scott A. 
  Spellmon, Deputy Commanding General for Civil and Emergency 
  Operations, U.S. Army Corps of Engineers.......................   135
Questions from Hon. Eddie Bernice Johnson to Major General Scott 
  A. Spellmon, Deputy Commanding General for Civil and Emergency 
  Operations, U.S. Army Corps of Engineers.......................   137
Questions from Hon. Greg Stanton to Major General Scott A. 
  Spellmon, Deputy Commanding General for Civil and Emergency 
  Operations, U.S. Army Corps of Engineers.......................   137
Questions from Hon. Garret Graves to Major General Scott A. 
  Spellmon, Deputy Commanding General for Civil and Emergency 
  Operations, U.S. Army Corps of Engineers.......................   138
Questions from Hon. Thomas Massie to Rob Innis, Plant Manager, 
  Sparrows Point, Maryland, Lafargeholcim, on behalf of Waterways 
  Council, Inc...................................................   140
Questions from Hon. Garret Graves to Derek Brockbank, Executive 
  Director, American Shore and Beach Preservation Association....   141
Questions from Hon. Grace F. Napolitano to F. Martin Ralph, 
  Ph.D., Director, Center for Western Weather and Water Extremes, 
  Scripps Institution of Oceanography, University of California 
  San Diego......................................................   143
Questions from Hon. John Garamendi to F. Martin Ralph, Ph.D., 
  Director, Center for Western Weather and Water Extremes, 
  Scripps Institution of Oceanography, University of California 
  San Diego......................................................   145

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              July 1, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Water Resources and 
Environment
    FROM:   Staff, Subcommittee on Water Resources and 
Environment
    RE:       Subcommittee Hearing on ``Water Resources 
Development Acts: Status of Implementation and Assessing Future 
Needs''

                                PURPOSE

    The Subcommittee on Water Resources and Environment will 
meet on Wednesday, July 10, 2019, at 10:00 a.m. in Room 2167, 
Rayburn House Office Building, to receive testimony related to 
the development and implementation of water resources 
development acts (WRDA)--which are principal legislative 
vehicles to authorize studies, projects, and policies carried 
out by the U.S. Army Corps of Engineers-Civil Works (Corps). 
The purpose of this hearing is to provide Members with an 
opportunity to review the Corps' implementation of the most 
recent congressionally-authorized WRDAs, enacted in 2014, 2016, 
and 2018. This hearing will also begin to identify future needs 
to inform the development of WRDA 2020, which the Committee 
expects to develop and approve next year.

                               BACKGROUND

    The Corps is the federal government's largest water 
resources development and management agency and is comprised of 
38 district offices within eight divisions. The Corps operates 
more than 700 dams; has constructed 14,500 miles of levees; and 
maintains more than 1,000 coastal, Great Lakes, and inland 
harbors, as well as 12,000 miles of inland waterways.\1\
---------------------------------------------------------------------------
    \1\ https://www.crs.gov/Reports/R45185#fn1.
---------------------------------------------------------------------------
    Navigation was the earliest Civil Works mission, when 
Congress authorized the Corps to improve safety on the Ohio and 
Mississippi Rivers in 1824. Since then, the Corps' primary 
missions have evolved and expanded to include flood damage 
reduction along rivers, lakes, and the coastlines, and projects 
to restore and protect the environment. Along with these 
missions, the Corps is the largest generator of hydropower in 
the nation, provides water storage opportunities to cities and 
industry, regulates development in navigable waters, assists in 
national emergencies, and manages a recreation program. To 
date, the Corps manages nearly 1,500 water resources projects.
    The standard authorization process for a Corps project 
requires two separate congressional authorizations--one for 
studying feasibility and a subsequent one for construction. 
Congress traditionally considers Corps projects and policy 
authorizations biennially through the enactment of a WRDA bill. 
Congress has enacted three consecutive WRDA bills since 2014.

                      STATUS OF WRDA IMPLEMENATION

    The Water Resources Development Act of 2018 (WRDA 2018) was 
signed into law as Title I of the America's Water 
Infrastructure Act (P.L. 115-270) by President Trump on October 
23, 2018. WRDA 2018 authorized 14 Chief's Reports, authorized 
four new Post Authorization Change Reports, 10 new feasibility 
studies, and requested that the Corps expedite completion of 32 
existing feasibility studies. As part of implementing WRDA 
2018, the Corps must also consider whether or not to issue new 
guidance for specific programs to aid in the execution of the 
provision. The Corps held a 60-day public comment period for 
the development of guidance, which closed on February 12, 2019. 
Since enactment of WRDA 2018, the Corps has issued 36 
implementation guidance documents \2\. Similarly, there are two 
provisions of the WRDA 2014 (sections 1001--vertical 
integration and acceleration of studies and 1043b--pilot 
project for non-federal implementation of projects) and three 
provisions (sections 1139--dam safety, 1162--fish and wildlife 
mitigation, 1163--wetlands mitigation) of the WRDA 2016 where 
the Corps issued revised guidance this year as a result of 
additional guidance in WRDA 2018.
---------------------------------------------------------------------------
    \2\ https://www.usace.army.mil/Missions/Civil-Works/Project-
Planning/Legislative-Links/wrda_2018/wrda2018_impguide.
---------------------------------------------------------------------------

          DEFINING FUTURE NEEDS AND SECTION 7001 ANNUAL REPORT

    The Water Resources Reform and Development Act of 2014 
(WRRDA 2014, P.L. 113-121) established a mechanism for Corps 
projects and studies to be communicated to Congress for 
potential authorization. Section 7001 of WRRDA 2014 requires 
the Secretary of the Army to annually publish a notice in the 
Federal Register requesting proposals from non-federal 
interests for new project authorizations, new feasibility 
studies, and modifications to existing Corps projects. Further, 
it requires the Secretary of the Army to submit to Congress and 
make publicly available a ``Report to Congress on Future Water 
Resources Development'' (Annual Report) of those activities 
that are related to the missions of the Corps and require 
specific authorization by law.
    Additionally, Section 7001 contains a provision that 
requires the Corps to submit to Congress an appendix containing 
descriptions of those projects requested by non-federal 
interests that were not included in the Annual Report. 
Submission of the Annual Report (and the appendix) allows 
Congress to review all requests submitted by non-federal 
interests to the Corps.
    Since WRRDA 2014, the Annual Report has been used as a 
guide from which Congress considers which studies, projects, 
and modifications will receive authorization in future WRDA 
legislation. This process was required in part, because of a 
Congressional ban on earmarks in 2011. In June 2019, the Corps 
submitted their Annual Report \3\ for Congressional 
consideration.
---------------------------------------------------------------------------
    \3\ https://usace.contentdm.oclc.org/utils/getfile/collection/
p16021coll5/id/35439.
---------------------------------------------------------------------------
    The Corps is currently soliciting proposals \4\ for 
inclusion in the 2020 Report to Congress. The deadline for 
proposals is August 27, 2019.
---------------------------------------------------------------------------
    \4\ https://www.federalregister.gov/documents/2019/04/29/2019-
08583/proposals-by-non-federal-interests-for-feasibility-studies-and-
for-modifications-to-an-authorized.
---------------------------------------------------------------------------

                               CONCLUSION

    As the Committee on Transportation and Infrastructure moves 
forward in developing the next WRDA legislation, this hearing 
is intended to provide Members with an opportunity to review 
implementation of past WRDAs and begin consideration of 
potential projects and policy initiatives that benefit the 
Nation.

                               WITNESSES

PANEL 1

    <bullet>  The Honorable Rickey Dale ``R.D.'' James, 
Assistant Secretary of the Army (Civil Works), Office of the 
Assistant Secretary of the Army-Civil Works
    <bullet>  Major General Scott A. Spellmon, Deputy 
Commanding General for Civil and Emergency Operations, United 
States Army Corps of Engineers

PANEL 2

    <bullet>  Mr. Rob Innis, Plant Manager, Sparrows Point, 
LafargeHolcim, on behalf of the of Waterways Council Inc.
    <bullet>  Mr. Chad Berginnis, Executive Director, 
Association of State Floodplain Managers
    <bullet>  Mr. Tom Waters, Chairman, Missouri Levee and 
Drainage District Association
    <bullet>  Ms. Julie Hill-Gabriel, Vice President for Water 
Conservation, The National Audubon Society
    <bullet>  Mr. Derek Brockbank, Executive Director, American 
Shore and Beach Preservation Association
    <bullet>  Mr. F. Martin ``Marty'' Ralph, Ph.D., Director, 
Center for Western Weather and Water Extremes, Scripps 
Institution of Oceanography at UC San Diego

 
    WATER RESOURCES DEVELOPMENT ACTS: STATUS OF IMPLEMENTATION AND 
                         ASSESSING FUTURE NEEDS

                              ----------                              


                        WEDNESDAY, JULY 10, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Grace F. 
Napolitano (Chairwoman of the subcommittee) presiding.
    Present: Representatives Napolitano, DeFazio, Mucarsel-
Powell, Johnson of Texas, Garamendi, Lowenthal, Carbajal, 
Espaillat, Finkenauer, Delgado, Pappas, Craig, Rouda, 
Malinowski; Westerman, Graves of Missouri, Webster, Massie, 
Woodall, Babin, Graves of Louisiana, Rouzer, Bost, Weber, Mast, 
Palmer.
    Mrs. Napolitano. Good morning. I call this hearing to 
order, and today's hearing is an opportunity to review the 
Corps implementation of the most recently passed 
congressionally authorized WRDA. Enacted 2014, in 2016, and 
2018. This hearing will also begin to identify future needs to 
inform the development for a new WRDA 2020.
    Let me begin by asking unanimous consent that committee 
members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    Without objection, so ordered.
    The Army Corps of Engineers is, simply put, the Nation's 
premier water resources expert for our Nation. Congress has 
vested significant responsibility in the Corps to carry out 
vital navigation, flood control, and ecosystem restoration 
projects for the benefit of our communities, and for our 
Nation. Each of these projects has been thoroughly studied by 
the Corps and authorized by Congress through biennial Water 
Resources Development Acts.
    This committee, on a bipartisan basis, has traditionally 
worked to move a Water Resources Development Act every 2 years, 
and has successfully enacted three consecutive Water Resources 
Development Acts since 2014. Through these WRDAs, this 
committee seeks to address local, regional, and national needs 
through authorization of new Corps projects, studies, and 
policies that benefit every corner of our Nation.
    The Corps implementation of Water Resources Development 
Acts, particularly WRDA 2018, is very important for us to 
understand. We want to know that the Corps implements the law 
as Congress intended and ensure that the Corps continues to 
remain responsive to national, regional, and local priorities, 
and to a changing climate, and has the funding to do so.
    I am specifically interested in WRDA provisions that 
involve the National Dam Safety Program, nature-based 
infrastructure initiatives, using data to enhance operations at 
our reservoirs, and the Corps assessment of their authorized 
project backlog. For my district in California, I am very 
keenly interested in ensuring that this vital dam safety work 
at Whittier Narrows is completed expeditiously.
    After more than 12, 14 years, something like that, as well 
as ensuring the Corps has the tools and funding it needs to 
ensure a reliable source of water for the drought-prone areas 
in the West. Staying on the 2-year schedule for enacting the 
next new WRDA is critical to water infrastructure to the 
Nation, and today's hearing starts the process for the 
development of a 2020 WRDA, but Congress is only half the 
equation. We must have a partner in the Corps and this 
administration in requesting funding for the congressionally 
authorized projects and studies. When the administration 
includes the words, ``No New Start'' in a budget request, that 
means, ``No new infrastructure.''
    Secretary James, General Spellmon, thank you for being here 
today. I would like to thank very much all of the South Pacific 
region. I thank you and very much for their work and 
partnership through the years, and I would like to welcome our 
stakeholder panel for their participation in today's hearing.
    I look forward to working with all of you in the 
development of the next WRDA 2020 and your testimony.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    The Army Corps of Engineers is--simply put--the nation's premier 
water resources expert for our Nation.
    Congress has vested significant responsibility in the Corps to 
carry out vital navigation, flood control, and ecosystem restoration 
projects for the benefit of our communities and our nation. Each of 
these projects has been thoroughly studied by the Corps and authorized 
by Congress through biennial water resources development acts.
    This Committee, on a bipartisan basis, has traditionally worked to 
move a water resources development act every two years, and has 
successfully enacted three consecutive Water Resources Development Acts 
since 2014. Through these WRDAs, this Committee seeks to address local, 
regional, and national needs through authorization of new Corps 
projects, studies, and policies that benefit every corner of the 
nation.
    The Corps implementation of the Water Resources Development Acts, 
particularly WRDA 2018, is important for us to understand. We want to 
know that the Corps implements the law as Congress intended, and ensure 
that the Corps remains responsive to national, regional, and local 
priorities and to a changing climate.
    I am specifically interested in WRDA provisions that involve the 
National Dam Safety Program, nature-based infrastructure initiatives, 
using data to enhance operations at our reservoirs, and the Corps' 
assessment of their authorized project backlog.
    For my district, I am very interested in ensuring that vital dam 
safety work at Whittier Narrows Dam is completed expeditiously, as well 
as ensuring the Corps' has the tools and funding it needs to ensure a 
reliable source of water for the drought prone areas in the west.
    Staying on a two-year schedule for enacting a new WRDA is critical 
to water infrastructure to the nation, and today's hearing starts the 
process for the development of a 2020 WRDA.
    But Congress is only half of the equation. We must have a partner 
in the Corps and this administration in requesting funding for 
Congressionally-authorized projects and studies. When the 
administration includes the words ``NO NEW START'' in a budget request, 
what that means is a NO to infrastructure.
    Secretary James and General Spellmon, thank you for being here 
today. I would also like to thank the South Pacific Region and the L.A. 
District of the Corps for their work and partnership throughout the 
years. I would also like to welcome our stakeholder panel for their 
participation in today's hearing.
    I look forward to working with you all in the development of a 2020 
WRDA, and in your testimony today.

    Mrs. Napolitano. At this time, I am pleased to yield to my 
colleague, the ranking member of the subcommittee, Mr. 
Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano, and in a 
bipartisan manner, I would associate myself with your comments. 
Very, very good remarks there. Thank you for holding this 
important hearing and thank you to our witnesses for being here 
today to discuss the important work that the Corps of Engineers 
does.
    I am proud to be able to work on this committee that has 
been able to pass three major transformational WRDA laws in the 
last three Congresses that are there to improve our Nation's 
water resources infrastructure. With this tremendous 
accomplishment, I want to urge the Corps to expeditiously 
implement some of the great reforms from these three laws.
    As we look forward to future water resources legislation, 
one issue that cannot be overlooked is the flooding that has 
occurred across the Nation. Out of all, the Arkansas River back 
in my home State in my district was swollen to historic levels, 
flooding homes, breaching levees, and devastating farmland. 
Arkansas is by no means alone in these experiences. Our 
neighbors in Oklahoma, Mississippi, Missouri, Louisiana, 
Kansas, Iowa, and beyond have all been affected by heavy rains 
this year.
    Unprecedented floodings such as this should serve as a 
catalyst for us to reexamine infrastructure to ensure it is 
updated and capable of protecting life and property. These 
disasters beg an important question: What can Congress do to 
prevent future flooding, or more importantly, how can we 
improve infrastructure within our States to reduce the risk of 
dam and levee breaches?
    In Arkansas alone, we have seen an estimated $23 million 
per day in economic loss along the Arkansas River as barges and 
boats can no longer navigate our inland waterways. Much of this 
waterborne commerce is dependent on infrastructure that was 
initially constructed in the 1960s and 1970s and is quickly 
approaching the end of its shelf life.
    So, as the flooded waters recede across the Nation, it is 
important for this committee to continue its bipartisan 
commitment to work and pass critical water resources 
legislation. We can't afford another year of flooded homes and 
washed out farmlands. This is a sight that none of us want to 
see and the American people deserve better than this.
    I look forward to hearing about the Corps implementation of 
the recent WRDAs and hearing constructive ideas from our 
witnesses across both panels and addressing our future water 
resources infrastructure needs.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    Thank you Chairwoman Napolitano for holding this important hearing, 
and thank you to our witnesses for being here today to discuss the 
important work of the Army Corps of Engineers.
    I'm proud to be able to work on this Committee that has been able 
to pass three major, transformational WRDA laws in the last three 
Congresses to improve our Nation's water resources infrastructure. With 
this tremendous accomplishment, I want to urge the Corps to 
expeditiously implement some of the great reforms from these three 
laws.
    As we look forward to future water resources legislation, one issue 
that cannot be overlooked is the flooding that has occurred across the 
Nation.
    While the Arkansas River was swollen to historic levels, flooding 
homes, breaching levees, and devastating farmland, Arkansas is by no 
means alone in these experiences. Our neighbors in Oklahoma, 
Mississippi, Missouri, Kansas, Iowa, and beyond have all been affected 
by heavy rains this year. Unprecedented flooding such as this should 
serve as a catalyst for us to re-examine infrastructure, to ensure it 
is updated and capable of protecting life and property.
    These disasters beg an important question: what can Congress do to 
prevent future flooding? Or more importantly, how can we improve 
infrastructure within our states to reduce the risk of dam and levee 
breaches?
    In Arkansas alone, we've seen an estimated $23 million in daily 
economic loss along the Arkansas River as barges and boats can no 
longer navigate our inland waterways. Much of this waterborne commerce 
is dependent on infrastructure that was initially constructed in the 
1960s and 1970s, and is quickly approaching the end of its shelf life.
    So as the flood waters recede across the Nation, it is important 
for this Committee to continue its bipartisan commitment to work and 
pass critical water resources legislation. We can't afford another year 
of flooded homes and washed out farmlands. The American people deserve 
better than this.
    I look forward to hearing about the Corps' implementation of the 
recent WRDAs, and hearing constructive ideas from our witnesses across 
both panels on addressing our future water resources infrastructure 
needs.

    Mr. Westerman. I yield back.
    Mrs. Napolitano. Thank you, Mr. Westerman, for your 
statement. I now recognize Mr. DeFazio, the chairman of the 
full committee.
    Mr. DeFazio. I thank the gentlelady and thank her for 
holding this hearing to kick off the 2020 Water Resources 
Development Act authorization. The former chairman, Bill 
Shuster, got us back on track with doing an authorization every 
2 years, and I fully intend to continue in that tradition.
    The Corps functions are so critical to many parts of the 
Nation, whether we are talking about navigation or we are 
talking about flood control or we are talking about ecosystem 
restoration, other missions, anticipation of severe climate 
events with changes in the climate. The Corps operates 2,200 
levees, 700 dams, largest producer of clean, renewable 
hydropower in the United States of America. Many of its 
functions are critical and benefit us every day.
    WRDA provides direction to the Corps, and we will, as I 
said, do a 2020 bill, but we do want to look back at the past 
bills and see whether these bills and the reforms and programs 
that they proposed have been implemented as intended, and it is 
also critical, and I am not going to press the Secretary on 
this.
    We had a former colleague who sat in that role a number of 
years ago, and I asked him. I said, ``Is this budget adequate 
to do what the Corps needs to do?'' And he said, ``No, it 
isn't.'' And the next Monday, he decided he wanted to leave his 
job for family purposes. So, I am not going to put you on that 
spot, but as much as possible, you have got to advocate for and 
tell us your needs so that we can anticipate them.
    I also intend to fully utilize the Harbor Maintenance Trust 
Fund for its intended lawful purpose, stop diverting funds to 
other parts of the Government, and recapture the funds that 
have been essentially sequestered somewhere in the bowels of 
the Treasury on a computer or somewhere. So, that bill passed 
out of committee.
    I am pushing my leadership to move that bill through the 
House on a daily basis. We have less than 40 percent 
utilization to authorized depths at the 50 largest harbors in 
America. Other places in my district and others, you know, 
jetties are crumbling and the faster and the more they fail, 
the more they cost to repair, and we have got to get at these 
tasks. We have got to unlock those funds and get the job done.
    So, I welcome the Secretary and the General here today, and 
I mean no disrespect, but I have to go to deal with some 
aviation issues, but there will be, I am certain, much interest 
on the committee, and we look forward to your testimony. Thank 
you for being here, and thanks to the other witnesses also.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    For nearly 200 years, the U.S. Army Corps of Engineers (Corps) has 
played a central role in addressing the Nation's water resources needs 
for navigation, flood protection, ecosystem restoration, and other 
missions. The Corps is crucial in managing our Nation's infrastructure, 
operating nearly 2,200 levee systems and 700 dams across the US, and is 
the largest producer of hydropower in the country.
    Yet, the first step in any Corps project or activity comes through 
authorization in a water resources development act (or WRDA). Regular 
enactment of WRDAs provides this Committee with the opportunity to 
oversee the Corps' implementation of projects and to ensure that the 
Corps remains responsive to national, regional, and local priorities, 
as well as a to a changing climate. It is for this reason that the 
Committee intends to develop and approve a WRDA 2020 bill next year.
    Today, we will also examine whether the Corps is implementing prior 
Water Resources Development Acts as Congress intended. This means 
issuing implementation guidance in a timely manner and including in 
their budget requests and work plans necessary funding of authorized 
Corps projects.
    I want to reiterate the need for the administration to request 
funding for authorized projects. Not funding authorized projects leaves 
the Corps with only two options--slow projects down or carry out fewer 
projects. Both options are unacceptable. Shortchanging the Corps 
impacts their ability to carry out its missions, implement 
congressional directives, and operate in a timely fashion.
    You can be sure I will continue to work to enact the next WRDA and 
to build on the successes of the last two Congresses in the full 
utilization of the Harbor Maintenance Trust Fund. My bill was passed 
out of Committee by voice vote last month and awaits consideration by 
the Full House. H.R. 2440 honors our long-term commitment to U.S. 
shippers and taxpayers by using the Trust Fund proceeds for their 
intended purposes. Through this legislation, approximately $34 billion 
in harbor maintenance taxes will be available over the next decade to 
maintain our harbors and ports.
    Rising tides raise all ships--and enactment of this legislation 
will pave the way for further adjustments in WRDA to ensure all our 
nation's ports--large and small--are maintained to their appropriate 
widths and depths and that the unique needs of all our harbors, 
including our largest ports, can be addressed.
    Secretary James and General Spellmon, thank you for being here 
today. I look forward to working with you to provide much needed 
assistance to our communities in maintaining our Nation's ports, 
harbors, and environment.
    Let's implement WRDA 2018, fund these important projects and 
studies, and move forward to WRDA 2020.

    Mrs. Napolitano. Thank you, Mr. DeFazio, and now, I yield 
to the ranking member for the full committee, Mr. Graves.
    Mr. Graves of Missouri. Thank you, Madam Chair and Ranking 
Member Westerman for holding this obviously very important 
hearing. In the past, as it has been pointed out already, the 
past three Congresses, this committee has passed three WRDA 
bills, and I look forward to doing that again in another one in 
the law in 2020.
    As we look at the future needs of our country and one of 
the most relevant issues continues to be the extensive flooding 
that we are seeing on the Mississippi River and the Missouri 
River Basins. In 2011, we thought that we had learned our 
lesson from a historic Missouri River flooding incident, but 
once again, here we are 8 years later, and we find ourselves in 
even worse shape. While we don't know what the full cost of 
this flooding season is going to be, we anticipate that it is 
probably going to be several billion dollars and the costs of 
flood damage are extensive and includes agricultural losses, 
business interruption, infrastructure damage, and individual 
and public assistance.
    The first levee breaches in my district occurred in mid-
March and some ground has been underwater ever since then, 
flooded for almost 4 months. When farmland is flooded for that 
long, it can be completely covered in sand, in sediment, and 
what that does is render it unusable for many years. In my 
district, I have 81 levee systems and almost 3,000 miles of 
levees protecting highly productive farmland and thousands of 
residents and businesses along the Missouri River, and the 
Mississippi River for that matter.
    Virtually every levee from Iowa to Kansas City overtopped 
our breach from the initial March event, and again in May and 
June with those flooding events. Almost every levee downstream 
of Kansas City it overtopped, they overtopped and breached, and 
when levees breach and residents have a very short period of 
time to collect what belongings they can and get to higher 
ground, thousands of acres of farmland become utterly 
devastated and may never see a crop again. Road closures cost 
businesses, gas stations, convenience stores, restaurants, 
retailers, you name it, other businesses, it costs them a lot 
of income and ultimately, it costs local jurisdictions a lot of 
revenue. States, counties, cities, and a lot of other local 
entities are going to continue to have to spend money that they 
simply don't have for critical infrastructure repair and 
municipal services.
    The most important impacts of the flood are the impacts on 
people. I have neighbors, friends, and family that have all 
been devastated by this flooding event and the displacement and 
disruption of people's lives is more than just dollars and 
cents. It is a disruption of their peace of mind, their feeling 
of safety, and the prospect of having to pick up the pieces and 
try to rebuild their lives and their communities.
    Missourians are tough and we are going to get through this 
together, but we can't lose perspective on what was really lost 
here as we strive for better outcomes from the public policy 
that we are going to debate here in Congress. It is very 
important that we hear from our witnesses today about the 
devastation that this flood has caused, but it is just as 
important to hear what we think the future needs to be when it 
comes to managing the upper Mississippi and Missouri Rivers, 
and I believe personally that we are asking the Corps of 
Engineers to balance too many priorities and that when life, 
property, and safety are at stake that flood control has to be 
the number one priority.
    From Gavins Point Dam to the mouth of the Missouri River, 
we are slated to spend only $13 million on annual levee 
maintenance while at the same time, we are slated to spend 
$30.7 million on wildlife reclamation and habitat creation in 
that same stretch of river. The fact of the matter is there has 
to be some adjustments made on the consideration of people's 
lives and their property.
    And with that, Madam Chairman, I look forward to hearing 
from the witnesses today, and I yield back.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    In the past three Congresses, this Committee has passed three Water 
Resources Development Acts (WRDAs), and I look forward to again working 
together to enact another one into law in 2020.
    As we look at the future water needs of the country, one of the 
most relevant issues continues to be the extensive flooding on the 
Upper Mississippi and Missouri River Basins. Back in 2011, we thought 
we had learned our lesson after the historic Missouri River flooding, 
but once again, eight years later, we find ourselves in even worse 
shape.
    While we don't know what the full cost of this flooding season will 
be, we anticipate that it is probably going to be several billion 
dollars. The costs of flood damage are extensive and include 
agriculture losses, business interruption, infrastructure damage, and 
individual and public assistance.
    The first levee breaches in my district occurred in mid-March, and 
some ground has been underwater ever since then--flooded for almost 
four months. When farmland is flooded for that long, it can be 
completely covered in sand and sediment, rendering it unusable for 
years.
    My district has about 81 levee systems and 2,552 miles of levees 
protecting highly productive farmland and thousands of residents and 
businesses along the Missouri River alone. Virtually every levee from 
Iowa to Kansas City overtopped or breached from the initial March 
event. And again in the May and June flooding events, almost every 
levee downstream of Kansas City overtopped or breached.
    When levees breach, residents often only have a few hours to 
collect what belongings they can to get out of danger; thousands of 
acres of farmland become utterly devastated and may never see a crop 
again; road closures cost gas stations, restaurants, retailers, and 
other businesses income; and ultimately, it costs local jurisdictions a 
lot of revenue. States, counties, cities, and a lot of other local 
entities are going to continue to have to spend money they simply don't 
have for critical infrastructure repairs and municipal services.
    But the most important impacts of floods are the impacts on people. 
These are my neighbors, friends, and family. The displacement and 
disruption of people's lives is more than just dollars and cents. It's 
a disruption of their peace of mind, their feeling of safety, and the 
prospect of having to pick up the pieces and trying to rebuild their 
lives and their community.
    Missourians are tough. And we will get through this together. But 
we cannot lose perspective of what was really lost here as we strive 
for better outcomes from the public policy that we debate in Congress.
    It is very important that we hear from our witnesses today about 
the devastation this flood has caused. But it is just as important to 
hear what we think the future needs to be when it comes to managing the 
Upper Mississippi and Missouri Rivers.
    I believe, personally, that we are asking the Corps of Engineers to 
balance too many priorities--and that when life, property, and safety 
are at stake, flood control must always be priority number one. From 
Gavins Point Dam to the mouth of the Missouri River, we are slated to 
spend only $13 million on annual levee maintenance, while we are slated 
to spend $30.7 million on wildlife reclamation and habitat creation in 
that same stretch of river. The fact of the matter is there must be 
some adjustments made for the consideration of people's lives and 
property.

    Mrs. Napolitano. Thank you, Mr. Graves. I now ask unanimous 
consent that the letters from the Florida Ports Council and the 
National Marine Manufacturers Association be included in the 
record in support of WRDA 2020.
    [Florida Ports Council and National Marine Manufacturers 
Association's letters are on pages 117-120.]
    Mrs. Napolitano. Now, we will proceed to hear from the 
witnesses, who will testify, and thank all of you for being 
here, both of you.
    For panel 1, we have the Honorable R.D. James, Assistant 
Secretary of the Army, Civil Works, and we welcome you. Hello.
    Major General Scott A. Spellmon, Deputy Commanding General 
for Civil and Emergency Operations, United States Army Corps of 
Engineers. Welcome to both of you.
    Without objection, your prepared statements will be entered 
into the record, and all witnesses are asked to limit their 
oral remarks to 5 minutes, and Secretary James, you may 
proceed.

 TESTIMONY OF HON. R.D. JAMES, ASSISTANT SECRETARY OF THE ARMY 
FOR CIVIL WORKS, OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
  (CIVIL WORKS); AND MAJOR GENERAL SCOTT A. SPELLMON, DEPUTY 
  COMMANDING GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. 
                    ARMY CORPS OF ENGINEERS

    Mr. James. Thank you, Chairwoman Napolitano, Ranking Member 
Westerman, and all distinguished members of this committee. 
Thank you for the opportunity to be here today.
    I have been the Assistant Secretary of the Army for Civil 
Works for 15 months and my goals today are the same as they 
were when I started: focus on outcomes, expedite the process, 
and move dirt, making the best use of all available funds. 
Since last year, I have had the pleasure to meet with many of 
you to discuss your views on the Army Civil Works program. Your 
input is appreciated, and I remain committed to working with 
each of you.
    The fiscal year 2020 budget provides $4.8 billion for the 
Corps, focusing on investments that will yield high economic 
and environmental returns or address a significant risk to 
public safety. This budget relies on a foundation of strong 
relationships between the Corps and local communities. It 
allows us to work together to help manage, develop, restore, 
and protect their water resources and infrastructure.
    The budget focuses on the three main mission areas of the 
Corps of Engineers: flood control, commercial navigation, and 
aquatic ecosystem restoration. The fiscal year 2020 budget 
supports a Corps program that has a diverse set of tools and 
approaches to working with local communities, whether this 
means funding projects with our cost-sharing partners, 
providing planning assistance and technical expertise, or 
participating in the national and international conversations 
on how to best address our future water resource challenges.
    The budget helps improve our efforts on resiliency and 
sustainability. The budget also funds two new, innovative 
programs in the construction account. One of them is the 1043 
program, and it is budgeted for $150 million, and that's where 
the Corps could transfer appropriated funds to a sponsor who 
desired to construct a project on their own.
    There is another one, the Innovative Funding Partnerships 
program, also funded at $150 million to be used in conjunction 
with funds voluntarily provided by non-Federal interests in 
excess of the non-Federal cost-share to accelerate completion 
of construction of specifically authorized projects.
    In addition, the budget proposed to extend the 
authorization for section 1043 of WRRDA 2014 as amended, which 
under current law expired on June 10th of this year.
    Since the enactment of the Water Resources Development Act 
of 2018, the Chief of Engineers has issued a report with 
recommendations on 15 proposed water resource projects. I 
provided a detailed list of all of those projects in my 
official statement that I have submitted to this committee.
    Since receiving my appointment to ASA(CW), I focused on how 
the Corps executes all available funds. This involves 
identifying needed investments and ensuring that we complete 
execution in a more cost-effective and efficient way. This 
approach will ensure a better return on the taxpayer's 
investment and better the lives of Americans.
    Under my oversight and direction, and with the help of 
Lieutenant General Semonite and his team, such as General 
Spellmon, the Corps is committed to improving the performance 
of the Civil Works program. The Corps also is using its 
engineering expertise and relationships with project partners 
and stakeholders to develop new approaches to address some of 
the most pressing water resources challenges facing our Nation.
    And I would like to say there that I feel like the Corps 
got away from working with their partners. I am talking about 
the local people on the ground that the district engineers work 
with regularly, and we are trying to get back to that. We are 
trying to invite our partners to meetings, we are trying to 
make them a part of the process and the decisions that we make 
as Corps of Engineers, and I feel that is very important.
    Improving performance and timely delivery of quality 
products continue to be one of my highest priorities. To that 
end, I have completed the guidance for all provisions of the 
Water Resources Development Act of 2018 and much to my 
distress, I discovered that when I took this office in February 
of 2018, there was guidance outstanding due to this committee 
from 2014 and 2016.
    I pledged to myself that after the WRDA 2018 was passed, we 
would not let that happen. I instructed my team to have all 
guidance out by April the 15th, and we did that with the 
exception of two, but I am proud to tell you today that all of 
our guidance has been submitted to the committee.
    I am committed to ensuring that the United States Army 
Corps of Engineers continues to do what it does better than any 
other organization in the world, identify the best ways to 
manage, design, construct, restore, and protect water resources 
and its infrastructure. My goal is to achieve the highest 
economic, environmental, and public safety return for the 
Nation, which will benefit all our citizens.
    Thank you for inviting me here today, and I look forward to 
taking any of your questions.
    [Hon. James' and Major General Spellmon's prepared joint 
statement follows Major General Spellmon's oral remarks.]
    Mrs. Napolitano. Thank you, Mr. Secretary.
    Major General Spellmon, you are recognized.
    General Spellmon. Good morning, Madam Chairwoman, and 
members of the committee. Thank you for the opportunity to 
speak with you today about the implementation of recent Water 
Resources Development Acts, execution of the Corps Civil Works 
program, and our ongoing flood fights across the Nation. Again, 
my name is Major General Scott Spellmon. I'm the Corps Deputy 
Commanding General for Civil Works and Emergency Operations.
    I would like to first acknowledge the widespread 
devastation and serious impacts this year's flooding is 
creating for many people across the country. The Assistant 
Secretary and I have witnessed these impacts first-hand during 
our many visits to the field. Throughout our Corps personnel 
have been working tirelessly to help mitigate the effects of 
these events by providing assistance to States and local 
communities.
    This year's flood season continues to challenge many 
Federal and State agencies as well as many local governments. 
At our highest point, we had over 400 river gauges indicating 
flood stage across the country, and over 183 reported ice jams 
in our Nation's rivers. In the Ohio River Valley, this past 
fall and winter were the wettest on record in the past 124 
years and we have seen record reservoir levels in our 
Cumberland River projects. Our personnel industry had been in 
the flood fight for over 200 days and counting.
    Our Mississippi Valley division has been in the flood fight 
on the Mississippi River for the past 260 days and will 
continue at least for the next several weeks. For the first 
time in its 88-year history, we opened a Bonnet Carre spillway 
twice in one season, which has now been operating for 106 days. 
Within the Mississippi Yazoo Backwater Delta, record water 
levels have impacted thousands of acres of agricultural land as 
well as many communities.
    Upstream of St. Louis, the Mississippi reached its second 
highest stage ever recorded, and even this week, we are closely 
monitoring a low pressure system in the Gulf of Mexico that may 
evolve and produce a surge elevating the lower Mississippi 
River to 19 feet above sea level as early as this Friday.
    On the Missouri River, the flood event that began on March 
13th was a combination of rainfall, warm temperatures, and 
rapid snow melt all on top of saturated and frozen soil. This 
condition covered a large area, including central and western 
Nebraska, southeastern South Dakota, western Iowa, and portions 
of northern Missouri and Kansas.
    The ensuing runoff drained into uncontrolled tributaries 
that were already subject to ice jam conditions as I mentioned, 
and this combination of events led to record discharges on a 
number of rivers where we reached major flood stage in less 
than 48 hours. This event is still ongoing, as prolonged 
rainfall continues to bring river stages well out of bank from 
Omaha to the Missouri's confluence with the Mississippi just 
above St. Louis.
    On the Arkansas River, the flood event that began in May 
was also due to intense and prolonged rainfall again on top of 
saturated soils that led to record stages and flows from Tulsa, 
Oklahoma, to the river's confluence with the Mississippi. This 
event is also ongoing as well, and many of our reservoirs in 
this region have also established new pools of record.
    In many of these watersheds, our Corps dams and reservoirs 
have prevented even more significant flooding downstream of 
those projects, averting millions of dollars in additional 
property damage as well as saving countless lives. Today, I 
want to assure the committee that our Corps' number one 
priority in all of our operations remains life and public 
safety as we continue to address the many flooding challenges 
across the country. As of this morning, we have identified over 
160 levee breaches that require repair and we are working with 
States and non-Federal sponsors to expedite that work.
    We also want to thank this committee and the Congress for 
the authorities and flexibilities it has provided the Corps to 
address these and many other challenges. These tools 
accompanied with record levels of Civil Works appropriations 
for the Civil Works program are making a positive difference. 
You may have heard our Chief of Engineers speak to the ongoing 
efforts to revolutionize the way we do business as an 
enterprise. The authorities provided by this committee continue 
to enable his initiative.
    We are working to modernize the traditional delivery of the 
Civil Works program by utilizing innovative tools to accelerate 
project delivery, exploring alternative financing approaches 
and streamlining our internal processes to improve permitting 
and regulatory actions.
    I look forward to highlighting these improvements to our 
project delivery during our session today and welcome any 
questions that you may have. Thank you.
    [Hon. James' and Major General Spellmon's prepared joint 
statement follows:]

                                 <F-dash>
Prepared Joint Statement of Hon. R.D. James, Assistant Secretary of the 
  Army for Civil Works, Office of the Assistant Secretary of the Army 
 (Civil Works) and Major General Scott A. Spellmon, Deputy Commanding 
    General for Civil and Emergency Operations, U.S. Army Corps of 
                               Engineers
    Chairwoman Napolitano, Ranking Member Westerman and distinguished 
members of the committee, thank you for the opportunity to be here 
today to discuss the U.S. Army Corps of Engineers (Corps) Civil Works 
program and the status of implementation of recent Water Resources 
Development Acts.
    I have been in the Assistant Secretary of the Army for Civil Works 
(ASA(CW)) position for 15 months and my goals today are the same as 
they were when I started, to focus on outcomes, over process, in order 
to make the best use of the available funds. Since last year I have had 
the pleasure to meet with most of you one on one to discuss your views 
on the Corps Civil Works program. That input is appreciated and I 
remain committed to working with each of you.
    The Fiscal Year (FY) 2020 Budget provides over $4.8 billion for the 
Corps, with a focus on investments that will yield high economic and 
environmental returns or address a significant risk to public safety. 
This Budget relies on a foundation of strong relationships between the 
Corps and local communities, which allow us to work together to help 
manage, develop, restore, and protect their water resources. The Budget 
focuses on the highest performing work within the three main mission 
areas of the Corps, which are:

    <bullet>  commercial navigation;
    <bullet>  flood and storm damage reduction; and
    <bullet>  aquatic ecosystem restoration.

    The FY 2020 Budget supports a Corps program that has a diverse set 
of tools and approaches to working with local communities, whether this 
means funding projects with our cost-sharing partners, providing 
planning assistance and technical expertise to help communities make 
better informed decisions, or participating in the national and 
international conversations on how to best address our future water 
resources challenges. The Budget helps us maintain and improve our 
efforts on resiliency and sustainability--one of the challenges 
associated with the ways that we have used our water and related land 
resources in the past.
    The Budget also funds two new, innovative programs in the 
Construction account:

    <bullet>  $150 million for the Water Resources Reform and 
Development Act of 2014 (WRRDA 2014) Section 1043 Non-Federal 
Construction of Federal Projects program, under which the Corps would 
transfer appropriated funds to non-Federal sponsors who decide to 
construct a project on their own. This approach will improve project 
delivery and achieve cost savings; and
    <bullet>  $150 million for the Innovative Funding Partnerships 
program, which would be used in conjunction with funds voluntarily 
provided by non-Federal interests in excess of the non-Federal cost 
share to accelerate the completion of construction of specifically 
authorized projects.

    In addition, the Budget proposed to extend the authorization for 
Section 1043 of WRRDA 2014, as amended, which under current law expired 
on June 10, 2019.
    Since the enactment of the Water Resources Development Act of 2018 
(WRDA 2018), the Chief of Engineers has issued a report with 
recommendations on the following eight proposed water resources 
projects:

    <bullet>  Little Colorado River (Winslow), Arizona
    <bullet>  Sacramento-San Joaquin, Delta Islands and Levees, 
California
    <bullet>  Anacostia Watershed Restoration, Prince George's County, 
Maryland
    <bullet>  Pawcatuck River, Rhode Island
    <bullet>  City of Norfolk, Virginia
    <bullet>  Souris River Basin, North Dakota
    <bullet>  Great Lakes & Mississippi River Interbasin Study--Brandon 
Road, Illinois
    <bullet>  Yuba River Fish Passage (Englebright and Daguerre Point 
Dams), California

    Since receiving my appointment to be ASA(CW), I've focused on how 
the Corps executes its funds. This involves identifying the highest 
priority investments and ensuring that we finish that work in a more 
timely and efficient way. This approach will ensure a better return on 
taxpayer's investment and better the lives of Americans. Under my 
oversight and direction and with the help of Lieutenant General 
Semonite and his team, the Corps is committed to working on improving 
the performance of the Civil Works program. The Corps also is using its 
engineering expertise and its relationships with project sponsors and 
stakeholders to develop new approaches to address some of the most 
pressing water resources challenges facing the Nation.
    Improving performance and timely delivery of quality products 
continues to be one of my highest priorities. To that end, we have 
completed the guidance for all provisions of the Water Resources 
Development Act of 2016 and the WRDA 2018 that we determined will 
require such guidance.
    I am committed to ensuring that the Corps continues to do what it 
does better than any other organization in the world, which is to 
identify the best ways to manage, develop, restore, and protect water 
resources. Our goal is to achieve a high economic, environmental, and 
public safety return for the Nation, which will benefit all Americans.
    Thank you for inviting me to be here today. I look forward to your 
questions.

    Mrs. Napolitano. Thank you, General Spellmon and Secretary 
James for your testimony. We will now recognize individual 
Members for up to 5 minutes each for questions, and I will 
start with the questions to both of you.
    In many parts of the country, we are experiencing more 
extreme weather events. The Midwest is flooding, and outside 
this year, the West has been in extreme drought other than for 
a little bit of water. How is the Corps century-old 
infrastructure adapting to deal with the changing conditions of 
today?
    Mr. James. Ma'am, we are taking that very seriously in all 
that we are trying to do. We have initiated several different 
databases, and we are working with the other agencies like the 
USGS, the monitoring. This past budget, I entered $3 million 
for gauges in the upper Mississippi River System looking at the 
snowpack and plains pack in that system.
    I intend to try to do the same thing in other systems as 
well as California, but we are not standing by idly and 
building as usual. We are trying to keep an eye to the future 
and build in a way that what we do build will serve us all for 
years to come.
    Mrs. Napolitano. Well, with recent seismic events, were 
there any problems that you encountered that you were going to 
have to look at for all dams?
    Mr. James. Which events, ma'am?
    Mrs. Napolitano. The earthquake in California.
    Mr. James. Oh, my goodness. I can't say that I am an 
earthquake expert. I do say that anything we build in the 
future, and I am not sure that we haven't done it in the past, 
but in the future, as far as infrastructure from the Corps of 
Engineers, we built for seismic resistance. Even though I live 
on the New Madrid earthquake fault, I am still not an expert on 
earthquakes.
    General Spellmon. So, may I, if I could just add. We have 
had our structural, our geotechs, our engineers out on the 
three dams that are closest to the most recent earthquakes in 
California: the Isabella Dam, the Success Dam, and the Terminus 
Dam, and we have had no significant issues to report.
    Mrs. Napolitano. Can you talk about the Corps role in the 
forecast-informed reservoir operations--FIRO--in helping Corps 
projects adapt to meet current and future needs for the 
communities they serve?
    General Spellmon. Yes, ma'am. So, I will start. Our intent 
is to continue our partnership with the State and local 
entities as well as academia as we advance this pilot. This 
pilot began in 2014 and we will wrap it up this year. We are, 
frankly, excited about the early results we had at the 
atmospheric river, as you recall, ma'am, back in February, and 
we were able to use some of the data and advanced monitoring 
technology to actually make reservoir decisions long before 
this water hit the ground.
    So, we will wrap up that report here this year and we will 
look for opportunities where else in the Nation that this 
technology may apply.
    Mrs. Napolitano. How soon can we expect the ability of the 
Corps to work this program into other types?
    General Spellmon. Yes, ma'am. So, the technology that I had 
a chance to briefly talk with you before the hearing. The 
technology that we are talking about is very good for these 
types of conditions that we are talking about on the west 
coast. We are not certain yet scientifically that this same 
technology will apply to some of the weather patterns that we 
saw this year, say, over Arkansas or Oklahoma or the upper 
Midwest. We have more work to do.
    Mrs. Napolitano. Thank you. Secretary James, your testimony 
highlights a provision that reserves $150 million for projects 
where the non-Federal sponsors willing to contribute more jump 
the line. How does this innovative partnership help small, 
rural, and disadvantaged communities partner with the Corps?
    Mr. James. I think the purpose of this process and this 
innovative funding will allow people that have the money to do 
that to move forward and do it. I am not sure it will put them 
in front of the line of those like myself that has to stay 
under the original cost share agreement. That is not what it is 
intended for. I don't think it will work that way.
    I am still working with the administration right now to get 
a better handle on how they want this program to work. When you 
read it, it doesn't look too good. Like, if you have got the 
money, put your money up and you can move out, but I am not 
sure. I don't think that is what they intend for us to do, but 
I am working on finding out.
    Mrs. Napolitano. Well, would it be sure that the small 
communities are not disadvantaged?
    Mr. James. Yes, absolutely. That is one of my concerns, not 
with this particular proposal by the administration. That 
doesn't concern me too much, but overall, I am concerned about 
the areas of this country that do not have the money to put up 
for infrastructure and for protection. I do not want to leave 
those people out. They deserve----
    Mrs. Napolitano. We should not. We should not leave them 
out.
    Mr. James. No, ma'am.
    Mrs. Napolitano. Thank you, sir.
    Mr. Westerman.
    Mr. Westerman. Thank you, Chairwoman. Secretary James and 
General Spellmon, thank you not only for your testimony today, 
but for the job you do and your service to our country in an 
area that is extremely important.
    When we talk about safety and the economy and the 
environment and all those things, and as I have mentioned 
earlier in my testimony, we did see unprecedented flooding on 
the Arkansas River this year. You know, to put it in 
perspective, the river typically flows around 40,000 cubic feet 
per second. When it gets to 80,000 cubic feet, you really don't 
want to be on a small boat in the river or maybe even on the 
river at all, but we were seeing flow rates of 500,000 to 
600,000 cubic feet per second. Just an enormous amount of water 
coming down the river.
    I was with the Governor and others from our congressional 
delegation on the bridge in Fort Smith there on the Arkansas-
Oklahoma line and really was, with all the flooding, the 
intensity of it, as an engineer I was pretty impressed with the 
way that infrastructure held up, and when we saw in the 
magnitude of 1,000 homes flooded, we saw a lot of farmland 
flooded, but we saw relatively few levee failures and the 
infrastructure held up better than I think anyone expected for 
the condition it was in.
    General Owen and some others there worked well with our 
State, but in the aftermath of that, at the end of June, 
Governor Hutchinson ordered a review of Arkansas' levees and 
created a task force to study and analyze the condition of our 
levees and Secretary James, I know you mentioned it is one of 
your objectives to work closer with the local officials, and 
you know, that is statewide in the districts as well, but how 
is the Corps working with Arkansas and other States who have 
seen their levee systems damaged to conduct a comprehensive 
assessment of the levee system?
    Mr. James. I will let General Spellmon talk to that, but I 
can tell you right now, we aren't able to do a lot because the 
water hasn't fallen enough for us to get in there and get the 
soil probings and all we need to see what needs to happen.
    I can assure you one thing that will happen without any 
technology or scientific data. When these waters go down in all 
of these systems, we are going to have major levee slides that 
are going to have to be prepared before the next flood season. 
Any time we have water as high as it has been for as long as it 
has been, then when the water goes down, geotechnically, 
something happens to that soil and it slides off on the 
riverside of that levee, and that hasn't been reported to you 
yet at all, but it will be coming because it will happen.
    I will let the general talk to you, sir, just a moment 
about how we are moving out so far.
    General Spellmon. Yes, sir. We have to do this hand in hand 
with local sponsors, not Federal sponsors, who actually own and 
operate these levees, whether Federal levees or non-Federal 
levees inside the rehabilitation program so we can, at the 
appropriate time, get the right designs done and move the money 
to get these repairs done as expeditiously as possible.
    Sir, I would just state today, we have $1.9 billion in 
known damages on our Nation's levee systems. That is primarily 
in the reach from Omaha down to Kansas City where the water has 
fallen enough for us to do the detailed assessments, but from 
St. Louis, sir, all the way down to New Orleans, and then 
certainly in your region, we have got to get this water down so 
we can do the detailed work, and come back to the Secretary and 
the Chief with our requirements.
    Mr. Westerman. But you are all hands on deck working with 
the State and local officials, and----
    General Spellmon. Yes, sir.
    Mr. Westerman. Not just in Arkansas, but in other areas as 
well.
    General Spellmon. Everywhere, sir.
    Mr. Westerman. All right. So, last WRDA I worked with Mr. 
Garamendi to pass a clean reauthorization of the National Levee 
Safety Initiative to extend its authorization to 2023. Given 
the severity of flooding and the impacts to our Nation's levees 
just these past few months, it is essential for the Corps to 
develop more efficient methods to inspect and collect and 
maintain data in the National Levee Database.
    I understand you are testing some pilot programs. I am out 
of time, but I hope that somewhere, you will be able to talk 
about innovations in the levee programs.
    General Spellmon. Yes, sir, and we would welcome the 
opportunity to come see you one on one and walk you through 
where we are and where we are going with that program.
    Mr. Westerman. I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, Mr.--what is your name?
    [Laughter.]
    Mrs. Napolitano. Mr. Westerman.
    Mr. Graves, you are recognized.
    Going to my side. Ms. Mucarsel-Powell, you are recognized.
    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    Thank you and good morning. First, I want to thank the Army 
Corps for accepting my invitation to come down to south Florida 
to Monroe County for that public meeting to understand the 
effects of the Lake Okeechobee and how you regulate that lake 
and how that effects the livelihood in south Florida.
    So, thank you for that, and as you know, the Everglades is 
such an important and critical component of water quality and 
for the livelihood for Floridians. The success of restoring the 
Everglades is really going to rely on partnerships and 
collaborations between State and Federal agencies, including 
the Army Corps, and central to this management is the inflow 
that comes into Lake Okeechobee, but also managing the 
discharges from the lake.
    I find it completely unacceptable that the lake has 
released contaminated water after Congress has appropriated 
hundreds of millions of dollars for Everglades restoration in 
the past 19 years, and that the communities living in the east 
and west of Lake Okeechobee have received high levels of green-
blue algae that have killed fish, that has sent children to the 
hospitals. We are experiencing such a crisis, a public health 
crisis in our communities because of the high toxicity that is 
coming from the Lake Okeechobee.
    Also, in the South, hundreds of thousands of acres of 
seagrass has died because of low levels of water coming down 
from Lake Okeechobee. So, clearly something is just not 
working, and I know that there is a long history. We can talk 
about what has happened in the past, but I want to take this 
opportunity to understand what we need to do and to do a better 
job of protecting the public health as we are regulating the 
lake.
    So, General Spellmon, I know that you mentioned that your 
mission and your goal is, or the priority is the life and 
public safety of your communities which I think I would assume 
public health is a part of that as well. So, who do you think 
needs to be at the table involved in making these decisions 
managing the health of the lake and the discharges, and what 
can the Corps specifically do to avoid another disaster, which 
we saw last summer?
    General Spellmon. So, the first question. Everyone has to 
be at the table. The Federal partners, not just the Corps, but 
also all the State and local agencies, and we think we have 
that in our governance meetings where Colonel Kelly makes the 
decisions on releases.
    I would just say also as a general statement that the Corps 
is all in. We are going to use all of our operational 
flexibility from our water control manual at Lake Okeechobee to 
our construction capabilities as well as our research 
capabilities to help the State deal with this water quality 
issue.
    There are no short-term solutions, ma'am, to the broad 
problem that you outlined, but there are a number of projects 
ongoing all around that lake that will contribute to the long-
term solution for your constituents.
    Ms. Mucarsel-Powell. Who is right now responsible for 
measuring the algae levels in the lake?
    General Spellmon. Measuring?
    Ms. Mucarsel-Powell. The levels of toxicity in the lake?
    General Spellmon. Yes, ma'am. So, I think that is probably 
the Florida Department of Health. Possibly the Centers for 
Disease Control. The folks in the medical community that deal 
with water quality.
    Ms. Mucarsel-Powell. And are you in close communication 
with these departments?
    General Spellmon. Yes.
    Ms. Mucarsel-Powell. Would you be able to provide to me a 
plan, a communication plan, on once you understand the levels 
of toxicity what the next steps are before you decide to 
release that water.
    General Spellmon. Yes. We can share with you how we govern 
our governance process that is the decisionmaking that our 
district commander goes through when he is deciding where and 
when to release.
    Ms. Mucarsel-Powell. OK, and what do you think we can do in 
Congress at the Federal level to help reduce the risk of the 
toxicity, both in the short term and the long term as we 
release the water into our communities?
    General Spellmon. Yes, ma'am. As I said, there is a number 
of, probably about 64 in total in the south Florida ecosystem 
restoration program that will need continual investment over 
the ensuing years so that we can get the infrastructure in 
place to help the State deal with this water quality issue.
    Ms. Mucarsel-Powell. Will the $200 million that I requested 
that has been approved and appropriated to continue the 
Everglades restoration project be helpful, and how quickly can 
we expect the completion of that project?
    General Spellmon. So, yes, ma'am. Absolutely. It's going to 
help us expedite this program. So, with the $200 million and 
the President's budget request, we will complete the Kissimmee 
River restoration next year. We will continue our construction 
and oversight for the C-43 West Storage Basin. We will continue 
our construction oversight in design for the Indian River 
Lagoon South on the east side of Lake Okeechobee. That project 
will be complete in 2022, and of course, we will continue our 
development and planning with the South Florida Water 
Management District for the design of the Everglades 
Agricultural Area Reservoir. That is all next year.
    Ms. Mucarsel-Powell. Thank you, General.
    I yield back my time.
    Mrs. Napolitano. Thank you, Ms. Mucarsel-Powell.
    Mr. Graves, you are recognized.
    Mr. Graves of Missouri. Thank you, and just I want to 
follow up on Ranking Member Westerman. You said that your 
preliminary numbers between Omaha and Kansas City are $1.9 
billion?
    General Spellmon. Yes, sir.
    Mr. Graves of Missouri. And----
    General Spellmon. That is for the levees that we can get 
down to the toe and actually do adequate assessments. We know 
there are many more levees that have----
    Mr. Graves of Missouri. Right----
    General Spellmon [continuing]. Been overtopped and damaged 
throughout the country.
    Mr. Graves of Missouri. And obviously that it is going to 
take a little while with those assessments. Do you have any 
idea what that number might rise to?
    General Spellmon. Sir, I don't. It is still raining. We 
have got a large storm coming in here this weekend. We have 
still got a lot of flow in the upper Missouri River that has 
yet to make its way through the basin. Sir, I don't have a good 
estimate for you.
    Mr. Graves of Missouri. So, that is just on those breaches 
that you have been able to get into, then.
    General Spellmon. Yes, sir.
    Mr. Graves of Missouri. And real quick, and I don't know if 
this is for the Secretary or not, but as far as the Midwest 
supplemental goes, when is that money going to hit the ground? 
We have kind of got a clock ticking out there.
    Mr. James. I am sorry, sir. I didn't understand.
    Mr. Graves of Missouri. The Midwest supplemental dollars 
that were approved. Do you know when that money is going to be 
distributed?
    Mr. James. That money has been separated into different 
line items at this time. The general may have a paper on that. 
I don't, but as soon as we can get our hands on it, which we 
don't yet.
    Mr. Graves of Missouri. OK.
    Mr. James. I don't have the money yet, but it is hopefully 
pending quickly, but we can start work on some areas pretty 
soon, but doggone it, it is the rivers are still just so high 
there is not a lot of work we are going to be able to do. Like, 
if we were going to repair a levee, how are we going to get the 
bar area?
    Mr. Graves of Missouri. Yeah, no. I understand.
    Mr. James. Yes, sir, and so, but the money is coming, but 
we don't have our hands on it, and I am not sure how it is 
divided up.
    Mr. Graves of Missouri. OK.
    General Spellmon. Yes, sir. So, that $3\1/4\ billion in 
this, the FY 2019 supplemental that is coming to the Corps. 
About $2 billion of that, sir, we are able to use nationwide to 
deal with some of the damages that we have seen to the levees, 
and then also of our Corps projects, our locks and dams.
    The investigations account and the construction account, 
those are tied to States and regions that were impacted by last 
year's hurricanes, Michael and Florence, and also the typhoons 
out in the Pacific.
    Mr. Graves of Missouri. Is there going to be another 
supplemental request? I am assuming there will be as we move 
forward.
    Mr. James. There will have to be. You see how that is 
split----
    Mr. Graves of Missouri. Yeah----
    Mr. James [continuing]. Up already, and I can tell you now 
that might not even take care of Missouri, let alone Arkansas. 
The rivers now, not the States.
    Mr. Graves of Missouri. Yeah.
    Mr. James. The Arkansas River and the Mississippi River. It 
is just hard to tell, but if I were a betting man, I would bet 
we will have to have more money to attack the damage that has 
been done.
    Mr. Graves of Missouri. Thanks, gentleman.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Graves.
    Mr. Garamendi, you are recognized.
    Mr. Garamendi. Thank you, Madam Chair.
    Secretary James and General Spellmon, I think everyone on 
this committee recognizes the extraordinary pressure that you 
are under. The flooding across the Nation from the west coast 
all the way to the east coast and everything in between. We 
appreciate your service. We appreciate the challenge that you 
face.
    I will draw your attention to the reality of change and 
that the way in which we have conducted flood operations in the 
past has been based on historic situations. We are no longer in 
such a situation. There is a project that has been ongoing in 
California now for several years called the forecast-informed 
reservoir operations program, drawing the attention of the 
committee to that, this is based upon real-time information 
that is now available from satellites and other technologies 
that are available, and we appreciate the implementation of 
that on the rivers in California, and I suspect it may be 
applicable across the Nation.
    Now, I have a whole series of questions that I am just 
going to submit for the record. No use taking the time of the 
committee or your time here today. Secretary James, projects in 
California in the Sacramento Valley do thank you for coming 
out--both of you for coming out and observing what we are doing 
in the Central Valley.
    Interesting article in the Sacramento Bee. If the same 
downpour that hit Washington were to hit the American River, 
water would be 30 feet deep in Sacramento, so we know we have 
problems across the Nation. Specifically, General Spellmon, 
section 204 and section 1043 provide flexibility for local 
agencies to conduct programs. Without going into the detail, 
could you please explain why the Corps is so reluctant to move 
aggressively using these authorities to devolve programs and 
construction to the local agencies?
    General Spellmon. Sir, I would say we do want to 
aggressively use them. We are after anything, any authority or 
capability that will allow us to, as the Secretary would say, 
move dirt or get to construction or complete projects quicker. 
So, sir, if there are examples in your district where we are 
not doing that, we would like to know and to take action.
    Mr. Garamendi. We will so inform you. There has been a 
reluctance to move forward aggressively using these programs, 
and if that were to happen, projects would be completed 
quicker, possibly sooner. I can give you one specific example 
on the Feather River, where the quarry did not allow the local 
agency to undertake the project, when it would have saved 
significant money. Probably an issue for the rest of the Nation 
as you deal with the flooding that is occurring in the Midwest.
    I will leave it at that. I do draw the attention of the 
committee to the reality of change and the necessity for the 
flood operations to reflect the new reality and to use 
information that is now available from multiple areas, 
satellites to other technologies.
    With that, I yield back.
    Mrs. Napolitano. Thank you, Mr. Garamendi.
    Mr. Graves, you are recognized.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    Secretary James, General Spellmon, I want to thank you very 
much for being here today and thank you for your testimony.
    I think you are familiar with the watershed. The 
Mississippi River watershed. Certainly, Secretary James, you 
spent a good bit of time working on that in your career. Right 
now, we are facing a scenario, as you heard other Members talk 
about how in Baton Rouge, in my hometown, we are seeing 1.3 
million cubic feet of water pass per second through that river 
system, one of the largest watersheds in the world.
    We now, as you know, have a tropical depression in the Gulf 
of Mexico that appears to be coming up in the next few days 
that, by some model projections, is going to cause the 
Mississippi River levees to overflow because of that higher 
storm surge coming in at the bottom of the levee system.
    We are draining water from Montana to New York to Canada, 
all through this huge watershed. What do you say to the folks 
in Louisiana? What do you say to them that we are draining 
water from all of these other States? As you know, the inputs 
into that river system were minimal from Louisiana and because 
of this huge amount of water that is coming from them, coming 
from all these other States, and now the storm surge is going 
to cause overtopping.
    It is not our water overtopping. It is everybody else's 
water overtopping. We have seen impacts to our fisheries, our 
commercial fisheries, and our recreational fisheries as a 
result of the Bonnet Carre spillway. And General, as you 
mentioned in your testimony, normally open once every 10 years 
since the 1930s when it was built. We have opened it four times 
in the past 4 years. As you mentioned, the first time in 
history twice this year. Twice in 1 year. What do you say to 
people down there when we are experiencing the flooding because 
of what is happening in the upper basin?
    Mr. James. Well, if it wasn't so serious and if I didn't 
think it would be taken the wrong way, I would say, ``You 
better move,'' but it is serious and there is so much industry 
and economic return to this Nation from Baton Rouge to New 
Orleans, and also over in the Atchafalaya, some of the other 
estuaries down there that we can't say, ``You better move.'' 
That would be very silly, so what we have got to do is start 
addressing the problems based on, like, Mr. Garamendi said, on 
what we know now, not what we knew in the 1930s, the 1940s, and 
in the 1950s.
    Mr. Graves of Louisiana. And Mr. Secretary, we are giving 
you all an opportunity to do that and the WRDA bill became law 
last year. We included a provision all over every controlled 
structure looking at how to do a better job managing the water 
on Atchafalaya, Red, the Mississippi River system, and better 
utilize old river control structure. As I understand, you are 
looking at a 3-year study. I just don't think we have 3 years.
    You heard the urgency from Ranking Member Graves and 
others, and Ranking Member Westerman about this issue. I don't 
think we have that kind of time, and I want to urge you to move 
quickly, and you are right. We can't move. We are 1 of the top 
energy producing States in the Nation, top commercial fisheries 
producing State in the Nation, 5 of the top 15 ports in the 
Nation. You can't replicate this capacity elsewhere.
    I want to pivot and go off what Congressman Garamendi and I 
know Congressman Rouda who is here has concerns about this as 
well. You mentioned it in your testimony. Section 1043. The 
Corps of Engineers has $100 billion backlog in authorized 
projects. One hundred billion dollars.
    One of the ways we can help to speed up the implementation 
of these projects and help to break down this backlog is to use 
section 1043 which provides for local sponsors, State and local 
sponsors to carry the project out. This became law in 2014. The 
guidance was just issued in June, nearly 4 years later, and so 
I think that I actually want to follow on Congressman 
Garamendi's comments.
    It does appear that maybe the urgency is not there, and 
then as you know, in 2018, WRDA bill, Congress extended it. The 
implementation guidance, we did extend it. There is one 
technical issue in the extension that I think has become a 
problem, but if there is a desire on the part of the 
administration to continue this and to utilize this as a tool 
to address this backlog and deepening rivers and improving 
flood protection, ecological restoration and other Corps 
functions, we need to figure out how to get to yes, not how to 
get to no.
    Can you talk a little bit about how we are going to move 
forward on 1043 and what some of your experience is with McCook 
Reservoir in Harris County using 1043 to implement?
    Mr. James. The experience so far is very good. We have not 
had any problems. Now, McCook was done a little differently 
because it was a new venture. The way we did that we won't be 
doing again I don't think, but as far as Harris County, they 
are tickled to death with it. It is letting them do what they 
needed to do, own those reservoirs down there. It is a good 
tool for the people that can afford it. There is no doubt 
that----
    Mr. Graves of Louisiana. Mr. Secretary, the 140-page 
guidance that you all issued in June basically says that you 
all just acknowledged it. It basically is going to be useless 
at this point because the program expired, yet we did extend it 
in WRDA 2018. I just want to ask you if you all could go back, 
work with your attorneys, figure out how to get to yes, not to 
no, because this is going to be an important tool for us moving 
forward.
    I yield back.
    Mrs. Napolitano. Thank you, Mr. Graves.
    Ms. Finkenauer.
    Ms. Finkenauer. Well, thank you, Assistant Secretary James 
and also Major General Spellmon. It is great to have you guys 
here with us today. So, I represent Iowa's First Congressional 
District right there on the Mississippi. So, I have actually 
quite a few questions and if in the interest of time if you can 
keep it brief, that would be great.
    First, when I met with Colonel Sattinger from Rock Island 
back in March, he told me the Cedar Rapids eastern floodwall 
project has been fully funded and construction will start this 
October. Obviously, great, great news for our community that 
was devastated by flooding back in 2008 and desperately needs 
that floodwall done.
    I was just wondering if we could get an update from you on 
the timeline for this project and if there are any remaining 
hurdles to getting that job done?
    General Spellmon. No, ma'am. No hurdles that I am familiar 
with. This year, we have already issued three architect 
engineer task orders to commence the design, and as you have 
mentioned, we will issue the first two construction contracts 
by the end of the fiscal year.
    Ms. Finkenauer. Great. Thank you so much, and next, I want 
to ask about the Navigation and Ecosystem Sustainability 
Program. Obviously, NESP. This program is obviously critical 
for farmers and other shippers in my State who use the 
Mississippi to move their products. Congress authorized this 
project over a decade ago, but it keeps getting pushed back, so 
we know there is a backlog of waterways projects, but this 
year, the President has requested a 31-percent cut to the 
Corps.
    To be clear, the Mississippi River is our competitive edge, 
especially at a time when our farmers are getting hit on all 
sides due to flooding, but then also because of the trade war, 
and this is a time where we need to be investing more in our 
waterways and our infrastructure, not less. Can you help me 
understand, Secretary James, why the backlog of these projects, 
including NESP, has been underfunded and why NESP hasn't moved 
forward more quickly?
    Mr. James. I have been familiar with NESP in my prior life 
as a member of the Mississippi River Commission. In that life, 
I really felt like we handled that wrong. Since I got here in 
this job, I have discovered that the Congress and the industry 
wants to do it as it is: navigation, ecosystem, restoration, 
sustainability; together.
    Ms. Finkenauer. OK.
    Mr. James. And all those years, I didn't think that was a 
good idea. I thought we should have them separated so they 
could be funded separately. Now, I got here, and I found out 
that is not what the people want, so I don't even talk about 
that anymore, but let me address the backlog just a minute, 
Madam Chairman.
    Mr. Graves said $100 billion backlog, and that is what we 
put out.
    Ms. Finkenauer. Mm-hm.
    Mr. James. I am going to be working on that because I don't 
believe that. I don't believe we have got a $100 billion 
backlog. We have got projects that have been authorized for 
years and years and years. I don't consider those backlog. I 
only consider projects that have been authorized and 
appropriated at least $1 that means the Congress is willing to 
put its money where its mouth is, and I call that backlog. It 
still----
    Ms. Finkenauer. And Secretary James, I am sorry. I am just, 
in the interest of time, to follow up on that, if it is not the 
backlog or if it is not the money, what do we need to do as a 
Congress to move NESP forward?
    Mr. James. So far, it has been the lack of will. That is 
why it hadn't moved forward, and it is very much needed.
    Ms. Finkenauer. As----
    Mr. James. Those locks and dams in the upper Mississippi 
River are falling apart.
    Ms. Finkenauer. They are, and I mean, it is authorized over 
a decade ago, and so, I know this is, you know, your oversight 
on this as well, and we have got to make sure that we are doing 
this, and we are happy to work with you any way we can to make 
sure that these projects move forward. They are desperately 
needed and thank you for your time as well.
    And lastly, I do want to follow up as well just about 
flooding in general. As you know, Iowa farmers endured months 
of not being able to move their goods down the Mississippi 
because of the prolonged flooding. This is only going to get 
worse. You know, these so-called 500-year floods are now 
happening every 5 years now.
    Major General Spellmon, is the Corps ready to manage the 
flooding in the Mississippi River, particularly given the need 
to balance the Corps' other functions like navigation and 
recreation? If we were to redesign how the Army Corps of 
Engineers manages the Mississippi River watershed, what do you 
think needs to change or actually work differently so you can 
more effectively control for flooding?
    General Spellmon. Yes, ma'am. So, after we get through this 
next flood fight, every year, we will conduct an after-action 
review after we get through this event to see what are the 
opportunities where we can further improve our operations up 
and down the basin.
    Ms. Finkenauer. Would it be helpful to have some research 
on that and--? OK. Great. Great. Thank you so much and thank 
you both for your time today. This is obviously very important, 
and I look forward to continuing these conversations.
    Thank you.
    Mrs. Napolitano. Thank you, Ms. Finkenauer.
    Mr. Weber, you are recognized.
    Mr. Weber. Thank you, ma'am. I appreciate the opportunity. 
I am from the Texas gulf coast. As Secretary James knows, 
Hurricane Ike in 2008 hit, Hurricane Harvey a couple of years 
ago, and my three coastal counties were ground zero for Harvey 
flooding.
    The implications are just absolutely astounding and 
Secretary James, I was glad to hear you say in your earlier 
comments that you feel like you have identified, at least, and 
feel like it needs some fixing, obviously, that the Corps has 
gotten away from working with local partners. You also said 
that improving performance was one of your highest priorities, 
and that is good news.
    The Texas gulf coast, and one of my good colleague's 
friends down there, Sally, a blogger from Galveston, keeps me 
reminded on how important this is because we actually--she has 
got a sheet for us and I want to make sure that you all are 
following the study that is being done about coastal barrier 
protections. Some call it the Ike dike. And this affects not 
just our district but all across the country, and there is a 
whole lot of reasons for that, but just a little history.
    The WRDA of 2007 actually authorized the Army Corps to 
develop a coastal Texas ecosystem protection and restoration 
plan to determine the feasibility of carrying out projects for 
flood damage reduction, hurricane and storm damage reduction, 
and ecosystem restoration in the coastal areas of Texas. And 
like my friend from Louisiana, Mr. Graves, said, things just 
aren't happening enough.
    A couple of facts that I think my colleagues would be 
interested in. In Texas, in our country, in terms of energy, 
the Texas gulf coast region produces 27 percent of the Nation's 
gasoline, 60 percent of the Nation's aviation fuel, so it has 
national security and national economic ramifications. We have 
35 percent of the Nation's natural gas production and 42 
percent of the Nation's specialty chemical feedstock.
    So this has national economic implications, national 
security implications, not to mention there are 6 million 
people, families, businesses, jobs along the gulf coast that 
need protecting. It is not a matter of if we get another 
hurricane, it is when. To the general's comment about--I think 
he said the depression out in the gulf you are seeing now, you 
know, it is just a matter of time and it is going to happen.
    There are some studies being done about the implications of 
the coastal barrier protection plan that is needed along the 
Texas gulf coast, and it starts at the Louisiana border and 
goes really all the way down the coast, but mainly in the area 
of the gulf coast it does all of the fuel production.
    Are you all mindful of that study, Secretary James? The 
Army Corps is coming out with some very current stuff called 
the Tentatively Selected Plan, TSP. And I know that Colonel 
Lars Zetterstrom did a fabulous job, but people are a little 
frustrated about the way information was rolled out and the 
amount of time it was taking, and quite frankly the plan that 
was selected.
    Is your office monitoring that situation and are you aware 
of the ways that they are developing that plan and what they 
are recommending?
    Mr. James. I am not, but I will be.
    Mr. Weber. OK. Well, we would love for you to reach out to 
them and get--I don't know what the right word is--boned up on 
it so that you know, because it is super, super important to 
our district. We have five ports on the Texas gulf coast. Some 
have four, but we have five.
    We are the 13th largest exporting district in the country 
out of 435 Members of Congress. So it is huge. The Port of 
Beaumont moves more military personnel and equipment than any 
other port in the Nation. So it is huge for national security 
and national economic calculations.
    For example, when Hurricane Ike hit in 2008, I was told by 
John Shimkus even up in Ohio, up in that area, that fuel spiked 
about 60 cents a gallon. So we want the Army Corps to be paying 
specific, close attention to that and make sure that that is 
getting rolled out in a timely fashion and to make sure that 
that is a priority, and we would appreciate any feedback you 
can give us on that.
    General Spellmon, are you aware of it?
    General Spellmon. Sir, I am. So I would just say to add to 
your comments, this is a very large and complicated project, 
and the fact that we have got some energetic comments from the 
public and industry back on that draft study is important to us 
because we take that all into account, and that is just going 
to make that project even better when it does get to----
    Mr. Weber. What was the number of those comments?
    General Spellmon. Sir, I don't know.
    Mr. Weber. Yes.
    General Spellmon. It was thousands.
    Mr. Weber. Yes, absolutely. I am thinking it was like 
8,000. But we really want to focus on the importance of that 
and the study that was authorized and the fact that it has huge 
implications not just for our area but for the Army, for our 
national defense, as well as our economy.
    And with that, Madam Chair, I yield back 1 second.
    Oh, and if I may, before I do, I want to say happy birthday 
to my colleague on the left, Brian Mast.
    Mr. Mast. Thank you.
    Mrs. Napolitano. Oh, happy birthday. Thank you, Mr. Weber.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you. Thank you, Madam Chair. I 
appreciate a chance to hear from our witnesses and just to 
reiterate our appreciation for the work that the Corps does. It 
is vital. It is essential. It is greatly needed. You do it with 
too few resources. We all make demands on you, which you strive 
to meet within those limited resources, and I recognize that it 
is sometimes a challenge.
    That said, I am going to make demands on you because that 
is our job. And the district that I represent in New Jersey 
contains portions of the Green Brook Sub Basin and the Rahway 
River Basin. We have significant flooding challenges, 
particularly the Rahway River; in recent years it has inundated 
communities in suburban New Jersey that had not experienced 
that kind of flooding in past years, and we know it will happen 
again.
    We have been working, as you know, with the Corps. Our 
local elected officials have been working with you for years 
now to try to come up with a plan to deal with this. We were 
working fairly well with the New York district for some years 
and responsibility for the Rahway River project was moved, as 
you may know, to the New England district.
    And whether it is fair or not, I have to say there has been 
some frustration with that move, both the geographic distance, 
greater geographic distance of the New England district, and 
also a sense among some of our local elected officials that 
proposals that they are sending up are being rejected, and not 
just rejected, but without the sort of feedback and input that 
would help us figure out a way forward.
    So I think my first question is just I am hoping to better 
understand why the management of the project was moved from New 
York to New England, and then perhaps we can take it from 
there.
    General Spellmon. Sir, a great question. And this study has 
been ongoing for some time. The team from New York district, 
they outlined 17 alternatives; they have 17 alternatives to get 
after this particular problem set in your district. And we were 
having a lot of trouble just getting to agreement with the non-
Federal sponsor on options that would work that came back that 
were economically feasible, meaning that they had a benefit-to-
cost ratio above 1.
    So this happens from time to time when we are just not 
seeing forward progress. We will move and to try to get another 
set of eyes, another set of leaders on the problem. I am taking 
notes on the frustrations that you have shared on New England 
district and I will jump on that, sir.
    Mr. Malinowski. Thank you. We are--I mean, you should 
expect another proposal from the local sponsors, from the 
mayors council that has been working on this. And again, I am 
not asking for any bending of the rules or special treatment 
for us. I think we agree that this is something that needs to 
be dealt with because the flooding will continue to happen.
    I am asking for some personal attention from you and 
obviously, if there is anything that my office can do to help 
speed this along, to help if there is any communication 
difficulty, we stand ready to help. It is a huge, huge priority 
for me and for the people that I represent.
    So thank you and let's stay in touch. If I can have your 
commitment to do that, I will be very, very grateful.
    General Spellmon. Yes, sir.
    Mr. Malinowski. Thank you. With that, I yield back.
    Mrs. Napolitano. Thank you, Mr. Malinowski.
    Mr. Bost, you are next.
    Mr. Bost. Thank you, Madam Chair. Mr. Secretary, thank you 
for--over here--thank you for being here, and also, General, 
thank you. You can pretty well guess what question I am going 
to ask. As you know, I have spoken about it several times, and 
that is the Len Small levee that is in my district.
    Let me tell you what is happening right now so we get it on 
the record. Dozens of landowners and homeowners can only reach 
their home by boat, and some of them can't reach their home at 
all because they can't get through the current at the level 
that it is moving through.
    Two State highways and a number of roads in the county are 
submerged and some have significant damage. The current at the 
breach site is so strong, we have had two occasions where it 
has actually sucked barges traveling upstream into the breach. 
Twice it has happened now, but also then the other day, just 
this past weekend, the current ripped apart a tow and sent 
several barges through the breach site.
    I have a news article describing what happened, and, Madam 
Chair, if I can, I would like to have unanimous consent to 
enter this into the record.
    Mrs. Napolitano. So ordered.
    [The information is on pages 120-122.]
    Mr. Bost. I have been saying for awhile that the levee 
breach is a hazard to navigation. The Len Small levee does not 
qualify because the flood prevention benefits of the levee did 
not produce a positive BCR. Now, we have worked with you and we 
have worked with this committee and we have put things together 
over the years. Now, I understand this has been going on not 
just for this flood case but it has been going on since after 
the holiday flood of 2015, and then from 2016, it is about four 
or five times I have actually spoken in this committee and on 
the floor showing maps of the danger of the navigational change 
that may occur there.
    Now, let me tell you, though, that the--you know this, that 
the Corps has spent millions of dollars in riprap under its 
navigation authority to attempt to stabilize the channel. Let 
me also explain this: the riprap is gone. It got washed away, 
because unless we make the investment and figure out a way to 
fix it.
    So the quick question that I have: now we can agree that 
the navigation threat is no longer just a threat, it is real. 
We have seen it happen. This is a problem and we have to fix 
it.
    Now, I am going to ask, Mr. Secretary, shouldn't the Corps 
consider other economic benefits like commercial navigation 
when conducting the BCR for non-Federal levee repair, 
particularly when the levee structure serves multiple purposes, 
as this one does?
    Mr. James. In my opinion, yes, sir.
    Mr. Bost. OK. I am looking forward to us working together 
to try to cure and fix this problem. The constituents and the 
people along the river are becoming--you know it better than 
anybody. That is where you are from, right--you can look across 
the river almost at it. And this is a situation where common 
horse sense has flown out the window.
    We are looking at--and this is for members of the committee 
and to have on record. If we don't cure this problem and that 
cut occurs all the way across, now all of a sudden because of 
the change in the river level, over the 17 miles around that 
bend, now all of a sudden it drops that same level in 3 miles 
and the navigation stops. That will change the way we transport 
our goods, whether it is for agriculture or anything else, when 
we have to all of a sudden stop north of Cairo, transfer off of 
the barge into trucks, take it south, and then move it that 
way. This is not a good way to do business.
    The American people can see it is an issue, but 
unfortunately, whether it is Congress or working with the 
Corps, we can't get this figured out. I am looking forward to 
making sure we get it figured out and we get it fixed. And I 
don't know what you would suggest or the general would suggest 
that we can do, because this isn't going away. We have got to 
get it fixed.
    Mr. James. Congressman Bost, I would appreciate it, when 
your schedule allows, that I could come see you----
    Mr. Bost. I look forward to that.
    Mr. James [continuing]. And we look into this a little 
further. I mean, it has been approached so far like a normal 
levee project, low BCR, blah, blah, blah. I am not sure we 
shouldn't look at some of this other information.
    Mr. Bost. It truly is a case where this is when people 
watch what we do here in Congress. They think, you know what, I 
am a simple businessperson and I can figure this out, or I am a 
simple farmer and I can figure out how to cure a problem when 
it develops, but yet we have had this problem since--and I am 
not blaming you. I thank you for the offer. But I want the 
people of this committee to know and understand, we have got to 
start thinking properly and quit looking like the Congress that 
can't get anything done on issues like this.
    We have got to work together and see when a problem is 
developing to this level so that we can actually focus and work 
on it. And the people in my district--the farmers there, you 
know, this isn't about their land anymore. Their land is gone. 
It is under so much sand it doesn't matter. You are not going 
to--you know, unless somebody wants to open up a sandpit down 
there when we get the levee back in place, there is just not a 
lot we can do there. But----
    Ms. Mucarsel-Powell [presiding]. Thank you, your time is 
up.
    Mr. Bost. With that, I yield back. Thank you, Madam Chair.
    Ms. Mucarsel-Powell. Thank you. I now recognize Congressman 
Lowenthal for 5 minutes.
    Mr. Lowenthal. Thank you, and my first question is to Mr. 
James. First, thank you for coming to our committee and 
describing to us the important work of the Army Corps across 
the Nation. But I want to take this opportunity to mention two 
projects in my district, which I think are moving along. I just 
want to mention that, maybe also ask General Spellmon also 
about that.
    One is an ongoing study for navigation improvements at the 
Port of Long Beach. I represent the Port of Long Beach. And 
first I would like to say to Mr. James, it would be wonderful 
to our port complex, the port complex of Los Angeles and Long 
Beach, which is the largest container port complex in the 
Western Hemisphere--40 percent of the goods of the Nation come 
in and out of L.A.-Long Beach--if you would come and visit our 
port complex.
    The Army Corps and the L.A. district in particular have 
been tremendous partners to our port complex, and especially 
now I am talking about the Port of Long Beach, ensuring that 
the port remains a key component or a key or a vital component 
in the global supply chain.
    What we are talking about are improvements that will enable 
the safe navigation of these megaships which now have been 
developed. And so, but we need really help in making sure the 
navigation, that they can come in and out of our harbor. And 
now, because of the size of the ships, they have to wait until 
there are tide windows to safely operate. And so I just want to 
alert you to that; that is moving through the process.
    In addition I am also very proud to represent Orange 
County, or parts of Orange County, which have experienced 
substantial population growth in recent decades, and flood 
control improvements along the Westminster watershed can help 
to prevent billions of dollars of damage during significant 
flood events and they are going to save my constituents 
millions of dollars of flood insurance premiums. And so I am 
hoping that we can have the Chief's Report signed for that 
project so we can authorize the needed improvements in the WRDA 
bill next year.
    But my question is a little different that I want to ask 
you. In the past two WRDA bills, Congress has included 
provisions to encourage the use of natural infrastructure for 
Army Corps projects, but these project alternatives often face 
challenges because some of their benefits are difficult to 
quantify. So the first question is can you tell me how the Army 
Corps currently calculates the cost effectiveness of nature-
based infrastructure, and has the Corps been working to develop 
better evaluation methods for natural infrastructure?
    Mr. James. Congressman, if it is OK, I will let General 
Spellmon take that.
    Mr. Lowenthal. That is fine.
    Mr. James. Because I am not cognizant of it.
    Mr. Lowenthal. OK. General Spellmon, we are talking about 
now----
    General Spellmon. Sir, I had a great visit.
    Mr. Lowenthal [continuing]. Looking towards natural kinds 
of infrastructure.
    General Spellmon. Yes, sir. I had a great visit out to your 
district in early January. In my previous assignment out in the 
Northwest, I had the opportunity to implement some natural-
based infrastructure in some of our flood-control projects, and 
I do look forward to the opportunity in doing that in other 
parts of the Nation as well.
    Sir, I would have to have our economists come in, and I 
would be happy to do that, to come see you and walk you through 
the math on how we calculate the cost effectiveness. With 1 
minute and 8 seconds remaining, I would be challenged to do 
that in a nutshell here this morning. But happy to come sit 
down with you.
    Mr. Lowenthal. But what I am saying, though, is that it is 
sometimes difficult, not because of the Army Corps, to measure 
some of these natural infrastructure cost-benefits, and I am 
just hoping that the Corps is working on better ways or more 
effective ways of measuring the impacts of natural 
infrastructure.
    General Spellmon. Yes, sir.
    Mr. Lowenthal. And with that, I yield back.
    Ms. Mucarsel-Powell. Thank you. I now recognize Congressman 
Mast from the great State of Florida for 5 minutes.
    Mr. Mast. Thank you, Chairwoman.
    General Spellmon, 9 of the last 11 years, in the name of 
flood control, water has been discharged out of Lake Okeechobee 
to Florida's east and west coasts. This isn't new news to 
anybody.
    My question is simple, pointed, but important. Has the Army 
Corps of Engineers transferred toxic water--toxic water--from 
Lake Okeechobee to the east through the C-44 Reservoir into the 
St. Lucie Estuary and the Indian River Lagoon, and to the west 
through the Caloosahatchee River?
    General Spellmon. Yes, sir. We have conveyed water out of 
the system that has contained cyanobacteria and harmful algae 
blooms. Yes, sir.
    Mr. Mast. And the Corps considers that toxic?
    General Spellmon. Yes, sir.
    Mr. Mast. Thank you. I appreciate that acknowledgment. It 
is important so that we can move forward as we try to 
accurately weigh the risks and assess what is going on as we 
try to manage both flood control for those to the south of the 
Herbert Hoover dike, and human health and human safety impacts 
to those to the east and west of Florida's Lake Okeechobee, as 
we are going summer after summer trying to work through these 
long-term infrastructure projects that you have been working on 
and your predecessors have been working on. So I appreciate 
that acknowledgment.
    I do want to submit for the record the considerations by 
both the Centers for Disease Control, the Florida Department of 
Environmental Protection and the EPA, if you will take this by 
unanimous----
    Ms. Mucarsel-Powell. No objection.
    Mr. Mast. Thank you.
    [The information is on pages 122-128.]
    Mr. Mast. The CDC also notes that microcystins are a potent 
liver toxin produced by some species of cyanobacteria. The 
Florida Department of Environmental Protection says the mere 
presence of cyanobacteria blooms warrants the State to issue a 
warning. The EPA has reported cyanobacteria and their toxins 
are considered a serious threat to human health, and on May 22, 
the EPA declared that cyanotoxins above eight parts per billion 
posed too great of a risk for human contact, and so I 
appreciate you taking that for the record.
    I would like to move to simply a thank you, General 
Spellmon. I have in front of me a letter from you to the State 
of Florida in which you outline, ``In order to reduce future 
risk to the public, the Jacksonville district will lower Lake 
Okeechobee levels as much as possible within the operational 
band of the Lake Okeechobee regulations schedule prior to the 
start of the hurricane season 2019.''
    And I am giving you the most sincere--I hope you take this 
as the most sincere thank you that can be given from each of my 
constituents and from myself. You are making a real difference 
in our community with this operational and managerial change. 
For businesses, for people's health, for people's recreation, 
you are making a difference. It is not going unnoticed and we 
want to thank you for that.
    And in that, I yield back.
    Ms. Mucarsel-Powell. Thank you. I now recognize Congressman 
Rouda for 5 minutes.
    Mr. Rouda. Thank you, Madam Chair, and thank you, General 
Spellmon and Secretary James, for joining us here today. Harley 
Rouda from Orange County, California. My district is the 48th 
Congressional District of California. It represents about 80 
percent of the coastline of Orange County, and there are a 
couple of key projects there. One of the key ones is the Santa 
Ana River project, and the Santa Ana River project was once 
characterized by the Army Corps of Engineers as, quote, ``the 
worst flood threat west of the Mississippi.''
    This river is located entirely in southern California, the 
largest river in the area, and it meets the Pacific Ocean 
between Huntington Beach and Newport Beach.
    With sea levels projected to continue rising and the 
increasing intensity of storms and natural disasters, the 
planned lower river channel modification for flood control 
along the 30 miles of the Santa Ana River from Prado Dam to the 
Pacific Ocean is of critical importance to our constituents.
    We have, as I mentioned, two major projects that we are 
interested in, the Santa Ana River mainstream project and the 
Westminster and East Garden Grove project, which rely on 
section 1043 authorization. It is estimated that these projects 
would prevent $40 billion in damages, protect over 100,000 
acres from flooding, and benefit over 3.5 million people within 
Orange, Riverside and San Bernardino Counties during a design 
storm event.
    General Spellmon and Mr. Secretary, would you both agree 
that the Santa Ana mainstream project and the Westminster and 
East Garden Grove projects are critical to maintaining flood 
safety in Orange County?
    Mr. James. Taking from what you say, sir, yes. I haven't 
actually visited that area yet. It is on the list, just haven't 
been there yet. But I think General Spellmon may have been 
there.
    General Spellmon. Yes, sir. Sir, I visited both of these 
projects from top to bottom and I agree, they are very 
important floor risk management projects.
    Mr. Rouda. And can you help? Can we kind of go back to a 
little bit of your testimony a little bit earlier, Secretary? 
It was about--and, General, please jump in as well. I am just 
trying to get a better handle of the authorizations--the 
projects have been authorized--and how well funded, what the 
gap is between funding and the projects. Because I believe I 
read somewhere that based on the President's budget, we are 
looking at a 100-year timeframe to address the currently 
authorized projects. Of course that doesn't include any new 
projects coming on board over that 100 years. So can you give 
us a little bit more information as to what the delta, what the 
plug is between what has been authorized and what is actually 
needed to meet our infrastructure needs in these areas?
    General Spellmon. Yes, sir. So the 100-year timeline that 
you have read about, it looks at the--roughly the $98 billion 
backlog of projects where we have a Chief's Report on the table 
but the project has not received funding yet. So that is how we 
have defined the backlog.
    With the generous appropriations from Congress of recent 
years, $6.9, $6.8, almost $7 billion, about $1 billion of that 
is dedicated to actual construction. So that is the math. One 
billion dollars a year in construction against a $100 billion 
backlog.
    Mr. Rouda. OK, thank you. And help me understand, too, when 
you do the analytics on any of these projects, are you taking 
into account the impact of climate change and the need for 
addressing it both in terms of today as well as terms and 
forecast for future years?
    General Spellmon. Yes, sir, we do. So the recommendations 
that we take first to General Semonite and then to Secretary 
James look at a variety of criteria. As I mentioned earlier, 
life and public safety always--those projects generally rise to 
the top of our recommendation. Then we have across the country 
a number of legal mandates and requirements by court order that 
we have to fulfill. We have to pursue those projects. Some 
projects have a national security component to them. Generally 
you see a very high priority. And then we get into things like 
BCRs, economic and environmental returns.
    And then finally, sir, I would just say what is always high 
on our list, we want to finish what we start. If Congress has 
appropriated dollars to begin a project, we want to see it 
through to completion.
    Mr. Rouda. And one last question. Does that mean you 
believe climate change is real and impacting our infrastructure 
needs? And that question is to both of you.
    Mr. James. I am a civil engineer, I am not a scientist and 
I am not a weather forecaster. But I will tell you that we are 
making every effort, as far as I am concerned and as far as I 
know, to build sustainable infrastructure. Now, that means 
looking at--today, Mr. Graves over there, Garret Graves, 
mentioned that himself that we can't look back to the 1930s, 
and we are not doing that. And the technology is so much better 
today. We are working with NOAA to try to get rain forecasts 
accurate up to 24 hours, within 24 hours. We are not there yet, 
but we are working on that, things like that.
    Now, that is my perspective on your question.
    General Spellmon. Yes, sir, briefly. So with regard to 
climate, I always encourage people to read the National Climate 
Assessment. You don't have to read the whole thing, but there 
are portions in there that talk about some of the significant 
changes in precipitation patterns that we are seeing, 
particularly in the Midwest, the quantity of events and the 
volume of rainfall that is falling.
    Mr. Rouda. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Rouda.
    Mr. LaMalfa, you are next.
    Mr. LaMalfa. Thank you, Madam Chair. I appreciate the panel 
being here today. I just wanted to point out a couple issues in 
my area as well as my colleague in the adjacent district here 
on Yuba River, Feather River. My understanding is General 
Semonite has finalized the Chief's Report on the Lower Yuba 
River ecosystem restoration project there, so we are looking 
forward to that, working with the Yuba County Water Agency. 
They do a lot of great work, and so looking forward to the 
completion of this study on getting that ecosystem restoration 
going, which will be helpful for a lot of good reasons.
    So, moving on to the Sutter Basin Feather River west levee 
project, again, these issues start to--they run through both 
districts, myself and Mr. Garamendi, as these projects go along 
and we want to see the completion of that on the south half.
    And so we are glad that, Secretary James, you have been a 
great supporter of this project--appreciate that a lot--and as 
well as working with the Sutter Butte Flood Control Agency, 
which has really been emblematic of what a local agency, when 
allowed to take over a project that the Corps has overseen--we 
have gotten some great results and, indeed, moved up the 
timeline on the completion of that in Butte and Sutter 
Counties. What could have been 2024, it has saved $300 million 
and could have been done as soon as 2017 to 2019, and we should 
see that project completed in 2020. So that will be great for 
the flood control and the public safety of that area.
    So we will still be ahead of time and much, much under 
budget. So I hope this can be an example we can work on and use 
in many more projects around the country.
    What lessons, Secretary James, do you think we have learned 
from Sutter Butte and the section 1043 agreements the Army 
Corps has made on this? And then what do you think as far as 
cost savings and timelines going forward on--like we have done 
on this on future projects? What do you see as--how big of a 
thing is this for your administration on that?
    Mr. James. Well, my thinking on it is that we can save time 
and we can save money if the project sponsor can afford it. 
That is not every area in this country that can, but the ones 
that can and have the expertise. There are areas in this 
country that need flood control, for example, that there is not 
a bulldozer or a track hoe operator and equipment in their 
area, even if they had money.
    So that is what I say. The availability of these 
authorizations, like 1043, are going to be very helpful in a 
lot of areas of this country, but they won't fit everybody.
    Mr. LaMalfa. In a hearing we had here about a year, maybe 
1\1/2\ years ago, it was something that some of you, you and 
your colleagues, had brought up as a model to have a lot more 
of that under this administration. And so are you seeing that 
that actually is playing out as a model for other areas? Is 
that being put in place in any widespread----
    Mr. James. You mean Sutter or do we have----
    Mr. LaMalfa. Well, Sutter, we are almost there, right?
    Mr. James. Yes.
    Mr. LaMalfa. But in other examples around the country was 
what the administration was----
    Mr. James. We have only had two, the McCook Reservoir in 
Chicago and Harris County in Texas. Both sponsors of those 
projects have engaged 1043 and seem to be very happy with what 
is happening with them.
    Mr. LaMalfa. Good.
    Mr. James. I have heard no complaints about it.
    Mr. LaMalfa. Do you believe, either one of you, that the 
Corps would have any issue with exempting certain States from 
NEPA when they have their own already high environmental 
standards, such as in California, CEQA, which a lot of times, 
you know, outdoes what NEPA requirements are?
    Mr. James. Congressman, you just threw me a curve ball. I 
hadn't thought about that.
    Mr. LaMalfa. OK.
    Mr. James. But I would be happy to talk to you about that.
    Mr. LaMalfa. Yes. We have seen other examples in different 
agencies, different issues, where they would be willing to let, 
you know, another transportation project since CEQA is at least 
equal or even more restrictive, more----
    Mr. James. Well, most of what----
    Mr. LaMalfa [continuing]. Than NEPA. So----
    Mr. James. Most of what the Corps does, as I understand it, 
is regulated and driven by the law that the Congress passes. 
And even if the Corps sat here and told you they would be happy 
to give up NEPA in X State and----
    Mr. LaMalfa. And provide for more one-stop shopping, you 
know, where you have two different entities, right.
    Mr. James. Yes, but that may not be their decision to make.
    Mr. LaMalfa. Yes.
    Mr. James. The Congress may have already made that decision 
for them is what I am saying.
    Mr. LaMalfa. But the Corps would be willing to go along 
with that conversation, you believe, you know? I guess we can 
send you more laws, but----
    Mr. James. I would be. I would be.
    Mr. LaMalfa. Yes?
    Mr. James. Yes, I would be.
    Mr. LaMalfa. OK. Because it is all about improving the 
delivery of projects in cost and time, and no need for 
duplicate effort. Yes. OK.
    Mr. James. It is worth exploring. Yes, sir.
    Mr. LaMalfa. Yes, sir. All right. I know my time is already 
up. Thank you, Madam Speaker. I yield back.
    Mrs. Napolitano. Thank you, Mr. LaMalfa.
    Mr. Stanton. Chairwoman?
    Mrs. Napolitano. Mr. Stanton, you are next.
    Mr. Stanton. Thank you very much, Madam Chair, for holding 
this hearing. Thank you to the outstanding witnesses. I am a 
former mayor of Phoenix and I have seen the great work that the 
Corps of Engineers has done in my city over many years. I 
recently introduced legislation to create an environmental 
assistance program modeled after other Western States in 
partnership with the Corps of Engineers.
    Can either of the witnesses--can you describe the benefits 
of a Corps environmental infrastructure assistance program, 
especially the benefits of improving existing water and 
wastewater infrastructure projects, before performance and 
reliability are compromised? Please, Major General.
    General Spellmon. Yes, sir. I mean, I think this year we 
are seeing that firsthand with the damages to the levees I 
mentioned just south of Omaha in between Kansas City. Just to 
do the initial repairs, not to restore the levee, but just to 
do the initial repairs, these are $7, $8, $9 million projects 
just to stop the water from flowing into the farmland.
    Mr. Stanton. There are several projects the Corps is 
involved in along the Salt and Gila River corridors through 
Phoenix. Two of our late great representatives of Arizona, 
Senator McCain and Congressman Pastor, were both champions of 
restoration and development of the Salt River through Phoenix 
and the entire Valley of the Sun. We now call that project, 
that legacy project, Rio Reimagined. It pulls together multiple 
local governments, Tribal authorities, Arizona State 
University, the Corps and others to revitalize over 50 miles of 
important river corridor through the Phoenix region.
    Currently, the Corps has only one Civil Works project 
manager assigned to the Phoenix office of the L.A. district, 
which represents all of Arizona. In my opinion, that is clearly 
not enough. How does the Corps plan to address staffing needs 
so that all Corps projects in the State can move forward in a 
timely and appropriate manner with appropriate staffing levels?
    General Spellmon. Yes, sir. We will go back and look at 
this particular project office. As a general statement, we put 
people where the work is. On this particular set of projects, 
my understanding is that the current suite of projects were 
upland restoration, not necessarily down on the river where we 
can apply our aquatic ecosystem restoration authorities. I also 
understand that we would have to do an additional study of what 
other AER-type projects would be out there. But, sir, the 
workforce would follow the workload.
    Mr. Stanton. Tres Rios is in a Corps project associated 
with Rio Reimagined. It is a project that is partially complete 
but we need the Corps to complete a limited reevaluation 
report, LRR, to raise the section 902 limit and request 
additional appropriations to fund it. What is the status of 
this report and when does the Corps expect it to be completed?
    General Spellmon. Yes, sir. So we require a New Start 
decision, a New Start authority, from Congress before we can 
initiate that general reevaluation report.
    Mr. Stanton. Another important project in Arizona is the 
completion of the Lower Santa Cruz flood control project in 
Pinal County, the fastest growing county in the United States. 
Traditional farming communities like Maricopa, which was 
incorporated in 2003 with a population of approximately 1,000 
residents, is now over 50,000 residents. This growing city sits 
in the middle of a flood plain. Currently, the draft Chief's 
Report is slated to be completed in July 2020 and finalized in 
2021. In order to keep this project on an optimal schedule, our 
aim is to get this project authorized in the 2020 WRDA. Can the 
Corps accelerate the Chief's Report to coincide with the WRDA 
2020 in order to keep the project on schedule?
    General Spellmon. Sir, we want to expedite this study and 
all the remaining studies to make them eligible for WRDA 2020. 
This particular project, we have some additional consultation 
we need to do with some Tribal members in the area, and then we 
will work to expedite the completion of this study.
    Mr. Stanton. I appreciate that. It is not my district but 
it is important to the State of Arizona, and so it is important 
to my district as well.
    Let me turn to the Rio de Flag flood control project in 
Flagstaff. Also not my district but important to the State of 
Arizona. Lieutenant General Semonite visited Flagstaff and 
toured the project in October. After his visit, he stated that 
its completion would be one of his top priorities before the 
end of his term as Chief. It is my understanding that the Los 
Angeles district has requested the remaining $52 million needed 
to complete this project.
    A catastrophic flood will affect more than half of 
Flagstaff's 75,000 residents, including major parts of its 
downtown and Northern Arizona University, and could cause $1 
billion or more in damages. Completion of this project is a top 
priority for the city. Will you support the district's funding 
request to complete this important project in the fiscal year 
2020 workplan?
    General Spellmon. Yes, sir. So this will go forward with 
our recommendation. We will finish PED. We have the dollars to 
finish PED this year, and as you had the commitment from 
General Semonite, we want to finish projects that we start.
    Mr. Stanton. I really appreciate that. I am just about out 
of time, so I will yield back but I have another question about 
Rio Salado Oeste, another very important project to Phoenix. I 
will submit it in writing for the record. Thank you.
    Mrs. Napolitano. Thank you, sir.
    Mr. Palmer, you are next.
    Mr. Palmer. Thank you, Madam Chairman. Secretary James, at 
a hearing in the Oversight Committee last year, I requested a 
list of outstanding feasibility studies by the Corps, and after 
waiting nearly 9 months I received a list of 97 studies. And 
the thing that concerns me about this is that 36 of those 
studies are over 5 years long and still ongoing, as far as I 
can tell; 22 are over 10 years long; 15 are over 16 years long; 
and 4 of them are 20 years older. And there are others that for 
some reason--Morganza down in Louisiana has been being studied 
since 1992 and apparently spent about $75 million on it.
    There are a couple of other studies, questions that I 
raised in that hearing last year--West Shore, which has been 
studied over 40 years, it is not on the list because it is now 
under construction; and the Comite River, there was--since 1983 
they have been studying and building a diversion canal from the 
Comite River over to the Lilly Bayou for flood mitigation in 
the event of a 100-year, 500-year flood, and it is now under 
construction, but only after they had a catastrophic flood 
event.
    Under WRRDA 2014, in an attempt to reduce the time and cost 
of these studies, there were limits put on the Corps of 3 years 
and $3 million. These 5-year and older studies, 36 of them, run 
over $140 million. Are you aware of that?
    Mr. James. I wasn't aware of the number or the amount of 
money. I am aware of the fact that the Corps--that they are 
introducing studies as 3 x 3 x 3, are coming to me for waivers 
more often than I feel we should be doing that. If it is a 3 x 
3 x 3, good. If it is not, don't call it that upfront.
    Mr. Palmer. Well, the law requires that it is 3 years and 
$3 million.
    Mr. James. Sorry?
    Mr. Palmer. The WRRDA that was passed in 2014 requires 3 
years, $3 million. Now, you, in response to a question--and by 
the way, Madam Chairman, 17 of these long-term studies are in 
California and 23 of them are in New York and New Jersey, 8 of 
which are related to Sandy.
    But you responded earlier to a gentleman who asked you a 
question and you said that you are a civil engineer. I worked 
for two international engineering companies prior to running a 
think-tank, and you and I both know that if we run an 
engineering company and we went out for a bid on a project and 
had these kind of results in terms of coming up with a design 
for a plant or a water system for that matter, we would be out 
of business.
    Would you like to respond to that as an engineer?
    Mr. James. I didn't say I like it.
    Mr. Palmer. But I want to know what you are going to do 
about it.
    Mr. James. That is what I work at every day, sir. That is 
what takes up my time. That is what keeps me up at night. I 
came here with the understanding and desire to help the Corps 
change themselves through their processes. If they get the 
money, they get it done. And I am still working on that. As 
long as I stay here, I will continue to work on that.
    Mr. Palmer. Do not take this as an attack against you, sir. 
I appreciate what you are trying to do and I appreciate the 
fact that you are an engineer, because I know you are very 
linear in your thinking and very analytical. But we are facing 
some serious situations around the country right now. We heard 
Representative Bost talk about this. We have heard the 
chairwoman talk about it. And I think some of the issues that 
we are dealing with, it is because the Corps is still studying 
the problem and not doing the project, and that is what 
happened in Louisiana.
    It is going to happen in some other places if the Corps 
keeps studying and doesn't start building. And I am not 
attacking the Corps either. I am just saying there are issues 
out there that we need to address, and instead of someone 
making a career out of a project study, it might be better if 
we start turning some dirt.
    Mr. James. Well, I can read you my opening statement and 
just exactly what you said is in it, and that is how I feel 
about this. I came here--I didn't come here for any other 
reason.
    Mr. Palmer. Well, I appreciate that.
    Mr. James. But this is what I am trying to do, sir. And I 
will offer this: any ideas or even invite me over to your 
office just to discuss this, I will be happy to.
    Mr. Palmer. Well, I would be happy to go over the list of 
projects with you and I think the Members from California and 
some of these other places that are in harm's way might have 
some interesting----
    Mr. James. I would be more interested in your thoughts 
about the solution rather than seeing the list that hasn't been 
done right. I would be happy to discuss that.
    Mr. Palmer. I would be happy to meet with you about it.
    Madam Chairman, I yield back.
    Mrs. Napolitano. Thank you, Mr. Palmer.
    Mr. Espaillat, you are recognized.
    Mr. Espaillat. Thank you, Madam Chair. I thank the 
witnesses for their testimony. This is an important opportunity 
to talk about the need to invest in water infrastructure, 
particularly habitat restoration and disaster resiliency. I 
represent half of Manhattan, surrounded by water, the Hudson 
River and the Harlem River, and I want to take a few moments to 
draw your attention to some sites that are incredibly important 
not only to my district but I would say New York City as a 
whole as well as the greater metropolitan area.
    Over the past decades, various work has been done under 
numerous programs to help clean up the Hudson River, restore 
habitat and improve public access to it. The Hudson River now 
has become a playground for sports, recreation, families and 
tourists as well.
    In an urban area as dense as New York City, it is 
critically important that residents have opportunities to 
interact with their natural surroundings. Over the past 
decades, the Army Corps of Engineers has been conducting 
various studies within the harbor and the broader Hudson-
Raritan Estuary. Many of these include ecosystem restoration 
and fish life buildup as well as resiliency.
    The Corps is finishing up its recommendations, which would 
include nearly two dozen projects throughout the region, and I 
understand the Corps plans to include these projects in the 
next Chief's Report. It is my hope that we are able to get this 
project authorized in the next Water Resources Development Act.
    Furthermore, I want to highlight the importance of the 
ongoing New York City-New Jersey Harbor and coastal storm risk 
management facilities study. Aside from protecting the overall 
area and harbor from storm surge, the study also looks at 
smaller projects to protect individual communities that will be 
impacted by storm surge.
    During Superstorm Sandy, East Harlem was the most 
significantly impacted portion of my district, experiencing 
severe flooding. The bulkhead that protects this neighborhood 
from further flooding is severely damaged and needs to be 
immediately repaired. Furthermore, current city comptroller and 
former Manhattan Borough president Scott Stringer put together 
an ambitious proposal to extend the life of the Harlem River 
shoreline through a number of structural changes and ecosystem 
development which will enhance resiliency.
    I want to also raise two other marsh restoration projects 
in my district, one of which also includes the initial Hudson-
Raritan Estuary studies. The first is the Inwood Marsh, which 
is just two blocks away from where I live, located in the 
northern tip of Manhattan; and the other one is Swindler Cove, 
just off the Harlem River in northern Manhattan. I believe it 
is within the Corps' ability to do this under your continuing 
authorities, and we want you to recommend them for immediate 
action.
    I would like to ask if you can look into these projects 
under your continuing authorities programs, as I believe they 
will make for restoration of considerable green spaces and 
waterfront access in a part of my district that could use all 
the green space it can get.
    I want to ask, Mr. James or Mr. Spellmon, can you look into 
these items as part of your coastal storm risk management 
studies, the first ones that I mentioned, regarding East Harlem 
and both the New York and New Jersey initiative? Is there 
anything that you are doing now that you could look at 
regarding making our waterfront in Manhattan stronger and more 
resilient in preparation for the next storm?
    And the second question, of course, is can you work on 
these two smaller projects in the northern tip of Manhattan?
    Mr. James. No, sir, the answer to both of those are yes. I 
don't know what kind of engagement there has been with the 
district on any of those three projects, but regardless if 
there has been engagement or not, I think General Spellmon can 
take care of making engagement. He may know if there has been.
    Mr. Espaillat. Well, I look forward to working with you, 
General Spellmon, and these are very important projects for the 
northern tip of Manhattan, East Harlem, New York City and the 
tristate area.
    Thank you so much. I yield back, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Espaillat.
    I now recognize Mr. Westerman to introduce the next Members 
for questions.
    Mr. Westerman [presiding]. Thank you, Madam Chair. At this 
time I would like to recognize the gentleman from North 
Carolina, Mr. Rouzer, for 5 minutes.
    Mr. Rouzer. Thank you. I appreciate the opportunity, Madam 
Chairman, for this hearing, and I want to thank our two 
witnesses for being here. Before I forget, I would like to ask 
unanimous consent to insert in the record a validation study 
for Wrightsville Beach, North Carolina, dated June 2019, and a 
beach renourishment evaluation report for Carolina Beach, North 
Carolina, dated June 2019. If no objection, I would like to 
insert these for the record.
    Mr. Westerman. Without objection.
    Mr. Rouzer. Thank you, Madam Chairman.
    Mrs. Napolitano. Mr. Chair, without objection.
    Mr. Rouzer. Mr. Secretary--I am sorry?
    Thank you, Madam Chairman.
    [The information is on pages 128-129.]
    Mr. Rouzer. Mr. Secretary and General Spellmon, 
Wrightsville Beach, Carolina Beach, real briefly, both have 
really, really good cost-benefit ratios. We need to have the 
Carolina Beach project included in the Chief's Report for WRDA 
2020. From our standpoint, it looks like that is on time and 
looking good. From your standpoint, I am curious what you 
think.
    General Spellmon. Sir, as you know, both those draft 
reports are out for public review. We will collect up those 
comments by the end of this month and then we will wrap up 
those reports and have them submitted to the administration.
    Mr. Rouzer. And then, of course, Wrightsville Beach needs 
to be included in the Director's Report for WRDA 2020, just to 
keep everything on par, on time. I think you were including 
that particular project in your previous answer, but just want 
to confirm.
    General Spellmon. Yes, sir. Yes, sir, I was.
    Mr. Rouzer. North Topsail, Surf City--Secretary James, you 
and I spoke about this some time ago. We had a great 
conversation, and I know you all were looking at including it 
in the workplan last time around. It didn't make it for 
whatever reason, but I want to stress this is a critical New 
Start included, authorized by Congress, and quite frankly had 
that been in place prior to Hurricane Florence, we wouldn't 
have had near the amount of damage there at North Topsail Beach 
that we had as a result of Florence coming through. So I just 
want to highlight that. Any comment either one of you might 
have on that particular project?
    General Spellmon. Yes, sir. So this is certainly also 
eligible for the FY19 supplemental funds. We owe the Secretary 
our recommendations on both projects and investigations by the 
end of this--by the end of this month, and we are going through 
that process now.
    Mr. Rouzer. I thank you. And then the last item I want to 
touch on--and I will be very candid with you, I am quite 
frustrated. In fact, frustrated may not be the word. I have 
been right mad. In fact, it has almost led a Southern Baptist 
to cuss. And that is the Southport no-wake zone, which was 
authorized in 2016. It has taken 3 years, still no answer, and 
my inclination, my instinct is the Corps doesn't want to do it.
    This is not a divisive issue back home. It is unanimous--
the sheriff's department, the county commissioners, the town of 
Southport, everybody. In fact, last week when I was back home 
for July the 4th, you know, folks want to talk politics, and 
the number one item that was brought up to me was what in the 
world is going on with our proposed wake zone here at 
Southport?
    How do I answer that? Where are we?
    Mr. James. Tell them the letter is on my desk, to you.
    Mr. Rouzer. Well, is that a good letter or a bad letter?
    Mr. James. I think you will quit cussing.
    [Laughter.]
    Mr. Rouzer. Well, I can tell you what, if it is a bad 
letter you are going to hear about it. This has been a very, 
very frustrating thing, and I have said this to you privately 
and I will say it publicly. Where is the common sense and where 
is the common courtesy? This should not be complicated. It 
should not be complicated. I don't usually get riled up about 
stuff. I am a pretty even-tempered fellow. But like I said, 
this one has pushed me to the limits because it is just 
nonsensible. It needs to get done. We want this. As my 
colleague, Mr. Graves, said earlier in the hearing, we need you 
to work to get to a yes, not work to get to a no.
    Mr. James. Unfortunately, it was not on my desk for 3 
years, sir. It has been on my desk a very short period of time 
and it will be coming to you with a yes right away.
    Mr. Rouzer. Thank you, sir. That is all I need to know.
    I yield back.
    Mr. Westerman. The gentleman yields back and the Chair now 
recognizes Mrs. Fletcher for 5 minutes.
    Mrs. Fletcher. Thank you. I would like to thank Ranking 
Member Westerman and Chairwoman Napolitano for holding this 
important hearing, and I want to thank the witnesses for taking 
the time to testify this morning.
    The Army Corps of Engineers has one of the most critically 
important jobs in the country. Nowhere is that more true than 
in my district, in Texas' Seventh Congressional District, where 
the Army Corps' investment in the Addicks and Barker Reservoirs 
back in the 1940s has been one of the most critical pieces to 
the development of the city of Houston and to our protection 
when it comes to flooding and protecting our infrastructure.
    So we certainly appreciate the work that the Galveston 
district has done in particular, and we know that while the 
Corps often suffers from inadequate budgets when compared to 
the number of authorized projects, it also seems to us that the 
process can be slow-moving even when fully supported by 
Congress. And so I want to talk a little bit about that and the 
concerns that my constituents have for some of the projects.
    Secretary James, I understand you have placed a focus on 
pushing the Corps to operate more efficiently and, as I have 
heard you say, to move dirt faster. That is certainly something 
that we are interested in seeing. And I know that the Houston 
Ship Channel is expecting a Chief's Report soon.
    Given the tremendous economic boom that we have seen in the 
Houston economy and the petrochemical industry as well as the 
increasing size of the ships coming through our port, will you 
agree with me that this is one project where we need to get 
moving dirt as soon as possible?
    Mr. James. Yes, ma'am. I have been to the area. I have seen 
the industry, the commerce there, the need for more 
infrastructure, better infrastructure, and I do agree with you 
100 percent.
    Mrs. Fletcher. Thank you. How can we move faster than the 
usual route that could take that project to 2030 or beyond? How 
can we start by dredging by 2021?
    Mr. James. Let General Spellmon talk to that. I think he 
might be more up to date on the schedule. And then I will 
address anything after that.
    Mrs. Fletcher. Thank you.
    General Spellmon. Congress is helping, as is the 
administration, in helping us move projects from start to 
finish much more rapidly, and I will say that by we are funding 
projects to completion. So the example I like to use here is 
the Herbert Hoover dike in Florida. With incremental funding, 
it took us 13\1/2\ years to get that project to the halfway 
point. This is a cutoff wall for about 54 miles of dike--13\1/
2\ years to get to the halfway point. Congress and the 
administration made the decision to fully fund the remainder of 
that project. It is only going to take us 3 years to get the 
last 50 percent. So that is one way that Congress and the 
administration is helping us complete projects faster, and you 
can apply that same dynamic to projects like the Houston Ship 
Channel.
    Mrs. Fletcher. Thank you. And can you tell me--I believe 
the Chief's Report is expected. What can you commit to doing to 
ensure that the Chief's Report is done on time?
    General Spellmon. So on this particular study, ma'am, I 
understand it is a non-Federal sponsor now that wants to take a 
pause on this particular Chief's Report as they want to pursue 
a locally preferred plan to look at two-way traffic for the 
entirety of the ship channel. I am sorry, I don't have those 
dates in front of me, but I can certainly follow up with you on 
the details I have from General Owen.
    Mrs. Fletcher. Thank you, I would appreciate that. That 
issue is of great concern to our constituents and to folks 
throughout the entire Houston region. And I think the other 
thing that is a challenge, and I hear it from my constituents 
at townhall meetings and other things: we do have several fully 
authorized and funded projects ready to go, but obviously 
engineering is involved and we want to make the best possible 
decisions and we want to be thorough in the analysis. And I am 
grateful to the Galveston district in particular. I spent time 
just last week with Colonel Vail and several members of the 
staff and am very impressed with the work they are doing.
    But what can we do to move projects faster when there is a 
clear benefit? In addition to fully funding, what else can we 
do to just get these projects moving faster?
    Mr. James. I would say the first thing you do is stay fully 
engaged with whatever district that you are dealing with, 
because sometimes that engagement slips. We are all busy. Most 
of the people that you are talking about being sponsors are 
businessmen; they have plenty to do anyway. But staying engaged 
is one thing.
    The other thing is if there is rights of way or relocations 
of railroads or lines or whatever, that is important, is that 
the sponsors engage those other entities that can really, 
really hold up projects. I mean, that can be a big holdup.
    And then other than that, go and engage the appropriators 
and get the money. That is my guess.
    Mrs. Fletcher. OK. And I see I have gone over my time. I 
appreciate it. Thank you very much. I yield back.
    Mr. Westerman. The gentlelady yields back and the Chair now 
recognizes Representative Babin for 5 minutes.
    Dr. Babin. Thank you, Mr. Chairman, and I appreciate that 
very much.
    Thank you, both of you witnesses, for being here. And also, 
thank you, Chair Napolitano and Ranking Member Westerman, for 
convening this very important hearing on our Nation's water 
resources.
    I would also like to thank our distinguished witnesses 
again for being here. And I would be remiss if I did not thank 
you again for your leadership during and after Hurricane Harvey 
to ensure my constituents in Texas' 36th Congressional District 
and the great people in the Greater Houston and coastal Texas 
region are adequately protected from catastrophic natural 
disasters. Unfortunately, the North American rainfall record is 
in my district.
    My congressional district is home to three highly important 
Civil Works projects of great economic benefit to our Nation--a 
project to deepen and widen the Houston Ship Channel currently 
undergoing a review by the U.S. Army Corps of Engineers; also a 
federally funded project to deepen and widen the Cedar Bayou 
Navigation Channel; and a federally funded project to deepen 
and widen the Sabine-Neches Waterway, all of these in my 
district.
    I would like to talk to you, ask you Secretary James, 
first: In regards to the Houston Ship Channel, the draft 
National Economic Development, or NED plan, recommends 
improvements and widening for only a portion of the Houston 
Ship Channel through Galveston Bay, Redfish Island, if you are 
familiar with it.
    Houston pilots and private industry have indicated that a 
partial widening, as proposed, will create a bottleneck that 
compromises safety and efficiency throughout the entire system. 
What can Congress do--more importantly, what can I do--to help 
you ensure the Chief's Report reflects the necessary options 
and opportunities to address, safely, the deepening and 
widening of the entire Houston Ship Channel, not just part of 
it, including the long-term maintenance of the locally 
preferred plan?
    Mr. James. Sir, I have visited with the local people that 
are engaging in trying to get that done in Houston. Frankly, I 
agree with them. It does not make much sense to me to dredge 
and widen half of a channel and leave the other half not.
    And furthermore, it does not make sense to me that if we 
are only going to dredge half of it, why we are dredging the 
outer half rather than from the port out.
    Dr. Babin. Right.
    Mr. James. I would be happy to talk to you about this 
further. I have got thoughts about it. And your people have 
visited me more than once, and I would really like for us to 
sit down and talk about this. I do not think the Corps has any 
anti-ship channel thoughts whatsoever. I think it is just the 
way their economics worked out. But I think it ought to be 
looked at.
    Dr. Babin. OK. Well, I am very, very happy to hear you say 
that because we really do need to have a dialogue because it 
just does not make a bit of sense.
    Mr. James. Yes, sir. Yes, sir. Well, if you will let us 
know.
    Dr. Babin. Yes, sir. And then would it also be beneficial 
for the Corps to use economics updated from 2016 and 2017 to 
reflect the Federal interest in long-term maintenance? Don't 
you agree with that?
    Mr. James. Yes, sir. I certainly do. I do, as fast as 
things are changing, particularly down there. I do.
    Dr. Babin. Thank you. And then General Spellmon, section 
902 is a policy that limits the construction cost to 120 
percent of the congressionally authorized total project cost. 
However, there have been several examples since award of 2007, 
where Civil Works projects that were federally funded and under 
construction either busted the 902 limit or were so close to 
the limit that construction was expected to stop unless 
Congress authorized an increase to the total project cost.
    A great example is the Savannah Harbor deepening project, 
which required an increase in its total project in award of 
2018. It is my understanding that the Post-Authorization Change 
Report basically, on an economic update, took only 3 months to 
complete under a process that normally takes 12 to 14 months.
    And as we see more and more port and waterway deepening and 
widening projects being federally funded for construction, 
would you commit to expediting any future post-authorization 
economic updates to 3 months to avoid any delays in their 
completion, sir?
    General Spellmon. Sir, every Post-Authorization Change 
Report is different. You have my commitment that we will 
expedite all of these as it becomes necessary.
    Dr. Babin. Yes, sir. Thank you so much.
    And then Mr. Secretary, would you commit to expediting 
these reviews as well?
    Mr. James. Yes, sir. I am trying.
    Dr. Babin. All right. Well, I will yield back. That is a 
good affirmative answer there. Thank you so much.
    Mr. Westerman. The gentleman yields back, and the Chair now 
recognizes Representative Carbajal for 5 minutes.
    Mr. Carbajal. Thank you.
    Secretary James and General Spellmon, thank you for being 
here today as we hold our first hearing on the implementation 
of the Water Resources Development Act, also known as WRDA.
    I also want to take this opportunity to thank you and the 
Los Angeles district for the incredible work and support the 
Army Corps provided to reopening the 101 Highway following the 
tragic Montecito debris flow in my district. Thank you for the 
great work that you did.
    As we move forward in developing the next WRDA legislation, 
I want to raise concern on how the benefit-cost ratio is 
calculated, also known as BCR. This was an issue also that was 
raised by my colleague, Representative Lowenthal, previously.
    I have heard from stakeholders in my district about their 
frustration on how funding gets allocated. As you are probably 
aware, construction of the Lower Mission Creek project has been 
authorized since the year 2000 and was later amended in 2007 to 
reflect the cost share between the Federal and non-Federal 
partners.
    Despite the project being shovel-ready and our local 
government having invested over $18 million in non-Federal 
resources, Federal resources have not been made available for 
this project. Currently, the BCR score does not account for the 
environmental benefits.
    In your experience, what are some of the recommendations we 
can look to to move a project like this forward? And two, what 
are the benefits for accounting for environmental impacts in a 
BCR score?
    Mr. James. Sir, I would like to visit with you personally 
offline to discuss BCR, if that would suit you. Generally I do 
not think BCRs are being addressed properly, either. There are 
benefits out there that we are not capturing, particularly in 
less fortunate areas. We are not capturing those benefits to be 
able to offset the cost of doing projects, and therefore, you 
wind up like this, with a low BCR.
    Now, I'm not talking about drumming up benefits or anything 
like that. I am talking about taking a real look at what we 
call benefits and how we rack those benefits against the cost-
benefit ratio. But I would love to visit with you more.
    Mr. Carbajal. Great. Well, I hope to someday get a letter 
like the one that is on your desk that is going to my 
colleague, Representative Rouzer, as was mentioned earlier, 
because this is a project that has been overstudied for over 30 
years. Stakeholders are all on board. There is no dissent on 
this project. And what is at stake here is real, real flooding 
that could take life and property and pretty much with a huge 
amount of risk.
    So I look forward to talking to you offline. And again, I 
look forward to really making some progress on this important 
issue. So thank you very much, Madam Chair. I yield back.
    Mr. Westerman. The gentleman yields back, and the Chair now 
recognizes Representative Mitchell for 5 minutes.
    Mr. Mitchell. Thank you very much, and I appreciate the 
committee allowing me to participate today.
    Gentlemen, as you both know, I am from Michigan, the Great 
Lakes State. I am going to try and transport you to the Great 
Lakes. This time of year it is a great place to be and there is 
no ice, so good news. We only have 5 minutes so I want to 
pursue a couple of questions and hopefully get some brief 
answers and you can talk offline if needed.
    Finally, the Soo locks are underway, the progress on that, 
after being authorized 31 years ago. I suggest to my colleague 
down the way that sometimes patience is a virtue. Hang in 
there.
    It has been approved by the Army Corps after 31 years. It 
is underway in terms of the initial construction. As you all 
know, it is a vital link to commerce, and there were some 
national security concerns because of moving taconite and 
things through the Soo locks.
    I get regular updates from the Detroit district, which I 
really appreciate. It is very helpful. Can you both update me 
what the next steps are and if we are on track in terms of the 
progress for having that become operational? Can you give us an 
update on that, please?
    General Spellmon. Yes, sir. A general statement: We are on 
track. So just a few updates.
    The design of the upstream channel, sir, that is in 
progress. And we will award that construction contract before 
the end of this fiscal year.
    The designs of the upstream approach walls and the new lock 
chamber, those are also in progress. We will award the upstream 
approach wall construction contract next fiscal year, and we 
have asked for $75.3 million in the President's budget request 
for fiscal year 2020 to advance those efforts. But we are where 
we need to be, sir.
    Mr. Mitchell. And be assured, I have had conversations with 
the White House and the administration about ensuring that that 
funding is part of their request. And we see the assurances, in 
fact, that it will continue to be on the top of their list to 
continue that construction. So if you hear anything otherwise, 
let me know so I can go--not curse, but maybe express my--so I 
think we are in good shape on that.
    Is there anything else here in Congress you need from us to 
support that other than ensuring that appropriation continues 
at the levels you need to move forward?
    General Spellmon. No, sir. We are getting all the support 
that we need from a technical perspective to advance the 
construction in the right sequence.
    Mr. Mitchell. What is the target date in your mind for the 
additional lock to become operational?
    General Spellmon. Sir, I would like to follow up with you 
after that, after here.
    Mr. Mitchell. I suppose. OK. I am happy to schedule that if 
you can.
    Let's move ourselves off to the world of Asian carp and the 
Brandon Road lock project, which is a critical issue for the 
Great Lakes region, for the basin. As you all know, that is the 
last stopping point for the spread of Asian carp into the Great 
Lakes Basin and the damage to the ecosystem that would do.
    Your feasibility study was completed. Can you highlight 
some of the findings that were in the Chief's Report and where 
we plan on moving forward?
    General Spellmon. Yes, sir. So General Semonite did sign 
the Chief's Report, as you know, and that is now with the 
Secretary for the administration's review. Sir, we understand 
the concerns that we are hearing from the field on the cost. 
And there are really two drivers for that.
    First, we have a high contingency--because we are dealing 
with some new technology on these fish barriers. And we are 
confident that we could drive that contingency down as we get 
into preliminary engineering and design. That was the first 
driver.
    The second driver was the addition of the concrete channel 
from the previous report. And we believe that concrete channel 
is important for this particular project because that is what 
is going to provide the best efficacy for these new 
technologies on this particular barrier.
    Mr. Mitchell. I have heard some concerns about the non-
Federal partner and, frankly, their ability to participate as 
we need them in this. Where I suggested it is being pursued, so 
you know, is whether or not we look at a non-Federal partner to 
be the Great Lakes compact to look at approaching it in that 
manner because there has been some concern whether or not the 
State of Illinois will support the effort.
    Do you guys have any opinion on that?
    Mr. James. I don't think I will give you an opinion on what 
you should do, sir. I can tell you that since before this even 
started in earnest, the State of Illinois, which almost has to 
be the sponsor because it is in that State, et cetera, et 
cetera, has I will not say waffled, but they really cannot make 
up their mind whether they want to engage as the sponsor or 
not.
    For the term that they decided to engage as the sponsor, it 
looked pretty simple to me to have a meeting and all the States 
agree to how much they were going to kick in on it and all 
that. But I hear there is trouble again.
    Mr. Mitchell. Well, we are engaging on that issue, just so 
you know, because it is critically important.
    If we could, one comment. I would like to schedule offline, 
because there is not enough time here to talk about fairly 
historic Great Lakes levels, the impact this is having in terms 
of flooding and some of the flood maps that you folks are 
talking about versus--so that is a longer conversation than 5 
minutes will enable us.
    But if we could schedule in my office, I would like to 
follow up on that because obviously we are seeing some historic 
flooding in the Great Lakes Basin.
    Mr. James. I think you have got a commitment from both of 
us to do that. But I don't know why--I think there are 32 or so 
on this committee. Over half would need to sit down and talk 
about the same thing, flooding.
    [Laughter.]
    Mr. Mitchell. Well, it at least it applies so at least you 
have a full-time gig right now. So I appreciate your time and 
your collective commitment to serve. Thank you very much. I 
yield back.
    Mr. Westerman. The gentleman yields back. And I would like 
to personally thank the chairwoman for trusting me with 
meaningful work during the committee, and I yield back to the 
chairwoman.
    Mrs. Napolitano [presiding]. The Chair recognizes herself, 
and I would like to recognize Ms. E.B. Johnson.
    Ms. Johnson of Texas. Thank you very much. And let me 
express my appreciation to both of you for holding this 
hearing. And thanks to the witnesses for being present.
    On this past Monday, I held a bipartisan regional 
roundtable discussion in my district to tackle the critical 
issue of flooding, flood prevention and flood control. We had 
Federal, State, regional, and local stakeholders who 
participated in a rather lively discussion.
    And during the roundtable, it was explained how $100 
billion in flood damage was prevented by spending $2 to $3 
billion annually on a flood control system. And it was clear 
that issues of flooding, flood prevention, and flood control 
must be addressed regionally using cross-functional teams with 
stakeholders at all levels of Government and working together.
    So my question--and let me precede that by saying that we 
have had great cooperation with the Corps in that area. I am 
from Dallas, Texas, not the coastal area of Houston. But how 
can the Corps develop national programs that focus on 
preventing flooding rather than just being reactive and 
responding to flooding? That is one question.
    The second one is: How can the Corps share information on 
flooded areas with navigation technology providers to reroute 
drivers away from flooded roads and highways?
    And the third one, and maybe both of you can address all 
three: Does the Corps have the authority it needs to address 
stormwater runoff, filtering stormwater, and recharge aquifers? 
I hope I did not overwhelm you with all three questions at one 
time.
    Mr. James. You almost did.
    [Laughter.]
    Mr. James. No, ma'am. I will take the ``prevent flooding'' 
one. I agree with you 100 percent. One dollar of prevention is 
worth $10 of fixing. And I agree with you 100 percent. Now, the 
only thing that keeps us from doing that is the authorization 
and the appropriation of money, both in the President's budget 
and by the Congress.
    And we realize, and our people, like yourself, out in these 
communities bring to us the reasons we need flood control here. 
We need it. OK? So we realize that the Corps goes back, looks 
at it, but then getting it from there to a product, it is hard, 
and it is getting harder all the time.
    Now, when a storm hits and washes away everything you have 
got, then people are willing to jump in and help you then that 
were not willing to help you prevent that flooding. So that is 
where we are. And we take what money we can get as a Corps of 
Engineers and spread it as thin as we can, although I think 
General Spellmon mentioned just a few minutes ago, we are 
trying to complete projects with what money we get before 
starting another project.
    Now, there is an argument there, whether we ought to be 
doing that or not. So I hope I did not confuse you.
    Ms. Johnson of Texas. No.
    General Spellmon. Ma'am, I would only add to what the 
Secretary said, but just, humbly, a little historical 
perspective. I mentioned in my opening statement that the 
Nation is experiencing its wettest year on record, at least 
east of the Mississippi and over 124 years.
    And the Nation, Congress, and the administration have, over 
generations, invested in flood control because if this year's 
event happened 100 years ago, we have had those type of floods, 
and hundreds of people have died. I mean, there are mass graves 
in this country that buried the dead from flood events.
    We had some deaths this year, but not in the hundreds, 
certainly not in the thousands. So now it is getting this 
infrastructure ready for the next generation, and all that we 
are seeing with changes in precipitation and sea level rise. 
And the Corps, we are committed to do our part within all of 
our authorities to advance this infrastructure to get it ready 
for the next generations that follow us.
    Ms. Johnson of Texas. Well, thank you very much. My time is 
about out. But what do we have to do to encourage a bit more 
focus on prevention? Does it mean legislative authority?
    Mr. James. On prevention of flooding? I think we have got a 
lot of authorities in general. But on particular projects, they 
have to go through the system. They have to have an 
authorization, and then they have to have the environmental 
work done on it. They have to get a Chief's Report, and 
finally, come back to the Congress for appropriations or be put 
into the President's budget. Yes, ma'am.
    Ms. Johnson of Texas. Thank you very much. My time is 
expired.
    Mrs. Napolitano. The gentlelady yields back.
    Lots of Members wanted a second run at it, but we do not 
have enough time. And I thank you for your patience.
    Some housekeeping questions. Mr. Secretary, Congress 
directed the Corps to solicit projects and study requests from 
local sponsors and issue a report to Congress through section 
7001 of WRDA. As you know, the 2019 report was 5 months late.
    Can you commit that the 2020 report, under development, 
will be delivered on time in February 2020 to be used to 
formulate WRDA 2020?
    Mr. James. Yes, ma'am. My fault. I will take care of it.
    Mrs. Napolitano. Thank you for your commitment. And you 
heard it.
    Can you also provide to the subcommittee the following: A 
brief summary of a Chief's Report, eight of them, already 
submitted to Congress for authorization, and any known Post-
Authorization Change Reports needing congressional action? You 
can provide it for the record.
    Mr. James. Yes, ma'am. You have our commitment we will have 
those ready in time for the next WRDA bill.
    Mrs. Napolitano. Thank you for your commitment. And thank 
you very much. It has been almost 2\1/2\ hours, and I thank you 
for your patience. And we are now concluding this portion of 
the meeting. Thank you, gentlemen.
    Mr. James. Thank you, Madam Chair.
    Mrs. Napolitano. Any additional comments and questions may 
be submitted for the record and they will go to you.
    Now we will proceed to hear from the next panel.
    [Pause]
    Mrs. Napolitano. Thank you for being here. All of you, 
welcome. Thank you for your patience. You heard there was quite 
a bit of interest in the Army Corps testimony.
    For panel 2 we have Mr. Rob Innis, Sparrows Point, 
Maryland, plant manager, LafargeHolcim, on behalf of the 
Waterways Council. We have Mr. Chad Berginnis, executive 
director, Association of State Floodplain Managers. Then we 
have Mr. Tom Waters, chairman, Missouri Levee and Drainage 
District Association.
    Then followed by Ms. Julie Hill-Gabriel, vice president for 
water conservation, the National Audubon Society. Then we have 
Mr. Derek Brockbank, executive director, American Shore and 
Beach Preservation Association. And finally, Dr. F. Martin 
Ralph, director of the Center for Western Weather and Water 
Extremes, Scripps Institution of Oceanography at UC San Diego. 
And without objection, your prepared statements will be entered 
into the record.
    Mr. Innis, you may proceed.

    TESTIMONY OF ROB INNIS, PLANT MANAGER, SPARROWS POINT, 
MARYLAND, LAFARGEHOLCIM, ON BEHALF OF WATERWAYS COUNCIL, INC.; 
  CHAD BERGINNIS, C.F.M., EXECUTIVE DIRECTOR, ASSOCIATION OF 
STATE FLOODPLAIN MANAGERS, INC.; TOM WATERS, CHAIRMAN, MISSOURI 
 LEVEE AND DRAINAGE DISTRICT ASSOCIATION; JULIE HILL-GABRIEL, 
    VICE PRESIDENT FOR WATER CONSERVATION, NATIONAL AUDUBON 
 SOCIETY; DEREK BROCKBANK, EXECUTIVE DIRECTOR, AMERICAN SHORE 
AND BEACH PRESERVATION ASSOCIATION; AND F. MARTIN RALPH, PH.D., 
   DIRECTOR, CENTER FOR WESTERN WEATHER AND WATER EXTREMES, 
 SCRIPPS INSTITUTION OF OCEANOGRAPHY, UNIVERSITY OF CALIFORNIA 
                           SAN DIEGO

    Mr. Innis. Thank you, Chairwoman Napolitano, Ranking Member 
Westerman, members of the subcommittee. Thank you for the 
opportunity to testify before you today. My testimony will 
focus on the importance of the inland waterway transportation 
system.
    I currently serve as the plant manager at the Sparrows 
Point slag cement facility in Baltimore, Maryland, for 
LafargeHolcim. LafargeHolcim produces cement, aggregates, 
concrete, and specialty construction solution products used in 
building projects ranging from affordable housing to small 
local projects to the largest, most technically and 
architecturally challenging infrastructure projects.
    We operate in more than 80 countries, with over 80,000 
employees. We currently operate 30 facilities along the river 
system, and in 2018 moved 9.2 million tons by river. If we were 
to move this tonnage by truck, it would equate to 368,000 more 
trucks on the road.
    I am also a board member of the Waterways Council and an 
executive committee member. WCI is a national public 
organization that advocates for the modern, well-maintained 
system of inland waterways and ports. Recently I also became 
chairman of the Inland Waterways Users Board.
    When thinking of the transportation infrastructure, the 
inland waterways system is often overlooked. Our rivers are the 
fourth ``R'' of the critical multimodal system of roads, 
railway, and runways. In 2017, more than 578 million tons 
valued at $220 billion were transported on the inland waterways 
system.
    Of that tonnage, almost 80 million tons were aggregates, 
which is 14 percent of the total tonnage moved along the inland 
waterways system. Some aggregates and cement projects sourced 
from the river that benefits America included the new terminal 
complex at the Louis Armstrong Airport, the Amazon Distribution 
Center in Minneapolis, and the I-90 tollway rebuild from 
Chicago to Milwaukee.
    After only passing two WRDA bills in 14 years, this 
committee, starting in the 113th Congress, made WRDA a 
priority, passing three bills in 6 years. I would like to thank 
the committee for implementing the changes in the WRRDA 2014 
that have significantly accelerated the project delivery in the 
inland waterways system.
    The cost-share change at Olmsted Lock and Dam allowed for 
the Inland Waterways Trust Fund to operate over the last 6 
years at a 25-percent trust fund/75-percent general fund split. 
This cost-share change has also accelerated the operability of 
Olmsted, allowing for over $600 million in annual economic 
benefit to be accrued 4 years ahead of schedule.
    Also enacted in 2014 and taking effect in 2014, the inland 
waterways industry supported a 45-percent tax increase to the 
diesel tax commercial operators pay that is deposited into the 
Inland Waterways Trust Fund. This is currently the highest 
Federal fuel tax being paid by any mode of transportation.
    In WRDA 2016, Congress changed the cost-share model, 
refunding the deep draft ports with depths of 45 to 50 feet 
from 50 percent non-Federal sponsor and 50 percent Federal 
Government, to 25 percent non-Federal sponsor to 75 percent 
Federal Government in order to allow the ports to expeditiously 
expand capacity to become post-Panamax-vessel-ready. This is 
necessary to enable our ports to remain competitive on a global 
scale.
    In WRDA 2007, this committee created the Navigation and 
Ecosystem Sustainability Program, NESP, as an innovate effort 
combining two of the Army Corps of Engineers-Civil Works key 
missions, navigation and ecosystem restoration. This program 
was studied for 13 years at a cost of $74 million.
    Upon completion of the feasibility study, the Corps of 
Engineers moved directly to Preconstruction Engineering and 
Design, PED, for 7 years, spending $62 million before being 
abruptly halted. It is discouraging that a project that has 
already seen $136 million and 21 years of time invested was 
halted. Waterways users, including my company, would like to 
see the Corps immediately restart PED. We foresee construction 
funding becoming available soon. However, without PED, NESP 
will not be ready to receive those funds.
    The inland waterways system has a portfolio of more than 15 
high-priority inland navigation projects either under 
construction or awaiting construction. At the current rate, 
many of these projects will not even begin construction for the 
next 20 years.
    By conforming the cost-share of the Inland Waterways Trust 
Fund to the same formula that was approved for the deep draft 
ports in WRDA 2016, this committee's actions would allow the 
navigation capital program to remain operating at or above a 
$400 million level achieved since the cost-share change at 
Olmsted, and accelerate project delivery on the portfolio of 
the critical inland waterways projects.
    As you move forward with WRDA 2020 and any potential 
infrastructure bill, I encourage you to consider this proposal 
to adjust the cost-share for the construction of inland 
waterways infrastructure projects. This is an important change 
that will help advance our Nation's competitiveness and keep 
America leading at the top.
    That concludes my testimony, Madam Chair. Thank you for 
giving me the opportunity to be here today, and I would be 
happy to respond to any questions you or other committee 
members have.
    [Mr. Innis' prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Rob Innis, Plant Manager, Sparrows Point, 
     Maryland, Lafargeholcim, on behalf of Waterways Council, Inc.
    Chairwoman Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to speak today on the topic 
of ``Water Resources Development Acts: Status of Implementation and 
Assessing Future Needs.'' I believe that my comments today will offer 
an evaluation of policy changes implemented from past Water Resources 
Development Acts (WRDA) that have proven beneficial to the inland 
waterways system and its users, and I will also recommend an important 
policy change for the modernization of our Nation's inland waterways 
transportation system.
    I currently serve as the Plant Manager of the Sparrows Point slag 
cement facility in Baltimore, Maryland for LafargeHolcim. LafargeHolcim 
is the leading global building material and solutions company serving 
masons, builders, architects, engineers, and major construction 
companies around the world. We operate in more than 80 countries with 
over 80,000 employees. LafargeHolcim produces cement, aggregates, 
concrete, and specialty construction solutions products used in 
building projects ranging from affordable housing and small, local 
projects to the largest, most technically and architecturally 
challenging infrastructure projects. We currently operate 30 facilities 
along the river system, and in 2018, moved 9.2 million tons by river. 
If we were to move this tonnage by truck, it would equate to 368,000 
more trucks on our roads. We use nearly all of the 12,000 miles of 
commercially navigable waterways in the U.S., ship on all five of the 
Great Lakes, load barges out of 10 states, and deliver to 25 states, as 
well as to Canada. We directly employ over 7,000 people in the United 
States and supply products to businesses and government that support 
many more jobs throughout the United States. I am a member of the Board 
of Directors and Executive Committee of Waterways Council, Inc. (WCI). 
WCI is the national public policy organization that advocates for a 
modern and well-maintained system of inland waterways and ports. 
Recently, I also became Chairman of the Inland Waterways Users Board, 
and I serve on the Michigan Port Advisory Board.
                            The Fourth ``R''
    When thinking about transportation infrastructure, the inland 
waterways system is often overlooked. In actuality, our Rivers are the 
fourth ``R'' of a critical multimodal system of Roads, Rail, and 
Runways. In 2017, more than 578 million tons valued at $220 billion 
were transported on the inland waterways system. Of that tonnage, 
almost 80 million tons were aggregates, which is 14 percent of the 
total tonnage moved along the inland waterways system. Some aggregate 
and cement projects sourced from the river that Americans benefit from 
include the new terminal complex at Louis Armstrong New Orleans 
International Airport, Amazon's Distribution Center in Minneapolis, and 
the I-90 tollway rebuild from Chicago to Milwaukee.
               Recent Successful Policy Changes in WRDAs
    After only passing two WRDA bills in 14 years, this Committee, 
starting in the 113th Congress, made WRDA a priority, passing three 
bills in six years. I would like to thank this Committee for 
implementing changes in the Water Resources Reform and Development Act 
(WRRDA) of 2014 that have significantly accelerated project delivery on 
the inland waterways system. A cost-share change at Olmsted Locks and 
Dam allowed for the Inland Waterways Trust Fund to operate over the 
last six years at about a 25 percent Trust Fund /75 percent General 
Fund split. This cost-share change also accelerated the operability of 
Olmsted, allowing for $600 million in annual national economic benefits 
to be accrued four years ahead of schedule.
    Also enacted in 2014 and taking effect in 2015, the inland 
waterways industry supported a 45 percent increase to the diesel fuel 
tax commercial operators pay that is deposited into the Inland 
Waterways Trust Fund. This is currently the highest federal fuel tax 
being paid by any transportation mode.
    In the Water Resources Development Act of 2016, Congress changed 
the cost-share model for funding construction of deep draft ports with 
depths of 45 to 50 feet from 50 percent non-federal sponsor and 50 
percent federal government, to 25 percent non-federal sponsor and 75 
percent federal government in order to allow ports to expeditiously 
expand capacity to become post-panamax-vessel-ready. This was necessary 
to enable our ports to remain competitive on a global scale.
Inland Projects Authorized in WRDA
    In WRDA 2007, this Committee created the Navigation and Ecosystem 
Sustainability Program (NESP), an innovative effort combining two Army 
Corps of Engineers-Civil Works' key missions, navigation and ecosystem 
restoration. This program was studied for 13 years at a cost of $74 
million. Upon completion of the feasibility study, the Corps of 
Engineers moved directly to Preconstruction Engineering and Design 
(PED) for seven years, spending $62 million before being abruptly 
halted. In 2016, the Assistant Secretary of the Army-Civil Works 
ordered more studies--an Economic Re-evaluation Report (ERR) before PED 
could continue to move forward. That ERR is set to be completed in 
August of this year, but it is still discouraging that there was a 
restudy of a project that has already seen $136 million and 21 years of 
time invested. Waterways users, including my company, would like to see 
the Corps immediately restart PED following this ERR completion. We 
foresee construction funding becoming available as soon as FY 2023. 
However, without PED, NESP won't be ready to receive those funds. We 
are discouraged by this delay and note that projects recently 
authorized are already receiving PED.
    For example, WRDA 2016 authorized the Upper Ohio Navigation Project 
for $2.7 billion. This project has received PED funding the last two 
fiscal years. Also, WRDA 2018 authorized the Three Rivers project for 
$180.3 million, and that project received PED funding last fiscal year.
         Modernizing the Inland Waterways Transportation System
    The inland waterways system has a portfolio of more than 15 high 
priority inland navigation projects either under construction or 
awaiting construction. At the current rate, many of these projects will 
not even begin construction in the next 20 years. By conforming the 
cost-share with the Inland Waterways Trust Fund to the same formula 
that was approved for deep-draft ports in WRDA 2016, this Committee's 
action would allow for the inland navigation capital program to remain 
operating at or above a $400 million level achieved since the cost-
share change at Olmsted, and accelerate project delivery on that 
portfolio of critical inland waterways projects.
    As you move forward with WRDA 2020 and any potential infrastructure 
bill, I encourage you to consider this proposal to adjust the cost-
share for construction of inland waterways infrastructure projects. 
This important change will help advance our Nation's competitiveness 
and keep America as the leading and most dependable source of goods and 
materials. I'm happy to share additional information with Members and 
your staff.
    That concludes my testimony, Madam Chair. Thank you for giving me 
the opportunity to be here today, and I will be happy to respond to any 
questions you or the other Committee Members may have.

    Mrs. Napolitano. Thank you, Mr. Innis.
    Mr. Berginnis, you are next.
    Mr. Berginnis. Good afternoon, Chairwoman Napolitano and 
Ranking Member Westerman. I am Chad Berginnis, executive 
director of the Association of State Floodplain Managers, and I 
am honored to be here today.
    As we contemplate the most recent round of flooding and the 
damages that have been caused in the Central U.S., in our 
coastal areas, and even as the result of the failure or near 
failure of flood control structures like Oroville Dam, we must 
recognize that as a Nation, our current approach is being 
outpaced by rising seas, more intense rainfall events, and 
skyrocketing flood damages.
    Our members are on the front lines of this battle for a 
decade, and we have advocated for sensible policies to reduce 
flood damages and recognize natural functions of flood plains.
    Our written testimony contains over 20 recommendations, and 
we would like to highlight a few of those today.
    First, we need a coherent flood management policy to 
complement our flood control efforts. Among those identified in 
our testimony, three critical ones are making room for our 
rivers and setting levees and other flood control structures 
back, harnessing the benefits of natural infrastructure, and 
using nonstructural measures wherever possible, whenever and 
wherever structural measures are contemplated.
    Throughout the Corps program's guidance, there is a 
systematic bias towards structural projects and against 
nonstructural projects. We must ensure that Federal programs 
like Public Law 84-99 not only require the analysis of such 
options but establish a preference for them.
    Second, guidance documents like principles and guidelines 
that steer solutions toward those that maximize national 
economic development need to be replaced by guidance that 
prioritizes national economic resiliency and sustainability.
    We need to complete national studies, such as those 
authorized under section 2032 of the 2007 WRDA, which analyzes 
the Nation's vulnerability to flooding.
    We must also ensure that regional studies that are being 
done for such areas, such as the Southeast and gulf coast and 
even those that are called for on the Missouri, are fully 
inclusive of all flood loss reduction tools, including 
nonstructural.
    Third, we believe that there should be organizational 
changes in the Corps that unlocks the massive knowledge and 
expertise of its staff for the benefits of the Corps itself and 
all communities by making technical assistance a top priority.
    Today's reality is that the Corps employees cannot even 
lead local workshops without some specific project to pay for 
it. There were lots of comments earlier today about how the 
Corps can leverage the expertise, especially in small and rural 
communities. This is one way to do that.
    Internally within the Corps, there are Centers of Expertise 
like the National Nonstructural Committee, whose role is to 
advise both internal customers and Corps districts, but also 
communities and the general public. But these are so under-
resourced that they can serve neither very well.
    This also means that we leverage the good research and 
development that is being done by the Corps and ensure that it 
is adopted throughout the agency and disseminated to the 
public.
    For example, the Engineering with Nature Initiative uses 
natural processes and systems in concert with engineered 
systems to produce a more diverse array of economic, 
environmental, and social benefits.
    ASFPM hopes that it is adopted widely within the Corps.
    In a unique public-private partnership with ASFPM and FM 
Approvals, the National Flood Barrier Testing and Certification 
Program helps develop and use consensus standards for flood 
abatement products.
    But in the 5 years since the standard has been in 
existence, we have yet to see the Corps include the standards 
in its policies, procedures, or contracts for flood fighting 
materials agencywide. We note that some of the flood fighting 
products that were used and failed in Iowa this past spring 
were not certified.
    Finally, we must vastly improve how we communicate flood 
risk. Over the last decade we have seen the creation and 
availability of online databases like the National Inventory of 
Dams and National Levee Database, and these are very promising 
developments. But they are missing critical information.
    None is more pressing than the information we have chosen 
to withhold from the public, inundation mapping where flood 
control structures are operational or where they fail. Since 9/
11, this information has been categorized as for official use 
only.
    Yet when we have incidents like the near catastrophic event 
at Oroville Dam in California or the Barker and Addicks 
Reservoirs in Texas, it is unacceptable that tens of thousands 
of people in harm's way are unaware of their flood risk.
    I hope that these observations and recommendations help 
better inform your work on the next WRDA, and I thank you for 
your time.
    [Mr. Berginnis' prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Chad Berginnis, C.F.M., Executive Director, 
             Association of State Floodplain Managers, Inc.
                              Introduction
    The Association of State Floodplain Managers (ASFPM) appreciates 
the opportunity to share observations about the programs of the U.S. 
Army Corps of Engineers (Corps) and their implementation as part of the 
Committee's oversight.
    The 19,000 members of ASFPM are partners of the Corps, Federal 
Emergency Management Agency (FEMA) and other federal agencies at the 
state and local levels in reducing loss of life and property due to 
flooding. Our 37 state chapters are active within their states and 
often nationally as well. State and local floodplain managers and their 
private sector engineering and floodplain management colleagues 
interact regularly with the Corps at the Headquarters and District 
levels in developing and implementing solutions to flooding challenges.
    Floods are the nation's most frequent and most costly disasters 
every year and the costs to taxpayers continue to increase. While the 
Corps has often successfully engineered structural means of controlling 
flood waters, it is becoming more and more apparent that 1) operation 
and maintenance costs are exceeding the ability of communities to pay 
those costs, which is their obligation; 2) structural projects, while 
necessary in some instances, are expensive: 3) traditional projects can 
inadvertently increase flood hazards upstream, downstream and across 
the river and 4) nonstructural projects can often offer a less 
expensive, more sustainable and affordable means of reducing flood 
hazards.
    To meet today's challenges of riverine and coastal flooding in an 
era of more frequent and severe storms, sea level rise, and 
skyrocketing disaster costs, it is important that the Corps take a 
broad, comprehensive and watershed-based view of overall flood risk 
management. To encourage enhanced effectiveness in addressing cost 
considerations, the need to protect lives and property, and recognize 
the multiple beneficial functions of the natural floodplain, ASFPM 
would like to discuss several areas where improvement is needed. We 
will address:

    <bullet>  Strategic Direction
    <bullet>  Flood Risk Management
    <bullet>  Levee and Dam Risk Management
    <bullet>  Public Law 84-99 program
    <bullet>  Principles and Guidelines
                          Strategic Direction
``The current trajectory of funding water resources projects is not 
sustainable.''

    This was the take-home message at the 2012 USACE Strategic 
Leadership Conference attended by ASFPM as well as several other Corps 
partners. In remarks made by senior Corps leadership--with which ASFPM 
is in agreement--when you look long term, the Corps must change how it 
is doing business. An increased focus on collaboration and problem 
solving with partners will be necessary as will making smarter, 
strategic investments in infrastructure. Given the increasing cost of 
operations and maintenance, funding for new starts and other projects 
is being proportionately reduced. Simply put, as a nation, we cannot 
afford to keep doing business as we have in the past. More frequent and 
intense disasters are making current approaches too costly or rendering 
them ineffective.
    A more recent troubling trend is that more and more project funding 
is coming by way of supplemental appropriations after disasters. Such a 
piecemeal approach is nearly impossible to plan for and creates a lot 
of frustration at the state and local level.
    The Corps is uniquely positioned, with Congressional support, to 
help transform itself and take a different, much more collaborative 
approach. Rare among agencies, the Corps allocates significant 
resources for research and development through entities like the 
Institute for Water Resources, and has a long history of expertise in 
all aspects of flood-loss reduction--both structural and nonstructural. 
Centers of expertise such as the USACE National Nonstructural 
Floodproofing Committee focus on measures to reduce the consequences of 
flooding versus reducing the probability of flooding. The successful 
Silver Jackets program is putting the Corps into a new ``convener'' 
role. Initiatives like Engineering with Nature and the USACE 
partnership with ASFPM in the National Flood Barrier Testing and 
Certification Program [https://nationalfloodbarrier.org/] are forging 
new paths, leveraging new technologies and approaches to tackle long-
standing flood problems.
Technical Assistance
    Technical assistance should be seen as a cornerstone of Corps 
operations and activities. A significantly enhanced role of technical 
assistance and broad-based problem solving/planning for watershed wide 
and nonstructural solutions would more effectively deliver federal 
expertise at the local level. However, it is still nearly impossible to 
leverage Corps expertise on more of an ad-hoc basis, not associated 
with a particular Corps project. While Silver Jackets has helped this 
at the state level somewhat, it is a sad reality that Corps expertise 
is rarely available at the local level unless there is an active 
project. Other federal agencies dealing with flooding issues such as 
FEMA, NRCS, and the USGS have staff available through their disaster 
cadres, capacity building programs at the state level, national call 
centers, or distributed staff throughout the U.S. Each is a different 
model for providing federal resources at the local level. Given that 
the Corps has 45 districts throughout the United States, the basic 
infrastructure exists to provide a much better technical-assistance 
role than it currently provides. By having a more robust technical-
assistance role at the district level that is not project related, the 
research, expertise and knowledge of the Corps could be made much more 
widely available.
    The Floodplain Management Services (FPMS) [https://
www.nae.usace.army.mil/Missions/Public-Services/Flood-Plain-Management-
Services/] program (authorized as a continuing authority under Section 
206 of the 1960 Flood Control Act) theoretically addresses this need 
and has provided valuable and timely services in identification of 
flood risks and flood damage. The program enables the Corps to support 
state, regional and local priorities in addressing flood risks through 
collaboration and cooperation by developing location-specific flood 
data, which can be used to reduce overall flood risks. Like FPMS, the 
Planning Assistance to States (PAS) program was also authorized to 
provide valuable and timely services in identification of flood risks 
and flood damage. This program also allows for any effort or service 
pertaining to the planning for water and related resources of a 
drainage basin or larger region of a state, for which the Corps of 
Engineers has expertise. These programs have been shown to provide 
significant benefits for a relatively small investment. By providing 
Corps expertise, these programs assist states and communities to make 
better informed decisions and to engage in more comprehensive 
consideration of their flood risk and the various options for reducing 
the hazard. These can be structural, nonstructural or a combination of 
the two and can often lead to less expensive and more sustainable 
solutions.
    However, FPMS and PAS must be better managed as national programs. 
While our data is anecdotal, it appears that these two programs are not 
evenly nor consistently administered throughout the country. Certain 
Corps Districts have high expertise and capability with these programs 
and others do not. We know thorough our work with the Corps that there 
do not seem to be mechanisms or processes to comprehensively identify, 
collect, review and prioritize requests for FPMS/PAS services, review 
projects completed, and adjust program metrics in any consistent 
manner. ASFPM believes the demand for these programs significantly 
exceeds available resources. All Corps Districts should have the level 
of capability as do those that regularly use FPMS and PAS. Another 
issue is that the Corps tends to ``projectize'' these services versus 
making the technical assistance more broadly and widely available.
    Technical assistance is especially important after flood disasters. 
Given the current structure and focus of the Corps--most post-disaster 
work has been focused on immediate response missions related to 
infrastructure and public works and flood response activities (flood 
fighting) and repair/rehabilitation work. However, given the Corps 
expertise and assets, they can also be brought to bear in providing 
technical assistance and problem-solving expertise. For example, post-
Sandy, many of the affected areas have a critical need to understand 
the range of different nonstructural flood mitigation options available 
to them, however, this has been done only haphazardly in the past.

    <bullet>  Develop a significantly more robust and ongoing non-
project related technical-assistance role for the Corps at the district 
level, either through FPMS or a new authority. The FPMS and PAS 
programs should be authorized at least $50 million each.

    The Corps can play a lead role in a model where the federal 
government provides incentives to undertake sustainable solutions, 
where it provides the technical know-how and expertise to solve a 
flooding problem, or where it provides data and information to enable 
states and communities to make better decisions.
Research & Development
    The Research and Development function of the Corps has several 
promising initiatives and programs, but as we have seen with other R&D 
initiatives across the federal government, the difficulty lies in 
widespread implementation of these initiatives into an agency's 
operations.
    The first of these is the Engineering with Nature (EWN) [https://
ewn.el.erdc.dren.mil/index.html] initiative that is the intentional 
alignment of natural and engineering processes to efficiently and 
sustainably deliver economic, environmental and social benefits through 
collaboration. It incorporates the use of natural processes to maximize 
project benefits. ASFPM is very supportive of this initiative and is 
encouraged by its results and implementation strategy. The 2018-2022 
EWN strategic plan properly focuses on expanding implementation. 
However, given the traction we have seen with other initiatives such as 
the nonstructural flood mitigation, we are concerned about its ultimate 
success.

    <bullet>  Congress should set policy on decision making that will 
result in natural infrastructure being a preferred alternative due to 
its multi-benefit approach
    <bullet>  The Corps should commit to fully supporting the 
operationalization of the EWN initiative throughout the agency.

    The second of these is the National Flood Barrier Testing and 
Certification Program (NFBTCP) [https://nationalfloodbarrier.org/]. A 
partnership among ASFPM, FM Approvals and the Corps (through the 
Engineer Research and Development Center (ERDC)), the NFBTC Program is 
a unique public-private partnership, which resulted in the development 
of the ANSI 2510 standard and where commercial flood abatement products 
(i.e., perimeter flood barriers and flood mitigation pumps) are tested 
against that standard. The purpose of this program is to provide an 
unbiased process of evaluating products in terms of resistance to water 
forces, material properties and consistency of product manufacturing. 
Manufacturers pay for the cost of testing and certification and the 
public benefits from having flood abatement products that meet 
standards. While the European Union has recently adopted the ANSI 2510 
standard, we have yet to have it adopted officially in the United 
States. This program and the Corps' participation in it aligns with 
Section 3022 of the 2014 WRRDA encouraging the Corps to use durable and 
sustainable materials and resistant construction techniques to resist 
hazards due to a major disaster, and aligns with Director Dalton's 
embrace of new technologies.
    We must ensure the ERDC water testing facility is capable of 
testing products being demanded by the marketplace. Currently, the 
facility is only capable of testing perimeter barriers to a height of 4 
feet, yet manufacturers are making products that would protect to 
heights of 8-10 feet or more. The current facility is in need of a 
significant upgrade and/or replacement and ASFPM would be most 
supportive of such an effort.
Planning and the Use of Nonstructural Flood Risk Reduction Measures
    Overall, ASFPM is concerned about the lack of nonstructural, flood-
risk reduction measures as part of the projects that the Corps is 
implementing. While the agency has the authority to implement a full 
array of nonstructural measures, today we are seeing very few of these 
measures being implemented. Yet these measures have been identified in 
community hazard mitigation plans and other planning documents. It 
seems that if a project has not gone through a formal Corps planning 
process then it does not formally exist. Better coordination between 
the Corps and existing community plans, which have proliferated over 
the past 20 years (largely as a result of the Disaster Mitigation Act 
of 2000) is essential. As we note later in this testimony, 
nonstructural, flood-risk reduction measures have an inherent 
disadvantage in most Corps program whether it be through PL 84-99 or as 
a result of the Principles and Guidelines. Yet, the array of adaptation 
techniques that coastal and inland communities will need to take 
advantage of will have to include nonstructural measures or measures 
that can include a combination of both. For example, relocating from a 
highly flood-prone area is a very popular measure and will be 
increasingly important in the future. ASFPM encourages the Corps to 
identify and remove systemic biases against nonstructural, flood-risk 
reduction measures and elevate the status of such measures 
strategically.
    ASFPM supports the recent request by Assistant Secretary of the 
Army for Civil Works R.D. James that Congress provide authority for the 
Corps to conduct a study of the Missouri River levees as part of a 
system-wide study that would look as reservoir operations and all 
levees to evaluate how the systems should be managed, (especially 
whether levees should be rebuilt, moved back to reduce erosion and 
provide conveyance or removed and see if other mitigation options 
employed like buyouts or elevation of buildings, which would be more 
effective and less costly). One emerging trend we have observed 
nationally that might have applicability on any Missouri River system 
study, for example, is concern over the flood control--including large 
reservoir releases--and how we might make changes in the USACE water 
control manuals for flood operations to reflect new conditions such as 
more intense storms.
                         Flood-Risk Management
    The Corps' Flood Risk Management Program was established in 2006. 
The program's mission is to increase capabilities across all aspects of 
the agency to improve decisions made internally and externally that 
affect the nation's flood risk. It implements this mission through 
several activities including technical assistance, project planning and 
construction, promotion of nonstructural flood risk reduction, flood 
fighting, post flood disaster support, and assessing potential climate 
change impacts and consideration of adaptation measures. Operationally, 
we would like to share our observations and suggestions for 
improvement.
    ASFPM believes that overall the Silver Jackets program has proven 
to be successful and should continue with maximum flexibility to 
address individual state's needs and issues. There have been many 
benefits to the Corps, and states, tribes, and local governments from 
the Silver Jackets program including better coordination and 
understanding of the various programs and agencies involved in 
comprehensive flood-risk management, identification and coordination of 
resources, and development and undertaking of collaborative projects. 
It is important; however, that all Silver Jackets POCs from the Corps 
embrace the role and vision of the program.
    As mentioned above, the Corps is a partner in the NFBTC Program. 
One step to facilitate the recognition and adoption of the standard 
would be for the Flood Risk Management Program--through the National 
Flood Fight Material Center--to require the standard in future 
contracts when purchasing flood fighting materials (there are several 
manufacturers that now have certified products). While we have had 
promising talks with Director of Civil Works Dalton and Chief Delp in 
the Rock Island District, we are concerned about support of the program 
and use of the standard operationally within the Corps' Flood Risk 
Management program overall given our lack of progress to date.

    <bullet>  Encourage the adoption of and operational use of the ANSI 
2510 standard by the USACE for flood abatement products

    The center of expertise for the Corps for nonstructural flood-risk 
reduction rests with the National Nonstructural Committee within the 
Planning Community of Practice. While we are encouraged after a brief 
dissolution and reconstitution of the NNC the past couple of years, 
that there is at least some interest in maintaining this function 
within the Corps, we continue to be alarmed about its significant lack 
of human resources, the stove-piping of the committee (within the 
Planning Division) and agency headquarters support/champion.
                      Levee & Dam Risk Management
    ASFPM has developed positions on structural flood control including 
the position that levees should never be seen as the only flood 
mitigation tool, but part of a mix of tools that include nonstructural 
measures like buyouts, building elevations and flood proofing, as well 
as levee setback or realignment, designed overflow spillways in levees 
and floodways, such as those on the lower Mississippi River that 
provide ``room for rivers.'' Furthermore, all levees and other flood 
control structures must be designed for future conditions that can be 
expected during the life expectancy of the structure. If the levee has 
a 50-year life, it must be able to handle the design flood expected in 
50 years. All structural projects can result in adverse impacts. It is 
important that the Corps examines and enforces requirements to prevent 
or mitigate any adverse impacts (social, economic, environmental) from 
construction, repair and rehabilitation of structural projects, prior 
to or concurrent with the construction of projects.
    As we reflect back on past levee related policies, we are reminded 
of the many recommendations from the Sharing the Challenge: Floodplain 
Management into the 21st Century Report of the Interagency Floodplain 
Management Review Committee [https://usace.contentdm.oclc.org/digital/
collection/p266001coll1/id/2471/] led by General Gerald Galloway after 
the 1993 Mississippi River floods. One recommendation never enacted was 
a new law to define the responsibilities of federal, state and local 
governments, including the levee districts that build and maintain 
locally-funded levees.
    Despite enormous public investment in flood ``control'' structures, 
that spending has been outpaced by development in risky areas and 
development in the watershed that increases runoff and flooding, and by 
the gradual deterioration of the protection provided by those 
structures. As the public grows to recognize the risks associated with 
levees, communities are working to evaluate the various actions they 
can take in response to those risks: levees can be repaired and 
improved or set back from the river to relieve pressure and erosion on 
the levee; homes, businesses and infrastructure at risk can be 
relocated to reduce risk and restore floodplain function. Waters can be 
detained upstream or adjacent to the stream by re-opening areas closed 
to flood storage and conveyance, such as Napa, California did. And 
measures can be combined to achieve the most effective results with 
scarce public dollars, with a particular eye to reducing the long-term 
operations and maintenance (O&M) costs for communities and taxpayers.

    <bullet>  Congress and the Corps should adopt policies for new or 
reconstruction of levees that encourage levees are set back from the 
water's edge to preserve riparian areas, reduce erosion and scour, 
reduce flood levels and flooding risks, and to allow natural floodplain 
ecosystems to better serve their natural functions.

    We have entered an era of levee ``triage''--the process of 
prioritizing federal response to flood risks associated with levees and 
rationing scarce federal taxpayer dollars on multiple-objective risk 
reduction projects that may include floodplain restoration, 
reconfiguration of structural systems, and combinations of approaches 
to make the best use of limited public resources.
    Generally speaking, any new federal taxpayer funding program for 
flood risks associated with levees should be reserved for the top 
performers (communities and regions) that have demonstrated nonfederal 
leadership in the identification and reduction of flood risk associated 
with levees. Projects need to address those risks by leveraging more 
fully state and local authorities over land use, infrastructure 
protection, development standards and robust building codes. 
Additionally, eligibility for a new levee risk management fund should 
require that nonfederal partners take specific steps to address flood 
risk associated with levees in the following ways:

    1.  Participate in the National Flood Insurance Program;
    2.  Adopt a FEMA approved Hazard Mitigation Action Plan that 
includes emergency action and planning for residual risk areas 
associated with all levees and residual risk areas in their 
jurisdiction, including post-flood recovery and resiliency;
    3.  Prevent the construction of critical facilities in areas 
subject to inundation in the 0.2%-chance floodplain, and require that 
all existing CFs be protected, accessible and operable in the 0.2%-
chance flood;
    4.  Evaluate the full array of nonstructural measures to reduce 
risk, implement effective nonstructural measures in combination with 
any structural measures that are selected, and adopt standards to 
prevent any post-project increase of risk (including probability and 
consequences), prior to any commitment of public funds toward levee 
work;
    5.  Demonstrate binding and guaranteed financial capacity and 
commitment to long-term operations and maintenance, rehabilitation and 
management of all levee structures and system components in the 
community's jurisdiction;
    6.  Adopt short- and long-range flood risk reduction planning in 
residual risk areas as part of the community's mitigation, development 
and land use planning;
    7.  Communicate with property owners in residual risk areas, 
including spillway easement areas, to notify them of their risk, advise 
them of the availability of flood insurance, update them on emergency 
action plans, report on levee operations and maintenance over the past 
year, and for other public notification and engagement activities; and
    8.  Consideration of flood insurance behind levees either through 
individual policies or with a community-wide policy. The rate should be 
commensurate with the risk (higher levee protection, lower cost 
policies).

    ASFPM would like to note some positive developments in recent years 
regarding levee and dam risk management. The first of those has been 
the development of and public access to the National Levee Database 
(NLD) [https://levees.sec.usace.army.mil/#/] and National Inventory of 
Dams (NID) [https://nid.sec.usace.army.mil/ords/f?p=105:1]. ASFPM was 
pleased to see the opening of the NLD for public access in 2018 (this 
follows the public access to NID, which occurred in 2015). This is an 
important evolution in the levee risk management to ensure the public 
has access to essential information regarding these flood-risk 
management structures. According NLD, there are nearly 30,000 miles of 
levees with over 46,000 levee structures having an average age of 55 
years.
    Another positive development was the Corps' new policy [https://
www.publications.usace.army.mil/Portals/76/Publications/
EngineerCirculars/EC_1110-2-6074.pdf?ver=2018-01-22-100438-250] on 
Emergency Action Plans (EAPs) and required inundation mapping (EC 1110-
2-6074). This policy standardizes inundation mapping and establishes 
inundation mapping requirements for dams and levees. In theory, having 
inundation mapping available to the public can help avoid debacles like 
those we witnessed around Barker and Addicks Reservoirs post-Harvey 
when thousands of homes in inundation areas of those structures were 
impacted. Had local land use planners, property owners and others been 
aware of these risks, steps could have been taken to reduce that risk. 
However, the new EAP policy includes the following statement: EAP maps 
are considered sensitive data and must be marked For Official Use Only 
according to AR 380-5 and DoDM 5200.01. In other words, inundation maps 
associated with EAPs are not publically available. Why would we be 
withholding this vital information on flood risk?
    The answer seems to be policy artifacts post 9/11 that neither the 
Corps (DoD) nor FEMA (DHS) are willing to overcome. The Technical 
Mapping Advisory Council (TMAC), a congressionally-authorized advisory 
committee helping FEMA oversee the nation's flood mapping program, in 
its 2016 report National Flood Mapping Program [https://www.fema.gov/
media-library-data/1474555532007-c063547f6f48026feb
68c4bcfc41169d/TMAC_2016_National_Flood_Mapping_Program_Review_
Updated.pdf] Review, identified a legacy DHS policy through its 
Security Classification Guide for the Protection of Critical 
Infrastructure and Key Resources, which listed dam failure inundation 
maps as ``For Official Use Only.'' However, this policy conflicts the 
National Flood Mapping Program requirements that such areas be provided 
on Flood Insurance Rate Maps and on publically-available databases such 
as NLD and NID. As noted in the report, a Virginia law passed in 2008 
essentially requires that all inundation mapping developed for state-
regulated dams be made available to communities and the public. This 
has now been implemented for a decade without issues and state 
officials there believe in supporting wider public availability of 
these data. More recently, when speaking to agency officials, there has 
been a mistaken belief that this issue had been dealt with. It is clear 
to ASFPM that it has not and the unwillingness of agencies to act on it 
demands congressional intervention.

    <bullet>  Congress should mandate that inundation mapping developed 
by the federal government and/or associated with federal programs for 
dams and levees be made publically available.

    Let's not have a recurrence of the Oroville dam situation from a 
couple years ago where a quarter million people were told to evacuate 
because the dam's integrity was threatened, and none of them even knew 
they would be inundated if the dam were to fail. This is a critical 
public safety issue that must be addressed.
    Moving from an inventory to a program to address the safety of 
levees and to get a handle on the funding needed to ensure the safety 
of levees is not a simple process. Evaluating how safe a levee is can 
be easier if actual engineering plans exist and there is a record of 
the operation and maintenance of that levee. Unfortunately, many of the 
non-federally built levees have neither good plans nor O&M records. 
Engineers can do a field evaluation of a levee that includes a visual 
inspection, but that does not tell us what the material is inside the 
levee to determine if it will withstand flood levels at a design flood 
or a larger flood. It is also questionable if the Corps should conduct 
evaluations beyond visual for non-federal levees using taxpayer funds.
    All the above evaluations are complicated because so many 
nonfederal levees are simply dirt piled up to keep water from farm 
fields, with more dirt added to the levee over time to make it higher, 
especially when housing or other development occurred behind the levee. 
Just because such a levee has not failed over the years does not mean 
it will not fail in the next flood. Requiring levee owners to perform 
an analysis of the levee to determine its adequacy and to develop a 
plan to properly operate and maintain the levee cannot be done by the 
Corps because the federal government does not have land use authority. 
States do, but many states to not regulate, or do not have adequate 
regulations to ensure levees are adequate.
    As a nation, we know little about the condition or risks associated 
with levees outside the Corps portfolio. Managing risks associated with 
levees in the United States will require diligence and cooperation 
among all levels of government, private sector and the public. Further, 
the national program must be integrated into and work seamlessly with 
other flood-risk management efforts through other agencies. That is why 
the implementation of the National Levee Safety Program is urgently 
needed. ASFPM participated in the multi-year effort to develop 
recommendations for a National Levee Safety Program culminating in a 
report [http://cdm16021.contentdm.oclc.org/utils/getfile/collection/
p16021coll2/id/444] with 20 recommendations made in 2009. The 2014 
WRRDA [https://www.congress.gov/113/plaws/publ121/PLAW-113publ121.pdf] 
first authorized the program, which was subsequently reauthorized in 
America's Water Infrastructure Act of 2018 through federal fiscal year 
2023. Among other things, this program will:

    1.  Establish comprehensive national levee safety guidelines for 
uniform use by all federal, state, tribal and local agencies (which 
would also provide for adaptation to local conditions);
    2.  Require better coordination and use of consistent standards and 
guidelines among federal agencies;
    3.  Establish a hazards classification system for levees;
    4.  Assist states, communities and levee owners in developing levee 
safety program including identifying and reducing flood risks 
associated with levees;
    5.  Focus on educating the public of risks living in leveed areas; 
and
    6.  Establish a levee rehabilitation program that is integrated 
with ongoing community hazard mitigation programs/plans and requires a 
practical floodplain management plan to address adverse impacts of 
flooding in leveed areas.

    ASFPM is pleased to see that finally, the House passed ``minibus'' 
spending bill, H.R. 2740, included increased funding for the National 
Levee Safety Program. While it does not fund the program at its full 
authorization of $79 million, it does provide $18 million.

    <bullet>  ASFPM recommends full implementation of the National 
Levee Safety Program and ensures that national levee safety guidelines 
fully account for future flood conditions based on the levee's 
anticipated service life (as opposed to design life) and suggests 
appropriate land-use standards to manage the intensification of risk 
behind levees.
    <bullet>  Activate the National Levee Safety Committee (NLSC) of 
federal agencies, state and local stakeholders, professional 
associations, and experts as directed in WRRDA 2014 to assist the 
secretary to develop consistent guidance for levee siting, design, 
construction, operating and management standards, to enhance levee 
performance, set appropriate protection levels, and to build-in 
resilience and adaptability for existing and future levee-based 
systems, (e.g., freeboard, spillways, setbacks, etc.).

    An effective National Levee Safety Program would mandate or 
incentivize states to have levee safety programs. This could be done by 
providing federal taxpayer funding to repair levees on some cost 
sharing basis, but it should have provisions indicating the funding 
will only be available in states with adequate levee safety programs 
where the state can regularly inspect levees and has the authority to 
order repairs or removal of inadequate levees so that people and 
businesses behind the levee do not have a false sense of security that 
the levee will protect them. The authorized Corps Levee Safety programs 
needs to be implemented with these provision included.
    We want to point out one recommendation contained in the 2009 
National Levee Safety Program report that was not implemented in the 
2014 WRRDA, but that ASFPM still fully supports: A requirement for the 
purchase of risk-based flood insurance in leveed areas to reduce 
economic loss, flood damage, and increase understanding of communities 
and individuals that levees do not eliminate risk from flooding. Had 
such a requirement been in place, the effects from this year's flooding 
in the Midwest, especially where levees overtopped and failed, would 
have been far less consequential.
    It has come to light in recent years that many levees on the 
Mississippi River have been raised above their authorized height. The 
problem with that is the higher levees at one point in the river will 
result in more flooding across the river or upstream and downstream of 
that higher levee because the water has to go somewhere. This can lead 
to ``leapfrog levee,'' where levee owners on the other side of the 
river then raise their levee higher, and the cycle continues.

    <bullet>  ASFPM urges strong continued federal oversight of levees 
to maintain levees at authorized levels. This should be done by the 
Corps or FEMA, and it must be adequately enforced.

    We were pleased to see that ASA R.D. James and Deputy Commanding 
General for Civil and Emergency Operations Maj. Gen. Scott Spellman 
understand the issue. Spellman indicated that changes to any one levee 
on the system could cause more problems downstream.
    One final note regarding the High Hazard Dam Rehabilitation 
Program--ASFPM strongly supports the floodplain management planning 
requirement to obtain funding and integration of the dam rehabilitation 
with other mitigation efforts. We believe that such plans must be 
practical and implementable so that those impacted better understand 
flood risk and can take steps to mitigate against the residual risk.
                       Adjustments to P.L. 84-99
    P.L. 84-99, the Corps' disaster assistance authority, is 
legislatively built on language that was first adopted in 1941. In 
recent WRDAs, we have generally seen only incremental changes, while at 
the same time costs of flood disasters are increasing dramatically, 
while we are recognizing our overall approaches to flood-risk 
management require substantial new direction. As an example, P.L. 84-99 
provides by far the most generous cost-sharing formula of all the 
Corps' activities, to assist in repair and rehabilitation of disaster-
damaged levees and hurricane and storm damage reduction projects. In 
many cases the repairs are coming at high federal taxpayer expense and 
are being repeated over and over without serious review because current 
policy constrains or bars the Corps from studying and recommending 
changes (and makes even the consideration of nonstructural approaches 
subject to a non-federal sponsor's consent).
    Under P.L. 84-99, the Chief of Engineers, acting for the Secretary 
of the Army, is authorized to undertake activities including disaster 
preparedness, advance measures, emergency operations (flood response 
and post flood response), rehabilitation of flood control works 
threatened or destroyed by flood, protection or repair of federally 
authorized shore protective works threatened or damaged by coastal 
storm, and provisions of emergency water due to drought or contaminated 
source. P.L. 84-99, which is the principle Corps program to repair and 
rehabilitate, incorporates a significant bias against nonstructural and 
integrated approaches (combining structural and nonstructural 
approaches) to rehabilitation and repair of flood control works (FCWs). 
ASFPM understands that Engineering Regulation 500-1-1, which is the 
operational guidance for P.L. 84-99, has been on-again-off-again 
process of being under consideration for updating for several years. 
ASFPM believes that it is essential for the program to incorporate a 
much greater focus on nonstructural approaches.
    The Rehabilitation and Inspection Program (RIP) provides for 
inspections of FCWs, the rehabilitation of damaged FCWs, and the 
rehabilitation of federally-authorized and constructed hurricane or 
shore protection projects. Any eligible FCW that was damaged by water, 
wind or wave action due to a storm is eligible for repair under RIP, 
either at 100% or 80% federal taxpayer cost. RIP assistance is 
available to federally- and non-federally built FCWs. Operation and 
maintenance is the responsibility of the local sponsor, and so long as 
there is proper and timely maintenance, the FCW can be included in the 
program. Currently, the following FCWs can be included, provided they 
meet the eligibility inspections:

    1.  Federally-authorized and constructed hurricane or shore 
protection projects (HSPPs).
    2.  Federally-constructed, locally maintained levees and 
floodwalls.
    3.  Non-federally constructed, locally-maintained levees and 
floodwalls that provide a minimum of a 10-year level of protection with 
2 feet of freeboard to an urban area, or a minimum of a five-year level 
of protection with 1 foot of freeboard to an agricultural area.
    4.  Federally-constructed, locally-maintained flood control 
channels.
    5.  Non-federally constructed, locally-maintained flood control 
channels that provide a minimum of a 10-year level of protection. 
[NOTE: Interior drainage channels within the protected area of a levee 
system are not flood control channels.]
    6.  Pump stations integral to FCW.
    7.  Federally-constructed, locally-maintained flood control dams.
    8.  Non-federally constructed, locally-maintained flood control 
dams.

    This is a very broad range of infrastructure for which the Corps 
takes responsibility after declared disasters, much of which is 
provided through supplemental appropriations through the Flood Control 
and Coastal Emergencies account. An unfortunate side effect of the 
current eligibility standards is that non-federal entities responsible 
for operations, maintenance and repairs are driven to defer maintenance 
until after the system is damaged by a flood event. P.L. 84-99 
eligibility needs to be modified to assure that any federal investment 
in levee work targets structures that pose the greatest public safety 
risk, and incentivizes responsible nonfederal actions in levee 
operations, maintenance and repair.

    <bullet>  Conform this program's cost-sharing with other flood-
damage reduction programs to reduce federal disaster costs, reduce 
risks and support greater use of comprehensive flood-risk management 
and nonstructural approaches.

    Since this program provides significant federal taxpayer dollars 
for repair and rehabilitation of levees and dams for which local 
entities have signed operation and maintenance agreements, it seems 
entirely appropriate to associate a set of requirements to be met by 
those entities in order to qualify for federal assistance. ASFPM 
recommends that eligibility for P.L. 84-99 be available only after the 
following steps have been taken:

    <bullet>  The entity responsible for operation, maintenance and 
repair (OM&R) has adopted and demonstrated compliance with an approved 
OM&R plan.
    <bullet>  Responsible entity must communicate annually with 
property owners in residual risk areas, including dam or levee failure 
and spillway easement areas, to notify them of their risk, update them 
on emergency action plans, report on levee operations and maintenance 
over the past year, and for other public notification and engagement 
activities.
    <bullet>  Responsible entity must demonstrate binding and 
guaranteed financial capacity and commitment to long-term operations 
and maintenance, rehabilitation, and management of all levee structures 
and system components in the community's jurisdiction;
    <bullet>  Jurisdictions in residual risk areas must:
      <bullet>  Participate in the NFIP,
      <bullet>  Adopt a FEMA approved hazard mitigation action plan 
that includes emergency action and planning for residual risk areas 
associated with all levees and residual risk areas in their 
jurisdiction, including flood-fighting, post-flood recovery and 
resiliency, and
      <bullet>  Prevent wherever possible the construction of new 
critical facilities (CFs) in areas subject to inundation in the 0.2%-
chance floodplain, and require that all new and existing CFs be 
protected, accessible and operable in the 0.2%-chance flood.

    P.L. 84-99's treatment of nonstructural options is limited. ER-500-
1-1 indicates:

        Under P.L. 84-99, the Chief of Engineers is authorized, when 
        requested by the non-federal public sponsor, to implement 
        nonstructural alternatives (NSAs) to the rehabilitation, 
        repair, or restoration of flood control works damaged by floods 
        or coastal storms. The option of implementing an NSA project 
        (NSAP) in lieu of a structural repair or restoration is 
        available only to non-federal public sponsors of FCWs eligible 
        for Rehabilitation Assistance in accordance with this 
        regulation, and only upon the written request of such non-
        federal public sponsors.

    Unfortunately, this is consistent with the underlying statutory 
language, first adopted in WRDA 1996. The result? Little or no 
consideration of nonstructural measures, even when such measures could 
be more cost-effective, and more consistent with the Corps' re-released 
Environmental Operating Principles and subsequent policy guidance from 
Corps leadership.
    The reality is that funded work should evaluate the full array of 
nonstructural measures to reduce risk, implement effective 
nonstructural measures in combination with any structural measures that 
are selected, and adopt standards to prevent any post-project increase 
of risk (both probability and consequences), prior to any commitment of 
public funds toward levee work. Since nonstructural options are only 
considered on an ``as requested basis,'' the requirement that the 
repair or rehabilitation approach be the ``least cost to the 
government'' alternative cannot logically be met because in the vast 
majority of the cases, not all alternatives are being evaluated. We can 
no longer afford to ignore possibly less expensive nonstructural 
alternatives. Specific modifications needed include:

    <bullet>  For every project, explicitly require consideration of 
realigning or setting back levee segments, and integrating setback 
levees to the fullest practicable extent in any federally-funded levee 
work, including repairs under P.L. 84-99.

    Levee setbacks improve public safety and environmental management 
and help account for and mitigate current and future uncertainties and 
reduce the risk of failures as well as improve floodplain and natural 
ecological functions.
    In Sec. 1160 of WRDA 2018 Congress added realignment as a potential 
P.L. 84-99 rehabilitation option, but, again, has left this up to local 
sponsors whether even to consider. We specifically urge removing the 
present constraint requiring the Chief of Engineers to obtain a 
sponsor's consent to study or recommend such alternative actions. We 
would also urge that funding be made available to conduct such 
alternative analyses wherever appropriate, particularly in any 
situation with a history of repetitive P.L. 84-99 repairs. This 
important modification to P.L. 84-99 can help reduce ``pinch-points'' 
in levee systems and bridge crossings that are often damaged or fail in 
repeated flood events, resulting in continued property loss, economic 
disruption and federal spending on repairs and disaster payouts. In 
cases of repeated levee failures or where existing levee alignments 
create significant pinch points or other risks, the Chief of Engineers 
should be able to initiate consideration of options to reduce long-term 
risks and repair costs.

    <bullet>  Congress and the Corps should remove bias towards 
structural projects and against nonstructural projects.

    This includes consideration of nonstructural measures in every 
instance and not solely at the request of the sponsor; removal of 
funding caps for nonstructural measures; reconsider the present policy 
which requires local sponsor to provide all lands easements, rights of 
way, relocations and disposal areas (LERRDs) for nonstructural projects 
to allow federal funding for lands for nonstructural project 
rehabilitations; provide greater equivalency in repairs to 
nonstructural measures after a subsequent flood event; and requirement 
for consideration of benefits and costs over the long term, which 
should recognize and incorporate the non-commercial and societal 
benefits of nonstructural and nature-based design approaches in P.L. 
84-99. Other ASPFM recommendations include:

    <bullet>  Including a provision for expedient buyouts of structures 
and land under P.L. 84-99. Due to the existing bias against 
nonstructural measures, this is not now currently feasible. However, 
these should be pursued with the same expediency as levee repairs just 
after a flood has occurred, versus through the normal project 
development process.
    <bullet>  Requiring the Corps to identify and report on frequency 
and losses associated with repetitive loss levees and other P.L. 84-99-
supported flood control works.
    <bullet>  Requiring a full suite of flood-risk mitigation options 
(including relocation or realignments, setbacks and nonstructural 
approaches to reduce costs and risks) for P.L. 84-99 assistance 
(similar to NFIP and Stafford Act repetitive loss mitigation).

    Consideration should be given to reducing federal subsidies in 
P.L.84-99 as the repetitive costs and disaster assistance claims rise.
           Revision of USACE Principles and Guidelines (P&G)
    Federal activities and Corps investments in water resources and 
flood-control projects have been guided by a process that has remained 
largely unchanged for 30 years, despite a growing record of disastrous 
floods. The first set of ``Principles and Standards'' was issued in 
September 1973 to guide the preparation of river basin plans and to 
evaluate federal water projects. Following a few attempts to revise 
those initial standards, the currently utilized principles and 
guidelines went into effect in March 1983. Since then, the national 
experience with flood disasters has identified the need to update 
federal policy and practice to reflect the many lessons learned and 
advancements in data, information and practice.
    Section 2031 of the Water Resources Development Act of 2007 (WRDA 
2007) called for revision to the 1983 Principles and Guidelines (P&G) 
for use in the formulation, evaluation and implementation of water 
resources and flood control projects. WRDA 2007 further required that 
revised principles and guidelines consider and address the following:

    1.  The use of best available economic principles and analytical 
techniques, including techniques in risk and uncertainty analysis.
    2.  The assessment and incorporation of public safety in the 
formulation of alternatives and recommended plans.
    3.  Assessment methods that reflect the value of projects for low-
income communities and projects that use nonstructural approaches to 
water resources development and management.
    4.  The assessment and evaluation of the interaction of a project 
with other water resources projects and programs within a region or 
watershed.
    5.  The use of contemporary water resources paradigms, including 
integrated water resources management and adaptive management.
    6.  Evaluation methods that ensure that water resources projects 
are justified by public benefits.

    In general, these requirements represented important goals for 
updating the P&G to respond to changes in the nation's values and 
increasingly looming concerns for our water resources nationally. In 
December 2014, the Obama Administration published an updated set of 
guidelines called the Principles, Requirements and Guidelines, which 
some federal agencies have implemented, but since the FY 2015 
Consolidated Appropriations legislation, the Corps has been barred from 
implementing the revised P&G, or to make much in the way of needed 
changes in approaches or technical aspects of project planning. While 
Congress had some questions about the specific proposed revisions, we 
believe that an updating of project planning and evaluation procedures 
continues to be a strong current and future need to respond to present 
and changing priorities.
    As an example, a major weakness of past benefit-cost analysis for 
water resources projects has been the failure of project planners to 
realistically account for the full life-cycle project costs over 
project lifetimes. This results in a bias for structural projects that 
require significant long-term O&M and rehabilitation costs, whereas 
nonstructural designs often have little or no maintenance, masking the 
true costs of alternatives.

    <bullet>  ASFPM recommends that in developing implementation 
guidance for the P&R, agencies must require a full accounting of long-
term operations, maintenance, repair, rehabilitation and replacement 
costs be included in benefit-cost analyses for all structural and 
nonstructural projects, and identify which costs are a federal 
responsibility or the responsibility of non-federal sponsors or other 
interests.

    The 1983 P&G require selection of water resources projects that 
maximize net National Economic Development (NED), regardless of total 
costs to taxpayers or the social or environmental impacts.

    <bullet>  ASFPM recommends that the Corps and other agencies 
develop and transition federal planning principles to a National 
Economic Resilience and Sustainability standard instead of the current 
National Economic Development standard to explicitly incorporate the 
values of multiple ecosystem services, including the non-market public 
values provided by the nation's floodplains and ecosystems.

    Floodplain management, public safety and long-term environmental 
quality and sustainability would, in many instances, improve by 
expanding to a resilience/sustainability standard approach.
    Another major concern with water resources projects is that they 
should be designed and analyzed on conditions that will exist at the 
end of their design life. For example, if a levee is designed for a 50-
year life, the level of protection it will provide must be calculated 
using the hydrology (rainfall and runoff) and sea level rise that can 
be projected for the end of that design life. As extreme rainfalls 
increase and sea level rises, it is foolhardy to not use these future 
conditions in design and BCA analysis. We are currently seeing levees 
that no longer provide the design level of protection because design 
rainfalls have increased from 25-45%, thus the design flood height is 
much higher. In those cases, levee overtopping and failure result in 
excessive damage because development in the ``protected area'' now 
experiences flooding at great depths and damages. Nonstructural options 
like elevation of buildings or relocation would not experience that 
catastrophic damage. All such information needs to be factored in the 
BCA analysis
    During the dozen years since WRDA 2007 was enacted, costly and 
disruptive floods have continued to plague nearly all parts of the 
nation, with the extended Midwest flooding this year, and with major 
Gulf Coast and Eastern Seaboard flooding, from 2017 and 2018 hurricanes 
providing the latest reminders of the extent of the nation's 
vulnerability. ASFPM believes that the nation can no longer afford to 
continue on its current path of authorizing and funding projects 
through a process that is so heavily biased toward structural 
approaches without comprehensive review of environmental impacts and 
consideration of nonstructural alternatives, and without fully 
leveraging state and local authorities in land use, infrastructure 
maintenance and building codes. While the 1983 P&G needs to be retired 
and replaced by a modern and updated P&G as soon as possible, we note 
also that in Section 2032 of WRDA 2007, Congress had called for a 
report on the nation's vulnerability to flooding, including risk of 
loss of life and property, and the comparative risks faced by different 
regions of the nation. The report was to include the following 
elements:

    <bullet>  An assessment of the extent to which programs in the U.S. 
relating to flooding address flood-risk reduction priorities;
    <bullet>  The extent to which those programs may be encouraging 
development and economic activity in flood-prone areas;
    <bullet>  Recommendations for improving those programs with respect 
to reducing and responding to flood risks; and
    <bullet>  Proposals for implementing the recommendations.

    Unfortunately, while started, this study was never completed, yet 
the need for these analyses and recommendations in this area continues 
and is more urgent now than ever. We urge the Committee to redouble its 
efforts to bring forward these or similar initiatives into focus and 
move them to completion to help guide the nation forward to meet 
critical water resources and flood-related challenges ahead.
    Federal policy initiatives such as the update of P&G and making 
investments through regular and supplemental appropriations that are 
underway could be informed by the findings and recommendations 
anticipated to emerge from this report. We urge Congress to insist on a 
timely completion and delivery of this report.
    Again, thank you for the opportunity to share our observations with 
you. We hope you find them helpful in your oversight of the U.S. Army 
Corps of Engineers programs and direction and in consideration of the 
next Water Resources Development Act. If you have any questions, please 
contact ASFPM Executive Director Chad Berginnis.

    Mrs. Napolitano. Thank you very much, Mr. Berginnis.
    Mr. Tom Waters, you are recognized.
    Mr. Waters. Thank you, Madam Chairman, members of the 
committee, and I want to include staff, too.
    I appreciate this opportunity to provide testimony 
regarding the Water Resources Development Act and the Missouri 
River.
    As chairman of the Missouri Levee and Drainage District 
Association, I represent levee and drainage districts, 
businesses, associations, and individuals interested in the 
activities and issues surrounding the Missouri River and its 
tributaries.
    I am honored to have this opportunity to provide comments 
on behalf of the levee association's membership and fellow 
Missourians who have been impacted by this year's flooding.
    I am a seventh-generation farmer. I produce corn, soybeans, 
and wheat in the highly productive bottomlands along the 
Missouri River. I know and understand the importance levees and 
flood control projects play in protecting lives and property in 
my community and communities across the Nation.
    Now, I could read 17 pages of testimony, but I do not think 
you want me to do that, and I do not want to do that. So I 
would rather just make three points this afternoon.
    First, the current Missouri River flooding is not over. The 
reservoirs in the Upper Basin in Montana and North Dakota and 
South Dakota are full. Reservoirs in Kansas have an abundance 
of water, and reservoirs in Missouri and the Osage Basin are 
full as well.
    All three of these basins are going to flow water down the 
Missouri River, and it has got to get to St. Louis by the next 
spring. So that is going to keep the river high.
    We know it is going to be high above flood stage probably 
through the rest of this summer, fall, and into winter, and 
with over 100 levees breached along the Missouri River, 
flooding is going to continue to be a problem.
    It is going to take a long time to recover these levees, 
and it is going to take funding. I hope this committee and 
Congress will act quickly and decisively to push the Corps 
forward with funding and oversight so repairs could be made as 
soon as possible.
    My second point, flood control needs to be the number one 
priority for the Missouri River Reservoir system. This was a 
once highly engineered system, but over the past 20 years, it 
has been used to conduct supersized science experiments for two 
birds and a fish.
    These experiments have decimated the flood control system, 
dike notching, destroyed dikes, revetments, and other 
structures in the river. Open channels and chutes along the 
river have caused the river to flow differently than it used 
to.
    Changes in storage levels, changes in how and why we 
release water, all have changed and taken away from flood 
control in the system. We have to get back to flood control as 
the top priority.
    We have reached the tipping point, and we can no longer 
continue to conduct failed experiment after failed experiment 
at the expense of people's lives and livelihoods, and I said 
``lives'' because people have died.
    Missouri and Iowa farmland was not meant to be the U.S. 
Fish and Wildlife Service laboratory, and Midwestern farmers no 
longer want to be their guinea pigs.
    It brings me to my third point, and that is that it is not 
just the Missouri River. Flood control infrastructure needs to 
be a national priority. Just like the highway system, the power 
grid, internet, and communications infrastructure, flood 
control infrastructure has been left behind.
    Flooding takes place nearly every day in this country 
somewhere. Just look at your TV. Every morning you can see it 
is flooding somewhere, most recently, day before yesterday, 
here in Washington.
    We spend billions of dollars in flood recovery, and in 
comparison, we spend very little on prevention, and we cannot 
build an umbrella over the coastlines to protect us from 
hurricanes, and we cannot bolt together the fault lines to 
protect us from the earthquakes.
    But we can build flood control infrastructure. Floods do 
not discriminate. They do not choose Democrats over 
Republicans. They do not choose rich over poor, East over West, 
and North over South.
    Flood control is not a partisan issue. It is an issue 
impacting the entire country, and as such, the entire Congress 
should support prioritizing flood control infrastructure as 
money for infrastructure projects is appropriated.
    I thank you, and I ask that my written comments be included 
in the record, and I look forward to answering your questions.
    [Mr. Waters' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Tom Waters, Chairman, Missouri Levee and Drainage 
                          District Association
    Chairman DeFazio and members of the United States House Committee 
on Transportation and Infrastructure:
    Thank you for this opportunity to provide testimony regarding the 
Water Resources Development Act and the Missouri River. As chairman of 
the Missouri Levee and Drainage District Association, I represent levee 
and drainage districts, businesses, associations and individuals 
interested in the activities and issues surrounding the Missouri River 
and its tributaries. I understand the importance of this committee's 
work as it relates to flood control and the protection of human lives 
and property. I am honored to have this opportunity to provide comments 
on behalf of the levee association's membership and fellow Missourians 
who have been impacted by flooding this year.
    I am a seventh generation Missouri farmer. My family farming 
operation produces corn, soybeans, and wheat in the highly productive 
bottomlands along the Missouri River. As president of three local levee 
and drainage districts, I know and understand the importance levees and 
flood control projects play in protecting the lives and property in my 
community and communities across our nation.
    2019 has been a difficult year for people living and working along 
the Missouri River. The Missouri River system was overwhelmed by 
inflows well above any seen before. The U.S. Army Corps of Engineers 
has been tasked with managing record-breaking runoff into the Missouri 
River Flood Control System this year. The extraordinary runoff proved 
to be too much for the Army Engineers to handle and the result was 
major flooding from above Sioux City, Iowa to St. Louis, Missouri, 
along the River and several tributaries.
    My testimony will center around three points. 1) Recent flooding 
and funding needs for levee repairs and flood recovery, 2) Desperately 
needed changes in the management and operations of the Missouri River 
Reservoir System, and 3) Long-term improvements to flood control 
infrastructure across the nation. In addition to these comments, I have 
attached an article, I wrote in April, about this year's flood and the 
Missouri River.
                      2019 Missouri River Flooding
    The 2019 Missouri River Flood is not over. High flows on the 
Missouri River will continue well into summer as the U.S. Army Corps of 
Engineers continues to release water from the mainstem reservoir system 
in the Upper Missouri River Basin. In addition to the mainstem system, 
reservoirs in Kansas and in the Missouri Osage Basins have an over 
abundant supply of water, which will have to be released during the 
same time period. These releases will combine to keep Missouri River 
flows above flood stage at most locations. Any additional heavy 
rainfall will cause additional flooding.
    The, now infamous, ``Bomb Cyclone'' hitting Nebraska and South 
Dakota early this spring brought snow and heavy rain which overwhelmed 
the Missouri River flood control system. The bomb cyclone was followed 
by a second round of heavy snow and rain later in the spring causing 
even more damage throughout the Missouri River Basin. Levees have been 
overtopped, breached and eroded by the high-water event. Communities 
have been inundated, homes and businesses lost and in rural areas, 
farmers have lost not only their homes, but also their 2018 crops 
stored in flooded bins, their machinery and their livestock. Hopes for 
planting a crop this year have dwindled away as the river continues to 
scour across flooded fields.
    Flooding in the Midwest impacts the entire country. The Missouri 
Department of Transportation closed more than 470 different routes in 
114 counties from April 29 to June 14. Many remained closed today. 
Railroad tracks were washed out and train traffic was stopped and 
disrupted by delays and re-routing. Flooding hindered the movement of 
products through the states of Missouri, Iowa, Nebraska and Kansas with 
impacts across the entire nation. Barge traffic on the Missouri River 
was also disrupted.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The flood control system of levees, which has been weakened by 
years of lack of improvement, has been decimated. The following is a 
list of levees overtopped or breached in the Kansas City, Omaha and St. 
Louis Corps of Engineer Districts:
                   Kansas City District Levee Status
                       federal levees overtopped
March Event Overtoppings
MRLS 500-R (KS) Iowa Point Drainage District No. 4 (First Federal Levee 
to overtop since 1993) Doniphan, KS March 21
                   federal levees that have breached:
MRLS 246-L Brunswick-Dalton Levee District, Chariton County, May 31
                 non-federal levees that have breached:
March Event Breaches
Union Township Levee (MO), Holt County, March 16
Holt County 10 Levee (MO), Holt County, March 16
Holt County 9 Levee (MO), Holt County, March 18
Rushville-Sugar Lake Levee, Platte County, March 21
Platte County #1 Section #1 Tie-Back Levee
Platte County #1 Section #2 Tie-Back Levee
Walcott Drainage District #1 Levee, Wyandotte County, KS, March 23
Corning Levee, Holt County, March 16
Recent Breaches
Brunswick Levee. Carroll County, May 23
DeWitt Levee, Carroll County, May 23
Mi-De Levee, Carroll County, May 23
Labadie Section #4 Levee (Intentional), Franklin County, May 22
Cambridge Levee, Saline County, May 23
Lower Morrison Bottom Levee, Gasconade County, May 28
Prison Farm Levee, Cole County, May 28
Northeastern Saline Levee,
Saline County Levee, May 28
Saline County #2 Levee, Saline County, May 28
Garden of Eden #1 Levee, Chariton County, May 30
Garden of Eden #2 Levee, Chariton County Levee, May 30
Garden of Eden #3 Levee, Chariton County May 31
West Glasgow Levee, Saline County, May 30
Tri-County Drainage District Levee (Ray, Clay, Jackson Counties) Ray 
County, June 1
Belcher Lozier Levee
Reveaux Levee, Callaway County, June 1
Sugartree Bottom Levee (Intentional), Carroll County, June 1
Howard County #4 Levee, Howard County June 1
Howard County #7 Levee, Howard County, June 4
Levasy Levee (Not in PL84-99 Program) June 1
Cooper County #1 Levee, Osage County, May 30
Bonne Femme Levee, Howard County June 1
Ray-Carroll Levee, Ray/Carroll Counties May 31
Renz Levee, Callaway County, June 7
Capitol View Levee, Callaway County, June 7
                non-federal levees that have overtopped
March Event Overtoppings
Canon Levee (MO), Holt County, March 20
Grape-Bollin-Schwartz Levee (KS), Leavenworth/Atchison Counties, KS, 
March 20
Bean Lake Levee (MO), Platte County, March 20
Henry Pohl Levee (KS), Atchison County, KS, March 21
Kansas Department of Corrections Levee, Leavenworth County, KS, March 
23
Walcott Drainage District #2 Levee, Wyandotte County, KS, March 23
Walcott Drainage District #3 Levee, Wyandotte County, KS, March 23
Recent Overtoppings
Ray-Carroll Levee Overtopping Stopped with flood fight and intact
Howard Bend #3 Levee, Section 1
Cooper County #1 Levee
Howard County #6 Levee, Howard County, May 23
Howard County #3 Levee, Section 2, Howard County, May 31
Howard County #3 Levee, Section 1, Howard County, May 23
Howard County #2 Levee, Howard County, May 31
Chamois #1 Levee
Chamois #2 Levee, Osage County, May 24
Chamois A-1 Levee
Diermann Levee, Gasconade County, May 24
Jacobs Levee, Callaway County, May 24
Tebbetts East Levee, Callaway County, May 24
Tuque Creek Levee, Warren County, May 25
McBaine Levee, Boone County, May 27
Big Bend Levee, Carroll County, May 29
Whitman Levee, Chariton, May 29
Wainwright Levee, Callaway County, June 1
Malta Bend Levee, Saline County June 1
Henrietta-Crooked River Levee, Ray County June 1
Plowboy Levee, Moniteau County, May 24
Linneman-Weekly Levee, Cooper County, May 23
Egypt Levee
Hartsburg #1 Levee
Hartsburg Levee #2 Levee
Hartsburg #3 Levee, Boone County May 31
Mokane Levee
Steedman Levee
Holtmeier Levee Association
2019 Missouri River Flood--March & April Overtopped and Breached Levees

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  2019 Missouri River Flood--May & June Overtopped and Breached Levees

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Omaha District Levee Status

                                     Levee System Status as of May 31, 2019
----------------------------------------------------------------------------------------------------------------
                                                                                                        Initial
  Reference         River         Levee System        Last     PL84-99 Program  Previously     # of      Breach
   Location                                          Update     Participation   Overtopped   Breaches   Repaired
----------------------------------------------------------------------------------------------------------------
Council        Missouri        L611-614             05/31/19  Federal                   x          3
 Bluffs, IA
----------------------------------------------------------------------------------------------------------------
Glenwood, IA   Missouri        L601                 05/31/19  Federal                   x          4
----------------------------------------------------------------------------------------------------------------
Glenwood, IA   Watkins Ditch   L601-Watkins Ditch   04/04/19  Federal                   x
                                RB
----------------------------------------------------------------------------------------------------------------
Fremont        Missouri        L594                 05/31/19  Federal                   x          5
 County, IA
----------------------------------------------------------------------------------------------------------------
Hamburg, IA    Missouri        L575                 05/31/19  Federal                   x          7
----------------------------------------------------------------------------------------------------------------
Hamburg, IA    Nishnabotna     L561                 04/04/19  Federal                   x
----------------------------------------------------------------------------------------------------------------
Atchinson      Missouri        L550                 05/20/19  Federal                   x          7
 County, MO
----------------------------------------------------------------------------------------------------------------
Atchinson      Missouri        L536                 04/04/19  Federal                   x          7
 County, MO
----------------------------------------------------------------------------------------------------------------
Sarpy County,  Missouri        R616-613                       Federal                   x                     1
 NE
----------------------------------------------------------------------------------------------------------------
Sarpy County,  Missouri        R616                 04/04/19  Federal                   x
 NE
----------------------------------------------------------------------------------------------------------------
Sarpy County,  Missouri        R613                 04/04/19  Federal                   x          1
 NE
----------------------------------------------------------------------------------------------------------------
Otoe County,   Missouri        R573                 04/04/19  Federal                   x
 NE
----------------------------------------------------------------------------------------------------------------
Nemaha         Missouri        R562                 04/04/19  Federal                   x         10
 County, NE
----------------------------------------------------------------------------------------------------------------
Brownville,    Missouri        R548                 04/04/19  Federal                   x
 MO
----------------------------------------------------------------------------------------------------------------
Rulo, NE       Missouri        R520                 04/04/19  Federal
----------------------------------------------------------------------------------------------------------------
Sarpy County,  Platte          Western Sarpy        04/04/19  Federal                   x
 NE
----------------------------------------------------------------------------------------------------------------
Clear Creek,   Platte          Clear Creek          04/16/19  Federal                   x          4          2
 NE
----------------------------------------------------------------------------------------------------------------
Valley, NE     Platte          Union Dike           04/16/19  Non-Federal               x          1          1
----------------------------------------------------------------------------------------------------------------
Ames, NE       Platte          Ames Diking          04/04/19  Non-Federal               x          1
----------------------------------------------------------------------------------------------------------------
Louisville,    Platte          YMCA Camp Kitaki     04/04/19  Non-Federal               x
 NE
----------------------------------------------------------------------------------------------------------------
Cass County,   Missouri        Lake Wa Con-Da       04/04/19  Non-Federal           Boils
 NE
----------------------------------------------------------------------------------------------------------------


                                                                                                       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                                                       

           St. Louis District Levee Status--Mississippi River
Breaches
Brevator Levee
Winfield Main Levee
Pike Grain #3 Levee (Intentional)
Pike Grain #4 Levee
Kissinger Levee
Elsberry Levee
Chouteau Island Levee
Elm Point Levee
Kuhs Levee
Ste. Genevieve #2 Levee (Intentional)
Winfield Pin Oaks Levee
Nutwood Levee
Overtoppings
Foley Levee
King's Lake Levee
Sandy Creek Levee
Consolidated North County Levee
Greens Bottom #1 Levee
Greens Bottom #2 Levee
Bluffdale Farms Levee
Robertson Mutual Levee
Keach Levee
Hillview Levee
Schaefer Levee
Eldred Levee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       Levee Repairs and Recovery
    The Kansas City District Corps of Engineers Emergency Management 
office estimates recovery and levee rehabilitation from this year's 
flood event will be the largest rehabilitation program in their 
district since the great flood of 1993. They expect to receive between 
80 and 90 requests for assistance from levee sponsors. Many of these 
have already been received and more requests continue to come into the 
office as levee sponsors assess damages. Damage will range from loss of 
grass cover from top and side wash to eroded levees and full-blown 
breaches with some systems having multiple breaches.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    USDA is also assessing damages and planning for many requests for 
assistance recovering land damaged by the fast and destructive river 
flows. Assistance for damaged fields, flooded grain bins, lost crops 
and lost livestock will all be a part of the USDA programs to help 
farmers damaged by the flooding. But none of it will be enough to cover 
all the loss and suffering many farmers are facing. Crop insurance 
never covers all the farmer's losses and USDA assistance usually comes 
with some sort of cost-share farmers can find hard to match. The 
agricultural economy has been struggling and during some of the worse 
times for agriculture in recent years, this devastating flood will 
cause some farmers to lose their business. In some cases, farms handed 
down for generations will be lost.
    Congress must act quickly to fund levee repairs. The recovery from 
the most recent flood events prior to this year has been slow and 
painful. Some levees along the Missouri River still had not been fully 
repaired from flooding in 2015, when this year's flood hit. In some 
cases, it has taken 3-4 years to complete the levee rehabilitation 
process. The recovery from this year's event must be handled better.
    At this time, it is difficult to assess flood damage. The 
continuing high flows from upper basin reservoirs are preventing Corps 
of Engineers teams from completing damage assessments. It will take 
time for these teams to be able to do their work and have a good idea 
of the expenses related to the levee repairs. Once this work is 
completed, levee sponsors will need Congress to act quickly to make 
funding available for the repairs. Communities, business, property 
owners and the states economies all depend on levee protection and they 
are depending on Congress to act quickly with enough funding to meet 
their needs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The number one industry in Missouri is Agriculture. With one-third 
of the grain produced in Missouri coming from the 100-year floodplain, 
the state's economy is directly impacted by flooding and by levee 
breaches left unrepaired. The flow required to flood this highly 
productive land is much less when levees are left unrepaired. Levee 
sponsors rely on Congress to provide the U.S. Army Corps of Engineers 
the needed funding for levee repairs.
    Delays in funding for repairs hamper an already slow and cumbersome 
process. I fear additional flooding and losses as we wait for levees to 
be repaired along the lower Missouri River. I hope this committee and 
all members of Congress will act quickly and decisively to push the 
Corps forward with funding and oversight to see the repairs are made as 
soon as possible.
                  Missouri River Reservoir Operations
    The Missouri River Flood Control System has been hijacked and it is 
no longer being used to provide flood control as it was designed. For 
over 20 years, the Corps of Engineers has been forced by the U.S. Fish 
and Wildlife Service to manage the system to conduct super-sized 
science experiments for two birds and one fish. The threatened and 
endangered interior least tern, piping plover and pallid sturgeon. 
These failed experiments have included: changing system storage amounts 
and how water is released, notching dikes, revetments and other 
structures in the river, opening chutes and channels along the river, 
and even causing intentional flooding. The experiments have weakened 
the system's ability to provide flood control and the result has been 
flooding of greater magnitude and frequency.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Flood control must be the number one priority for the management 
and operation of the Missouri River Reservoir System. We have reached a 
tipping point and we can no longer continue to conduct failed 
experiment after failed experiment at the expense of people's lives and 
livelihoods. Missouri and Iowa farmland was not meant to be the U.S. 
Fish and Wildlife Service's laboratory and midwestern farmers no longer 
want to be their guinea pigs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    After changes in the Missouri River Master Water Control Manual in 
2004, the Corps has been trying to manage and operate the system 
equally for all eight authorized uses for the system. The simple fact 
is all uses are not equal and the system cannot be managed to make them 
equal. The system was built and designed to provide flood control. Like 
anything else, when one uses something for a purpose it was not 
designed for, more often than not it fails. This is true with the 
Missouri River Reservoir System. You cannot put a gallon of water in a 
quart jar and you cannot dismantle the system of dikes and structures, 
open chutes to send water out of the channel, misallocate stored water, 
conduct experiments for fish and birds, and expect to provide flood 
control. The system must be used the way it was designed. It must be 
used for flood control. We have seen what happens when flood control is 
not the top priority for the system. Lives have been ruined, businesses 
lost, and people have died.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Need for Flood Control Infrastructure Improvements
    The decline of our flood control infrastructure is not limited to 
the Missouri River. The lack of emphasis on flood control over the past 
20-plus years and the current inadequate infrastructure must be 
addressed as a national priority. Congress must act together to correct 
the problem.
    Flooding occurs nearly every day somewhere in the United States. In 
his testimony during a recent U.S. Senate Committee on Environment and 
Public Works field hearing, Major General Scott A. Spellmon, Deputy 
Commanding General for Civil and Emergency Operations, United States 
Army Corps of Engineers, opened his remarks with a brief review of the 
many places across the country impacted by flooding this year. He said, 
``At one point, over 300 river gauges indicated a flood stage somewhere 
in the Nation, and there were over 183 reported ice jams on rivers 
across the northern portion of the country.'' He went on to describe 
flooding occurring in Ohio, the Vicksburg Corps District, the Corps' 
Memphis District, North Dakota, Colorado, California, Oregon and of 
course along much of the Missouri River.
    The long list of flooding locations serves to remind us the lack of 
attention to flood control infrastructure over the past several years 
is a national problem, which impacts nearly every corner of the 
country. Floods do not discriminate. They do not choose democrats over 
republicans or vice versa. Floods don't choose rich over poor, north 
over south or east over west. Flood control is not a partisan issue. It 
is an issue impacting the entire country and as such, the entire 
Congress should support prioritizing flood control infrastructure as 
money for infrastructure projects is appropriated.
    In conclusion, this committee needs to remain aware of the ongoing 
flooding along the Missouri River. The flood is not over and the people 
of the Midwest and the River itself will need your leadership, guidance 
and support to recover from this devastating disaster.
    Flood control must be the number one priority for the operation and 
management of the Missouri River. Using the system for fish and bird 
experiments has degraded the effectiveness of the flood control system 
and costs our country billions of dollars.
    There is a nationwide need for improvements to the country's flood 
control infrastructure. Improvements need to start here and now with 
this committee and with Congress. The failure to address the need for 
flood control infrastructure will lead to more flooding of greater 
magnitude and frequency.
    Without flood control transportation and commerce are interrupted, 
sewer and water supply are put at risk, and some of the nation's best 
farmland is left out of production. Without flood control people's 
lives are put at risk and yes, people die. Simply put, without flood 
control, nothing else matters.
    Thank you for this opportunity to provide comments to your 
committee. I look forward to working with each of you to help reduce 
flooding across the nation and provide better protection to the 
American people.

                               __________
                               attachment
    Flooding: Where We Are, Where We've Been and Where We Need to Go
By Tom Waters
April, 2019

    The flood of 2019, wreaked havoc in Missouri, Iowa, Kansas and 
Nebraska. From Omaha to Kansas City over 100 breaches in levees allowed 
the Missouri River to spread across some of the nation's most 
productive farmland and through Missouri and Iowa communities. In each 
case, levees preformed as designed. However, the volume and velocity of 
the River exceeded the design of the flood control system.
    Heavy snow and rain running into the River caused it to rise to 
record levels. Most of the runoff entered the River below Fort Randall 
Dam. Water running into Lewis and Clark Lake (Gavins Point Dam) had to 
be released through the dam, because the Lewis and Clark Reservoir has 
little to no storage available. It is a regulation dam, which means 
what comes into the lake must be released. Compounding the excessive 
rain and snow event was a breach of the Spencer Dam on the Niobrara 
River in Nebraska, allowing even more water to run into Lewis and Clark 
Lake. The system was overwhelmed and could not handle the amount of 
water being released by reservoir operators working for the US Army 
Corps of Engineers.
    The Bomb Cyclone which brought heavy snow and rain happened quickly 
and did not allow time for thousands of citizens to move grain, 
equipment, property and belongings out of harm's way. The result is 
millions of bushels of grain loss, homes destroyed, livestock losses 
and lives ruined. One farmer I talked to loss his home, his machinery, 
and over half his 2018 crop, which was stored in grain bins. He will 
not be able to plant a crop in 2019, and doubts his bank will loan him 
money to recover and continue to farm in the future. This 5th 
generation farmer is only one example of thousands suffering from the 
lack of flood protection needed to prevent Missouri River flooding.
    For decades, the federal government has focused Missouri River 
Operations on fish and wildlife. The U.S. Fish and Wildlife Service has 
used the Endangered Species Act as a huge hammer to force the U.S. Army 
Corps of Engineers to change the way the flood control system is 
operated on the Missouri River, resulting in an incapacitated flood 
control system. The Missouri River is a highly engineered river. In the 
upper basin, above Yankton, South Dakota, the world's largest system of 
dams and reservoirs were built to capture snow melt and spring runoff. 
Below Yankton, levees and smaller lakes and reservoirs provide flood 
protection as water is released from the system above. Sadly, the 
system, as originally designed, was never finished and the Pick-Sloan 
Plan for the Missouri River never reached its intended potential.
    The system was originally built for flood control. Along with flood 
control, engineers designed the lower river to provide navigation to 
move products up and down the river. For decades, the flood control and 
navigation system brought great economic benefits to the Missouri River 
Basin. These two primary purposes also allowed for other benefits to 
develop such as water supply, hydropower, irrigation, water quality 
control, and recreation, which includes fish and wildlife.
    In 1973, things began to change. With the passage of the Endangered 
Species Act the Corps of Engineers began changing structures in the 
river, which were designed to provide for a 300, wide and 9, deep 
channel. The Corps began notching dikes, revetments and other 
structures designed to control the flow of the river and provide flood 
control and navigation in the lower river. The notching continues 
today, 46 years later. Other changes have taken place over the years. 
Drought periods impacted the recreation industry in the upper basin and 
upper basin states began to push for changes in the way reservoir 
levels were managed. This kicked off a period of great contention 
between upper and lower basin states.
    As calls for changes in the Missouri River Master Water Control 
Manual, were made by upper basin states, some environmental groups saw 
an opportunity to take-over the management of the River. They pressed 
the U.S. Fish and Wildlife Service to get involved. Three threatened 
and endangered species were identified and the power of the endangered 
species act would soon cause a dramatic shift in the way the U.S. Army 
Corps of Engineers operated the system. Instead of using the highly 
engineered system for flood control and navigation as originally 
designed, the Corps of Engineers found itself dismantling the system 
piece by piece through increased dike notching and conducting 
experiments for the Fish and Wildlife Service. These experiments are 
designed to ``connect the river to the floodplain'' or in more 
understandable terms ``designed to cause flooding along the Missouri 
River''!
    Failed experiment after failed experiment over the past 20-plus 
years has substantially changed the previously highly engineered river. 
Structures which once provided a stable channel have been weakened, and 
in some cases removed. Side channels and chutes have been opened to 
allow the River to flow uncontrolled and cause erosion and scouring. 
Flood control has been diminished and riverboat pilots find it hard to 
navigate the channel, which has become dangerous at many locations. A 
system once used to provide flood control is now being use as a super-
sized science experiment for two birds and a fish. As a result, we are 
seeing greater floods more often, human lives have been lost and people 
are enduring great suffering. All the while, no scientific evidence can 
be found to show any of the changes have even helped the fish and two 
birds!
    The U.S. Army Corps of Engineers has spent over 2/3 of a Billion 
Dollars making changes to the River since 2005, in the name of Missouri 
River Fish and Wildlife Recovery. Meanwhile, we continue to see more 
water entering the River at higher velocities. Note the Graph below 
from the Corps of Engineers:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Prior to 1973, the runoff above Sioux City reached the upper decile 
level only three time, while since 1973, runoff has been in the upper 
decile 11 times. Clearly, more water is coming into the system, more 
often.
    Changes must be made! The flood of 2019, can more accurately be 
describe as the flood of 1973 through 2019. Dike notching began in 
1973, the first of many changes to the original river design. In 2004, 
congress approved changes to the Missouri River Master Water Control 
Manual which no longer held flood control as the primary purpose for 
the flood control system. Instead, the Corps is forced to try to 
balance all the purposes of the system to the determent of their 
ability to provide flood protection.
    When one uses something in a way it was not designed to be used it 
often fails. When hooking a tractor to a plow too large for the 
tractor, the tractor may pull it for a short time, but eventually the 
tractor will give out and likely ruin the engine. Trying to put a 
gallon of water into a quart jar only causes a mess on the table top. 
Likewise, using the flood control system for science experiments is 
failing and making a mess of the Missouri River Basin.
    Many want to blame the Corps of Engineers for the recent flooding 
and floods of the past. After all, the Corps operates the flood control 
system. Right? While it is true the Corps operates the system, we will 
do well to remember the Corps of Engineers is the United States Army 
Corps of Engineers. These solider engineers follow orders and those who 
follow orders best rise to the top of the Corps. Colonels do what 
Generals order them to do and Generals do what the Generals above them 
order them to do. We must understand where the orders to conduct 
science experiments with the Missouri River flood control system came 
from.
    Ultimately, the Corps of Engineers' orders come from Congress. 
Congress needs to change the orders! Pressure from well-funded 
environmental groups, over the years, has caused Congress to blindly 
make changes in the way the Missouri River system is operated and 
removed flood control as the system's top priority.
    Flood Control MUST be the top priority for the operation of the 
Missouri River flood control system. Flood control was the original 
purpose for building the system back in 1944. Flood control is even 
more necessary today than it was in 1944. Inflows into the system are 
greater and the system has not been improved to meet the challenges of 
higher flows and greater velocities. The system has been modified to 
reduce flood control rather than improve flood control. The tipping 
point has been reached and people have suffered enough!
    By making flood control again the top priority for the management 
of the system, infrastructure improvements can be made and flooding can 
be reduced--even eliminated. We cannot build an umbrella over the 
coastlines to protect people from hurricanes and we cannot bolt 
together the fault lines to protect people from earthquakes, but we can 
build flood control infrastructure to protect people and property from 
flooding. They do it in Holland and China, and we can do it here in the 
United States. The key is for Congress to make flood control the 
priority.
    Making flood control the top priority for management of the 
Missouri River should be easy for Congress to do. Following flood after 
flood along the Missouri River congress has spent millions upon 
millions of dollars for recovery. Congress needs to spend money up 
front to prevent the damages in the first place. Improving 
infrastructure now can reduce or eliminate the expense of recovery 
later.
    Some will say let's just move everyone and everything out of the 
floodplain and allow the river to run wild. These uneducated scholars 
do not understand the economic value of the farmland found in the 
nation's bottomlands. In Missouri alone, over one third of the crop 
production is located in the fertile river valleys. The highly 
productive soil found adjacent to the nation's rivers makes our country 
strong. A hundred thousand acres of river bottomland can produce enough 
calories to feed over 1 Million people for an entire year. What a waste 
it would be to allow rivers to run wild and destroy such a valuable 
part of our nation's strength.
    Food production makes the United States strong. When we want to put 
pressure on other countries, we use food to encourage them to do the 
right thing. When we want to help other countries, we send them food. 
Food is the strength and leverage we have many other countries only 
wish they had. Protecting our food production in turn protects all 
Americans. Sure, the United States has the strongest military in the 
world, but as a peaceful nation, food is the most powerful tool we can 
use before turning to the use of bullets.
    Following the 1993, and 2011, floods on the Missouri River, the 
greatest recovery expenses were related to agriculture. It only makes 
sense to protect the rich farmland along the River. To do this, flood 
control must be the top priority and the ludicrous practice of 
``connecting the river to the floodplain'' must stop. Levees and other 
flood control infrastructure must be improved and the system must be 
managed to provide the protection it was designed to provide.
    It took a long time to tear down the once highly designed system 
and it will take time to bring it back to the level of protection it 
once provided. But with Congress designating flood control as the top 
priority, these changes can begin. At the same time, fish and birds can 
survive, a safe water supply can continue, barges can ply the river and 
the other uses can flourish. Making flood control the top priority does 
not mean an end to all other uses and purposes for the River. It simply 
means the U.S. Army Corps of Engineers will use the system as 
originally designed to protect human lives and property.
    Meanwhile, the flooding for this year is likely not over. The 
system is primed for more flooding and the Missouri River could reach 
even higher levels at some locations than we saw earlier this year. A 
second storm in the plains of the upper basin dumped more rain and 
snow, all of which must eventually move through the system. The Corps 
of Engineers will have to increase releases to move water from the 
upper basin reservoirs. In addition, The Corps will need to begin 
making releases from reservoirs in Kansas which have been holding water 
back to aid with flooding downstream of Kansas City. The combination of 
releases from Kansas and the Upper Basin will keep the river high 
through the spring and summer. Heavy rains anywhere along the river 
will likely cause additional flooding this year. With over 100 levees 
already breached and communities and property left unprotected, the 
combination of reservoir releases and heavy rainfall this spring or 
summer could bring even more heartache and devastation to the Missouri 
River Basin. This, as recovery begins and the people along the Missouri 
River seek help to put their lives and livelihoods back together.
    The Congressional Delegations in the Midwest cannot do it by 
themselves. It will take the entire Congress to understand and fix the 
problem. The decline of our flood control infrastructure is not limited 
to the Missouri River. Flooding occurs nearly every day somewhere in 
the United States. In his testimony during a recent U.S. Senate 
Committee on Environment and Public Works field hearing, Major General 
Scott A. Spellmon, Deputy Commanding General for Civil and Emergency 
Operations, United States Army Corps of Engineers, opened his remarks 
with a brief review of the many places across the country impacted by 
flooding this year. He said, ``At one point, over 300 river gauges 
indicated a flood stage somewhere in the Nation, and there were over 
183 reported ice jams on rivers across the northern portion of the 
country.'' He went on to describe flooding occurring in Ohio, the 
Vicksburg Corps District, the Corps' Memphis District, North Dakota, 
Colorado, California, Oregon and of course along much of the Missouri 
River. The long list of flooding locations serves to remind us the lack 
of attention to flood control infrastructure over the past several 
years is a national problem, which impacts nearly every corner of the 
country.
    The lack of emphasis on flood control over the past 20-plus years 
and the current inadequate infrastructure must be addressed as a 
national priority. Congress must act together to correct the problem. 
Floods do not discriminate. They do not choose democrats over 
republicans or vice versa. Floods don't choose rich over poor, north 
over south or east over west. Flood Control is not a partisan issue. It 
is an issue impacting the entire country and as such, the entire 
Congress should support prioritizing flood control first. Without flood 
control, nothing else matters.

Tom Waters is a seventh-generation farmer and Chairman of the Missouri 
Levee and Drainage District Association. He operates his family farming 
business in the Missouri River bottoms East of Kansas City, Missouri.

    Mrs. Napolitano. Thank you very much, Mr. Waters.
    Now the Chair recognizes Ms. Julie Hill-Gabriel.
    Ms. Hill-Gabriel. Chairwoman Napolitano, Ranking Member 
Westerman, and members of the subcommittee, thank you for the 
opportunity to be here today.
    I am Julie Hill-Gabriel, the vice president for water 
conservation at the National Audubon Society, and on behalf of 
our more than 1 million members, 23 State offices, and over 400 
independent local chapters, Audubon's mission is to protect 
birds and the places they need for today and tomorrow.
    Just like people, birds need water, and because of that, 
Audubon has made water conservation a core part of our 
conservation strategy. We work in places that are globally 
significant for birds and people, like the Colorado River and 
network of saline lakes in the arid West, the Great Lakes and 
the Mississippi River and its delta, the gulf coast, the 
Delaware River, the Everglades, and the Platte River, among 
many other places.
    And aquatic ecosystems are really the liquid heart of 
America's environment. They provide drinking water for hundreds 
of millions of people while also showing innumerable benefits 
for wildlife and our Nation's economy.
    As we discuss implementation of past Water Resources 
Development Acts and look ahead to future legislation regarding 
water infrastructure, it is critical to prioritize the 
investments in the aquatic ecosystem mission of the U.S. Army 
Corps of Engineers.
    One international model of success for ecosystem 
restoration can be found in America's Everglades. It truly is 
the nonpartisan issue in the State of Florida where you have 
local, State, and Federal decision makers all acknowledging the 
benefits of restoration efforts not only for the wildlife that 
made the Everglades famous, but for addressing issues like the 
toxic blue-green algae blooms, red tide, and seagrass die-outs 
that have plagued Florida's coast in recent years.
    And the economic consequences of these environmental 
catastrophes have truly demonstrated the inextricable link 
between the environment and the economy, and Everglades 
projects are estimated to produce a four-to-one return on 
investment.
    Now, equally important are projects like those along the 
coast of Louisiana and the Mississippi River Delta where 
Audubon has owned and managed over 26,000 acres for almost a 
century.
    A recent study by Audubon and our partners show that the 
coast of Louisiana is one of the most important places in the 
world for wildlife habitat, some species having 50 percent of 
their population using the coast for nesting and breeding 
habitat.
    The restoration and protection of the Mississippi River 
Delta is often advanced with WRDA legislation and is essential 
to keeping this important ecosystem from collapse.
    Now, the recent success and momentum of ecosystem 
restoration efforts can largely be credited to the work of this 
committee, getting us back on track. Passing WRDA bills every 
other year has enabled us to see significant progress and see 
some of these ecosystem projects now become a reality.
    In addition to advancing critical ecosystem restoration 
projects, provisions in WRDA 2016 and 2018 present important 
opportunities to incorporate the use of more resilient natural 
infrastructure options, to reduce the impacts of storms, 
flooding or coastal erosion, and to promote reliable water 
supply.
    These can include nature-based options, like restoring sand 
dunes, wetlands, oyster reefs, and coastal forests, and they 
can be used in place of or alongside traditional 
infrastructure, like seawalls, jetties, and levees.
    In 2018, Audubon released a natural infrastructure report 
that highlighted the benefits of a number of projects from 
sediment diversions in Louisiana to living shorelines in 
California and North Carolina, to restoring breakwater oyster 
reef habitat in Florida, and all of these showed the 
significant benefits of this type of infrastructure.
    When looking for options to reduce the impact of storms, 
the National Oceanic and Atmospheric Administration has found 
that across the U.S. coastal wetlands are estimated to provide 
more than $23 billion in storm protection services every year, 
and in watersheds that contain 15 percent wetlands, peak floods 
can be reduced by up to 60 percent.
    Despite the clear statutory language in recent WRDA bills 
directing the Army Corps to consider natural infrastructure 
alternatives, very few of these measures are being implemented.
    More effort is needed to ensure that the Army Corps can 
capture the multiple benefits provided by these measures and to 
require the Corps to conduct a full evaluation of a natural 
infrastructure alternative in each study addressing flood and 
storm damage reduction.
    Audubon stands ready to work with the Army Corps and the 
subcommittee and other partners to find innovative and 
efficient ways to advance water infrastructure and help protect 
birds and the places they need.
    Thank you for allowing me to be here today because we truly 
believe that where birds thrive people prosper.
    [Ms. Hill-Gabriel's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Julie Hill-Gabriel, Vice President for Water 
                 Conservation, National Audubon Society
    Chair Napolitano, Ranking Member Westerman, and Members of the 
Subcommittee, thank you for the opportunity to be present here today, 
representing the National Audubon Society (Audubon), to discuss the 
status and future needs of Water Resources Development Acts. Audubon's 
mission is to protect birds and the places they need, today, and 
tomorrow. Audubon represents more than one million members and has 462 
affiliated chapters, 22 state offices, and 41 nature centers across the 
country.
    My name is Julie Hill-Gabriel, and I am Audubon's Vice President 
for Water Conservation, based in Washington, DC. I coordinate Audubon's 
water strategy across the United States. Before beginning this new role 
in 2018, I worked in Florida for 11 years as Audubon Florida's Deputy 
Director for policy, leading our Everglades restoration efforts and 
working closely with the U.S. Army Corps of Engineers (Army Corps), as 
the federal sponsor for these restoration efforts. We appreciate the 
consistency of the U.S. House of Representatives Committee on 
Transportation and Infrastructure in passing Water Resources 
Development Acts on a biennial basis since 2014 and the willingness to 
conduct important oversight hearings.
    Protecting waterbird populations is a foundation of the 
establishment of the National Audubon Society. In 1896, Harriet 
Hemenway and Minna B. Hall formed the Massachusetts Audubon Society 
amid outrage over the slaughter of millions of waterbirds, particularly 
egrets and other wading birds who were killed for the harvest of their 
feathers. The first Audubon Societies were formed to tackle the dire 
threats that birds faced from prolific plume hunting, and to obtain 
strong legal protections for birds \1\. By 1898, Audubon Societies were 
established in 14 states, including New York, Pennsylvania, Ohio, 
Texas, and California. The present-day Audubon began as the National 
Association of Audubon Societies in 1905 as an umbrella organization 
for these state societies. Theodore Roosevelt was an early, strong 
supporter of Audubon and Audubon worked closely with the President to 
establish the first bird sanctuary in Florida, which became the basis 
for the National Wildlife Refuge System.
---------------------------------------------------------------------------
    \1\ Graham, Frank, Jr. (1990). The Audubon Ark. University of Texas 
Press, Austin, Texas.
---------------------------------------------------------------------------
    In 2018, Audubon celebrated the ``Year of the Bird,'' alongside 
National Geographic, Cornell Lab of Ornithology, and more than 180 
other partners, including state agencies, zoos, businesses and 
conservation groups, to mark the 100-year anniversary of the Migratory 
Bird Treaty Act (MBTA). As Audubon recognized this centennial and 
marked the progress made since the passage of this landmark 
conservation law, we recommitted our organization to continue the work 
of our founders as we seek to protect birds over the next century.
    With an eye toward this history, Audubon's water strategy focuses 
on protecting and restoring habitat that is crucial to birds' survival. 
Among other places, we focus our efforts in the Arid West through 
conservation around the Colorado River and the network of Saline Lakes, 
the Mississippi River and its Delta, the Great Lakes, the Everglades, 
the Delaware River, the Platte River and the Rio Grande. Audubon works 
to ensure that water conservation projects and programs that benefit 
birds are included in WRDAs. Audubon also works collaboratively with 
the Army Corps in many capacities, including through the Continuing 
Authorities Program, in the Upper Mississippi River Systemic Forest 
Stewardship Plan and through data collection and monitoring. This 
testimony highlights some of these issues that have received attention 
in recent WRDA bills.
  1. Ecosystem Restoration Mission of the U.S. Army Corps of Engineers
    The Army Corps has three primary mission areas: navigation, flood 
risk management, and aquatic ecosystem restoration. Army Corps 
ecosystem restoration activities seek to restore significant ecosystem 
function, structure, and dynamic processes. Ecosystem restoration 
efforts often involve an examination of the problems contributing to 
the system degradation, and the development of alternative means for 
their solution. Continued commitment of resources to this mission area 
will enable the Army Corps to make progress on critical ecosystem 
restoration efforts like those discussed in more detail below.
Restoring America's Everglades:
    The Everglades is a unique ecological treasure that provides the 
drinking water for one in three Floridians. As projected population 
growth and impacts from climate change put more pressure on South 
Florida's environment, Everglades restoration is increasingly urgent. 
Clean and sufficient freshwater forms a critical component of Florida's 
tourism economy. Recent toxic blue-green algal blooms, seagrass die-
offs and outbreaks of red tide have occurred where the alteration of 
the ecosystem limits water management options. Significant economic 
losses have transpired as a result of these water quality and water 
management disasters.
    The Comprehensive Everglades Restoration Plan (CERP) was authorized 
in WRDA 2000 and represents the Army Corps' largest aquatic ecosystem 
restoration initiative to move the right amount of freshwater to the 
right places at the right time. After nearly 20 years of progress and 
bi-partisan support, five major Everglades infrastructure projects were 
recently completed or are expected to be complete by the end of 2020.
    After a devastating flood in 1947, the Central and Southern Florida 
Flood Control Project (C&SF Project) was authorized as part of the 
Flood Control Act of 1948. After the implementation of the C&SF project 
resulted in both periods of drought and flooding and a decline of 90% 
of wading birds in the Everglades \2\, Congress authorized a 
Comprehensive Review Study of the C&SF project in 1992 (Restudy). The 
purpose of the Restudy was to modify the C&SF project to restore the 
Everglades and Florida Bay ecosystems while providing for other water-
related needs of the region. The Restudy culminated in CERP, which was 
then authorized by Congress in 2000. Each component of CERP is 
identified by the Army Corps as part of the C&SF project and CERP 
projects are funded under a line item for ``South Florida Ecosystem 
Restoration.'' CERP was broken up into more than 60 components, and 
eight of these were authorized in WRDA 2007, 2014, and 2016. Three 
additional components are in planning stages and expected to have a 
Chief of Engineers Report within the next two years. Because individual 
projects are all included within a single appropriations line item, and 
because CERP itself is an extension of the original C&SF Project, these 
components build upon ongoing construction work and should not be 
considered new construction or new planning starts.
---------------------------------------------------------------------------
    \2\ Davis, S., and J.C. Ogden. (1994). Everglades: The Ecosystem 
and its Restoration. St. Lucie Press, US
---------------------------------------------------------------------------
    A study conducted by Mather Economics, Measuring the Economic 
Benefits of Everglades Restoration,\3\ demonstrates the potential 
economic benefits from Everglades restoration:
---------------------------------------------------------------------------
    \3\ Mather Economics. (2010). Measuring the Economic Benefits of 
Everglades Restoration: An Economic Evaluation of Ecosystem Services 
Affiliated with the World's Largest Ecosystem Restoration Project. 
Mather Economics, 43 Woodstock Street, Roswell, Georgia 30075.

        ``Our analysis strongly suggests that restoration of the 
        Everglades as described and planned in [Comprehensive 
        Everglades Restoration Plan] will have large economic benefits. 
        Our best estimate is that restoration will generate an increase 
        in economic welfare of approximately $46.5 billion in net 
        present value terms that could range up to $123.9 billion. The 
        return on investment, as measured by the benefit-cost ratio, 
        assuming a cost of restoration of $11.5 billion, is also high 
        and significant, 4.04, which means for every one dollar 
        invested in Everglades restoration $4.04 dollars are generated. 
        Everglades restoration will also have an incremental impact on 
        employment of about 442,000 additional workers over 50 years. 
        In addition, the Corps of Engineers estimates there will be 
        22,000 jobs created as a result of the actual restoration 
        projects. Throughout our analysis, we have taken a very 
        conservative approach to estimation. Accordingly our best 
        estimates almost surely understate the return on investment of 
---------------------------------------------------------------------------
        Everglades restoration.''

    The Central Everglades Planning Project (CEPP) that was authorized 
in WRDA 2016, was a culmination of important planning efficiencies. The 
project planned multiple components together to understand their 
interconnected impact, it included more robust technical input from 
stakeholders, and the plan was developed in 18 months, which became a 
model for the Army Corps' 3x3x3 process which requires projects to be 
developed in 3 years, with $3 million, with review by 3 levels Army 
Corps leadership.
    Through one of the most successful examples of the use of authority 
created by Section 203 of WRDA 1986 (P.L. 99-662), the non-federal 
sponsor for CERP, the South Florida Water Management District, prepared 
a CEPP Post Authorization Change Report Feasibility Study and Draft 
Environmental Impact Statement and recommended the additional of the 
Everglades Agricultural Area Reservoir to the CEPP project. The study 
was determined to be feasible by the Assistant Secretary of the Army 
for Civil Works and was included in WRDA 2018.
    WRDA 2018 Section 1308 directed that construction should commence 
``only after the Secretary prepares a report that addresses concerns, 
recommendations, and conditions identified by the Secretary,'' allowing 
90 days for completion of that report. While more than six months has 
passed, the report has still not been delivered to Congress.
    The EAA Reservoir will store and clean water from Lake Okeechobee 
and then reroute it south. This has the dual benefit of diminishing 
harmful discharges to the coastal estuaries east and west of Lake 
Okeechobee that fuel algal blooms, and instead deliver clean water to 
Everglades National Park and Florida Bay where it is desperately 
needed.
    Another issue that can impact the benefits that can be achieved 
from Everglades restoration is the need to secure the federal cost-
share portion of Operation, Maintenance, repair, replacement and 
rehabilitation (OMRR&R) funds for completed Everglades restoration 
projects.
    Per WRDA 2000 section 601(e)(4), the Army Corps and the non-federal 
sponsor are each responsible for 50% of the costs of OMRR&R. ``(4) 
OPERATION AND MAINTENANCE--Notwithstanding section 528(e)(3) of the 
Water Resources Development Act of 1996 (110 Stat. 3770), the non-
Federal sponsor shall be responsible for 50 percent of the cost of 
operation, maintenance, repair, replacement, and rehabilitation 
activities authorized under this section.''
    The federal contribution in this context is therefore not a 
reimbursement--it is an obligation under CERP. Funds not received from 
the Army Corps pose a direct impact to the local sponsor and taxpayers, 
since these funds do not come from state appropriations. While it was 
reassuring to see some OMRR&R funding in the FY20 budget, not receiving 
this funding consistently could erode the agreed-upon partnership 
between the Army Corps and the non-federal sponsor and cast unnecessary 
doubt on the ability to gain the needed benefits from future projects.
    Audubon appreciates the consistent support from this committee for 
Everglades restoration and looks forward to working together to build 
upon the momentum of restoration success.
Addressing Asian Carp in the Great Lakes:
    The Great Lakes ecosystem is another globally important place for 
birds where Audubon focuses its water conservation efforts. The Great 
Lake includes about 20% of the freshwater on Earth and provide a source 
of freshwater for 30 million Americans. One of the greatest ecological 
threats to the health of the Great Lakes is the invasion of invasive 
exotic Asian carp. This species poses a serious threat to the 
ecological health of the Chicago Area Waterways System and the Great 
Lakes, and the people and economies these waters support. Right now, 
Asian carp have already wreaked havoc on the Mississippi and Illinois 
Rivers, outcompeting native fish for food and habitat, and creating a 
safety threat for people who recreate on these waterways. The 
environmental and economic consequences are significant. The Great 
Lakes support a $7 billion fishery; a $16 billion tourism industry; 
waterfowl production areas that support a hunting economy of $2.6 
billion a year; and hunting, fishing, and wildlife observation that 
generates approximately $18 billion a year.
    The Great Lakes Mississippi River Interbasin Study-Brandon Road 
Report (GLMRIS-BR) evaluated options to prevent the upstream transfer 
of Asian carp. A Chief of Engineers Report for this project was 
recently signed after encouragement in WRDA 2018, and authorizing this 
project should be a top priority in future WRDA legislation.
    Asian carp are a real threat to the Great Lakes that demand quick 
action. There is no turning back if Asian carp invade the Great Lakes. 
It is much easier to control and prevent Asian carp at one relatively 
small choke point than in five massive lakes. The recommended plan will 
create additional levels of defense to stop Asian carp from migrating 
through the Chicago Area Waterway System.
Protecting the Delaware River Watershed:
    In the Water Infrastructure Improvements for the Nation Act, (PL 
114-332) that included WRDA 16, the Delaware River Basin Conservation 
Act (DRBCA) created the Delaware River Basin Restoration Program 
(DRBRP) in the U.S. Fish and Wildlife Service, clearly affirming the 
national priority of restoring the Delaware River Watershed. The DRPRP 
provides a competitive grant and technical assistance program to 
support on-the-ground work by state and local governments, non-profit 
organizations, and universities.
    The Delaware River Basin Commission is a federal-state compact 
agency tasked with overseeing a unified approach to managing the 
basins' water resources. The Army Corps is the federal representative 
for this commission. Despite the recognition of importance of the 
commission in the DRBCA, full funding for the Army Corps' participation 
has not been appropriated in recent years. In order to advance the 
goals of DRBCA, support for both the DRBRP alongside the DRBC is 
imperative.
    Projects that benefit the Everglades, the Delaware River Watershed 
and the Great Lakes are just a small portion of the many projects and 
programs that advance ecological benefits through WRDA bills. As the 
future needs for WRDA legislation take shape, ecosystem restoration 
must remain on par with other Army Corps mission areas and be 
prioritized. Restoring America's great aquatic ecosystems are 
fundamental for wildlife, the environment and local economies.
           2. Facilitating the Use of Natural Infrastructure:
    In 2018, Audubon released a Natural Infrastructure Report: How 
Natural Infrastructure Can Shape a Resilient Coast for Birds and 
People.\4\ This report demonstrated how federal investment in natural 
infrastructure will help increase preparedness of coastal communities 
and economies, while benefitting fish and wildlife, which also often 
provide a critical foundation for coastal economies. Natural 
infrastructure alternatives can also provide more resilient options for 
inland flood attenuation and water storage in places like the Colorado 
River basin.
---------------------------------------------------------------------------
    \4\ National Audubon Society. (2018). Natural Infrastructure 
Report: How Natural Infrastructure Can Shape a Resilient Coast for 
Birds and People. Retrieved from https://www.audubon.org/sites/default/
files/audubon_infrastructure_jan192018.pdf.
---------------------------------------------------------------------------
    Provisions in WRDA 16 and WRDA 18 present important opportunities 
to incorporate the use of more resilient natural infrastructure options 
to address extreme weather events including flood risk management 
projects and hurricane and storm risk reduction projects.
    WRDA 2016, Section 1184 states:

        In studying the feasibility of projects for flood risk 
        management, hurricane and storm damage reduction, and ecosystem 
        restoration, the Corps of Engineers (with the consent of the 
        nonfederal sponsor) must consider: (1) natural features created 
        through physical, geological, biological, and chemical 
        processes over time; (2) human-designed, nature-based features 
        engineered and constructed to provide risk reduction by acting 
        in concert with natural processes; and (3) nonstructural and 
        structural measures.

    WRDA 2018, Section 1149 (c) states:

        NATURAL INFRASTRUCTURE.--In carrying out a feasibility report 
        developed under section 905 of the Water Resources Development 
        Act of 1986 (33 U.S.C. 2282) for a project for flood risk 
        management or hurricane and storm damage risk reduction, the 
        Secretary shall consider the use of both traditional and 
        natural infrastructure alternatives, alone or in conjunction 
        with each other, if those alternatives are practicable.

    Despite these clear statutory directions, the Army Corps often 
screens out natural infrastructure alternatives early in the planning 
process, before their benefits can be fully analyzed. And it is 
extremely rare for the Army Corps to select a natural infrastructure 
alternative when compared with more traditional options to address 
flood and storm risks.
    According to a March 2019 GAO report,\5\ the agency faces 
considerable challenges in developing cost and benefit information for 
some types of natural infrastructure. While the Army Corps may consider 
direct incidental benefits such as improving ecosystems and water 
filtration, they often have difficulty monetizing such benefits. 
Additional information must be gathered in order to ensure that the 
Corps can better account for both indirect and direct natural 
infrastructure benefits and this should be incorporated into their 
benefit-cost analysis. The inability to properly monetize benefits is a 
consistent challenge preventing the Army Corps from selecting more 
natural infrastructure project alternatives.
---------------------------------------------------------------------------
    \5\ U.S. Government Accountability Office. (2019). U.S. Army Corps 
of Engineers. Consideration of Project Costs and Benefits in Using 
Natural Coastal Infrastructure and Associate Challenges. (Publication 
No. GAO-19-319). Retrieved from GAO Reports Main Page via GPO Access 
database: http://www.gpoaccess.gov/gaoreports/index.html.
---------------------------------------------------------------------------
    Natural infrastructure alternatives can include nature-based 
systems such as restoring sand dunes, wetlands, oyster reefs and 
coastal forests in place of traditional human-built projects such as 
seawalls, jetties, levees, groins, bulkheads and riprap. This kind of 
``grey'' infrastructure has traditionally been promoted as the best 
long-term, cost-effective approach to flood management. But natural 
infrastructure has been shown to provide significant, long-term and 
cost-competitive benefits for challenges such as flood reduction. For 
example, research published in the journal Ocean & Coastal Management 
reported that the average construction costs between natural and grey 
infrastructure are similar, but there are lower replacement costs with 
living shorelines, a form of natural infrastructure.\6\
---------------------------------------------------------------------------
    \6\ Bilkovic, D. M., Mitchell M., Mason P., and Duhring K. (2016). 
The Role of Living Shorelines as Estuarine Habitat Conservation 
Strategies. Coastal Management. Vol. 44 (3): 161-174.
---------------------------------------------------------------------------
    The National Oceanic and Atmospheric Administration (NOAA) and the 
National Fish and Wildlife Foundation have also identified several 
flood-reduction and resiliency benefits from a wide array of natural 
infrastructure systems. ``Natural features such as coastal marshes and 
wetlands, dune and beach systems, oyster and coral reefs, mangroves, 
forests, coastal rivers, as well as barrier islands, help minimize the 
impacts of storms, rising sea levels and other extreme events on nearby 
communities and infrastructure.'' \7\
---------------------------------------------------------------------------
    \7\ National Oceanic and Atmospheric Administration and National 
Fish and Wildlife Foundation. (2018). National Fish and Wildlife 
Foundation and NOAA announce new coastal resilience funding. Retrieved 
from https://www.noaa.gov/media-release/national-fish-and-wildlife-
foundation-and-noaa-announce-new-coastal-resilience-funding.
---------------------------------------------------------------------------
Wetlands and reefs:
    The significant benefits provided by natural infrastructure have 
been analyzed by the private sector, including the insurance specialist 
Lloyd's of London, which concluded in a 2016 report that, ``[t]here is 
strong evidence that reefs and wetlands help protect coastlines under 
everyday circumstances by reducing wave energy and raising 
elevations.'' \8\ State agencies in flood-prone areas along the 
Atlantic coast concur. The Mid-Atlantic Regional Council on the Ocean, 
a partnership of five Mid-Atlantic States, noted that, ``[c]oastal 
wetlands can serve as an initial but important line of defense to 
protect coastal cities, towns and infrastructure from climate-related 
impacts by storage, conveyance, and wave attenuation.'' \9\ Nationwide, 
NOAA has found that peak floods can be reduced by up to 60 percent in 
watersheds that contain 15 percent wetlands.\10\ NOAA estimates that 
across the United States, coastal wetlands are estimated to provide 
$23.2 billion in storm protection services every year.\11\
---------------------------------------------------------------------------
    \8\ Lloyd's Tercentenary Research Foundation. (2016). Coastal 
Wetlands and Flood Damage Reduction: Using Risk Industry-Based Models 
to Assess Natural Defenses in the Northeastern USA.
    \9\ Environmental Law Institute for the Mid-Atlantic Regional 
Council on the Ocean. (2017). Developing Wetland Restoration Priorities 
for Climate Risk Reduction and Resilience in the MARCO Region. 
Retrieved from https://www.eli.org/sites/default/files/eli-pubs/
developing-wetland-restoration-priorities-climate-risk-reduction-and-
resilience-marco-region.pdf.
    \10\ National Oceanic and Atmospheric Administration. Apply It: 
Understand--Conserving Coastal Wetlands for Sea Level Rise Adaptation. 
https://coast.noaa.gov/applyit/wetlands/understand.html. Accessed July 
1, 2019.
    \11\ National Oceanic and Atmospheric Administration, Office for 
Coastal Management. Fast Facts: Natural Infrastructure. https://
coast.noaa.gov/states/fast-facts/natural-infrastructure Accessed July 
1, 2019.
---------------------------------------------------------------------------
    Wetlands provided significant flood-buffering benefits to the 
states impacted by Hurricane Sandy. According to an analysis in 
Scientific Reports, coastal wetlands reduced flood heights and thus 
avoided more than $625 million in flood damages across the 12 coastal 
states affected by Hurricane Sandy, from Maine to North Carolina.\12\ 
Among the four states with the greatest wetlands cover--Maryland, 
Delaware, New Jersey, and Virginia--wetlands are estimated to have 
reduced flood damages between 20 to 30 percent. Coastal wetlands in 
Virginia, Maryland, and Delaware also helped save the largest number of 
roadways from Sandy's damaging impacts--about 833 miles. Overall, more 
than 1,400 miles of roads and highways were protected by wetlands 
during Hurricane Sandy.\13\
---------------------------------------------------------------------------
    \12\ Narayan, S, et al,. (2017). The Value of Coastal Wetlands for 
Flood Damage Reduction in the Northeastern USA. Scientific Reports. No. 
9463.
    \13\ PBS News Hour. (2017). Wetlands stopped $625 million in 
Hurricane Sandy. Can they help Houston? Retrieved from https://
www.pbs.org/newshour/science/wetlands-stopped-650-million-property-
damage-hurricane-sandy-can-help-houston.
---------------------------------------------------------------------------
Eelgrass and seagrass beds:
    A variety of experts have evaluated the coastal resiliency benefits 
provided by eelgrass and seagrass beds. The National Institutes of 
Health reported that eelgrass can slow erosion and stabilize sediment 
loss by ``attenuating hydrodynamic energy from currents and waves, and 
thereby trap suspended sediment and cause sediment accretion.'' \14\ 
The roots of seagrass beds have been shown to mitigate erosion by 
decreasing or slowing wave impacts on nearshore areas.\15\
---------------------------------------------------------------------------
    \14\ Nordlund LM, Koch EW, Barbier EB, Creed JC (2016). Seagrass 
Ecosystem Services and Their Variability across Genera and Geographical 
Regions. PLoS ONE Vol.11 (10).
    \15\ Norlund, L.M., et al. (2018). Seagrass Ecosystem Services--
What Next? Marine Pollution Bulletin. Vol. 134 (145-151).
---------------------------------------------------------------------------
Oyster reefs:
    The American Planning Association (APA) and American Society of 
Civil Engineers (ASCE) examined elements of naturally resilient 
communities and concluded that oyster reefs can have a significant 
impact in moderating storm damages on nearby communities. ``Oyster 
reefs serve as natural breakwaters--their physical structure absorbs 
the force of waves, creating calmer waters on the shoreline side of the 
reef and reducing the impacts of erosion. Studies from the Gulf of 
Mexico have found that oyster reefs are capable of reducing the energy 
of high power waves by as much as 76 to 93 percent.'' \16\
---------------------------------------------------------------------------
    \16\ Naturally Resilient Communities. Oyster Reefs. A http://
nrcsolutions.org/oyster-reefs/. Accessed July 5, 2019.
---------------------------------------------------------------------------
    In fact, living shorelines constructed of oyster reefs have proven 
to be more effective than bulkheads in protecting shoreline areas. 
Researchers reported in the journal Ocean & Coastal Management that in 
North Carolina's Outer Banks, living shorelines protected nearby 
shoreline areas from the impact of Hurricane Irene, whereas 75 percent 
of regional bulkheads were damaged.\17\
---------------------------------------------------------------------------
    \17\ Gittman, R.K., A.M. Popowich, J.F. Bruno, and C.H. Peterson. 
(2014). Marshes with and without sills protect estuarine shorelines 
from erosion better than bulkheads during a Category 1 hurricane. Ocean 
& Coastal Management Vol. 102 (94-102).
---------------------------------------------------------------------------
Barrier islands, spits and dunes:
    In their evaluation of naturally resilient communities, the APA and 
ASCE examined the role that barrier islands and beaches can play in 
protecting upland communities from storm impacts, finding that 
``[b]eaches are capable of reducing impacts from coastal storms by 
acting like a buffer along the coastal edge and absorbing and 
dissipating the energy of breaking waves, either seaward or on the 
beach itself. Dunes serve as more of a barrier between the water's edge 
and inland areas, taking the brunt of larger storm surges.'' \18\
---------------------------------------------------------------------------
    \18\ Naturally Resilient Communities. Beaches and Dunes. http://
nrcsolutions.org/beaches-and-dunes/. Accessed July 5, 2019.
---------------------------------------------------------------------------
Additional benefits from natural infrastructure:
    In addition to providing storm-buffering benefits that can be as or 
more effective than grey infrastructure, there are benefits provided by 
natural infrastructure that are often absent in grey infrastructure, 
making natural infrastructure an even more appealing approach to 
floodplain management.
    Natural Infrastructure can provide habitat that supports the 
economically vital recreational and commercial seafood industries. 
Wetlands not only absorb impacts from storms, thereby protecting upland 
communities from damaging impacts, they also provide vitally important 
habitat that is the lynchpin for the commercial and recreational 
fishing industries. According to Florida State University researchers, 
marshes in Florida provide up to $7,000 per acre in value for 
recreational fishing.\19\ Barrier islands also play a vital role in 
protecting areas that are critical to commercial fishing. According to 
NOAA, barrier islands in Texas protect sheltered bays and estuaries 
from storm impacts, and these bays and estuaries are the foundation of 
a seafood industry that generates $846 million and supports more than 
14,000 jobs.\20\ Elsewhere in the Gulf of Mexico, 3.5 miles of oyster 
reefs significantly reduce the height and energy of waves while 
contributing to more than 6,900 pounds of additional commercial and 
recreational catch.\21\
---------------------------------------------------------------------------
    \19\ Hughes, R. (2017). How Can We Prevent Salt Marsh Die-Off? The 
WFSU Ecology Blog. Vol. 27.
    \20\ NOAA Office for Coastal Management. Barrier Island 
Restoration. https://coast.noaa.gov/states/stories/barrier-island-
restoration.html. Accessed July 5, 2019.
    \21\ Sutton-Grier, A.E., et al. (2015). Future of Our Coasts: The 
Potential for Natural and Hybrid Infrastructure to Enhance the 
Resilience of Our Coastal Communities, Economies and Ecosystems. 
Environmental Science & Policy Vol. 51 (137-148).
---------------------------------------------------------------------------
    Water quality benefits can also be achieved by using natural 
infrastructure alternatives that reduce excess nutrients. Along with 
stabilizing shorelines and preventing erosion, coastal wetlands can 
also ``improve water quality by filtering, storing, and breaking down 
residential, agricultural and urban runoff.'' \22\
---------------------------------------------------------------------------
    \22\ Environmental Law Institute for the Mid-Atlantic Regional 
Council on the Ocean. (2017). Developing Wetland Restoration Priorities 
for Climate Risk Reduction and Resilience in the MARCO Region. 
Retrieved from https://www.eli.org/sites/default/files/eli-pubs/
developing-wetland-restoration-priorities-climate-risk-reduction-and-
resilience-marco-region.pdf
---------------------------------------------------------------------------
    Grey infrastructure like seawalls, groins and jetties, cannot adapt 
to changes in the nearby environment. In contrast, wetlands and islands 
can be responsive to changing conditions and adapt to them, thereby 
continuing to provide storm protection benefits as well as habitat. As 
NOAA has observed, ``Evidence suggests that coastal dunes dominated by 
native plants are better able to move inland in response to sea level 
rise while maintaining their integrity and protecting inland habitats 
and land uses.'' \23\ NOAA has documented the responsive, adaptive 
behavior displayed by oyster reefs and eelgrass beds. These coastal 
resiliency benefits ``are increasingly important to buffer shorelines 
against sea level rise and increased storm surge and frequency.'' \24\
---------------------------------------------------------------------------
    \23\ Environmental Law Institute for the Mid-Atlantic Regional 
Council on the Ocean. (2017). Developing Wetland Restoration Priorities 
for Climate Risk Reduction and Resilience in the MARCO Region. 
Retrieved from https://www.eli.org/sites/default/files/eli-pubs/
developing-wetland-restoration-priorities-climate-risk-reduction-and-
resilience-marco-region.pdf
    \24\ NOAA, California Coastal Conservancy, et al. (2017). Case 
Studies of Natural Shoreline Infrastructure in Coastal California. 
Retrieved from http://scc.ca.gov/files/2017/11/tnc_Natural-Shoreline-
Case-Study_hi.pdf
---------------------------------------------------------------------------
    Grey infrastructure, such as seawalls, jetties, groins, and 
bulkheads, can exacerbate erosion in nearby areas, intensifying flood 
risks for properties and communities located in the erosion-impacted 
areas. Researchers with the University of Pennsylvania and the 
Pennsylvania State University documented these impacts, noting that, 
``when seawalls are constructed on eroding beaches, the erosion 
continues so that the beach in front of the seawall can become very 
narrow or disappear completely. And while groins and jetties trap 
sediment on the updrift side resulting in shoreline accretion, there is 
corresponding shoreline erosion on the downdrift side due to the 
interruption in longshore transport.'' \25\ Natural infrastructure, 
such as oyster reefs, restored wetlands, living shoreline 
installations, and green spaces provide flood protection benefits 
without negative impacts in nearby areas.
---------------------------------------------------------------------------
    \25\ University of Pennsylvania, The Pennsylvania State University, 
et al., ``Coastal Processes, Hazards, and Society.'' https://www.e-
education.psu.edu/earth107/node/1066
---------------------------------------------------------------------------
    The Army Corps implementation guidance around WRDA 2018 Section 
1149 (c) states that the Corps is already implementing this provision. 
However, the Congressional intent of producing more robust analysis and 
greater use of natural infrastructure alternatives has in fact not come 
to fruition. Looking ahead to WRDA 2020, additional efforts to overcome 
hurdles related to the benefit-cost analysis and other issues that can 
enable the Army Corps to make greater use of natural infrastructure 
should be pursued.
                 3. Beneficial Use of Dredged Material:
    WRDA 2018 Section 1130 authorized a two-fold increase in the number 
of beneficial use of dredged materials (BUDM) pilot projects. Audubon 
has worked with the Army Corps and state partners to use dredged 
material to restore habitat that is important to birds and outdoor 
recreation economies. This work has created and restored islands that 
provide excellent nesting habitat for seabirds and shorebirds, 
including state-listed species of conservation concern such as Black 
Skimmers, American Oystercatchers, and Least Terns, and is leading 
innovations in thin-layer dispersal of dredged sediment to protect 
tidal marsh habitat in the face of sea-level rise. Audubon looks 
forward to building upon our collaborative efforts in Connecticut, 
North Carolina, Maine, Maryland, Florida and Texas. In South Carolina, 
Audubon is working to implement the Crab Bank project that was selected 
as a BUDM pilot project in 2019.
    To further facilitate the continued use and expansion of this 
important win-win program, funding must be dedicated to its 
implementation. A number of projects selected as pilot efforts under 
WRDA 2018 Section 1130 and WRDA 2016 Section 1122 have only been able 
to proceed using funding from the Army Corps Continuing Authorities 
Program because appropriations for the program has not followed the new 
authorizations.
    In addition, Audubon supports on-going efforts within the Army 
Corps to develop and implement best management practices for coastal 
engineering projects that benefit shoreline-dependent species that can 
be incorporated into beneficial use of dredged material projects. More 
information can be found in a recent U.S. Army Engineer Research and 
Development Center Technical Note.\26\
---------------------------------------------------------------------------
    \26\ Guilfoyle, M.P., Jung J.F., Fischer R.A. and Dickerson, D.D. 
(2019). Developing Best Management Practices for Coastal Engineering 
Projects that Benefit Atlantic Coast Shoreline-dependent Species. 
Technical Note developed by the U.S. Army Engineer Research and 
Development Center--Environmental Laboratory.
---------------------------------------------------------------------------
      4. Ensuring new projects avoid adverse environmental impacts
    As projects authorized or approved in WRDA 16 and WRDA 18 advance, 
significant effort must be made to avoid adverse environmental impacts. 
For example, Audubon has expressed opposition to any projects or 
activities on the Pearl River in Mississippi, that involve destroying 
wetlands and wildlife habitat that will imperil birds, fish and 
wildlife, alter local and downstream river hydrology, impair water 
quality and threaten public and environmental health.
    In WRDA 2018, Section 1176 sought to establish a demonstration 
program to advance a 2018 Integrated Draft Feasibility and 
Environmental Impact Statement for the Pearl River Basin, Mississippi, 
Federal Flood Risk Management Project, Hinds and Rankin Counties, 
Mississippi. The plan was prepared by the Rankin-Hinds Pearl River 
Flood and Drainage Control District, whose preferred alternative is 
known locally as the ``One Lake'' project.
    WRDA 2018 Section 1176(b) directs ``the Secretary to determine that 
the project is technically feasible, economically justified, and 
environmentally acceptable,'' while Section 1176(d) acknowledges that 
``the non-Federal sponsor shall design the project in a manner that 
addresses any potential adverse [downstream] impacts [to the Pearl 
River Basin] or that provides mitigation.'' These requirements must be 
specifically adhered to if the projects proceeds. Before the Secretary 
performs any project review, all Environmental Impact Statement and 
Feasibility Study documents must fully comply with all required federal 
laws. This must include, but not be limited to the National 
Environmental Policy Act, provisions of Water Resources Development Act 
of 1996, Clean Water Act, Endangered Species Act, Fish and Wildlife 
Coordination Act, Marine Mammal Protection Act, Coastal Zone Management 
Act, and the Rivers and Harbors Act. This information also must be 
officially noticed in the Federal Register with proper and timely 
review provided to the public, natural resource agencies, and other 
interested stakeholders.
    The study cannot be limited to the proposal's immediate footprint 
but must be expanded to fully encompass rigorous upstream and 
downstream modeling and associated scientific analyses for all river 
miles above and below the proposed activity, including the coastal 
zones of Mississippi and Louisiana.
    The Pearl River is a 490 mile-long waterway, shared by Mississippi 
and Louisiana, which is recognized as one of the most intact river 
systems in the southeast U.S. while serving as a major input of 
freshwater into the Gulf of Mexico. Thus, a Programmatic EIS should be 
required to thoroughly quantify any demonstration project's primary, 
secondary, and cumulative impacts on the basin's flora and fauna. This 
should include at a minimum, impacts on downstream natural resources 
and existing industrial users and commercial sectors (i.e., seafood, 
tourism), Important Bird Areas, 125,000+ acres of existing conservation 
lands, alterations to wetland habitats that help to protect communities 
from flooding and storm events, and impacts to multi-million dollar 
restoration projects planned or underway across the Central Gulf Coast.
    Over the past forty years, there has been an effort to address 
flooding in the Pearl River Basin. Several flood control plans have 
been developed. Many of these plans have inappropriately incorporated 
economic development as a goal. Any demonstration program should place 
priority on natural infrastructure solutions, as discussed above and 
should be required to evaluate less ecologically damaging and more 
comprehensive flood control measures. Some examples include flood-
proofing existing homes and buildings; better management of existing 
infrastructure (i.e., Ross Barnett Reservoir); selectively elevating 
structures, buy-outs or relocations; setbacks from existing levees; 
floodplain restoration within the river basin; and development and 
implementation of a comprehensive flood and stormwater Master Plan for 
metropolitan areas (i.e., City of Jackson) to coordinate water 
management. A detailed, publically vetted mitigation plan should be 
submitted to and approved by the Secretary and the appropriate funding 
for mitigation set aside in a secure fund allocated for this express 
purpose.
    Any and all mitigation required for activities in the Pearl River 
Basin should be in-kind, occur within the established watershed 
boundary, and be identified and tentatively procured prior to the 
Secretary's approval.
    5. Preliminary Views looking ahead to the next Water Resources 
                            Development Act
    As development of the next WRDA begins, ecosystem restoration and 
the use of natural infrastructure should be prioritized. As climate 
change creates more challenges associated with stronger storms, 
increased flooding in some areas and drought in others, projects 
directed toward providing ecological benefits can increase climate 
resiliency. It is more efficient to invest in projects that increase 
resiliency than to react after an extreme weather event occurs.
    Audubon also supports robust funding for the Clean Water State 
Revolving Fund and other programs that provide financing to help 
communities address water quality and water management infrastructure 
needs.
    Attempts to exempt Army Corps projects from environmental laws 
should also be rejected. As innovative efforts continue to advance 
projects more quickly, compliance with environmental laws can ensure 
that projects benefit both birds and people.
    Thank you again for the opportunity to testify on these important 
issues. Audubon is ready to work with the Subcommittee and others to 
advance important water conservation issues looking ahead to the next 
Water Resources Development Act in ways that will help protect birds 
and the places they need. We know that where birds thrive, people 
prosper.

    Mrs. Napolitano. Thank you, Ms. Julie Hill-Gabriel, for 
your testimony.
    And we now turn to Mr. Derek Brockbank. You are recognized.
    Mr. Brockbank. Thank you.
    America has an engineered shoreline. Nearly every beach on 
the east and gulf coast and many on the Pacific and Great Lakes 
coasts have been restored, renourished, and reengineered to 
mimic natural systems, and estuarine systems from Louisiana to 
San Francisco Bay are engineered, either armored with bulkheads 
and riprap or preferably with natural infrastructure, such as 
restored wetlands and living shorelines.
    What connects our shorelines is the need for sand and 
sediment. Sand and sediment are the building blocks of a 
healthy coastline. Beaches and wetlands are dynamic systems 
that should naturally be eroding and rebuilding, but too often 
they cannot rebuild because we have prevented sediment from 
ever reaching the coasts.
    Levees prevent flooding and sediment deposition. Hardened 
cliffs, riverbanks, and dams keep sediment out of waterways, 
and jetties and dredging send sediment far offshore.
    We are facing a coastal sediment crisis, and that is before 
we consider the challenges of rising sea levels and localized 
subsidence.
    American Shore and Beach Preservation Association has been 
working with the Army Corps of Engineers for nearly 100 years 
to merge science and policy to protect, restore, and enhance 
our Nation's coastlines.
    We are an organization of beach and coastal practitioners. 
We are the communities, industry, local elected officials, and 
academics who build, maintain, manage, and research our 
Nation's beaches and shorelines.
    Thank you for inviting us to speak here today.
    We believe the most fundamental thing the Army Corps can do 
to better manage coastlines is operate under principles of 
regional sediment management, or RSM.
    This is a concept that sediment is a resource, not a waste 
product, and managing sediment within a watershed or littoral 
system, not a project-by-project basis, is more ecologically 
sound and saves money.
    In short, we need to move sediment within a system, not 
remove it.
    RSM goes well beyond just reusing dredge material, but an 
important part of RSM is beneficial reuse. The Corps dredges 
about 214 million cubic yards of sediment per year from 
navigation channels. Of that, about 38 percent is used 
beneficially.
    And while hitting .380 might get a baseball player into the 
All-Star Game, the Corps should strive to bat 1.000 and 
beneficially use 100 percent of uncontaminated dredge material.
    The Transportation and Infrastructure Committee has long 
sought to support RSM and beneficial use. WRDA 2016, section 
1122, has proven to be tremendously popular with local 
communities.
    Last year in the span of a month, 94 projects were 
submitted to be 1 of the first 10 beneficial uses of dredge 
material pilot projects.
    After some delays, the Corps can and should implement and 
highlight these projects as beacons of what can happen when 
Feds and locals work together to manage a scarce resource.
    A beneficial use must be systemic across the Army Corps. 
One way to do this is to change the understanding of the 
Federal standard.
    As part of the Army Corps determination of the least-cost 
alternative for the disposal of dredge material, the Corps 
should include the economic evaluation of sand, including 
potential ecosystem restoration benefits, storm damage 
reduction benefits, and other economic values and long-term 
costs.
    The next fundamental way to improve coastal project 
development and prioritization is modifying the Corps' benefit-
cost ratio process, the BCR process. BCRs ensure that the 
Federal taxpayers only pay for projects that provide positive 
economic benefits.
    However, in designating a project authorized as flood risk 
reduction or coastal storm risk reduction, the Corps will only 
calculate benefits derived from reducing flood risk. So that 
project will not be designed to support other benefits, such as 
habitat or the economy.
    Furthermore, a project that does have multiple benefits 
must compete for Federal dollars with no advantage against 
projects that have a single benefit. In the case of beaches, 
the economic value can be remarkably high.
    Economist Dr. James Houston has calculated that beach 
travel and tourism generates $285 billion to the national 
economy and $23 billion in Federal tax revenue annually.
    These types of economic figures ought to be considered when 
deciding which flood risk management projects to prioritize.
    WRDA 2018 did authorize a National Academies and a GAO 
study to look at Army Corps dredging practices, and these 
studies will help inform the Corps BCR process, but by 
themselves they do not actually change anything.
    The Corps BCR for flood risk management projects is an 
archaic tool that needs to be modernized. Congress needs to 
direct the Corps to update its BCR process, either to consider 
the full array of benefits or to develop a new methodology for 
prioritization that incorporates a project's secondary 
benefits.
    The result of advancing RSM and beneficial use and 
reforming the Corps BCR will be an improved decisionmaking 
framework that appropriately values natural infrastructure, the 
beaches, dunes, and wetlands that provide flood risk reduction, 
but so much more.
    Army Corps mandates are too broad and the challenges of the 
coast too great for the Corps to continue to focus on projects 
that only solve one problem at a time. Natural infrastructure 
provides flood risk benefits, ecological benefits, economic and 
recreation benefits.
    The Corps has been building beaches for 100 years and 
restoring wetlands for 50 years. So the concept of natural 
infrastructure is not new. The next step is for the Corps to 
maximize multiple benefits for individual projects and within 
coastal systems.
    Finally, the needs of our Nation's coastline are too 
enormous to be solved by policy changes and authorized projects 
in WRDA alone. Our country must make major investment in 
infrastructure that includes dedicated support for coastal 
resilience and natural infrastructure.
    ASBPA looks forward to working with the T&I Committee to 
address these challenges in WRDA and any future infrastructure 
legislation.
    Thank you.
    [Mr. Brockbank's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Derek Brockbank, Executive Director, American 
                Shore and Beach Preservation Association
                     America's Engineered Shoreline
    America has an engineered shoreline. The most iconic beaches in the 
country have all been restored, renourished, and re-engineered to mimic 
natural systems. The beaches of the Jersey Shore, Virginia Beach, Miami 
Beach, Galveston, Malibu, Santa Monica, and Waikiki are part of our 
national coastal infrastructure that has been engineered with nature as 
a guide. Coney Island was the first significantly engineered beach, 
renourished back in 1923. Today, nearly every beach on the East and 
Gulf Coast, and many on the West and Great Lakes coasts, have been 
engineered. Increasingly, even our estuarine and back-bay shorelines 
are engineered, either by ``armoring'' with bulkheads and riprap, or 
with more natural solutions such as restoration and living shorelines.
    The U.S. Army Corps of Engineers (USACE), authorized by and acting 
under policy established in Water Resource Development Acts (WRDAs), 
has been building natural infrastructure and engineering with nature 
for a long time. And the American Shore and Beach Preservation 
Association (ASBPA) has been working with USACE for nearly a hundred 
years.
    ASBPA is an organization of beach and coastal practitioners. We are 
the communities, industries, and academics who build, maintain, manage 
and research our nation's beaches and shorelines. We are geologists, 
engineers, town managers, elected officials, professors, students and 
coastal advocates. Our mission is to merge science and policy to 
protect, restore and enhance the U.S. coastline; we were founded in 
1926 and have been advocating for a healthy coastline ever since.
    ASBPA believes a healthy coastline, whether restored or natural, 
provides four interconnected values to coastal communities specifically 
and to the nation more broadly:

    a)  Protection from coastal storms, hazards and sea level rise, and 
as buffer to sensitive estuarine ecosystems;
    b)  Ecologically valuable habitat for birds, turtles, fish and 
other coastal plants and wildlife;
    c)  Economic vitality though tourism, shipping, fishing and other 
industries;
    d)  Recreation for tens (if not hundreds) of millions of Americans 
who visit the beach in greater numbers than all our national parks 
combined.

    ASBPA would like to see these values maximized in USACE's 
management of our nation's shoreline. Doing so will take USACE using 
the full authorities provided to them, and Congress authorizing and 
encouraging USACE to use a multi-benefit approach to coastal management 
and project development.
                                  WRDA
    In the last two WRDAs, Congress has included a number of provisions 
that allows or directs USACE to manage the US coastline to achieve 
these multiple benefits. The three areas discussed here are:

    1)  Regional Sediment Management (RSM) and the Beneficial Use of 
Dredged Material (BUDM)
    2)  Modification of the Benefit-Cost-Ratio (BCR)
    3)  Natural Infrastructure.
regional sediment management and the beneficial use of dredged material
    Regional Sediment Management (RSM) is a comprehensive approach to 
planning and integrating riverine and coastal projects with the core 
principle that sediment is a finite resource not to be wasted. RSM 
seeks to move sediment from where it is not wanted to where it is 
wanted, rather the simply removing sediment from the littoral system. 
RSM can reduce overall costs through cross-business line planning and 
budgeting. Beneficial Use of Dredged Material (BUDM) is one aspect of 
RSM, in which sediment dredged for navigation purposes is used to 
benefit a restoration and/or flood risk reduction project. Ultimately, 
ASBPA believes that USACE needs to evolve its budgeting and planning 
operations to reflect RSM principles so that 100% of uncontaminated 
dredged sediment is used beneficially.
    On average, USACE dredges about 214 million cubic yards of sediment 
per year from navigation channels nationwide. Of that, 82 million cubic 
yards (or 38%) is used beneficially on beaches, in wetlands, and in 
nearshore water each year.\1\ This is a good first step, but in an era 
of sediment shortage--less sediment is reaching the coast than ever 
before due to dams, hardened riverbanks and cliff faces, and 
straightened channels--and rising seas, anything less than 100% 
beneficial usage is not enough.
---------------------------------------------------------------------------
    \1\ Federal coastal navigation projects were inventoried to examine 
the extent to which RSM goals have been implemented across USACE at the 
project level. This study examined USACE navigation projects that 
beneficially reuse sediments dredged from Operations & Maintenance 
(O&M) projects nationwide. These data were derived from a comprehensive 
analysis of nearly 20 years of USACE dredging data at both the national 
and district level. The data have been quality checked, updated, and 
revised over the last five years through extensive interviews of USACE 
staff at the District, Division and HQ levels. USACE RSM, 2019. USACE 
Navigation Sediment Placement: An RSM Program Database (1998-present), 
U.S. Army Corps of Engineers Regional Sediment Management Program, 
https://gim2.aptim.com/rsm, accessed July 2, 2019.
---------------------------------------------------------------------------
    One good example of RSM in practice is at the mouth of Columbia 
River in Oregon, where the USACE Portland District is working with 
partners to develop a network of nearshore placement sites for dredged 
sediment. The goal is to keep material in the littoral zone so that it 
feeds the beaches of Oregon and Washington through natural coastal 
processes. Placing 500,000 cubic yards of sediment in a nearshore site, 
with no more than five centimeters of accumulation on the seabed per 
disposal, has yielded $200,000 in cost savings to date, helped 
naturally maintain an eroding coastline, and yielded no crab 
mortalities (the primary environmental concern with nearshore placement 
in this region).
    In another example of RSM, near St. Augustine, FL, the Jacksonville 
District has combined multiple federal projects so that timing of 
dredging and placement is aligned. They have also instituted inlet 
bypassing, so less sand accumulates in the St. Augustine Inlet and 
instead is distributed to a down drift shoaling area that distributes 
sand to eroding beaches. This resulted in a $2 million cost savings 
from reduced dredging and associated environmental mitigation efforts 
and by combining permits.
    WRDA 2016 authorized a pilot program for BUDM (Sec. 1122), that was 
expanded in WRDA 2018 (Sec. 1216). Sec. 1122 was slow to get going: 
implementation guidance took a year to finalize, and after 90+ projects 
were submitted for the initial ten pilot projects, project selection 
took nearly another year. But the projects are now underway. One 
project, Deer Island Lagoon in MS, has been completed, and USACE has 
estimated the remaining nine will be in construction by FY2022, 
assuming current dredge timelines hold and construction funding is 
available.\2\
---------------------------------------------------------------------------
    \2\ FY19 appropriations included an $8.5 million increase to CAP204 
(BUDM) to $10 million with report language, ``the Corps is directed to 
fund these pilots, if otherwise competitive, under the CAP Section 204 
line item and the applicable additional funding line items in this 
account.'' FY20 Energy & Water appropriations passed by the House 
includes $7.5 million for ``BUDM Pilot Program'' as well as $20 million 
for CAP204 (BUDM).
---------------------------------------------------------------------------
    Local communities have widely supported the 1122 program. 
Washington State Department of Ecology (WADEC), the local sponsor for 
the ``Grays Harbor South Jetty Placement'' project, used this process 
to convene key stakeholders to plan for the beneficial use of dredge 
sediment to help protect shipping channel jetties, coastal beaches and 
nearshore habitats from erosion while avoiding and minimizing adverse 
impacts to environmental resources, and navigation safety. Through the 
development of the Grays Harbor project, WADEC identified additional 
opportunities for beneficial use in other parts of Washington, and 
developed a strategy to achieve economies of scale through coordination 
with local partners across the state--reducing the cost sharing 
challenges that many communities face. Although the Grays Harbor 
project is not impacting the Town of Ocean Shores, WA, Mayor Crystal 
Dingler has credited the 1122 process with helping her community by 
providing ``invaluable information concerning our ongoing erosion 
problems. This continued engagement in our community process to address 
emergencies and support long-term strategies are critical to helping 
our community make resilient investments for our future. Without such 
data and assistance, we are operating blind.'' \3\
---------------------------------------------------------------------------
    \3\ Interview with Bobbak Talebi, Senior Coastal Planner, 
Shorelands & Environmental Assistance Program, Washington State 
Department of Ecology, July 2, 2019.
---------------------------------------------------------------------------
    USACE has not publicly determined when or how the additional ten 
projects authorized in WRDA 2018 Sec. 1216 will be selected, but USACE 
and congressional appropriations committees have each indicated they 
would like to see the successful completion of the first ten pilot 
projects before constructing the next ten.
What else is needed:
    The pilot project is an important step in directing USACE districts 
to think more broadly about how they can use dredged sediment and how 
they can work with local project sponsors. But this sort of approach 
must be systemic across USACE projects, not limited to a handful of 
pilot projects, or within districts that seek innovative approaches. 
One way to do this is to change the understanding of the Federal 
Standard. As part of USACE determination of the ``least cost 
alternative'' for the disposal of dredged material, the USACE should 
include the economic evaluation of the sand, including ecosystem 
restoration benefits, storm damage reduction benefits, and other 
economic values and long-term costs. Additionally, reconfiguring 
USACE's budgeting so that projects are not budgeted exclusively as 
navigation or flood risk management will allow for easier development 
of projects that efficiently manage sediment and can support both 
navigation and flood risk reduction.
                           benefit-cost-ratio
    Benefit-cost-ratios (BCRs) for water resource infrastructure 
projects ensure the federal taxpayer is only paying for projects that 
provide positive economic benefits--when benefits outweigh costs. 
However, as currently implemented, USACE BCRs have two fundamental 
flaws:

    a)  BCRs are only calculated using the economically verifiable 
benefits of a project's primary purpose; and
    b)  Projects in wealthier communities inevitably get prioritized 
over projects in poorer communities, since the economic benefit of risk 
reduction is greater for valuable property than inexpensive property.

    Using only the economically verifiable benefits of a project's 
primary purpose sounds sensible, but it means projects are designed to 
maximize just a single benefit, rather than balancing multiple 
benefits. A project that is intended to reduce flood risk, such as a 
beach and dune system, might also have tremendous value as habitat and 
in supporting a tourism-based economy. But in designing a project 
authorized as a ``flood risk reduction'' or ``coastal storm risk 
reduction,'' USACE will only calculate the benefits derived from 
reducing flood risk, so the project will not be designed to support 
habitat or the economy. Furthermore, a project that does have multiple 
benefits must compete for federal dollars with no advantage against 
projects that have a single benefit.
    In the case of beaches, the economic value and even the direct 
return on investment via tax revenue can be remarkably high. Economist 
Dr. James Houston has calculated that beach travel and tourism 
generates $285 billion to the national economy and $23 billion in 
federal tax revenue annually.\4\ Additionally, beach tourism support 
2.5 million jobs directly and 4.4 million jobs including direct, 
indirect, and induced impacts.\5\ While USACE is not an economic 
development agency, and not in business to generate revenue for the 
U.S. Treasury, these economic figures ought to be considered when 
deciding which flood risk management projects to prioritize.
---------------------------------------------------------------------------
    \4\ Houston, J.R. 2018. ``The economic value of America's beaches--
a 2018 update.'' Shore & Beach, 86 (2), 3-13.
    \5\ Ibid.
---------------------------------------------------------------------------
    Second, prioritizing flood risk management projects based on 
calculation of avoided economic damage means projects in areas of a 
high concentration of wealth have a higher BCR than less wealthy or 
less densely populated areas. This may be a sensible market-based 
decision-making tool, but it exacerbates the problem of lower income 
communities living in flood-vulnerable areas without federal support in 
reducing risk. It also perpetuates a cycle of development in flood-
vulnerable areas to increase the economic benefits derived from risk 
reduction measures. A more sensible BCR or decision-making tool would 
account for the societal value created by reducing risk to low-income 
communities as well as valuing open space or other flood mitigation 
measures that are currently dis-incentivized by the BCR.
    WRDA 2018 authorized two studies to look at USACE budgeting 
practices, a National Academy of Science (NAS) study on USACE budgeting 
(Sec. 1103) and a General Accountability Office (GAO) study on Benefit-
Cost Analysis Reforms (Sec. 1204). To ASBPA's knowledge Sec. 1103 has 
not been funded nor begun, while Sec. 1204 is currently underway. Both 
of these studies will help reform USACE's BCR process and should be 
completed as soon as possible.
What else is needed:
    While studies are helpful in clarifying specific challenges to 
current policy or operating procedure, as well as recommending 
potential solutions or steps for improvement, they don't actually 
change anything. USACE's BCR for flood risk management projects is an 
archaic tool that needs to be modernized. Congress needs to direct the 
USACE to update its BCR process--either to consider the full array of 
benefits, or to develop a new methodology for prioritization that 
incorporates a project's secondary benefits. While this will support 
better projects whose primary purpose is flood risk management, it will 
also support better navigation projects that have multiple benefits 
(such as important BUDM placement sites, or ecological value in 
clearing channels).
                         natural infrastructure
    Wide beaches, high dunes, and verdant wetlands, reefs, mangroves 
and seagrass beds are essential to the 40% of Americans who live along 
the coast. Properly maintained, this natural infrastructure can improve 
communities' resilience and is itself resilient. Dunes and marshes can 
adapt to rising seas, and reefs and coastal forests regenerate after 
storm damage. The same can't be said for ``grey'' (concrete and steel 
based) infrastructure. USACE has been building beaches and dunes for 
flood risk reduction for nearly a century and restoring aquatic 
ecosystems for more than half a century. It should be looking at how to 
fully integrate these missions in combination with its mandate to 
maintain coastal navigation. By doing so, USACE can more effectively 
restore and rebuild our nation's natural infrastructure, in 
collaboration with other federal, state and tribal agencies.
    USACE has many authorizations to use natural infrastructure 
solutions and to consider natural and nature based features in place of 
more traditional grey infrastructure. Recent WRDAs have clarified and 
built upon previous authorizations:

    <bullet>  WRDA 2016, Sec. 1154 authorized collaborative regional 
assessments on coastal resilience that prioritized natural 
infrastructure;
    <bullet>  WRDA 2016, Sec. 1184 required ``natural features'' to be 
considered in feasibility studies;
    <bullet>  WRDA 2018, Sec. 1149 specifically allowed ``natural and 
nature based features'' to be included in aquatic ecosystem and flood 
risk management projects;
    <bullet>  WRDA 2016 & 2018 authorized regional coastal resilience 
studies in the South Atlantic, Great Lakes, and coastal Texas that 
included natural infrastructure solutions.

    None of these were wholly new authorities requiring action from 
USACE, so implementation has been mixed. Districts that use ``natural'' 
solutions have more leeway to do so, but ASBPA hasn't seen a notable 
increase in use of natural infrastructure since 2016. ASBPA considers 
comprehensive coastal resilience studies to be invaluable and is 
pleased that the South Atlantic Coastal Study has been funded and is 
underway, and disappointed that the Great Lakes Coastal Resilience 
study has not received approval to begin as a new start and is still on 
hold.
What else is needed:
    Rather than simply encouraging USACE to use or consider natural 
infrastructure in place of hard, grey infrastructure, Congress should 
set policy on decision-making that will result in natural 
infrastructure being the preferred alternative due to its multi-benefit 
approach. This means requiring an RSM approach to managing coastal 
navigation and restoration projects while beneficially using all 
uncontaminated dredged sediment; and reforming the BCR so that the full 
scope of benefits of natural infrastructure are included in project 
consideration. Additionally USACE's regulatory requirements should 
ensure natural solutions are as easy to permit as hard infrastructure. 
For example, USACE took a good step in creating a nationwide permit for 
living shorelines, but USACE could look at regulatory hurdles to 
natural infrastructure and ensure permitting is not easier for a 
comparable gray infrastructure project.
      A Final Thought on the USACE's Efforts to ``Revolutionize''
    Many of the challenges the USACE has in modernizing to meet the 
needs of the 21st century--the ability to adaptively manage projects in 
the face of climate impacts, expediting project delivery, being 
reactive to the high and lows as well as delays in funding by the 
Administration and Congress--is not something Congress can directly 
fix. These challenges are procedural and cultural that will take years, 
if not decades, to fully address. ASBPA has been pleased with General 
Todd Semonite's call to ``Revolutionize'' USACE, as well as Director of 
Civil Works James Dalton's efforts at implementing procedures to allow 
USACE to operate as a risk-informed, not risk-averse institution.
    But after Gen. Semonite and Mr. Dalton leave, these efforts will 
need to continue. It is incumbent on Congress, and the Transportation & 
Infrastructure (T&I) Committee specifically, to provide oversight to 
ensure these procedural and cultural changes continue. USACE is an 
essential agency as our nation faces the biggest coastal threats in 
history, and it needs to be operating efficiently and effectively.
                               Conclusion
    As the T&I Committee reviews the success of recent WRDAs and 
develops policies for a 2020 WRDA, ASBPA encourages the committee to 
consider how USACE is able to advance coastal projects that have 
multiple benefits. USACE has been building beaches for 100 years and 
wetlands for 50 years, so the concept of restoring natural 
infrastructure with flood risk reduction, ecological, economic and 
recreation benefits is not new. But the next step is for USACE to 
maximize each of these values for individual projects and within 
coastal systems. This will take systemic changes to increase the 
beneficial use of dredged material, budgeting changes to ensure the 
full value of sediment is calculated and all benefits are included in a 
BCR, and on-going oversight to ensure procedural and cultural changes 
at USACE proceed.
    Finally, the needs of our nation's coastline are too enormous to be 
solved with policy changes and authorized projects in WRDA alone. Our 
country must make a major investment in infrastructure that includes 
dedicated support for coastal resilience and for waterways. From 
sediment management to preparing for storms and rising seas, the 
challenges of our coastlines and our waterways are linked and must be 
solved together. The policy solutions described here--including RSM, 
BCR reform and natural infrastructure--all address these challenges. 
But to be successful these need significant federal funding and need to 
be part of a national infrastructure investment program. ASBPA looks 
forward to working with the T&I Committee to address these challenges 
in WRDA and in infrastructure legislation.
    Thank you for considering our testimony, and we are happy to answer 
any questions.

    Mrs. Napolitano. Thank you, Mr. Brockbank.
    We now recognize Dr. F. Martin Ralph.
    Welcome.
    Mr. Ralph. Good day. Thank you for the opportunity to be 
here, Chairman Napolitano and Ranking Member Westerman and the 
committee.
    I am here to describe experience we are gaining on bringing 
weather forecast information into reservoir operations. It is 
an experimental effort. It is being done in very close 
collaboration with the Corps of Engineers and with local water 
agencies on the west coast.
    We have brought scientists together in meteorology, in 
hydrology, in biology with civil engineers and water 
management, flood control, and the like to explore how this 
might work in the future.
    Traditionally, forecast information on precipitation has 
not been able to be used directly in reservoir operations 
because historically, the skill has been extremely low. But one 
of the great accomplishments of science in our lifetimes has 
been the development of weather prediction that has some skill.
    We have come to realize through those studies in the last 
several years that certain types of storms that affect the west 
coast we now know as atmospheric rivers have some predictive 
skill. So I am going to take you to a time a few years ago with 
a reservoir in northern California on the Russian River, Lake 
Mendocino, and it was December, and a big atmospheric river had 
hit, had started to refill the reservoir a bit to where it 
should be.
    Another one hit a few days later, encroached into the flood 
pool, and the possibility was there for another one to come. As 
the rules require for this operation, that reservoir, 25,000 
acre-feet was released to restore the flood control pool. That 
flood control pool was then available if another storm had 
come, just as the rules had designed it to be.
    As a meteorologist, I would say facing two ARs that had 
just hit and another one if it were to hit would be a serious 
problem. I think it was a smart move.
    However, what happened and nobody could predict this at the 
time was the drought began, the worst drought on record in the 
area. The reservoir then declined over the next 13 months to 
its lowest point in a long time, and that created a bit of an 
issue for water supply, not only for the people, but for 
agriculture and also for an endangered species there. Salmon 
are a serious issue.
    There is a biological opinion on this river, and the 
agencies that are responsible work very hard to try to keep 
that salmon alive.
    So the Sonoma Water Agency, the Army Corps of Engineers, 
and a group of scientists led by myself and the chief engineer 
of Sonoma Water Agency got together a group to explore the 
possibility.
    Hey, we have seen this atmospheric river phenomena develop 
in our science. We think there is predictability there. Is it 
possible that there is enough skill there that in that case in 
2012 operators could have looked ahead several days and 
realized there is no AR coming? Let's save some of that water, 
pending the next day's forecast and whether or not there will 
be more storms coming enough to be concerned or not.
    One of the special situations in this region of the world 
is atmospheric rivers are the driver of flood. So from a 
weather standpoint, our challenge about looking ahead boils 
down to we really do not care about the run-of-the-mill storms. 
We care about these atmospheric rivers. There are only a few 
each year, and they make or break the water year for much of 
the West.
    They also can produce very beneficial precipitation in the 
case like in 2012, but then if it went too far, it creates a 
flood.
    All right. So we got this team together to develop this 
workplan to decide if we could do a paper study. We had the 
Army Corps of Engineers fully represented on the committee, as 
well as the operator of the dam for water supply. So the 
operators were at the table.
    We had scientists from hydrology and meteorology and others 
together with NOAA, USGS, the Bureau of Reclamation, and others 
who have expertise, and we developed a collaborative framework 
and developed a workplan that we agreed upon to proceed over 
the next several years to do a paper study, a paper study.
    What we discovered in the first 2 or 3 years was that it 
looks very promising. So promising, in fact, that we were 
requested as a committee to submit a major deviation request.
    That was reviewed, approved, and now the reservoir was 
operated this last winter under this major deviation very 
successfully, a fantastic example of the Corps working well 
with its partners and with scientists to develop new 
opportunities.
    This has now led to additional studies in southern 
California, a very different environment, and in northern 
California. Each watershed is different. The weather is 
different, the climatology is different. The operating 
circumstances differ, and we are trying to take a look at this 
new method in these other areas in a systematic way to try to 
explore the potential of it.
    Our committee believes that there is the possibility for 
this to be broadly applicable, but we have also come to 
recognize that in my own naive, nonhydrologist way, every 
reservoir is like a person. It has got its own personality.
    Assuming what we find from one is going to apply to every 
other one is really not valid. So we are taking and developing 
a very systematic approach in close collaboration with water 
agencies that have to deliver water to customers and the Army 
Corps of Engineers, who often co-operate the reservoir in some 
fashion, with our scientists and the ecosystem experts to 
understand whether we can bring weather information in in a 
more reliable way to support water operations.
    [Dr. Ralph's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of F. Martin Ralph, Ph.D., Director, Center for 
      Western Weather and Water Extremes, Scripps Institution of 
            Oceanography, University of California San Diego
                              Introduction
    Chairman Napolitano, Ranking Member Westerman, and members of the 
Subcommittee, thank you for the opportunity to be here today to discuss 
water infrastructure policies and implementation of the Water Resources 
Development Act. My name is Marty Ralph and I am the Director of the 
Center for Western Weather and Water Extremes (CW3E) at University of 
California San Diego's Scripps Institution of Oceanography (Scripps).
    I have worked as a weather and water scientist focused on 
understanding the physical processes that create extremes in 
precipitation ranging from flood to drought, and on advancing 
associated observations, predictions, water management and flood 
control applications and decision support tools. After 21 years of 
experience as a scientist, manager and program manager in NOAA, 
performing, leading and funding research aimed at creating practical 
impacts on weather prediction skill and user-decision making, I moved 
in 2013 to the University of California San Diego/Scripps Institution 
of Oceanography to create what is now the ``Center for Western Weather 
and Water Extremes.'' I have published over 120 peer-reviewed 
scientific articles, and have developed programs on new science and 
technology and their application to solving practical problems. I have 
led many aspects of research on atmospheric rivers over the last 15 
years, and provide input to water managers, and policy makers related 
to western weather and water extremes.
    A key focus of my work these last several years has been to explore 
the potential for use of Forecast-Informed Reservoir Operations (FIRO) 
based on current and future atmospheric river prediction skill. I work 
closely with water managers, including with the US Army Corps of 
Engineers and related experts. A key role is as Co-Chair of the cross-
disciplinary and interagency Steering Committee for the first FIRO 
project, at Lake Mendocino, and now also as Co-Chair of similar 
committees for two other reservoirs. Recognition: elected Fellow of the 
American Meteorological Society, awards from the Department of Commerce 
such as for ``For comprehensive flood mitigation efforts in response to 
a severely weakened Howard Hansen Dam project with the potential of 
catastrophic flooding,'' awards from NOAA and elsewhere. I have a B.S. 
in Meteorology from University of Arizona, and a Ph.D. in Atmospheric 
Sciences from UCLA.
    This testimony is organized into the following brief sections: 1) 
What is FIRO? What role do ARs play? What have we learned so far, 
primarily from the Lake Mendocino experience? 2) What is happening now 
and what is on the near horizon for FIRO in terms of weather, 
hydrology, and associated science? 3) Perspectives on the need for 
improved predictive skill on time scales of reservoir and downstream 
characteristics. Appendix) Regional water agency statements on the 
impacts of atmospherics, and FIRO.
1) What is Forecast-Informed Reservoir Operations (FIRO), what role do 
        atmospheric rivers play and what have we learned thus far?
    A group of scientists and engineers from local, state and federal 
agencies, including representatives from the U.S. Army Corps of 
Engineers, has been developing a proof-of-concept demonstration project 
for Forecast Informed Reservoir Operations (FIRO) since 2014. Last 
year, the group, the Lake Mendocino FIRO Steering Committee, filed a 
request with the Corps to allow a deviation from its established flood 
control operating rules. The deviation request was supported by a 
Preliminary Viability Assessment, which contained detailed modeling, 
analysis and scientific research. The assessment demonstrated that FIRO 
can provide water managers the information they need, with adequate 
lead time, to selectively retain or release water from reservoirs. The 
assessment identified atmospheric river (AR) type storms as the primary 
storm type that can cause flooding and provides up to 50% of the 
precipitation annually. It showed that there is enough skill in AR 
forecasting that it could enable FIRO, and that improved AR predictions 
could increase benefits. Based on the research findings and USACE 
review of the major deviation request, the request was approved in 
November 2018 by the US Army Corps of Engineers' South Pacific 
Division.
    The major deviation allowed additional water, up to 10% of flood 
storage capacity and at the discretion of the operations staff, to be 
stored in Lake Mendocino during this winter's rainy season to improve 
water supply reliability and environmental conditions in the Russian 
River, while continuing to not only ensure but also improve flood 
management capacity of the reservoir. The decision would allow the 
Corps to use modern weather prediction technology to operate the 
reservoir with more flexibility to store more water when no major 
storms are forecasted and order releases ahead of major storms when 
forecasts indicate the possibility of significant reservoir inflows.
    Per the major deviation the reservoir was operated during late 2018 
to early 2019 following the FIRO method. Based on the streamflow 
forecasts from NWS, on new AR-forecast tools developed by FIRO, and on 
a new decision support tool, also developed through FIRO, the reservoir 
held over 10,000 acre-feet of extra water through much of the winter. A 
clear demonstration of the FIRO concept in the real world.
    ``The ability to leverage newer technology and knowledge base as it 
pertains to weather forecast enhances our ability to safely deliver the 
multiple missions at Lake Mendocino,'' said Nick Malasavage, chief of 
Operations and Readiness Division for the U.S. Army Corps of Engineers 
San Francisco District. ``In particular, the steps we are now taking to 
further develop and incrementally implement the FIRO concept adds an 
additional tool to maintain our primary responsibilities for flood risk 
management.''
    Under the approved request, a maximum of 3.8 billion gallons 
(11,650 acre-feet) of additional water could be stored in the reservoir 
between November 1 and February 28, which is enough water to supply 
approximately 97,000 people for a year.
    Lake Mendocino, located near the city of Ukiah, is operated jointly 
by the Corps and Sonoma Water. The Corps manages the flood control 
operations at the reservoir, or the water in what is referred to as the 
``flood pool.'' Sonoma Water manages the water stored expressly for 
water supply, known as the ``conservation pool'' and is also 
responsible for maintaining minimum in-stream flows in the Russian 
River below Lake Mendocino.
    Studies show that about 50 percent of the rainfall and 80 percent 
of the floods in the Russian River watershed are due to atmospheric 
rivers--long narrow bands of warm, moisture-laden air that carry huge 
amounts of water vapor propelled by high winds.
    ``We know that a majority of our rain each year comes from these 
atmospheric rivers,'' said Sonoma Water Chief Engineer and co-chair of 
the steering committee Jay Jasperse. ``Because we now have the 
technology to better predict the timing and intensity of these storms, 
it allows us the opportunity to manage our water supply more 
efficiently and maintain flood management capacity in Lake Mendocino.''
    A dramatic illustration of the potential benefits of FIRO occurred 
in December of 2012 when a large atmospheric river storm filled the 
available water supply space in Lake Mendocino and filled about 25,000 
acre feet of the flood pool that is normally kept empty to take the 
crest off of floods. Operating under the Corps procedures, which 
dictate that water in the flood pool be released as soon as possible to 
make room for the next storm, dam operators followed the operations 
rules and released the water from the flood pool, even though no storms 
or flooding was forecasted in the near future. But no additional storms 
occurred, and the next winter was the beginning of a severe and 
extended drought. If improved forecasts had been available and used in 
2012 and atmospheric river storms were not predicted to occur, and 
operation rules were more flexible, the water that had been released 
could have been put to beneficial uses just as the region entered a 
drought.
    The FIRO effort that has led to this approval by the Corps is the 
result of a highly collaborative effort between engineers, physical 
scientists, biologists and forecasters. Sonoma Water and the Corps are 
to be commended for their leadership and innovation on FIRO at Lake 
Mendocino, which is setting the stage for further exploration of this 
promising approach.
    ``This collaboration will have far-reaching benefits for the 
resiliency and reliability of our water supply system in the face of a 
changing climate,'' said James Gore, Chair of Sonoma Water's Board of 
Directors. ``Improved forecasting provides us with the ability to store 
more water and still maintain the flood protection benefits of our 
reservoirs. This is another great example of the benefits of a multi-
agency partnership that addresses our most challenging issues.''
    The success thus far of the FIRO effort is due in large part to the 
formation of the FIRO Steering Committee and the development of its 
internal culture and processes which has successfully brought together 
groups with often competing missions and interests, but with a common 
vision that better water management operations are possible through 
cooperation and advances in science and engineering. Additionally, with 
the connection and interaction of FIRO Steering Committee members and 
staff from the respective organizations who are engaged in the research 
and operations aspects of water management, the FIRO effort has 
eliminated the gap that can exist between research that investigates 
and makes scientific advances and operators who need tools that are 
ready for application to real world problems with requisite reliability 
and assurance. Research, operations and regulatory perspectives have 
blended in every element of the FIRO effort to produce science to 
inform policy and bring about improved efficiency in water management 
for the simultaneous benefit of flood risk management, water supply and 
ecologic concerns.
    The Lake Mendocino FIRO Steering Committee consists of 
representatives from Sonoma Water (Sonoma County Water Agency), the 
Center for Western Weather and Water Extremes at Scripps Institution of 
Oceanography (Scripps), U.S. Army Corps of Engineers (Corps), National 
Oceanic and Atmospheric Administration (NOAA), U.S. Geologic Survey 
(USGS), U.S. Bureau of Reclamation and the California Department of 
Water Resources (DWR). The deviation request was submitted on behalf of 
steering committee members from Sonoma Water, Scripps, the Corps, NOAA 
and DWR.
2) What is happening now and what is on the near horizon for FIRO in 
        terms of weather, hydrology, and associated science?
    As an atmospheric scientist, I will restrict my comments here to 
primarily the implications for weather and streamflow conditions.
    The first Full, Viability Assessment (FVA) for FIRO is underway at 
Lake Mendocino. A second Major Deviation Request to USACE to operate 
the dam following FIRO this coming winter is in preparation. Scientific 
developments are underway to improve AR forecasts for the region and to 
assess the potential benefits of such improvements. Better observations 
offshore and onshore are aiding in understanding how major storms 
behave and how their precipitation runs off into the rivers and 
reservoir. Computer models for weather and hydrology are being improved 
and a decision support tools using that information are being refined.
    Two new FIRO efforts have begun on systems that are very different 
from Lake Mendocino, and will offer lessons that extend and complement 
what Mendocino is teaching us. These include meteorological and 
hydrological conditions that differ from coastal northern California. 
Fewer storms each year produce more of the precipitation. Mountains are 
tall enough to capture some precipitation as snow, which means a delay 
in the runoff until it melts, some of it days or even months after the 
storm. The watershed is highly urbanized, meaning more of the rain runs 
off into rivers than soaks into the ground. Although these differences 
with the Russian River may serve to complicate matters, the closer 
proximity of Prado Dam to the ocean, relative to Lake Mendocino, allows 
flow to move past flood-impact areas and reach the ocean faster. Thus, 
forecast requirements will likely be less stringent in terms of lead 
times. Maybe 1-2 days shorter. Sierra Nevada reservoirs involve 
additional hydrometeorological challenges. These watersheds are high 
enough that a large fraction of their area can receive snow. Yet AR 
storms are often warm and can melt the snow, thereby adding to flood 
potential. Thus, snow prediction, and snow-melt prediction are critical 
to FIRO in such areas, and require different meteorological and 
hydrological forecast skills and tools, and supporting science.
3) Perspectives on the need for improved predictive skill for 
        atmospheric rivers to support improvements in water supply 
        reliability, flood risk mitigation capacity and ecological 
        benefits through FIRO
    The viability of FIRO for a given reservoir hinges on adequate 
predictive skill for storms and streamflow conditions that represent 
challenges in operations for either flood control or water supply, or 
for ecological concerns. In much of the US West, this means atmospheric 
rivers. ARs are the storm type that provide much of the annual water 
supply in a relatively few storms each cool season, and that can create 
flooding when they are too strong and impact an already saturated and 
vulnerable watershed.
    The FIRO viability assessment at Lake Mendocino has shown that AR 
forecasts with 3-5 days lead time are key. Analysis has shown that 
current forecast skill is adequate for initial FIRO testing, and that 
future enhancements in skill could yield even greater benefits. Current 
estimates are 20,000 AF net increase in water supply reliability in 
about half the water years, and that additional benefits could accrue 
based on better forecasts.
    The requirements for better predictions for FIRO boil down to 
better AR landfall predictions and of forecasts of how much 
precipitation will be created by ARs and whether it falls as rain or 
snow (in the case of mountainous watersheds with high terrain). Tools 
and methods to improve upon these include:

    <bullet>  Better observations of ARs and their precursors over the 
ocean and coast
    <bullet>  Better weather forecast models tailored to AR and west-
coast precipitation forecasting
    <bullet>  Better skill in precipitation and streamflow prediction
    <bullet>  Decision support tools tailored to each watershed's needs
    <bullet>  Better scientific understanding required to make the 
improvements listed above.

    Although FIRO has been developed for the West Coast thus far, the 
potential exists for it to be useful elsewhere, such as the Great 
Plains or eastern U.S where ARs can also cause significant flooding 
events such as in Nashville in May 2010 and in the Washington, DC Area 
in July 2018. However, the skill of extreme precipitation forecasting 
is best in the West Coast because ARs have some valuable predictability 
already. In the Great Plains, large thunderstorms, or clusters of 
thunderstorms are key to flooding, and yet are much harder to predict 
than ARs. Tropical storms and hurricanes are another cause, and they 
may have some of the predictability needed, but how that predictability 
relates to the lead times that are required by FIRO in those regions 
remains to be assessed.

    Mrs. Napolitano. Thank you. Thank you for your testimony.
    That sounds very promising, and I hope that you develop it 
further to help anywhere in the United States eventually.
    Thank you, everybody, for your testimony.
    We will recognize myself for 5 minutes and the questions 
that I have for many. I think we will try to expedite this 
since we have been here almost 3 hours.
    Mr. Berginnis, this year's floods have devastated 
communities across the Nation. How do we help ensure that the 
Corps helps to rebuild and how do we build it better?
    Do you think the funding is sufficient to do so?
    Mr. Berginnis. I do not think the funding is sufficient, 
and again, as outlined in our testimony, and it was very 
interesting to hear the comments about how we can bring this to 
bear on all communities, not just with communities with 
authorized projects, and the Corps has so much expertise.
    But it is unable physically to go out into communities to 
help with planning and doing projects, even projects where a 
community might want to do it themselves.
    So that is one aspect of it. The other is, you know, I was 
reading about a report that came out I think in the last week 
or so that used the example of if we use the option of 
seawalls, that across the Nation we are looking at about a $400 
billion price tag when it comes to dealing with sea level rise.
    And the intent of that study was not to say we need 
seawalls everywhere, but the intent of that study was to start 
getting our arms around the magnitude of the flooding problem 
that we face with the future conditions that we are going to be 
dealing with.
    And so the $100 billion backlog that we talk about is 
really small compared to just what we are going to be facing on 
our coasts.
    Mrs. Napolitano. Mr. Brockbank and Ms. Hill-Gabriel, we 
hear more reports of coastal beach closures because of the 
algae bloom. What are the ecology and economic consequences of 
algae blooms?
    What are your recommendations for long-term solutions?
    How does it affect communities and tourism and fishing and 
the lost revenue?
    Mr. Brockbank. Certainly the economics of algae bloom are 
devastating to local communities who rely on beach tourism as a 
primary source of their economic wellbeing.
    ASBPA does not work on water quality issues, but we are 
very actively trying to support these communities that have 
beach tourism as an economic base.
    And so I think whatever the Corps is able to do to ensure 
that the water quality is of a sufficient standard to maintain 
that base, it is absolutely critical.
    Ms. Hill-Gabriel. And thank you for that question.
    I think another important factor to think about is the need 
to coordinate between local government, State government, and 
the Federal Government. There are many things that are outside 
of the Army Corps' mission that they do not have control over 
that often contributes to the algae blooms.
    So looking at where, for example, there are State water 
quality issues that need to be addressed that end up having a 
confluence with the water management issues that the Army Corps 
is responsible for, we have to look at these things 
comprehensively.
    Almost in every case where we see a massive algal bloom 
problem there is not one silver bullet solution. So ensuring 
that we bring the right people together to talk about each 
different decision maker or entity's responsibility in trying 
to address the problem is critically important.
    And I just have to share that, you know, I saw Congressman 
Mast put up the pictures of the algal bloom in the St. Lucie 
Estuary in Florida, and I remember that about 3 years ago I 
went when it was particularly bad, and went out there for the 
first time--I'd lived in Florida at the time, but not right 
there--and I parked my car and I opened the door, and I was 
across the street from the water, and I thought, oh, I must 
have parked next to a dumpster. I was not parked next to a 
dumpster. This is something that, you know, so far away, the 
smell just really overcomes you, and it truly is something that 
you physically feel in your eyes, and immediately makes it 
challenging.
    So of course people are not going to want to come to these 
destinations that are world-renowned tourist destinations when 
that is the impact that they are feeling. And so the economic 
damages that occur as a result of that are clear.
    Mrs. Napolitano. Well, do you find that the agencies don't 
always talk to each other? Because when I was in State 
government I had to bring them together to talk to each other 
and cooperate with each other. But doesn't that sound like it 
would be the norm? Should be?
    Ms. Hill-Gabriel. I think we wish it would, but that is 
certainly always a challenge, is a need for someone to take a 
leadership helm and make sure that those people are brought 
together to the table at the right time to have the right 
discussion, and that everyone is willing and ready to address 
their contribution to the problem.
    Mrs. Napolitano. Dr. Ralph, one of the sites being 
considered by the organization is Prado Dam, which is in my 
region. I know that all sites are different, as you explained. 
What are the lessons learned from Lake Mendocino and how can 
you apply those to other reservoirs like Prado?
    Mr. Ralph. One of the calculations that needs to be made 
involves how the reservoir is operated. If it is operated such 
that it may need 2 or 3 days' lead time, we can do better at 
forecasting 2 or 3 days out. If it requires 7 or 10 days, that 
is going to be a different story. It is very tough to get these 
storms right 7 or 10 days out. So a lot of it depends on the 
character of the watershed and the dam itself.
    Mrs. Napolitano. Would that require cooperation of the 
agencies to be aware of it?
    Mr. Ralph. Oh absolutely and we have been very well-
received by agencies wanting to discuss this.
    Mrs. Napolitano. Thank you. Mr. Westerman, you are 
recognized.
    Mr. Westerman. Thank you, Madam Chair. For a while, the 
witnesses had us outnumbered three to one, but thanks to 
Ranking Member Graves, we got it down to two to one, now. And I 
want to thank the witnesses for your patience and also for your 
very important testimony, for presenting it to the executive 
committee of the committee, but more than that, getting it on 
record because it is important issues that you have talked 
about.
    Mr. Innis, you talked about the inland waterways and the 
navigation and commerce on those waterways. Can you elaborate a 
little bit more on how the river closures have affected 
industries that rely on products that move up and down the 
river?
    Mr. Innis. Sure. This year has been extreme with the 
flooding that we have seen. We have seen millions of dollars of 
cost to us, and also delays in projects all over our system 
because we can't get the products there. And so that has had 
major impacts on what we have been able to do, and it has 
really caused delays and put more trucks on the road as well as 
finding alternative methods to get there, which is not our 
preferred method.
    You know, and the delays of getting to, let's use St. Paul 
as an example, we were almost 3 months delayed getting there 
from when we would normally get there, and the cost and impacts 
to projects up in that area and further north have been huge 
for us. And modernizing the system is going to be critical 
because if those are modernized, we can recover quicker from a 
flood event to reduce the costs, and that 75/25 split is going 
to be crucial to being able to do that.
    Mr. Westerman. Thank you for that. Many of you mentioned in 
your testimony this concept of natural infrastructure. I heard 
words like designing with nature. I thought of the lyrics to a 
song that said I fought the law and the law one. You know, at 
some point we are going to say, I fought nature and nature won. 
And I think we are seeing that in a lot of places now.
    So the question to the panel is how is the Corps 
implementing provisions from WRDA 2016 and 2018 to consider 
natural and nature-based features when studying certain 
projects; and as a followup, is the Corps or non-Federal 
sponsors, are they acting as barriers to considering natural 
and nature-based designs?
    Mr. Berginnis. One thing that I will mention is that we do 
have some concern that the Corps has not yet done rulemaking 
from some of the WRRDA 2014 or also WRDA 2018 related to some 
of the natural infrastructure. The Corps initiated some 
rulemaking in February 2015 but we've not seen any proposals 4 
years later. So by not having the rulemaking, that is 
problematic.
    Ms. Hill-Gabriel. Thank you. I will add that I think the 
direction was very clear that the Army Corps should be 
considering, or must consider, natural infrastructural 
alternatives in projects like flood risk reduction, and yet it 
is very infrequent; almost never do we see a natural 
infrastructural alternative make it all the way through the 
planning process and get the same level of analysis as some of 
the more traditional routes for infrastructure.
    And I think an issue that a number of folks have mentioned 
today is the cost-benefit ratio analysis. It seems to be one 
hurdle to being able to fully analyze the benefits. And of 
course Secretary James mentioned, himself, that he doesn't 
think they are able to fully interpret the benefits that some 
of these types of projects provide, or options for projects 
provide.
    So I definitely think that as we continue to implement 
those provisions that the committee has made clear, we need to 
look into that more and help them be able to do the right 
analysis.
    Mr. Brockbank. If I may, I will just be real quick. WRDA 
2016, section 1184 required natural features to be considered 
in feasibility studies. WRDA 2018, section 1149 allowed for 
natural and nature-based features to be included in aquatic 
ecosystem and flood risk management projects.
    These were provisions that we strongly supported and am 
pleased were included, but they weren't requirements to do 
natural infrastructure, and so I think we need to change the 
framework for how the Corps decides what projects to do rather 
than just sort of saying, you know, consider this or you are 
allowed to do this. I think there needs to be sort of a 
fundamental switch about how the Corps plans its projects 
rather than just asking them to consider the project.
    Mr. Westerman. In my remaining time, Dr. Ralph, we have 
talked a little bit about innovations and using modern 
technology. During the flooding in Arkansas I was out on the 
river a lot and met a gentleman in his local community. He had 
developed a sensor that was relatively low-cost, you could put 
it on a metal fence post. He was putting these out on private 
property and they were giving real-time water level 
measurements in one hundredth of an inch increments, and you 
can do all kinds of neat stuff with that kind of data, and he 
developed this for the irrigation industry.
    And I said, that's pretty cool technology, have you talked 
to the Corps or anybody about using this for monitoring river 
levels. And he said, you know, the Corps is not interested in 
talking to somebody like me about new technology.
    But do you see a hinderance with the Corps in accepting new 
technology and getting out on the cutting edge of things that 
could be very beneficial in monitoring current conditions and 
changing conditions?
    Mr. Ralph. Actually my experience is just the opposite. 
They have been very open to exploring new approaches. We work 
directly with the research side of the Corps, which is the 
Engineer Research and Development Center is the lead of that, 
and we are actively engaged in testing new methods with them.
    Mr. Westerman. I yield back, Madam Chair.
    Mrs. Napolitano. Thank you. Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    Ms. Hill-Gabriel, it is great to have you here with us this 
afternoon. As you know, I feel like sometimes I sound like a 
broken record because all I talk about is the situation that we 
have in my district, the Everglades is part of my district, and 
we have been working on Everglades restoration now for two 
decades. And I just feel like we have so much to do, and no one 
seems to have a clear answer on what are the much necessary 
steps to avoid the catastrophe that we saw last summer, and to 
protect our ecosystem, which is dying, and also the livelihood 
of so many, millions, of Floridians that depend on this 
ecosystem for water quality and their livelihood, really.
    So from your perspective, from all the work that you have 
done, what is it that we can do to speed up the restoration 
process right now?
    Ms. Hill-Gabriel. Thank you, Congresswoman.
    I think the first thing is, again, a common theme we have 
heard today, is that for all the success this committee has had 
in getting new projects authorized, we need help working with 
colleagues in the Appropriations Committee to make sure those 
newly authorized projects get funded.
    The amount of progress that has been able to be made by 
having the ability to authorize new projects get back on a 
regular cycle is clear. When you have that level of certainty 
it really makes a difference because it filters all the way 
back down to beginning new planning studies, and every step in 
the process it takes to bring a project up to Congress.
    When the funding is uncertain, and we have seen the Army 
Corps funding at times can go up and down, it makes it very 
difficult not only for the Corps to plan ahead with how much 
progress can be made in any given year, but it also makes it 
difficult for the non-Federal sponsor to be able to budget 
accordingly.
    Where we have seen a lot of progress in the Everglades has 
been when the non-Federal sponsor has taken the lead and said, 
well, we will make sure we have the funding in place. So if we 
are able to get that $200 million in place this fiscal year and 
future fiscal years, that will make progress happen much, much 
faster.
    And as the chairwoman noted in her opening remarks, 
additional appropriations challenges, like limiting the number 
of New Starts, can also be a barrier to making progress, not 
only on the Everglades but on all of the projects that we are 
talking about here today.
    The last thing I will add is I think that when we have 
these massive long-term programs, it is easy to find issues 
along the way that can divert us off of the course of getting 
projects done and getting the next projects ready. And so 
really maintaining that focus and keeping our eye on what the 
ultimate goal is, and continuing progress is key.
    Ms. Mucarsel-Powell. Well, I was on a mission when I 
started in January requesting that funding for the Everglades 
and testified in front of the Appropriations Committee 
requesting those $200 million. I just worry that now that it 
has been approved, that the $200 million will help complete 
some of the planning, not necessarily complete the project. So 
it will delay the restoration efforts. So that is a concern of 
mine.
    Another question that I wanted to ask you, you spoke about 
the marshy areas within the lake that could help in filtering 
some of the toxicity of the water. Can you talk a little bit 
about that and just explain what else we can be doing to just 
improve the overwhelming toxicity that we find in the water 
currently on Lake Okeechobee.
    Ms. Hill-Gabriel. That's right. Often we talk about Lake 
Okeechobee in terms of the source of these discharges that go 
out to coastal estuaries and cause toxic algal blooms, but the 
lake, itself, actually has incredibly important habitat. And 
even if you are not concerned with birds or other wildlife that 
rely on the lake, it also contains when it is healthy up to 
150,000 acres of marsh that acts as a natural filtration 
system. So when we hold lake levels too high for too long, or 
too low for too long, some of that marsh dies out and so the 
natural water quality treatment is no longer there.
    And to put it in perspective, the State of Florida south of 
Lake Okeechobee has built about 65,000 acres of manmade 
treatment marshes because we found that despite every 
technology attempted, those treatment marshes were the best way 
to actually remove the nutrients, that nature won. We couldn't 
figure out a better option other than nature, replicating 
nature. So building manmade marshes costs the State over $2 
billion, but meanwhile you have twice that amount in Lake 
Okeechobee itself if you just keep the lake healthy.
    So it is important to also consider the habitat on the 
lake, itself, in the equation of trying to solve those water 
quality problems.
    Ms. Mucarsel-Powell. Thank you so much. I have run out of 
time, but maybe I will ask you some questions after. Thank you.
    Mrs. Napolitano. Mr. Graves, you are recognized.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    My question is for Mr. Waters, and obviously we have 
demonstrated just how bad the flooding has been--some of the 
worst on record. Can you expand a little bit, and I apologize 
for missing all of the witnesses' opening testimony--I had 
another commitment--but can you expand a little bit on how this 
has affected the livelihood of our communities and our farmers 
and, you know, all of our area, the businesses throughout? And 
you can focus specifically on the State of Missouri because it 
is the same whether it is Nebraska or Iowa or Kansas or farther 
downstream on the Mississippi.
    Mr. Waters. It has been incredible, this event. Number one, 
I sat on the highway commission in Missouri and at one point we 
had over 407 roads closed due to the flooding. Some of those 
were major interstate highways. I-29 that runs up through 
Missouri and Iowa was closed for numerous days. That alone is a 
huge economic impact.
    The farmland that was flooded, in Missouri one-third of the 
crop produced in the State is produced in the 100-year flood 
plain. We have got a massive amount of that flood plain under 
water now. That is going to have a huge impact on the State's 
economy because agriculture is the number one industry in the 
State, and it is not going to end this year because, as I 
mentioned in my testimony, those levees are going to sit open. 
The Corps is saying that they probably won't get the levees 
repaired for 2 years. I think it is probably more like 3 to 5 
years.
    And so this thing is going to drag on a long time, and it 
just trickles through the whole economy of the State. Not just 
the State, but when you put Kansas, Iowa and Nebraska in there, 
the whole Midwest, it really will affect food production and 
trickle through the United States economy. I really believe 
that.
    Mr. Graves of Missouri. Can you, just to change gears for 
just a little bit real briefly, talk to me a little bit about 
realignment and setbacks when it comes to the levees and how 
that is going to impact property owners and some of that 
farmland?
    Mr. Waters. Sure, I will talk about a levee breach on my 
property. The hole that was created when the water came over 
the levee and breached, is 51 feet deep. So filling that whole 
would be very difficult, so what we feel like we are going to 
have a realignment and ring that hole. So that can be expensive 
as well, but some of those realignments are, you know, they are 
necessary; there is no other way to fix them.
    As we heard General Spellmon say this morning, just in the 
levees they have been able to look at, $1.9 billion in levee 
repairs. That is----
    Mr. Graves of Missouri. That is a preliminary estimate.
    Mr. Waters [continuing]. Just a tip of just a few of the 
levees that they have, you know, had a chance to get in and 
look at. That number is going to continue to increase.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you Mr. Graves. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair. My apologies for my 
absence here, multiple things at one time, so I appreciate 
Madam Chair having this hearing and this panel for being here.
    I wanted to zero in on the issues revolving around Oroville 
Dam in northern California which suffered a spillway breakage a 
little over 2 years ago, and since then has been rebuilt and is 
well functioning.
    The reconstruction of it, which, you know, we understand 
there are certain issues with how lake levels have to be 
maintained on that, but indeed, for 2 years the lake level of 
Lake Oroville was kept very low in phase with this 
construction, and it was a risk-averse strategy, and again, it 
is understandable part of it here, but I think the net effect 
was the local economic issues faced with that, and I will be 
addressing Mr. Ralph with a question on that here in a moment, 
it hurt the local economy on the recreational side and tourism 
side, as well as the water supply issues for the State of 
California.
    The State has yet--does not contribute any real significant 
funding to Oroville to compensate for county's responsibility 
to maintain roads, law enforcement, fire, et cetera. So the 
county, Butte County, calculates approximately $10 million a 
year of cost to them for providing services that they have 
little authority to be part of.
    So with that, the dam--two economic problems that we need 
help with. We can fix through the FERC relicensing process and 
see that DWR is a bigger partner going forward on what its 
costs of the dam to the community are; and then also looking at 
adding in more, directing to Mr. Ralph, looking at the risk and 
economic impacts when we do this, the forecasting model for how 
the lake level is maintained. Again, it is a different 
situation when the spillway is being repaired. I thought it was 
a little conservative, but--on low levels--but nonetheless, we 
are through that and we have a great water year this year, 
2019.
    So Mr. Ralph, I understand you are working on a forecast 
model with the State in the hope of updating the 1970s era Army 
Corps manual for operations of Lake Oroville as well as New 
Bullards Bar nearby--they kind of work together. Do you expect 
this update to be completed at what point?
    Mr. Ralph. We are working with the Yuba Water Agency and 
California Department of Water Resources in a combined effort 
on the Yuba and Feather that will involve both New Bullards Bar 
and Oroville. We are in the phase now of beginning to develop 
the workplan to lay out what is needed in terms of our analysis 
and science to address the issues. We have a target timeline 
such that our report will generate the inputs into a potential 
water control manual update in the order of 3 years or so from 
now.
    Mr. LaMalfa. OK, when was this first started or proposed?
    Mr. Ralph. We just began the work together in May.
    Mr. LaMalfa. Of proposing the idea of changing the manual 
or----
    Mr. Ralph. I believe that Yuba Water Agency has already 
been envisioning a change in the water manual associated with a 
revision to their release facilities from New Bullards Bar, so 
we are working with them very closely and coordinating the 
timelines. Our committee includes a representative for Oroville 
Dam from DWR.
    Mr. LaMalfa. OK, so basically it is a 3-year process from 
initiating, being this year, is what you are hoping for?
    Mr. Ralph. Right. It has been a 5-year process on Lake 
Mendocino and we are accelerating that as we learn along the 
way.
    Mr. LaMalfa. OK, kind of use that model as a way to move a 
little quicker on this one, hopefully, right?
    Mr. Ralph. Right, we are learning things we don't have to 
reinvent, but there are new challenges on Oroville, in 
particular the High Sierra in the snowpack is a big technical 
issue and we have got to address that.
    Mr. LaMalfa. Yes, I have noticed, I have looked at a lot of 
numbers on that where there, you know, with a big snowpack up 
there, there is a lot of fear about that snowpack melting all 
at once, but every number I ever watched on CFS input has been 
pretty conservative, I mean pretty low numbers. It hasn't been 
the rush of water coming into the lake. I know that farther 
down, more in central California, those rivers really rage when 
snow melt happens, but up in our area it seems it is not as big 
of a concern, so when I watch how they are managing lake level, 
it seems like there might just be a little bit of overemphasis 
on that.
    So I hope as you are modeling this that--what kind of 
improvements do you think we can allow to keep the lake fuller 
longer into the year so that we have that water supply issue 
for the rest of the State as well as the local economic and 
tourist issues? Is there a way to aggressively look at this 
model and keep more water at a longer period and still have the 
margin of safety that is reasonable?
    Mr. Ralph. Yes, our effort is going to look both at 
increase in water supply reliability in a way as you are 
envisioning there, but also flood control mitigation capacity 
through prereleases. This is aligned with the new release 
structure that New Bullards Bar is envisioning that will allow 
them to make releases at a lower water level in the reservoir.
    Mr. LaMalfa. OK, because when I noticed----
    Mrs. Napolitano. Thank you.
    Mr. LaMalfa [continuing]. At Oroville we have a lot of 
capacity through the Hyatt Powerplant to maintain, and then the 
spillway itself is designed for a lot of ability to spill 
safely within the river system, so it looks to me like we can 
certainly be a little more aggressive on keeping the lake full 
longer and still have that margin of safety. So please look 
into that, and I will yield back, Madam Chairman.
    Mrs. Napolitano. Thank you, Mr. LaMalfa. We are going to go 
into a second round, very brief, but to the panel, all of you, 
why is it important that Congress continue to enact WRDA?
    Mr. Waters. Well, I would just say we have got a lot of 
problems out there, Madam Chairman. We have got flood control 
structure all over the country that needs improvements, needs 
to be put back where it has been damaged, there are problems 
across this whole country, and as I said in my testimony, wake 
up in the morning, turn the TV on, you will see it flooding 
somewhere in the country nearly every day.
    Mr. Berginnis. I very much agree with Tom in terms of the 
problem, and when you also add sea level rise, it is something 
that will be among the national priorities I think we are 
dealing with in this century. We need to have the full 
expertise and the resources of the Corps of Engineers, but also 
take a broader flood plain management approach that includes 
flood control. Thank you.
    Mr. Innis. The biggest thing that we have seen is the 
impact of WRDA of being hitting every 2 years. I mean the 
impact that we have seen to the inland waterway system has been 
huge. We have started to see projects completed and move 
forward, and having that continue is going to be critical so 
that we can get these 15 priority projects done, and the cost 
share will be the next thing to hurdle. Thank you.
    Ms. Hill-Gabriel. Water is life's most critical element, 
and I think as the change in climate means we are going to see 
stronger storms, sea level rise, flooding in some places and 
drought in others. There is probably no more important issue 
than advancing water infrastructure.
    Mr. Brockbank. The Army Corps of Engineers is our Nation's 
most critical agency in addressing many of the water 
challenges, but certainly the coastal challenges we face, and 
they need to have the full tools at their disposal and have the 
authorization to implement projects, and that is done by WRDA 
every 2 years.
    Mr. Ralph. I see WRDA as providing a venue for dialogue 
about innovation and new approaches that could be helpful in 
the long term.
    Mrs. Napolitano. There seems to be the topic for everybody 
that we need WRDA, we need the resources and we need your 
expertise to be able to make sure that we address all the 
issues, and I would like to ask my colleague, Mr. Westerman, 
for his comment.
    Mr. Westerman. Thank you, Madam Chair, and I really look 
forward to working with you and the committee on getting 
another WRDA in 2020. It is something we definitely need to do. 
Your testimony is extremely valuable in helping us prepare for 
that, and I would like to yield the rest of my time to the 
ranking member of the full committee, Mr. Graves.
    Mrs. Napolitano. He has a full 5 minutes. I recognize Mr. 
Graves.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    Just real quick, I was reading through your testimony, Mr. 
Waters, and you talk about the long- and short-term needs 
necessary to get folks back on their feet and prevent future 
events. So from your perspective, can you go into a little bit 
more depth on how the Corps is going to balance, you know, 
different purposes like fish and wildlife, obviously to the 
detriment of flood control in many cases, but that as well as, 
you know, some of the potential proposed solutions that have 
been offered up, obviously from your perspective?
    Mr. Waters. Well, currently the Corps is trying to balance 
eight authorized purposes with the Missouri River flood control 
system, and they are trying to balance all of those equally. 
Well, they are not equal. This system was built for flood 
control, and so we have to set a priority on flood control. And 
when we do that we are not tossing away the other authorized 
purposes.
    When the system was built for flood control, all these 
other purposes and all these other benefits of a system came 
about. So they will still be there, but to manage this system, 
to protect lives and property, it has to be managed for flood 
control. And so we have got to get back to that, and I think 
one of the first places that we can start is with the dike 
notching that I talked about. If we can get these dikes fixed 
so the water flows downstream. Right now with all the notched 
dikes, as the water comes down the river it hits those dikes 
and swirls; and so it is swirling its way down the stream.
    If you look at the Illinois and the Ohio River, those 
riverbanks are straight and smooth and the water flows right 
down the river. But we have been doing some of these, I call 
them experiments, these projects that we have done have damaged 
the flood control system, and we are seeing results of it now. 
We are seeing more flooding more often.
    Mr. Graves of Missouri. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Graves. The Chair now 
recognizes Mr. Graves of Louisiana.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    I want to thank all of you for being here today and 
providing your input. We talked in the first panel a little bit 
about the backlog of the Corps of Engineers, and I want to 
state for the record, unequivocally, that I could not more 
disagree with Secretary James' comment that the backlog only 
consists of projects that have been partially funded. Congress 
doesn't earmark projects. I couldn't disagree more with the way 
that he categorized that. If a project has been authorized by 
this committee, by this Congress, it is a backlog project, 
period. There is a way to take projects out of the 
authorization process through a deauthorization. If a project 
is authorized, it is an authorized project and it is part of 
the backlog, period.
    But moving on, you all have experience in water resource 
projects in some degree. Let me ask you, just show of hands, 
how many of you are satisfied or think that the existing water 
resources project development and delivery process is adequate 
or corresponds with the urgency of the projects that you have 
worked on.
    Madam Chair, I just want to let the record reflect that no 
one's hand is up right now.
    So you, I'm guessing, have worked on water resource 
projects outside of this Corps of Engineers confine, and look, 
I am not beating up on an individual. It is a process. I think 
the organizational structure is flawed. Congress has some 
culpability. I do think you have people in the agencies and OMB 
that have culpability.
    But looking across your entire portfolio of experience, can 
you talk about giving you a magic wand, what are some of the 
things that you would change based on how you have seen project 
development and project implementation occur working with a 
county, a parish, a State or a not-for-profit or other groups. 
And Ms. Hill-Gabriel, feel free to throw some shout-outs for 
Louisiana.
    Madam Chair, for the record, I want to make mention of a 
National Geographic article that said that the Florida 
Everglades was a petting zoo compared to the ecological 
productivity of coastal Louisiana. I would never say those 
things, I am just quoting someone else, but regardless, if I 
could get your all's feedback on that question I would 
appreciate it.
    Mr. Waters. Well, I would just say there is a lot of 
bureaucracy involved in every project, even some--you know, I 
have been talking about levee repairs, but some of those repair 
projects drag on for a very long time as you deal with 
regulations and rules within the Corps of Engineers, and even 
beyond the Corps. You know, we have to do environmental 
studies, we have to gather easements and property rights, so 
there is so much bureaucracy and the timetable just for putting 
one levee back together is extremely long and so that is why--
--
    Mr. Graves of Louisiana. But Mr. Waters----
    Mr. Waters [continuing]. I said maybe 3 to 5 years to get 
it done.
    Mr. Graves of Louisiana [continuing]. Is there a project 
that you have worked on outside of this Corps of Engineers 
Federal confine that you said, you know what, that worked.
    Mr. Waters. Absolutely, absolutely.
    Mr. Graves of Louisiana. Which one? Can you give----
    Mr. Waters. Through the NRCS. You know, we have projects 
and their water----
    Mr. Graves of Louisiana. Another Federal agency?
    Mr. Waters. Yes, but as a farmer I can go to the NRCS, they 
can design my project and give me the plans and then I can go 
outside and find my own contractor to build it and then get 
reimbursed for that for the cost share, whatever. So allowing 
me to do the contracting and taking care of a lot of that stuff 
that the Corps does on the Corps water project saves a 
tremendous amount of money.
    Mr. Graves of Louisiana. And Madam Chair, going back to the 
dialogue we had with Secretary James earlier, this 1043 process 
largely, well to some degree, provides for that. The Corps 
wrote 149 pages of guidance so I haven't had a chance to go 
through it all, but I am not sure that it is efficient as NRCS, 
but it is designed to mimic that process where you can use the 
efficiencies of your own contracting and things along those 
lines. And so I do think making sure that we prevent that 
authorization from expiring is very important.
    Mrs. Napolitano. When you are finished reading it, let us 
know.
    Mr. Graves of Louisiana. [Laughter].
    Yes, ma'am, I will send you the CliffsNotes. Any others 
care to comment on this?
    Mr. Berginnis. So another thing on adequacy, I think, is 
that, and Derek had mentioned this earlier, is that for natural 
infrastructure, or for nonstructural, the approach is 
incremental and it is as if the sponsor desires it as opposed 
to being an automatic part of project development or repair. 
For example, in Public Law 84-99, why isn't it that we don't, 
as a nation, have a rapid buy-out program for people that want 
to just get the heck out of harm's way.
    Mr. Graves of Louisiana. Or better yet, why don't we look 
at the Community Development Block Grant Disaster Recovery 
Program, the Pre-Disaster Mitigation Program, the Hazard 
Mitigation Grant Program, the Corps of Engineers CG program, 
and instead of prohibiting each one of these from being able to 
comingle or work together, actually encouraging them to do so 
to where we can achieve some of these greater objectives like 
where it makes sense buy-out, where it makes sense comingle 
funds and address the backlog of projects, and others.
    Certainly a lot of efficiencies that I think we could 
incorporate, but we are going to address the rest of that 
through questions for the record, but I want to thank you, 
again, for being here today.
    I yield back. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Graves. Mr. LaMalfa for a 
short one.
    Mr. LaMalfa. Thank you for another round here; try and do 
it half-time.
    Coming back to Mr. Ralph since we have a little time. I 
just wanted to follow up on some of his Lake Oroville thoughts 
here. What kind of improvements do you think in the manual we 
can achieve that will allow us to keep more water in longer, 
especially in the summer months, so we have better recreation 
and tourism as well as what it means for agriculture in the 
southern part of the State and et cetera?
    Mr. Ralph. Not being an expert on the water control manual 
process, I am an atmospheric scientist, I would like to get 
back to you on that if possible.
    Mr. LaMalfa. OK, then I will follow up. Again, we have the 
ability for a mass amount of water to flow through the 
powerhouse and the newly rebuilt spillway. The spillway is 
large enough to overwhelm the levee system down below with its 
capacity.
    So how far out do you think a forecast model could project 
when we would need to start releasing water to stay within that 
safe range of a full lake in the winter months but not too full 
for--so we have an orderly release but still, again, gearing 
towards a full lake at the end of the springtime? And how might 
that compare to the standard that DWR is already able to use 
working with Army Corps?
    Mr. Ralph. I can't tell you numbers off the top of my head, 
but I can say that factors that come into play are how fast 
water can be released from the reservoir, what amount of water 
needs to be released, what the conveyance system is downstream, 
how far it needs to go, and each reservoir has its own 
particulars of that, and that is what our workplan has 
developed, is intending to quantify very carefully.
    In the case of Lake Mendocino, for example, the number we 
came up with as a committee was 10,000 acre-feet of additional 
water supply reliability. Lake Mendocino is one-tenth the size 
of New Bullards Bar; it is a fraction of Oroville. And based on 
the release structure and the rates that have been allowable, 
it would take about 2 days to release that water. And then 
Guerneville is a town downstream that is flood prone. It would 
take about 1 to 3 days for that back edge of that surge of 
water to get past Guerneville. So you add the 2 days to get the 
water out of the dam, up to 3 days to get out of the way, that 
is 5 days. That gives us our lead-time requirement for adequate 
forecast skill so as to enable FIRO to work on Lake Mendocino. 
So we will have to go through those calculations very carefully 
with regards to the system.
    Mr. LaMalfa. Makes perfect sense. You are either limited by 
the size of the spillway or the system below the levee as river 
to, in this case, it is the river structure that is going to 
limit how much can go without unneeded damage. So I will be 
interested to see how a little more modernized look at what the 
snowpack release would be, so what is incoming to the lake is 
more realistic instead of the, you know, the more great level 
of concern maybe unneeded on that.
    So with that, I will yield back and please keep me apprised 
as you are going along on that, we are very interested in that 
work as it unfolds. So thank you for that, and I yield back, 
Madam Chair.
    Mrs. Napolitano. Thank you, Mr. LaMalfa.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them by 
members of this committee in writing. I also ask unanimous 
consent that the record remain open for 15 days for any 
additional comments, information submitted by Members or the 
witnesses, to be included in the record of today's hearing. So 
without objection--no objection--so ordered.
    I would like to thank--Secretary James left but he was here 
for a good portion of your testimony, and I thank him for that. 
And General Spellmon, thank you very much for staying. I 
recognize your presence and am thankful for it. And to the 
witnesses, thank you for your patience and we thank you for 
your testimony and I bid you good-bye. The subcommittee stands 
adjourned.
    [Whereupon, at 1:42 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Madam Chairwoman.
    I am pleased that the Chairwoman is holding this hearing today, as 
it allows us to review the Corps' implementation of the most recent 
Water Resources Development Acts (WRDA), enacted in 2014, 2016, and 
2018.
    On Monday, I held a bi-partisan roundtable discussion in my 
district to tackle the critical issues of flooding, flood prevention, 
and flood control. Federal, state, regional, and local stakeholders 
participated in a lively discussion. During the Roundtable, it was 
explained how $100 billion in flood damage was prevented by spending 
$2-$3 billion annually on a flood control system. It was clear that 
issues of flooding, flood prevention, and flood control must be 
addressed regionally using cross-functional teams with stakeholders at 
all levels of government, working together to protect Americans.
    I am eager to hear from the Administration officials on the first 
panel to find out what is currently being done, as well as their 
initiatives to address flood related issues. I am also eager to hear 
from the stakeholders serving on the second panel today about the 
challenges faced and potential solutions. My interests are specific to 
how we, as a legislative body, can address flood damage prevention, 
which can save lives and millions of dollars. Perhaps the sharing of 
technology can be an avenue to guide drivers away from flooded areas 
and roads.
    My district is facing economic growth. With that growth stirs 
development of rural areas, which may have served as natural flood 
barriers. Recently, my district is experiencing increased flooding. I 
am dedicated to addressing these issues on a short and long-term basis.
    With this hearing, I join all the efforts to meaningfully address 
the nation's critical concerns surrounding flooding, flood damage 
prevention and flood control.
    Thank you. I yield back.

                                 <F-dash>
  Letter of July 9, 2019, from Doug Wheeler, President & CEO, Florida 
  Ports Council, Submitted for the Record by Hon. Grace F. Napolitano
                                                      July 9, 2019.
Hon. Peter A. DeFazio
Chairman
House Committee on Transportation and Infrastructure
Hon. Sam Graves
Ranking Member
House Committee on Transportation and Infrastructure
Hon. Grace F. Napolitano
Chairwoman
Subcommittee on Water Resources and Environment
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment

RE: Water Resource Development Acts

    Dear Chairman DeFazio, Chairwoman Napolitano, Ranking Member Graves 
and Ranking Member Westerman:
    The Florida Ports Council represents Florida's network of 15 
deepwater seaports. Seaports are one of the state's greatest economic 
assets, positively affecting every region and every resident. Whether 
moving over a hundred million tons of cargo annually or millions of 
cruise passengers, Florida's seaports generate and support a vast array 
of commerce. These seaports are the gateway for shipment of goods into 
and out of Florida and link our state to vital international markets. 
Our seaports have a $117.6 billion economic impact on the state and 
account for more than 900,000 direct and indirect jobs.
    The bi-partisan efforts of the House Transportation and 
Infrastructure Committee over the past several years have had a 
significant impact on seaports in Florida, as well as the entire 
nation. Starting with WRRDA 2014, the Committee made significant 
reforms to a stagnant and difficult navigational harbor construction 
and maintenance process. Florida was finally able to enter into a 
partnership with federal agencies to move forward on projects at all of 
our major seaport harbors.
    Florida is the only state with navigational harbors bordering two 
major shipping lanes--the Gulf and the Atlantic Ocean. The Committee's 
efforts have enabled Florida to deepen the harbors at Canaveral, 
Jacksonville, Miami, and Tampa. In addition, the Harbor Maintenance 
Funds directed by the Committee continue to allow for navigational 
maintenance at all of Florida's seaports and our inland navigational 
rivers throughout Florida. These reform efforts have also allowed the 
Army Corps to repair navigational and water issues at Milepoint in 
Jacksonville, and the Comprehensive Everglades Restoration Plan that 
includes vital water projects around Lake Okeechobee and the 
Everglades.
    But, as you all know, the work is not done. The navigational 
deepening project at Port Everglades in Ft. Lauderdale, Florida has 
experienced well over 20 years of reviews and discussions. That port is 
a vital fuel and cargo seaport for Florida's growing population, and 
issues must be resolved to allow that project to move forward. 
PortMiami will need additional navigational deepening to allow for 
additional larger cargo vessels to safely transit and offload at the 
port. And, even absent navigational hazards caused by hurricanes, 
Florida has ongoing maintenance and operations needs at all of our 
harbors. We also continue to work with Congress and the Administration 
to ensure that adequate funds are provided to congressionally approved 
projects. We fully support the efforts of this Committee to ensure that 
the Harbor Maintenance Trust Fund is used for its intended purpose--
maintaining the country's commercial harbors.
    Finally, we would like to offer our assistance and services to the 
Committee to hold on-site hearings at any of our seaports on the Gulf 
or Atlantic. We can provide the Committee and staff with port and 
navigational tours of Army Corps operations at our seaports, as well as 
committee hearing space for any necessary discussions with port 
administration, federal agency, and private sector maritime businesses.
    Again, we applaud the bi-partisan efforts the House Transportation 
and Infrastructure Committee has undertaken on WRDA legislation. We are 
committed to providing any assistance the Committee might need on 
future legislative efforts.
    Thank you for all of your efforts on behalf of this nation's 
seaports.
        Sincerely,
                                               Doug Wheeler
                             President & CEO, Florida Ports Council

                                     <F-dash>
 Letter of July 10, 2019, from Nicole Vasilaros, Senior Vice President 
      of Government Relations and Legal Affairs, National Marine 
 Manufacturers Association, Submitted for the Record by Hon. Grace F. 
                               Napolitano
                                          Wednesday, July 10, 2019.
Hon. Peter A. DeFazio
Chairman
House Committee on Transportation and Infrastructure
Hon. Sam Graves
Ranking Member
House Committee on Transportation and Infrastructure
Hon. Grace F. Napolitano
Chairwoman
Subcommittee on Water Resources and Environment
Hon. Bruce Westerman
Ranking Member
Subcommittee on Water Resources and Environment
    Dear Chairman DeFazio, Ranking Member Graves, Chairwoman 
Napolitano, and Ranking Member Westerman:
    On behalf of the National Marine Manufacturers Association (NMMA), 
I thank you for convening the ``Water Resources Development Acts: 
Status of Implementation And Assessing Future Needs'' hearing. As your 
subcommittee and the full committee the continues work to reauthorize 
the Water Resources Development Act (WRDA), NMMA encourages your 
consideration of the integral role this legislation plays in creating 
safe, reliable access for recreational boaters and in supporting the 
continued economic growth of the U.S. recreational marine industry.
    By way of background, NMMA is the leading recreational marine trade 
association in North America, representing nearly 1,300 boat, marine 
engine, and accessory manufacturers. Recreational boating is a 
significant contributor to the U.S. economy, generating $170.3 billion 
in annual economic impact that supports more than 35,000 businesses and 
691,000 jobs. Additionally, the outdoor recreation economy as a whole--
which is driven by boating and fishing and includes RVing, guided 
tours, and motorcycling and ATVing--accounts for 2.2 percent of U.S. 
GDP, $734 billion in gross economic output, and 4.5 million jobs. In 
terms of GDP, outdoor recreation is larger than mining, utilities, and 
chemical products manufacturing.
    Outdoor recreation is a substantial and rapidly increasing part of 
the U.S. economy. For our industry--and the entire U.S. economy--to 
continue to grow, it is essential that port maintenance and dredging 
projects are sufficiently funded. Additionally, adequate funding will 
help create jobs in coastal and inland waterway communities, improve 
access for water-based recreational activities, and make conditions 
safer for the recreational boating and angling communities.
    First and foremost, full utilization of Harbor Maintenance Trust 
Fund (HMTF) revenue for harbor maintenance activities is essential. The 
HMTF was created to ensure that our nation's harbors would always be 
properly dredged and fully operational, yet much of the fund's annually 
collected revenue does not make its way back to where it was originally 
intended and is desperately needed. In fact, the U.S. Army Corps of 
Engineers (Corps) estimates that full channels at the nation's 59 
busiest ports are available less than 35 percent of the time--and the 
conditions of small and emerging harbors are far worse. The result of 
insufficient funding for maintenance and dredging projects is the 
deterioration of our nation's ports, harbors, and waterways, which 
support thousands of jobs and commercial and recreational economic 
development nationwide.
    There are sufficient funds in the HMTF to meet the maintenance 
dredging needs of all federally-authorized ports. Full utilization of 
the fund would provide the necessary funding to enable the Corps to 
dredge all federal harbors to their constructed widths and depths. 
Improperly dredged channels exacerbate user conflict in our busy ports 
and harbors, impacting safety and important access points for 
recreational boaters as well.
    NMMA also encourages the committee to consider reforming the Corps' 
dredging project prioritization process to accurately account for the 
economic benefits of investing in projects that facilitate recreational 
use. Under the current process, the Corps give priority to coastal 
harbors and inland waterways with the most commercial traffic, while 
simultaneously providing priority for maintenance of channels at small 
ports that support significant commercial fishing, subsistence, or 
public transportation benefits. A recent study found that in 2017, 
Michigan's ports and harbors produced $19.7 billion in economic impact, 
and of that amount, water-based tourism and recreation economic impacts 
were nearly four times the size of commercial economic impacts.\1\
---------------------------------------------------------------------------
    \1\ Magnini, V., Boik, W., Crotts, J. (2018). The Economic and 
Fiscal Impacts of Michigan's Ports and Harbors. Institute for Service 
Research.
---------------------------------------------------------------------------
    This flawed system fails to properly account for the value created 
by access for recreational activities--effectively putting boaters and 
the recreational boating industry's $170.3 billion annual economic 
activity at a disadvantage. Small recreation-based shallow draft 
harbors are critical access points for marinas and coastal communities 
where businesses and local communities depend on marine recreation-
based economic activity. Additionally, without sufficient dredging in 
these areas, some recreational boaters are forced to use high traffic 
commercial channels, which can lead to potential user conflicts and 
safety concerns.
    The prioritization process should be amended to account for the 
economic impacts directly tied to investing in recreational-based 
projects by ensuring that a percentage of existing available funds are 
allocated for three different categories: High-Tonnage, Low-Tonnage, 
and Commercial or Recreational ports. In addition, increases in social, 
cultural, and environmental benefits should be considered in the 
allocation of the three funding categories where appropriate.
    Furthermore, NMMA recommends that the committee direct the Corps to 
study alternative and recyclable solutions for disposal of dredged 
materials, thereby forgoing the continued traditional landfill disposal 
of dredged material and delivering multiple economic and environmental 
benefits to local economies. Due to the naturally occurring process of 
sedimentation, overtime, rivers, lakes, harbors, and bays can become 
filled with debris, sand, mud, silt, and other materials that reduce 
waterway depths, making them difficult to navigate and posing 
environmental and safety hazards. Proper dredging of these sediment 
materials plays a critical role in maintaining clean and healthy 
waterways for local ecosystems and providing access to the recreational 
boating and angling communities. The Corps estimates that hundreds of 
millions of cubic yards of dredged materials need to be excavated each 
year to keep the nation's waterways open for commercial and 
recreational use. Exploring options to increase the use of alternative 
and recyclable solutions will facilitate new opportunities to more 
efficiently and sustainably deliver economic, environmental, and 
societal benefits through the disposal of dredged materials.
    The federal government is responsible for maintaining our nation's 
ports, harbors, and waterways. Applying the full balance of the HMTF to 
harbor maintenance projects will ensure the fees collected in the fund 
are not diverted from critical dredging projects but used to deliver an 
economic boost to the U.S. commercial and recreational boating 
industries that depend on well maintained waterways. NMMA appreciates 
your consideration and stands ready to assist you and the committee 
throughout this important endeavor.
        Sincerely,
                                           Nicole Vasilaros
   Senior Vice President of Government Relations and Legal Affairs,
                          National Marine Manufacturers Association

                                     <F-dash>
    Article, ``Breached Levee Sucks in Barges in Alexander County, 
   Highlighting Need for Repairs, Officials Say,'' by Gabriel Neeley-
 Streit, The Southern, July 3, 2019, Submitted for the Record by Hon. 
                               Mike Bost
    MILLER CITY--Overnight Wednesday, six connected barges came loose 
from their tugboat and were sucked through the breach in the Len Small 
levee in Alexander County.
    The current pushed the barges out over flooded farmland near Miller 
City, said Alexander County Engineer Jeff Denny, where they came to 
rest apparently after colliding with an irrigation system.
    Two similar accidents had been narrowly avoided in the past month, 
Denny said, because those tugboats had engines strong enough to escape 
the water flowing into the \3/4\-mile-wide hole in the levee.
    This time, no such luck.
    There were no injuries nor damage to barges, which were all empty, 
said Kent Furlong, owner of Hines Furlong Line, the barge company.
    However, the barges appear to have taken out power lines in their 
path across the flooded fields, Denny said.
    As Hines Furlong worked to remove the vessels on Wednesday, county 
leaders said the incident is a reminder of the need to fix the levee, 
which the U.S. Army Corps of Engineers has ignored for several years.
    The Len Small Levee is located between Mississippi River mile 
marker 21 and mile marker 35 in far southern Alexander County, near an 
area of farmland known as Dogtooth Bend.
    It has failed repeatedly over the last decade. In January 2011, 
flooding left ``a 5,000-foot breach,'' according to Professor Kenneth 
Olson, of the University of Illinois.
    The levee was repaired that year by the U.S. Army Corps of 
Engineers, working together with local farmers, only to breach again in 
a different location in 2016.
    At that time, the U.S. Army Corps of Engineers declined to fix the 
hole, saying the economic losses on the flooded land were not great 
enough to justify the projected $16 million cost of fixing the levee.
    Instead, the federal agency opted for a stopgap, Denny said, twice 
laying thousands of pounds of rock, known as rip-rap, to strengthen the 
bottom of the breached area and the levee walls, in order to prevent 
further erosion.
    But with the prolonged flooding of 2019, residents of the area 
report the \3/4\-mile-hole in the levee continues to grow.
    ``I would love to know how many millions they've spent, and now 
we're pretty much back to square one,'' Denny said.
    The true extent of this year's damage won't be clear until 
floodwaters recede from the estimated 25,000 acres of farmland flooded 
because of the failing levee, Denny said.
    But regardless, local officials will continue to make the same 
request, Denny said: fill the hole.
    ``We are looking at the consequences of federal policy failing to 
reflect the critical role that levees play beyond flood prevention, 
such as maintaining safe commercial navigation. This makes no sense and 
it's costing Southern Illinois dearly,'' said U.S. Rep. Mike Bost on 
Wednesday.
    To help the levee get patched, Bost introduced a provision in the 
Water Resources Development Act, approved by the U.S. House last 
September, that allows local sponsors to pay the difference when the 
costs of a levee repair are deemed to be financially greater than the 
flood protection benefits.
    However, the provision's implementation on the Len Small has been 
stalled by differences in the legal interpretation of the law between 
the congressional lawyers who wrote it and the Corps of Engineers, 
Denny said.
    ``The Corps understands it to mean local entities can make up the 
difference only with cash contributions,'' Denny said, which would 
require Alexander County to put up over $3 million on the $16 million 
job. ``But the intention of the law was to allow us to pay with work in 
kind.''
    In the past, when the Corps repaired the levee, the county was 
asked to cover 20% of project costs, Denny said, and did so via work in 
kind, with many farmers giving their time and equipment to help with 
construction.
    In the 2011 repairs, local farmers did about 50% of the work, he 
estimated.
    Alexander County residents hoped to bear a greater burden of labor, 
under Bost's proposal, to get the USACE to sign on to the new repairs.
    But for now that possibility remains a ``back and forth'' 
discussion at the federal level, Denny said, and no USACE work is 
expected on the levee.
    The Corps of Engineers did not respond Wednesday to questions about 
its position on the levee.
    Meanwhile, the flood fight continues in the nearby villages of East 
Cape Girardeau and McClure.
    On Wednesday, the Illinois Department of Transportation's announced 
the closure of Illinois 146, which runs west from East Cape to Cape 
Girardeau, over the Bill Emerson Memorial Bridge.
    The road, which is covered by 6 or more inches of water in spots, 
had been closed to low vehicles, but open to trucks and SUV's, 
according to Jerry Held, Alexander County Emergency Management Agency 
assistant coordinator.
    Now, only emergency vehicles and government vehicles will be 
allowed access, Held said.
    Sandbagging continues in the communities of East Cape and McClure, 
and residents of East Cape are still advised to prepare for voluntary 
evacuation if necessary.
    From Springfield, Gov. J.B. Pritzker sent a letter to U.S. 
Agriculture Secretary Sonny Perdue on Wednesday asking him to issue a 
disaster declaration for Illinois farmers. The declaration would make 
new federal resources available to those whose planting season was 
affected by flooding and heavy rainfall.
    ``For months, our state has been battling historic flooding, 
causing untold damage to homes, businesses, and farms across 
Illinois,'' Pritzker said. ``For our farmers, this has meant delaying, 
reducing, or even eliminating planting, hurting a core state industry 
and impacting working families across Illinois. While the state will 
continue to do everything we can to help, a Secretarial Disaster 
Declaration will provide much needed aid to impacted farmers in 
Illinois and I am hopeful the USDA will make this declaration.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Jane Satterlee is boated out from her trailer on June 11 in East Cape 
  Girardeau by National Guardsmen Andrew Lucas and Tony Clark.--Isaac 
                                 Smith

                                 <F-dash>
      Letter of February 14, 2019, from David P. Ross, Assistant 
   Administrator, Office of Water, Environmental Protection Agency, 
             Submitted for the Record by Hon. Brian J. Mast
                                                 February 14, 2019.
Hon. Brian J. Mast
House of Representatives, Washington, DC 20515
    Dear Congressman Mast:
    Thank you for your October 26, 2018, letter requesting the U.S. 
Environmental Protection Agency (EPA) to provide information on 
cyanobacteria and cyanotoxins, You specifically requested the EPA's 
expertise on two questions:
    1.   Do you consider microcystins algae, blue-green algae, and 
cyanobacteria to be toxins?
    2.   At what level do you consider each to be harmful to human 
health?

    The EPA understands your concern about the presence of harmful 
algal blooms (HABs) in Lake Okeechobee and the potential adverse 
impacts these blooms could have on human and ecosystem health.
    Cyanobacteria and their toxins are considered a serious and growing 
threat to human health. In freshwater, cyanobacteria, sometimes called 
``blue-green algae,'' are the major HABs-forming group. Cyanobacteria 
are microorganisms that can produce harmful cyanotoxins, such as 
microcystins, cylindrospermopsin, and anatoxin-a. Adverse health 
outcomes from exposure to cyanotoxins may range from a mild skin rash 
to serious illness. Specifically, some of the adverse effects reported 
after exposure to these toxins in drinking water include damage in the 
liver, kidney, and nervous system. Symptoms reported after acute 
recreational exposure to cyanobacterial blooms includes skin 
irritations, allergic reactions, and gastrointestinal illnesses.
    Regarding the levels at which these toxins can be harmful to human 
health, in 2015, the EPA developed non-regulatory drinking water health 
advisories (HAs) for two cyanotoxins, microcystins and 
cylindrospermopsin, to assist federal, state, and local officials, and 
managers of public or community water systems to protect public health 
from cyanotoxins in drinking water. The EPA developed HAs for bottle-
fed infants and pre-school children (0.3  g/L for microcystins and 0.7  
g/L for cylindrospermopsin) and for school-age children and adults (1.6 
 g/L for microcystins and 3.0  g/L for cylindrospermopsin). The EPA 
also developed health effects support documents for the cyanobacterial 
toxins anatoxin-a, cylindrospermopsin, and microcystins summarizing 
relevant information on occurrence in surface water systems and 
toxicology and epidemiology data. The HAs and health effects support 
documents for cyanotoxins can be found on the EPA Drinking Water Health 
Advisory website: www.epa.gov/ground-water-and-drinking-water/drinking-
water-health-advisory-documents-cyanobacterial-toxins.
    In 2016, the EPA published draft Recreational Criteria/Swimming 
Advisories for Microcystins and Cylindrospermopsin under Section 304(a) 
of the Clean Water Act (CWA) for public comment. These Criteria/
Advisories focus on health risks associated with recreational exposure 
to fresh waters contaminated with microcystins and/or 
cylindrospermopsin. The EPA is currently revising the draft criteria 
document based on the public comments and we plan to issue final 
criteria recommendations in 2019.
    The EPA continues to evaluate the human health effects from 
cyanobacteria and the toxins they produce in drinking and recreational 
waters. In 2015, as part of the Drinking Water Protection Act, the EPA 
developed a drinking water strategic plan for assessing and managing 
the risks of algal toxins impacting public drinking water systems. The 
strategic plan includes assessing the human health risks from emerging 
toxins, including microcystins. The EPA also listed cyanotoxins on the 
drinking water Contaminant Candidate List for further assessment of 
health effects data. In addition, the EPA, states, and drinking water 
utilities are implementing plans to monitor the nation's drinking water 
systems to determine the extent of contamination by cyanotoxins through 
the Unregulated Contaminant Monitoring Rule.
    The EPA will continue to invest resources in researching human 
health effects and developing risk communication materials to protect 
human health from cyanobacterial toxins in drinking and recreational 
waters. The EPA developed several support recommendations and 
communication tools for public water systems, including: 
Recommendations for Public Water Systems to Manage Cyanotoxins in 
Drinking Water, Cyanotoxin Management Plan Template and Example Plans, 
Drinking Water Cyanotoxin Risk Communication Toolbox, and Water 
Treatment Optimization for Cyanotoxins Document. The EPA also published 
communication materials for states, tribes, and communities to use to 
protect public health during cyanobacterial HABs in recreational 
waters, including: Recommendations for Cyanobacteria and Cyanotoxin 
Monitoring in Recreational Waters, and Recreational Water Communication 
Toolbox for Cyanobacterial Blooms. These and more resources on 
cyanotoxins are available on the EPA Cyanobacterial HABs website: 
epa.gov/nutrient-policy-data/cyanobacterial-harmful-algal-blooms-water.
    Again, the EPA appreciates your concern regarding cyanobacterial 
toxins in freshwater systems in Florida and is committed to working 
with the appropriate agencies to protect human health. The EPA 
coordinates with federal agencies and states and provides technical 
assistance during HABs and emergencies, such as the recent cyanotoxin 
events in Florida. During the HABs events in Lake Okeechobee, the EPA 
Office of Water and the EPA Region 4 Water Quality Planning Branch 
provided technical assistance to the Florida Department of 
Environmental Protection to address public health concerns. The EPA 
also supports and assists three National Estuary Programs in southwest 
Florida: the Tampa Bay Estuary Program, the Sarasota Bay National 
Estuary Program, and the Charlotte Harbor National Estuary Program, If 
you have further questions, please contact me, or your staff may 
contact Denis Borum in the EPA's Office of Congressional and 
Intergovernmental Relations.
        Sincerely,
                                              David P. Ross
                                            Assistant Administrator

                                 <F-dash>
 Press Release of May 22, 2019, Issued by the Environmental Protection 
         Agency, Submitted for the Record by Hon. Brian J. Mast
              news releases from headquarters > water (ow)
epa issues recommendations for recreational water quality criteria and 
                  swimming advisories for cyanotoxins
                                                      May 22, 2019.
    WASHINGTON--Today, as part of the U.S. Environmental Protection 
Agency (EPA)'s efforts to better protect Americans' health when they 
swim or play near the water this summer, EPA is issuing new 
recommendations for water quality criteria and swimming advisory values 
for two cyanotoxins.
    ``With Memorial Day and summer vacations around the corner, EPA is 
providing this information to help Americans know when it is safe to 
swim and play near the water,'' said EPA Office of Water Assistant 
Administrator David Ross. ``EPA's new recommendations will help state 
and local officials make informed decisions about when to issue local 
water quality and swimming advisories that are designed to protect the 
public, especially vulnerable populations like our nation's children.''
    Algal blooms caused by cyanobacteria sometimes produce cyanotoxins 
at concentrations that can be harmful to people swimming or 
participating in other activities in or on the water. States can adopt 
EPA's recommended cyanotoxin values into their water quality standards 
or use the values as the basis for issuing a local swimming advisory.
    Based on the latest scientific information, EPA has established 
recommended water concentrations, at or below which protects public 
health, for the cyanotoxins microcystins (8 micrograms per liter) and 
cylindrospermopsin (15 micrograms per liter). EPA's recommendations are 
protective of all age groups and are based on peer-reviewed and 
published science.
    EPA is also releasing infographics that states and communities can 
use to communicate basic information about harmful algal blooms (HABs) 
to the public. The infographics highlight how HABs may affect both 
people and animals and provide guidance on how to identify and respond 
to a potential HAB. States, tribes and waterbody managers can download 
handout- and poster-sized infographic files, along with instructions on 
how to add local contact information, from EPA's newly refreshed 
Cyanobacterial HABs website.
    EPA will soon release draft technical support materials for public 
comment that, when final, are intended to help interested states and 
authorized tribes in implementing these recommended values. Support 
materials will include information on waterbody monitoring, assessing 
attainment of water quality standards, listing of impaired water bodies 
and developing total maximum daily loads under Clean Water Act section 
303(d).
    For more information about the recommended criteria and swimming 
advisories visit: https://www.epa.gov/wqc/recreational-water-quality-
criteria-and-methods
    To download EPA's HABs infographics, visit https://www.epa.gov/
cyanohabs/infographics-help-educate-public-habs-basics.

last updated on may 22, 2019

                                 <F-dash>
 Letter of May 1, 2019, from Robert Redfield, M.D., Director, Centers 
for Disease Control and Prevention, and Administrator, Agency for Toxic 
Substances and Disease Registry, Submitted for the Record by Hon. Brian 
                                J. Mast
                                                       May 1, 2019.
Hon. Brian Mast
U.S. House of Representatives, Washington, DC 20515
    Dear Representative Mast:
    Thank you for your letter requesting information regarding toxins 
and toxic water. You expressed particular interest in cyanobacteria 
(also known as blue-green algae) and microcystins.
    Enclosed with this response are answers to your questions.
    Thank you, again, for your letter. We hope this information is 
helpful. If you have any additional questions or concerns. please 
contact Eric Wortman or Amanda Crouse in the Centers for Disease 
Control and Prevention's (CDC) Washington Office.
        Sincerely,
                                      Robert Redfield, M.D.
                                                 Director, CDC, and
    Administrator, Agency for Toxic Substances and Disease Registry

Enclosure
 the centers for disease control and prevention's answers to questions 
                  about cyanobacteria and microcystins
1. Do you consider microcystin algae, blue-green algae, and 
        cyanobacteria to be toxins?
    The term algae refers to plant-like organisms that are multi-celled 
or single-celled and photosynthetic (i.e., use sunlight to create 
food). Algae are vitally important to oceans, lakes, and rivers because 
they are the building blocks of the food chain and ecosystem. Algae are 
also vital to bodies of water because they produce oxygen to sustain 
life. Multi-celled algae can include seaweed, and single-celled algae 
include microscopic organisms called phytoplankton.
    Phytoplankton can be divided into two categories, cyanobacteria and 
microalgae. Cyanobacteria and microalgae are organisms, not toxins. 
Cyanobacteria may also be known as blue-green algae, although the more 
accurate term is cyanobacteria.
    Cyanobacteria are not infectious and are not toxic per se. However, 
under the right environmental circumstances, cyanobacteria can exhibit 
exuberant growth, or bloom, and may produce toxins that can be released 
into the water. Toxins produced by cyanobacteria include anatoxin-a, 
beta-methylamino-L-alanine, cylindrospermopsin, nodularins, saxitoxins, 
and microcystins.
    Microcystins are potent liver toxins produced by some species of 
cyanobacteria, including Microcystis aeruginosa. Microcystins can 
affect human, animal, and ecosystem health.
2. At what level or numeric threshold do you consider each to be 
        harmful to human health?
    Toxins produced by cyanobacteria (i.e., cyanobacterial toxins) vary 
in their chemical compositions and toxicities. The World Health 
Organization (WHO) and the U.S. Environmental Protection Agency (EPA) 
provide guidance on how to assess whether or not a cyanobacterial bloom 
is a potential threat to human health. This guidance is limited to 
microcystins and cylindrospermopsin, as limited data are available to 
develop guidance for many of the other cyanobacterial toxins. The 
Centers for Disease Control and Prevention refers to this guidance in 
its work with states and other public health partners to reduce the 
occurrence of harmful exposures to cyanobacterial toxins.
    WHO guidance values for the relative probubility of acute health 
effects during recreational exposure to cyanobacteria and the 
probability of microcystins concentrations are based on cell counts and 
the concentrations of microcystin-LR (the most studied of the 
microcystins) and chlorophyll in the water.
    You can find WHO's guidance values on EPA's website at www.epa.gov/
nutrient-policy-data/guidelines-and-recommendations, and we have 
reproduced them in Table 1.

Table 1. WHO Guidance on Relative Probability of Acute Health Effects during Exposure to Varying Cells Counts of
                       Cyanobacteria and Concentrations of Microcystin-LR and Chlorophyll
----------------------------------------------------------------------------------------------------------------
   Relative Probability of Acute
          Health Effects            Cyanobacteria (cells/mL)    Microcystin-LR (g/L)       Chlorophyll-a (g/L)
----------------------------------------------------------------------------------------------------------------
Low...............................                 < 20,000                      < 10                      < 10
----------------------------------------------------------------------------------------------------------------
Moderate..........................           20,000-100,000                     10-20                     10-50
----------------------------------------------------------------------------------------------------------------
High..............................       100,000-10,000,000                  20-2,000                  50-5,000
----------------------------------------------------------------------------------------------------------------
Very High.........................             > 10,000,000                   > 2,000                   > 5,000
----------------------------------------------------------------------------------------------------------------

    EPA has created guidance in the form of health advisories, or HAs, 
that provide microcystin and cylindrospermopsin levels in drinking 
water sources and recreational waters to help determine the potential 
health risks from using the water. The HAs are not regulations and 
should not be construed as legally enforceable federal standards. HAs 
may change as new information becomes available.
    You can find the guidance for recreational waters at www.epa.gov/
sites/production/files/2016-12/documents/draft-hh-rec-ambient-water-
swimming-factsheet.pdf. We have reproduced the information in Table 2.

         Table 2. EPA's Health Advisories for Microcystins and Cylindrospermopsin in Recreational Waters
----------------------------------------------------------------------------------------------------------------
                                                  Swimming Advisory: not to be exceeded on any day Recreational
                     Toxin                         Criteria for Waterbody Impairment: not exceeded more than 10
                                                  percent of days per recreational season up to 1 calendar year
----------------------------------------------------------------------------------------------------------------
Microcystins...................................                                                           4 g/L
----------------------------------------------------------------------------------------------------------------
Cylindrospermopsin.............................                                                           8 g/L
----------------------------------------------------------------------------------------------------------------

    You can find EPA's guidance for drinking water at www.epa.gov/
nutrient-policy-data/guidelines-and-recommendations#what3. We have 
reproduced the information in Table 3.

           Table 3. EPA's Health Advisories for Microcystins and Cylindrospermopsin in Drinking Water
----------------------------------------------------------------------------------------------------------------
                                                                  Drinking Water Health Advisory (10-day) \1\
                                                             ---------------------------------------------------
                            Toxin                              Bottle-fed infants and    School-age children and
                                                                 pre-school children             adults
----------------------------------------------------------------------------------------------------------------
Microcystins................................................                  0.3 g/L                   1.6 g/L
----------------------------------------------------------------------------------------------------------------
Cylindrospermopsin..........................................                  0.7 g/L                     3 g/L
----------------------------------------------------------------------------------------------------------------

    Many\\ states have also developed drinking water and recreational 
water guidance levels for various cyanobacterial toxins. You can find 
them on EPA's website at www.epa.gov/nutrient-policy-data/guidelines-
and-recommendations.
---------------------------------------------------------------------------
    \1\ Health advisories describe non-regulatory concentrations of 
drinking water contaminants at or below which adverse health effects 
are not anticipated to occur over specific exposure durations (e.g. one 
day, 10 days, several years, and a lifetime). The health advisory fact 
sheet for microcystins and cylindrospermopsin can be found at 
www.epa.gov/sites/production/files/2017-06/documents/cyanotoxins-
fact_sheet-2015.pdf.

                                 <F-dash>
   Letter of April 16, 2019, from David D. Whiting, Deputy Director, 
     Division of Environmental Assessment and Restoration, Florida 
  Department of Environmental Protection, Submitted for the Record by 
                           Hon. Brian J. Mast
                                                    April 16, 2019.
Hon. Brian Mast
United States House of Representatives, 2182 Rayburn House Office 
        Building, Washington, DC 20515
    Dear Congressman Mast:
    Thank you for your letter dated March 18, 2019 asking about 
thresholds used to determine whether a cyanobacteria bloom is toxic.
    First and foremost, the health of Florida residents and visitors is 
the primary concern to DEP and the Florida Department of Health (DOH). 
In my response to your earlier inquiry, I indicated the State of 
Florida relies upon a precautionary presence/absence approach that is 
much more stringent than numeric thresholds. This approach bases public 
health protections on the visible presence of cyanobacteria in a 
waterbody as the trigger mechanism for advisories, media releases, and 
other forms of public outreach. This approach is more protective and 
easier for the public to understand than using numeric thresholds to 
determine when to notify the public for a variety of reasons I will 
address below.
    The World Health Organization's (WHO) thresholds (https://
www.who.int/water_sanitation_health/resourcesquality/toxcyanchap5.pdf) 
for recreational bathers, including swimmers, sail-board riders and 
water skiers, are 10 micrograms per liter of microcystin-LR (MC-LR) for 
a low probability of adverse effects (e.g., irritative or allergic 
reactions that affect less than 30% of the population and ``result in 
discomfort rather than serious health outcomes'') and 20 micrograms per 
liter of MC-LR threshold for moderate probability of health effects 
(e.g., increased long-term risk through ingestion). The WHO suggests 
health organizations should use these thresholds to determine when to 
notify the public and what risk to convey. Florida's approach of ``See 
it, stay away'' is more proactive and thus more protective than relying 
solely on thresholds to determine course of action.
    The United States Environmental Protection Agency (EPA) has 
produced draft thresholds for recreational waters for microcystins (8 
micrograms per liter) and cylindrospermopsins (15 micrograms per 
liter), however these thresholds have not been finalized.
    There are a number of reasons why the State of Florida believes a 
more precautionary approach, one based simply on the presence of a 
cyanobacteria bloom, is warranted over specific toxin thresholds, these 
include:

    1.)  rapidly changing bloom conditions;
      a.  wind, current, tide, atmospheric pressure, and time of day 
can significantly influence where and how densely a bloom is 
concentrated;
    2.)  the time required to sample, ship, analyze, and then report 
toxin concentrations take too long to effectively support management 
decisions regarding the need for placing or removing an advisory;
      a.  under our current expedited sampling and analysis routine, 
the time required from sample collection to results reporting is 3-4 
days;
    3.)  cyanobacteria have the potential to produce many other 
cyanotoxin compounds besides MC-LR for which no human health thresholds 
currently exist;
      a.  other cyanotoxins include other microcystins (there are more 
than 240 known, but analytical standards exist for only about a dozen), 
aeruginosins, cyanopeptolins, anabaenopeptins, microviridins, 
cyclamides, lipopolysaccharides, polyketides, and some non-essential 
amino acids;
      b.  EPA has not offered sufficiently robust guidance on what 
sample collection or analytical chemistry methods should be used when 
quantifying cyanotoxins;
      c.  This could lead to large variations in reported values and 
the potential to underestimate the public health risk posed by a bloom;
    4.)  poor scientific understanding of what triggers blooms to start 
or stop producing toxins;
      a.  levels of toxin production may be influenced by nutrient 
concentrations, which strains of cyanobacteria species are dominant, 
and the health of bloom; however little information exist that can 
currently be used to predict whether a bloom will be toxic or not.

    I hope you find this information useful. Should you need more 
information, please don't hesitate to contact me again.
        Sincerely,
                                           David D. Whiting
         Deputy Director, Division of Environmental Assessment and 
                                                        Restoration

                                 <F-dash>
  Letter of November 9, 2018, from David D. Whiting, Deputy Director, 
     Division of Environmental Assessment and Restoration, Florida 
  Department of Environmental Protection, Submitted for the Record by 
                           Hon. Brian J. Mast
                                                  November 9, 2018.
Hon. Brian Mast
United States House of Representatives, 2182 Rayburn House Office 
        Building, Washington, DC 20515
    Dear Representative Mast:
    Thank you for your inquiry and your interest in cyanobacteria and 
the management of Lake Okeechobee. As Deputy Director of the Florida 
Department of Environmental Protection's (DEP) Division of 
Environmental Assessment and Restoration, I oversee the sampling and 
processing of cyanobacteria in Florida's freshwater environments, and 
Secretary Valenstein has asked me to respond to your letter on his 
behalf. This is a relatively complex issue, and while I am happy to 
address your questions below, I also remain available to offer any 
technical assistance you may need.
    Cyanobacteria, also known as blue-green algae, are a group of 
bacteria that can be found all over the world and naturally occur in 
Florida's freshwater and marine habitats. These bacteria are 
microorganisms that function like algae in that they are capable of 
photosynthesis and derive their energy from the sun.
    Cyanobacterial cells may or may not contain toxins. Even when a 
cyanobacterial cell has the necessary genes to enable it to produce 
toxins, it may not always do so. Scientists are still actively 
researching what environmental conditions trigger a cyanobacteria cell 
to produce toxins.
    Microcystins are one class of toxins that can be produced by some 
species of cyanobacteria. In Florida, the most common microcystin 
experienced is Microcystis aeruginosa. The microcystin toxins are 
usually contained within the cell until cell death, when the cell wall 
fails and the toxins are released into the surrounding water.
    Because cyanobacterial cells are capable of, but do not always 
produce or release toxins, the Department focuses its sampling efforts 
on the locations that best represent the overall condition and water 
quality of the bloom affected water. DEP and other state and local 
agencies collect samples when algal blooms are observed during their 
routine water quality monitoring, as well as in response to public 
reports. To make it easy for the public to report algal blooms, the 
Department has established both a hotline and online tool at 
www.reportalgalbloom.com or toll-free at 1-855-305-3903. Our laboratory 
performs both cyanotoxin and algal taxonomy analyses on samples 
collected, with results typically provided to the public within 3-4 
days of collection on DEP's webpage.
    The Florida Department of Health (DOH) is the lead state agency for 
addressing potential human health impacts related to cyanobacteria and 
other harmful algal blooms (HAB). DOH monitors the State's Poison 
Control hotline 1-800-222-1222 and emergency room reports for possible 
HAB-related activity. DOH also provides technical assistance and 
educational materials to local health departments in affected counties.
    Due to the highly variable nature of cyanobacteria blooms in 
Florida's waters, DOH and DEP agree that numeric toxin thresholds are 
not the most protective mechanism to trigger a recreational advisory or 
closure threshold. Algal blooms conditions can change too rapidly for 
analytical results to accurately reflect current conditions. Florida 
uses a more precautionary approach and advises citizens and visitors to 
avoid recreating in any surface waters with visible algae present. DOH 
implements this precautionary presence/absence strategy for protecting 
the public when recreating in surface waters, warning the public to 
avoid contact and use of waters experiencing a cyanobacteria bloom.
    The United States Environmental Protection Agency (EPA) has 
published drinking water thresholds for two cyanotoxins, microcystins 
and cylindrospermopsin (https://www.epa.gov/ground-water-and-drinking-
water/additional-information-about-cyanotoxins-drinking-water). Public 
drinking water facilities in Florida are currently monitoring for these 
toxins in response to EPA's Unregulated Contaminant Monitoring Rule 
(https://www.epa.gov/dwucmr/fourth-unregulated-contaminant-monitoring-
rule).
    I hope this information provides more clarification. Should you 
need more information in the future, the Department proudly boasts a 
team of a capable and knowledgeable scientists who stand ready to serve 
as a technical resource for you.
        Sincerely,
                                           David D. Whiting
         Deputy Director, Division of Environmental Assessment and 
                                                        Restoration

                                 <F-dash>
   Validation Study--Wrightsville Beach, North Carolina, June 2019, 
             Submitted for the Record by Hon. David Rouzer
    The United States Army Corps of Engineers (USACE) has prepared a 
Validation Study for the Wrightsville Beach, N.C. Coastal Storm Risk 
Management (CSRM) project. The Study's purpose is to determine 
continued Federal interest (through 2036) and to increase the total 
construction cost capacity established by Section 902 of the Water 
Resources Development Act (WRDA) of 1986. We anticipate a WRDA 2020 
authorization will allow the opportunity for ongoing Federal 
participation.
    This Validation Study is being conducted under the existing project 
authority and is a cost-shared effort with the non-Federal sponsor, the 
Town of Wrightsville Beach. The USACE is the lead agency with the 
Bureau of Ocean Energy Management (BOEM) as a cooperating agency. 
Project Delivery Team (PDT) representatives include members of the 
USACE Wilmington, Jacksonville and Savannah Districts with 
participation by the Town of Wrightsville Beach, New Hanover County and 
other Federal and State agencies.
    The report is a fully Integrated Validation Study and Environmental 
Assessment that complies with the National Environmental Policy Act 
(NEPA) and the USACE's water resources planning process. The 
Recommended Plan would not result in any significant impacts to 
federally-listed threatened or endangered species or their designated 
critical habitat, would have no significant impact to sites listed or 
eligible for inclusion on the National Register of Historic Places, 
would not significantly impact any wetlands or waters of the U.S., nor 
any protected wildlife habitat. Informal Section 7 coordination with 
the US Fish and Wildlife Service (USFWS) has been successfully 
completed. The USFWS and the National Marine Fisheries Service (NMFS) 
have been actively involved throughout this study and will have 
additional opportunity to provide input, as will the public, during a 
30-day public review period ending early August 2019.
    The Recommended Plan is the environmentally preferred alternative 
as assessed by PDT participants. Coordination with resource agency 
representatives was initiated early in the study. Appropriate avoidance 
and minimization measures (i.e. environmental windows, beach placement 
activities, borrow source selection and use, etc.) were developed and 
integrated into the Validation Study process. These measures reduce 
project impacts and conserve Federal and non-Federal funds.
    The Wrightsville Beach Recommended Plan expects annual benefits of 
$10,425,000 and average annual costs of $2,004,000; yielding a benefit 
to cost ratio of 5.2 to 1.

                                 <F-dash>
Beach Renourishment Evaluation Report--Carolina Beach, North Carolina, 
        June 2019, Submitted for the Record by Hon. David Rouzer
    The United States Army Corps of Engineers (USACE) has prepared a 
Beach Renourishment Evaluation Report (BRER) for the purpose of 
determining continued Federal interest and extending the Carolina 
Beach, N.C. Coastal Storm Risk Management (CSRM) project an additional 
15 years (through 2036). The study was conducted under Section 1037 of 
the Water Resources Reform and Development Act of 2014. With continued 
Federal interest determined, a Water Resources Development Act (WRDA) 
of 2020 authorization will allow for ongoing Federal participation.
    Project Delivery Team (PDT) representatives included members of the 
USACE Wilmington, Jacksonville and Savannah Districts with the 
participation by the Town of Carolina Beach, New Hanover County and 
other Federal and State agencies. The Town of Carolina Beach, as the 
non-Federal sponsor, has cost-shared the BRER.
    The BRER is a fully integrated evaluation report and Environmental 
Assessment that complies with the National Environmental Policy Act 
(NEPA) and the USACE's water resources planning process. The 
Recommended Plan would not result in any significant impacts to 
federally-listed threatened or endangered species or their designated 
critical habitat, would have no significant impact to sites listed or 
eligible for inclusion on the National Register of Historic Places, 
would not significantly affect any wetlands or waters of the U.S., nor 
any protected wildlife habitat. Informal Section 7 coordination was 
successfully completed with the US Fish and Wildlife Service (USFWS). 
The USFWS and the National Marine Fisheries Service (NMFS) have been 
actively involved throughout this evaluation and will have an 
additional opportunity to review and comment on the report, as will the 
Public, during the 30-day state and agency review period ending in 
early August 2019.
    The Recommended Plan is the environmentally preferable alternative 
as assessed by PDT participants. Coordination with resource agency 
representatives was initiated early in the study and appropriate 
avoidance and minimization measures (i.e. environmental windows, beach 
placement activities, borrow source selection and use, etc.) were 
developed and integrated during the BRER process reducing project 
impacts and conserving Federal and non-Federal funds.
    The Carolina Beach Recommended Plan expects annual benefits of 
$6,749,000 and average annual costs of $1,718,000; yielding a benefit 
to cost ratio is 3.9 to 1.



                                Appendix

                              ----------                              


Questions from Hon. Eddie Bernice Johnson to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
                  Secretary of the Army (Civil Works)

    Question 1. One of the Corps main mission areas involves flood and 
storm damage reduction. The north central region of Texas suffers from 
significant flooding.
    How can the Corps develop national programs that focus on 
preventing flooding rather than being reactive and responding to 
flooding?
    Answer. Flood and storm damage reduction is a primary mission for 
the Corps. The Corps currently has several national programs under 
which they provide flood risk hazard data and technical assistance to 
states and local communities to support their efforts to understand, 
reduce and prevent flooding. These programs include the Flood Plain 
Management Services, Planning Assistance to States, and Silver Jackets. 
The Corps also has the authority to study and construct flood and storm 
damage reduction projects of limited size and scope through Section 205 
of the Continuing Authorities Program. Finally, the Corps conducts 
specifically authorized flood risk management feasibility studies 
through the Investigations program which can lead to the construction 
of specifically authorized projects that focus on preventing future 
flooding.

    Question 2. How can the Corps share information of flooded areas 
with navigation technology providers to re-route drivers away from 
flooded roads and highways?
    Answer. Local government agencies are responsible for managing and 
directing local evacuation plans during flood events. Any information 
on flooded roads would need to come from the local governments.

    Question 3. Does the Corps have the authority it needs to address 
stormwater runoff, filtering stormwater, and recharge aquifers?
    Answer. Stormwater runoff, filtering stormwater, and aquifer 
recharge are typically a local responsibility. However, Section 219 of 
WRDA 1992, as amended, provides authority to the Corps to carry out 
water-related environmental infrastructure and resource protection and 
development projects.

    Questions from Hon. Jared Huffman to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
                  Secretary of the Army (Civil Works)

    Question 1. I recently offered an amendment to the Energy and Water 
appropriations bill that would limit funding to complete the EIS for 
Pebble Mine. Based on what I have heard from commercial fishermen, 
recreational fishermen, Native Alaskans, and many others, I believe the 
risks of this mine in Bristol Bay are too high.
    Just after the House adopted my amendment on a bipartisan basis the 
Environmental Protection Agency (EPA) submitted their comments on the 
Draft EIS to your agency. In over 200 pages of detailed comments, the 
EPA essentially said the EIS does not accurately estimate the negative 
impacts of the mine and that the agency does not think the project will 
comply with the Clean Water Act.
    I respectfully request that you provide the Committee with a 
written response to each issue raised by the EPA in detail within sixty 
days. Specifically, how do you address EPA's concern that the mine 
could result in the loss of genetic diversity within the Bristol Bay 
salmon populations. In addition, please address the shortfalls in the 
overall analysis and the compensatory mitigation plans.
    Additionally, as you know, the guidelines for a 404 Clean Water Act 
Permit require the Corps to analyze alternatives to a proposed 
discharge of dredged or fill material and ``select the least 
environmentally damaging practicable alternative.'' As part of this 
process, the Corps must provide that ``a[n] alternative is practicable 
if it is available and capable of being done after taking into 
consideration cost, existing technology, and logistics in light of 
overall project purposes.''
    As part of determining the overall project purpose, the Corps must 
consider the objectives of an applicable governmental land use plan, 
which in the case of the Pebble Mine in Alaska would include the 2005 
Bristol Bay Area Plan for State Lands as later amended in 2013 (2013 
BBAP). Please provide to the Committee evidence that the Corps has 
considered the objectives of the 2013 BBAP.
    Answer. A complete response to all of EPA's comments cannot be 
provided at this time and will likely not be complete until the 
publication of the final EIS, as resolution of some of the issues may 
require further investigations/studies and/or analysis and discussion 
with EPA. The Corps is currently reviewing EPA's comments and has 
conducted technical workshops with cooperating agencies, including EPA. 
Review of the comments, combined with information obtained during the 
workshops, will allow the Corps to determine where data gaps and 
shortfalls in the overall analysis may exist in the draft EIS. This is 
an important step in the NEPA process and will identify sections of the 
draft EIS that need additional work. The Corps intends to address all 
substantive comments, including EPA's, in the final EIS, which is 
currently not scheduled to be completed until mid-2020.
    Development of the final compensatory mitigation plan is an 
iterative process. The conceptual compensatory mitigation plan was 
included in the draft EIS to solicit input from stakeholders for 
potential compensatory mitigation options. The Corps will consider this 
input and work with the applicant to develop a final compensatory 
mitigation plan. A compensatory mitigation plan would not be finalized 
until after the applicant has demonstrated all practicable avoidance 
and minimization measures for the applicant's preferred alternative.
    The overall project purpose is used in the development and 
evaluation of the least environmentally damaging practicable 
alternative under the Corp's Clean Water Act 404(b)(1) evaluation. It 
is the Corps' responsibility to define the overall project purpose, 
however the applicant's needs and the type of project are considered 
when defining the overall project purpose. The Corps will consider land 
use as part of the public interest review that is required for this 
permit application. The Corps' regulations state that the primary 
responsibility for determining zoning and land use matters rests with 
state, local, and tribal governments, and the Corps will normally 
accept decisions by such governments on those matters unless there are 
significant issues of overriding national importance (33 CFR 
320.4(j)(2)).
    The Bristol Bay Area Plan (BBAP) was developed and is implemented 
by the State, and the Corps will give full consideration and 
appropriate weight to any comments the State may have regarding the 
consistency of the proposed project with the BBAP.

    Question 2. Secretary James, there are multiple efforts within 
California to restore rivers and streams in order to recover salmon 
runs and other fish and wildlife habitat. Some components of these 
efforts are eligible for CAP funding, yet project managers don't apply 
based on the view that the program is oversubscribed and underfunded. 
Can you please provide the Committee with an region by region analysis 
of the demand for CAP funding compared to the actual funding provided 
to the program by Congress?
    Answer. It is difficult to estimate with any accuracy the demand 
for CAP funding. For example, some proposals may not be viable. Also, 
some non-Federal sponsors may be constrained in their ability to move 
forward on potential projects. The table below shows the funds 
available for obligation as of June 30, 2019 and represents both 
regular and supplemental appropriations.

                                     CAP FY 2019--Federal Funds Available for Obligation and Total Demand by Region
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                           LRD Funds    MVD Funds   NAD Funds    NWD Funds    POD Funds   SAD Funds   SPD Funds   SWD Funds  Total Funds
                                           Avail for    Avail for   Avail for    Avail for    Avail for   Avail for   Avail for   Avail for   Avail for
                                             Oblig        Oblig       Oblig        Oblig        Oblig       Oblig       Oblig       Oblig       Oblig
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 14\\............................   $5,472,647  $2,477,612   $2,535,193   $1,573,617     $25,893  $1,924,819    $238,986    $837,041  $15,085,807
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 103\\...........................     $845,975     $60,908    $1,517,88   $2,952,647    $170,368     $57,700    $430,346     $12,006   $6,047,338
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 107.............................   $4,154,060    $138,913   $3,636,658   $(205,428)    $316,728     $77,409  $5,193,222     $42,002  $13,353,566
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 111.............................      $78,774     $10,017     $385,303      $20,053         $22    $159,310     $20,840         $78     $674,398
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 204.............................     $546,466    $800,178   $1,570,945     $112,277     $10,267    $116,964     $57,381     $11,323   $3,225,802
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 205.............................   $6,515,870    $405,271   $1,717,288   $2,756,815  $1,060,496    $921,108  $1,772,728  $1,326,593  $16,476,169
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 206.............................   $2,435,239    $309,517   $4,140,138     $960,359     $82,694  $4,406,713    $374,736    $976,434  $13,685,829
--------------------------------------------------------------------------------------------------------------------------------------------------------
Section 1135............................     $449,026    $235,452   $2,697,674   $4,213,172     $20,169    $636,623  $1,201,304     $88,877   $9,542,299
========================================================================================================================================================
    Totals..............................  $20,498,058  $4,437,869  $18,200,586  $12,383,512  $1,686,638  $8,300,647  $9,289,543  $3,294,355  $78,091,208
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Data as of 30 Jun 2019.
\2\ Includes unobligated supplemental funds from PL 113-2 and PL 115-123.

   Questions from Hon. John Garamendi to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
                  Secretary of the Army (Civil Works)

    Question 1. Can you please provide a status update on the 
Sacramento District's Lower Cache Creek Feasibility Study and assure me 
that the Corps is doing everything possible to complete this critical 
Study as expeditiously as possible?
    Answer. The project successfully completed the Tentatively Selected 
Plan (TSP) Milestone in February 2019 and the district is preparing to 
publicly release the draft Feasibility Report in December 2019. The 
Corps is processing a SMART Planning exemption for additional time and 
additional funding to complete the Chief's Report.

    Question 2. When does the Corps expect to finalize the Programmatic 
Agreement among the Sacramento, San Francisco, and Los Angeles 
Districts and the California State Historic Preservation Officer 
regarding implementation of section 106 of the National Historic 
Preservation Act of 1966?
    Answer. The Corps will provide the California State Historic 
Preservation Officer (CA SHPO) our final draft Programmatic Agreement 
on August 1, 2019. We will follow up with the SHPO on a regular basis 
to address any issues remaining until the SHPO has made a decision on 
the Programmatic Agreement.

    Question 3. The Middle Creek Flood Damage Reduction and Ecosystem 
Restoration Project in Lake County, California, was authorized in Water 
Resources Development Act of 2007 (Public Law 110-114). Now 12 years 
later, it is far from completed despite $15 million in state funding 
secured recently. Is the Corps prepared to re-engage on the Middle 
Creek Flood Damage Reduction and Ecosystem Restoration Project, and can 
you please provide a timeline for the Project's estimated completion?
    Answer. In January 2019, the local Non Federal Sponsor, Lake 
County, informed the Corps Sacramento District they had received a 
State grant to purchase real estate and were now ready to move forward 
with the project. In May 2019 the Corps met with Lake County and the 
State of California, Department of Water Resources to establish the 
path forward to restart the project. Lake County is currently 
conducting real estate acquisition with available local funding.
    Funding to update and finalize the feasibility study for this 
project to include a revised Supplemental EIS/ROD to include Section 
106 Cultural Resources and Section 7 Endangered Species Act compliance 
will be considered for future funding along with other programs, 
projects, and activities across the Nation competing for the available 
Federal resources. Upon receipt of funding, the Corps projects the 
study will take 16 to 20 months to complete.

    Question 4. Will the Corps consider including the Middle Creek 
Flood Damage Reduction and Ecosystem Restoration Project in the Civil 
Works Work Plan for fiscal year 2020?
    Answer. If Congress provides additional funding via an enacted 
appropriations bill in FY 2020, this project will be considered along 
with other projects, programs, and activities across the Nation 
competing for the available Federal resources.

    Question 5. Given the small-scale of the Middle Creek Flood Damage 
Reduction and Ecosystem Restoration Project relative to other projects, 
will the Corps consider requesting a single appropriation for both the 
design and construction phases?
    Answer. Prior to contemplating design and construction funding for 
this project, the Corps must first complete the feasibility study.

    Questions from Hon. Greg Stanton to Hon. R.D. James, Assistant 
    Secretary of the Army for Civil Works, Office of the Assistant 
                  Secretary of the Army (Civil Works)

Environmental Infrastructure

    Question 1. Some environmental infrastructure authorities have 
created regional programs for a state or multiple states. These 
programs can provide Corps assistance for multiple projects within the 
region. I have introduced legislation (H.R. 2206) to create a program 
for Arizona. Could you describe some benefits of a regional program to 
address water and wastewater infrastructure, such as flexibility to 
provide assistance to the most beneficial projects and meeting needs as 
they arise before performance and reliability are compromised, compared 
to environmental assistance authorities for a specific locality, such 
as the assistance under the 219 authority?
    Answer. The primary value of regional environmental infrastructure 
programs is that the authorities may be more generic than the Section 
219 authority and therefore a regional authority may be used to 
complete work that may not have been specifically contemplated at the 
time of authorization.

Rio Salado Oeste
    Question 2. Rio Salado Oeste in the Salt River through the heart of 
Phoenix is a key Corps project that connects the completed Rio Salado 
Habitat Restoration Area to the east with the Tres Rios Environmental 
Restoration project to the west. To date, this project only has partial 
design completed. A Limited Re-evaluation Report (LRR) is needed to re-
authorize this project and move this important connecting project 
forward. Can you please provide me with a plan on how best we move 
forward with a revised LRR for this project, the resources needed, and 
how those resources will be allocated within the Corps to create this 
report and any other steps necessary to obtain project authorization.
    Answer. The Rio Salado Oeste Ecosystem Restoration project is not 
consistent with the policy and programs of the Executive Branch because 
the proposed plan does not represent an efficient way to target Federal 
and non-Federal resources for aquatic ecosystem restoration. The 
project, as currently authorized, includes upland areas that extend too 
far away (north and south) from the riparian zone which was 
historically supported by the natural hydraulics and hydrology of the 
respective watersheds. By including upland areas that are outside of 
the Corps' typical mission focus on wetland, riparian, and aquatic 
ecosystem restoration, the cost of the project is inflated and the 
aquatic ecosystem restoration benefits that would accrue to the nation 
are overstated and not cost effective. To put this proposed project on 
par with similar desert southwest aquatic ecosystem restoration 
activities, upland habitat restoration would need to be removed from 
the project or provided by others as part of a locally preferred plan. 
The City of Phoenix, the non-Federal sponsor, has provided a Letter of 
Intent to re-initiation the study to evaluate options to reformulate 
the project to address the afore-mentioned outstanding concerns. An 
updated feasibility cost sharing agreement will be required prior to 
restarting the study.

    Questions from Hon. Peter A. DeFazio to Major General Scott A. 
Spellmon, Deputy Commanding General for Civil and Emergency Operations, 
                      U.S. Army Corps of Engineers

    Question 1. In WRDA 2016, we asked the Corps to establish an 
inventory of the nation's jetties and breakwaters. What can you tell us 
about the status of the study, especially for jetties located in the 
Pacific Northwest?
    Answer. The report is under development.

    Question 2.a. The Corps has provided us with data previously that 
all of the nation's navigation channels could be at full widths and 
depths in five years if the Corps was allocated $2.3 billion a year, 
over five years. The Committee has just reported by voice vote my bill, 
which would provide you with those funds.
    If this bill was enacted into law tomorrow--and the Corps receives 
the funding, does the Corps have the capability to meet this goal?
    Answer. No.

    Question 2.b. If not, how do we ensure the Corps has the capability 
to execute additional navigation maintenance revenues when they are 
provided by Congress?
    Answer. The Corps would need to increase its capabilities for 
contracting, surveying and dredging related activities associated with 
this increase in funding. The U.S. dredging industry may not have 
enough capacity to execute the dredging requirements. Buildup of the 
program, including additional dredging assets, would be necessary to 
address all of the dredging at every federal navigation channel.

    Question 3. How many Federally authorized harbors is the Corps 
currently responsible for operations and maintenance (including 
maintenance dredging through the Harbor Maintenance Trust Fund)?
    Answer. The current estimate is that there are 1212 Federally 
authorized harbors for which the Corps is responsible for operation and 
maintenance.

    Question 3.a. Of those harbors, how many fall into the categories 
of high-use, moderate-use, and emerging harbors, as defined in section 
210 of the Water Resources Development Act of 1986?
    Answer. Navigation portfolio data pulled from the Navigation Data 
Center, included 58 high use channels, 79 moderate use channels, and 
440 low use HMTF eligible harbors.

    Question 3.b. Of those harbors, can you identify all of the 
Federally-authorized harbors that have received operation and 
maintenance funding (through the HMTF) over the last 20 fiscal years 
(and an estimate of the amount received by each)? For the remaining 
number of authorized harbors (those that have not received operation 
and maintenance funding over the past 20 fiscal years), what is the 
current general condition or status of these projects (e.g. are they 
still in use as commercial harbors)?
    Answer. There is not currently available data to provide in regards 
to funding levels of authorized harbors over the last 20 years. All 
Federally-authorized navigation projects are maintained to support 
commercial navigation where it exists. I am not aware of any 
circumstance where a navigation project has been unable to support 
commercial navigation due to a lack of maintenance.

    Question 3.c. What is the current identified unmet operation and 
maintenance needs for emerging harbors?
    Answer. All emerging harbors have received sufficient operation and 
maintenance funding to allow passage of commercial traffic. While there 
are additional authorized widths and depths that could be dredged, we 
do not have a precise estimate of what amount of additional funding 
would be needed to meet that need. The Corps roughly estimates that 
$550 million would maintain all HMTF eligible low use commercial 
projects annually to their authorized widths and depths. Over the last 
3 fiscal years, the Corps has received on average $223 million for 
coastal low use harbors. A large portion of the Corps low use portfolio 
includes channels that have diminished economic activity since their 
original authorization, therefore the Corps would not prioritize 
maintenance of every low use project. For this reason, any additional 
funding would focus on those low use projects, which in the absence of 
economic value, would provide other value to the nation such as by 
providing a means of fuel import for regional power generation, 
subsistence harbors or critical harbors of refuge uses, or support to 
the Coast Guard or other federal agencies, or other significant 
activities.

   Questions from Hon. Grace F. Napolitano to Major General Scott A. 
Spellmon, Deputy Commanding General for Civil and Emergency Operations, 
                      U.S. Army Corps of Engineers

    Question 1. General Spellmon, WRDA 2018 reauthorized the Corps Dam 
Safety Program. This is an important program for the nation--but also 
to my district. What is the status of Whittier Narrows Dam? Are we on 
track to complete the project on time?
    Answer. The Corps is coordinating with Federal and state agencies 
to complete the issuance of approvals and permits.

    Question 2. The County of Los Angeles is very interested in taking 
ownership of parts of the Los Angeles River Flood Control system. The 
President's Budget provides funding for this disposition study, and we 
are hoping the work plan will fully fund the study. Can you discuss the 
Corps' disposition process generally and the next steps for the Corps 
and the County of Los Angeles for the L.A. River Flood Control Project?
    Answer. The Corps Los Angeles District has been in discussion with 
the Los Angeles County Public Works (LACPW) regarding transfer of 
ownership and related operations, maintenance, and permitting of 
project modifications for the Los Angeles County Drainage Area (LACDA). 
The priority project features for the disposition study include 
approximately 40 miles of channels and the Haines Canyon Debris Basin.
    The disposition process for a completed project operated by the 
Corps begins with a disposition study conducted under the authority of 
section 216 of the Flood Control Act of 1970 (33 USC Sec.  549a). The 
current estimated cost of the LACDA study is $1.25 million of which 
$350,000 was included in the FY 2020 Budget. If the disposition study 
determines that the project no longer serves its authorized purpose and 
that disposal of the associated infrastructure and real property is 
feasible, the Corps recommends to Congress that the project be 
deauthorized. Following enactment of legislation deauthorizing the 
project, the Corps proceeds with disposal of the associated 
infrastructure and real property under existing authorities for federal 
real property disposal or any special authority included in the 
deauthorization legislation for the project.

    Question 3. Please provide the Committee with the following:
    Question 3.a. A brief summary of the eight Chief's Reports 
submitted to Congress for authorization; and
    Answer:

    1)  Little Colorado River at Winslow, Arizona. On December 14, 
2018, a report was signed on flood risk management for Winslow, AZ. The 
plan consists of new and reconstructed levees, a flood warning system, 
and improving conveyance through channelization and removal of Salt 
cedar under the Burlington Northern Santa Fe Railway Bridge. Based upon 
the October 2018 price levels, the total initial project cost for this 
project is $79.1 million with the Federal share totaling $51.4 million 
and the non-Federal share totaling $27.7 million.

    2)  Delta Islands and Levees, California. On December 18, 2018, a 
report was signed for ecosystem restoration improvements in the 
Sacramento-San Joaquin Delta. Based upon the October 2018 price levels, 
the total initial project cost for this project is $25 million with the 
Federal share totaling $16.3 million and the non-Federal share totaling 
$8.7 million.

    3)  Anacostia Watershed Restoration, Prince George County, 
Maryland. On December 19, 2018, a report was signed for ecosystem 
restoration improvements in the Anacostia River Watershed. The plan 
consists of the restoration of aquatic habitat, through the removal of 
blockages, and the reconnection of restored habitat in the Northwest 
and Northeast Branches. Based upon the October 2018 price levels, the 
total initial project cost for this project, as recommended in the 
Chief's Report, is $34.1 million with the Federal share totaling $22.2 
million and the non-Federal share totaling $11.9 million.

    4)  Pawcatuck River, Rhode Island. On December 19, 2018, a report 
was signed on hurricane and storm damage reduction for the Pawcatuck 
River, Rhode Island. The plan consists of elevating and flood proofing 
structures. Based upon the October 2018 price levels, the total initial 
project cost for this project, as recommended in the Chief's Report, is 
$54.6 million with the Federal share totaling $35.5 million and the 
non-Federal share totaling $19.1 million.

    5)  Norfolk Coastal Storm Risk Management, Virginia. On February 
05, 2019, a report was signed on hurricane and storm damage reduction 
for the City of Norfolk, Virginia. The proposed plan includes 
constructing storm surge barriers with a pump and power station at 
Pretty Lake. The proposed work would tie into existing floodwalls and 
levees. Nonstructural features for the neighborhoods outside of the 
structural system include oyster reefs and living shorelines as natural 
and nature based features to increase resiliency. Based upon the 
October 2018 price levels, the total initial project cost for this 
project, as recommended in the Chief's Report, is $1.4 billion with the 
Federal share totaling $885.2 million and the non-Federal share 
totaling $476.6 million.

    6)  Souris River Basin, Minot, North Dakota. On April 16, 2019, a 
report was signed on flood risk management for the City of Minot, North 
Dakota. The plan consists of a diversion channel, earthen levee, a 
levee as a tieback and recreation trail connecting to an existing trail 
system. Based upon the October 2018 price levels, the total initial 
project cost for this project, as recommended in the Chief's Report, is 
$87.3 million with the Federal share totaling $56.7 million and the 
non-Federal share totaling $30.6 million.

    7)  Brandon Road, Will County, Illinois. On May 23, 2019, a report 
was signed for ecosystem protection improvements to impede upstream 
transfer of aquatic nuisance species at Brandon Road Lock and Dam in 
Will County, Illinois. The plan would consist of a flushing lock and an 
engineered channel, acoustic fish deterrent, electric barrier and an 
air bubble curtain. Nonstructural measures would primarily be 
implemented by other federal agencies and include public education and 
outreach, nonstructural monitoring, integrated pest management, 
pesticides, manual or mechanical removal and research and development. 
Supporting measures include two boat launches. Based upon the October 
2018 price levels, the total initial project cost for this project, as 
recommended in the Chief's Report, is $830.8 million with the Federal 
share totaling $540.0 million and the non-Federal share totaling $290.8 
million.

    8)  Yuba River, California. On June 20, 2019, a report was signed 
for ecosystem restoration improvements on the Yuba River, California. 
The plan would consist of a restoring aquatic and riparian habitat 
along the lower Yuba River. Based upon the October 2018 price levels, 
the total initial project cost for this project, as recommended in the 
Chief's Report, is $97.2 million with the Federal share totaling $63.2 
million and the non-Federal share totaling $34.0 million.

    Question 3.b. Post-authorization change reports needing 
Congressional action, including any potential 902 modifications 
necessary before calendar year 2020.
    Answer. The Corps has completed a disposition study for Willamette 
Falls Locks, Willamettte River, Oregon that recommends seismic repairs 
prior to transfer of the facility to a non-Federal entity. Based upon 
the October 2018 price levels, as recommended in the disposition study, 
is $2.827 million.

  Questions from Hon. Eddie Bernice Johnson to Major General Scott A. 
Spellmon, Deputy Commanding General for Civil and Emergency Operations, 
                      U.S. Army Corps of Engineers

    Question 1. One of the Corps' main mission areas involves flood and 
storm damage reduction. The North central region of Texas suffers from 
significant flooding.
    How can the Corps develop national programs that focus on 
preventing flooding rather than being reactive and responding to 
flooding?
    Answer. Flood and storm damage reduction is a primary mission for 
the Corps. The Corps currently has several national programs under 
which they provide flood risk hazard data and technical assistance to 
states and local communities to support their efforts to understand, 
reduce and prevent flooding. These programs include the Flood Plain 
Management Services, Planning Assistance to States, and Silver Jackets. 
The Corps also has the authority to study and construct flood and storm 
damage reduction projects of limited size and scope through Section 205 
of the Continuing Authorities Program. Finally, the Corps conducts 
specifically authorized flood risk management feasibility studies 
through the Investigations program which can lead to the construction 
of specifically authorized projects that focus on preventing future 
flooding.

    Question 2. How can the Corps share information of flooded areas 
with navigation technology providers to re-route drivers away from 
flooded roads and highways?
    Answer. Local government agencies are responsible for managing and 
directing local evacuation plans during flood events. Any information 
on flooded roads would need to come from the local governments.

    Question 3. Does the Corps have the authority it needs to address 
stormwater runoff, filtering stormwater, and recharge aquifers?
    Answer. Stormwater runoff, filtering stormwater, and aquifer 
recharge are typically a local responsibility. However, Section 219 of 
WRDA 1992, as amended, provides authority to the Corps to carry out 
water-related environmental infrastructure and resource protection and 
development projects.

 Questions from Hon. Greg Stanton to Major General Scott A. Spellmon, 
Deputy Commanding General for Civil and Emergency Operations, U.S. Army 
                           Corps of Engineers

Environmental Infrastructure

    Question 1. Some environmental infrastructure authorities have 
created regional programs for a state or multiple states. These 
programs can provide Corps assistance for multiple projects within the 
region. I have introduced legislation (H.R. 2206) to create a program 
for Arizona. Could you describe some benefits of a regional program to 
address water and wastewater infrastructure, such as flexibility to 
provide assistance to the most beneficial projects and meeting needs as 
they arise before performance and reliability are compromised, compared 
to environmental assistance authorities for a specific locality, such 
as the assistance under the 219 authority?
    Answer. [Editor's note: Major General Spellmon did not respond to 
this question. However, Hon. James responded to this question from Hon. 
Stanton above.]

Rio Salado Oeste

    Question 2. Rio Salado Oeste in the Salt River through the heart of 
Phoenix is a key Corps project that connects the completed Rio Salado 
Habitat Restoration Area to the east with the Tres Rios Environmental 
Restoration project to the west. To date, this project only has partial 
design completed. A Limited Re-evaluation Report (LRR) is needed to re-
authorize this project and move this important connecting project 
forward. Can you please provide me with a plan on how best we move 
forward with a revised LRR for this project, the resources needed, and 
how those resources will be allocated within the Corps to create this 
report and any other steps necessary to obtain project authorization.
    Answer. [Editor's note: Major General Spellmon did not respond to 
this question. However, Hon. James responded to this question from Hon. 
Stanton above.]

 Questions from Hon. Garret Graves to Major General Scott A. Spellmon, 
Deputy Commanding General for Civil and Emergency Operations, U.S. Army 
                           Corps of Engineers

    Question 1. The Bonnet Carre Spillway has been opened four times in 
the past four years for the first time in history, and, also for the 
first time, twice in one year. There are clearly large-scale factors 
that are challenging the normal operating procedures of managing the 
Mississippi River. The Water Resources Development Act of 2018 (WRDA 
2018; Title I of America's Water Infrastructure Act of 2018; P.L. 115-
270) required a report to Congress on structure and operations plan for 
the Old River Control Structure and how it can be best optimized to 
manage the Mississippi, Atchafalaya, Red, and Old Rivers. As I 
understand it, the Corps will not be completing that report but is 
instead completing a three-year ``Old-Mississippi-Atchafalaya-Red 
Rivers'' (OMAR) study. I am deeply concerned that a three-year study 
does not carry the urgency of addressing how to better manage what is 
currently an annual and predictable emergency.
    Question 1.a. What is the status of funding for the OMAR study?
    Answer. The Corps allocated Fiscal Year 2019 funds to initiate the 
OMAR Assessment.

    Question 1.b. What are the study's intended objectives?
    Answer. The intended objectives of the OMAR Assessment is to: 
evaluate operations at the Old River Control Structure (OCRS) with a 
focus on the Mississippi and Atchafalaya rivers; calculate the current 
volume of sediment and water passing through ORCS, including potential 
changes to those volumes; and evaluate if operational changes at ORCS 
are advisable to ensure that the MR&T System can safely pass the 
project design flood into the future. The OMAR Assessment will consider 
the operation of the Sidney A. Murray Jr. Hydropower Plant and its 
impact on, and capability for, sediment distribution, as well as other 
upstream and downstream impacts and opportunities in the project area.

    Question 1.c. Will the study contain actionable items for the Corps 
and for Congress to improve management of these river systems?
    Answer. It is too early in the technical assessment to determine if 
any actionable items will be recommended to Congress.

    Question 2. The Corps just recently released guidance for section 
1043 of the Water Resources Reform and Development Act of 2014 (P.L. 
113-121).
    Question 2.a. Could you describe your experiences with the section 
1043 program and explain how the Corps will operate the provision 
moving forward?
    Answer. Two project have proceeded utilizing Section 1043:
    1.  Clear Creek, TX. A Project Partnership Agreement was executed 
between the Department of the Army and the Harris County Flood Control 
District for the Clear Creek, Texas Flood Risk Management Project in 
June 2019.
    2.  McCook Reservoir. The Project Partnership Agreement for Phase 
II of the McCook reservoir project was executed in January 2019.

    If Section 1043 is amended by Congress to allow the commencement of 
new projects, the Corps will continue to execute the program in 
accordance with the law.

    Question 3. Many of my colleagues on both sides of the aisle have 
lauded how the Section 1043 program will allow the Corps and non-
Federal partners to remove major liabilities from the Corps' $100 
billion backlog in authorized projects.
    Question 3.a. Why does the Corps interpret the program to have 
expired if WRDA 18 specifically authorizes an extension of 
appropriations through 2023?
    Answer. Section 1043(b)(7) of WRRDA 2014 provides that the 
authority to commence a project under Section 1043(b) terminates June 
10, 2019. Section 1137 of WRDA 2018 amends the provision to authorize 
appropriations of $25M for each of the fiscal years 2019 through 2023. 
Section 1137 does not amend subsection (b)(7) terminating the authority 
to commence new section 1043 projects after June 10, 2019. Thus, 
Section 1137 allows 1043 projects that were commenced prior to June 10, 
2019, to continue to receive funds (i.e. McCook, and Clear Creek) 
through 2023, but it does not allow for the commencement of new 
projects under Section 1043 after June 10, 2019.

    Question 3.b. Will you commit to reassessing the interpretation of 
this technical error as our intent was clearly to reauthorize this 
program through 2023?
    Answer. A technical correction or amendment is required to be 
enacted in law to extend this authority. The FY 2020 and FY 2021 
Budgets propose legislative language to extend the provision:

        ``Section 1043 of the Water Resources Reform and Development 
        Act of 2014 (33 U.S.C. 2201 note; Public Law 113-121) is 
        amended--In subparagraph (b)(7), by striking ``5 years'' and 
        inserting ``10 years''.''

    Question 4. As you know, non-federal sponsors are required to 
obtain various levels of interest in real property for cost-shared 
projects. However, the requirements of real property acquisition are 
inflexible to the unique characteristics of individual projects. In 
Louisiana, at least 80% of coastal wetlands are privately owned and 
must work cooperatively with the non-federal project sponsors to 
acquire real estate interests that balance the rights of private land 
owners with the needs of the federal government. Section 1115 of WRDA 
2018 was intended by Congress to allow more flexibility in the required 
level of interest in property to complete a project and to allow better 
cooperation with non-federal interests, including private landowners. 
The provision specifically directs the Corps to ``first consider the 
minimum interest in real property necessary to support the water 
resources development project for which such interest is acquired,'' 
such as a temporary easement or other interest which ``reduce[s] the 
overall cost'' and ``reduce[s] time to complete such project, and 
minimize conflict with property owners related to such project''. 
Despite the language included in WRDA 2018, the guidance issued to 
implement this section reaffirmed the Corps' existing guidance, ER 405-
1-12, Chapter 12, which was last updated in 1998.
    Question 4.a. Could you describe any re-evaluation of Chapter 12 
Regulations following the passage of WRDA 2018 and explain why this 
guidance was not altered considering the directives of Section 1115, 
especially as several requirements included in that section are not 
listed factors of consideration in Chapter 12 Regulations.
    Answer. The minimum estates set forth in ER 405-1-12, Chapter 12, 
were coordinated with the Department of Justice and represent the 
typical minimum estates for the various types of projects listed there, 
and are the default and standard estates. However, both Chapter 12, and 
Revised Real Estate Policy Guidance Letter 31, January 11 2019, provide 
a process for proposing a non-standard estate when such an estate will 
support project requirements given the project and its unique 
characteristics. Chapter 12 is currently in the revision process, and 
comments are being solicited from the field as proposed changes to, 
among other things, the minimum estates. Any changes in the minimum 
estates will require, as before, coordination with the Department of 
Justice to ensure that the federal investment is protected and 
landowners are treated equitably and fairly. The federal government 
already requires, as does Chapter 12 and revised Real Estate Policy 
Guidance Letter 31, that the minimum estate necessary to support the 
project be acquired.

    Question 4.b. Does the Corps plan revisions of Chapter 12 in light 
of the Congressional mandates set forth in Section 1115?
    Answer. Chapter 12 is currently in the revision process, and 
comments are being solicited from the field as proposed changes to, 
among other things, the minimum estates.

    Question 5. Subsection (c) of Section 1115 of WRDA 2018 
specifically requires the Secretary to consider procedures to acquire 
or require acquisition of interest in land used by a State.
    Question 5.a. Why does the Corps hold that ``statutory 
restrictions'' alone cannot be justification for lesser property 
interests, particularly if the policy behind the adoption of such local 
restrictions is based on sound policy and in consideration of all 
factors set forth by Congress in Section 1115?
    Answer. The minimum estate necessary for a project depends on the 
project, its requirements and the minimum land interest necessary in 
order to support the project. Although a state could certainly require 
that a greater interest in land be obtained within its boundaries than 
is necessary to support the project, credit for providing that interest 
would still depend on federal law and regulations. State legislation 
cannot require that a lesser interest than is actually the minimum 
necessary to support the project be sufficient for a federal project.

    Question 5.b. What procedures does the Corps have in place to 
determine what other criteria must be met by a non-Federal sponsor to 
justify deviation based on a statutory restriction?
    Answer. While state law restrictions and sponsor preferences are 
taken into account when determining the minimum interest required for a 
project or feature, the Corps cannot approve an interest as the minimum 
interest unless it grants sufficient rights, both in scope and 
duration, to construct, operate, maintain, repair, rehabilitate and 
restore the project or feature and provides adequate protection to the 
project or feature from incompatible uses.

    Question 5.c. Has the Corps considered whether such policy 
essentially writes state laws off the books and how this might 
jeopardize the Corps' ability to deliver projects or cooperate fully 
with non-federal sponsors who have property acquisitions laws that 
provide no real impediment to the implementation of projects?
    Answer. State law restrictions inconsistent with the Uniform 
Relocation Assistance and Real Property Acquisition Policies Act of 
1970, as amended, or that affect non-federal sponsors legal capability 
to acquire the minimum required real property rights for the project 
may have the effect that under state law the necessary minimum land 
interest to support a federal project cannot be obtained. The federal 
government already requires, as does Chapter 12 and revised Real Estate 
Policy Guidance Letter 31, that the minimum estate necessary to support 
the project be acquired. State legislation cannot reduce that 
requirement.

    Question 5.d. Has the Corps adopted any policy, written or 
otherwise, for the handling of developing standard or non-standard 
estates in compliance with Section 1115 mandates and working with non-
federal sponsors to conform to state policies and laws regarding land 
acquisition per Section 1115? Could you provide a written copy of this 
policy? If not, please explain why and explain whether the Corps 
intends to adopt such policy in the future.
    Answer. No. Any changes in the minimum estates will require 
coordination with the Department of Justice to ensure that the federal 
investment is protected and landowners are treated equitably and 
fairly. Chapter 12 is currently in the revision process, and comments 
are being solicited from the field as proposed changes to, among other 
things, the minimum estates.

    Question 6. In a February 12, 2019, letter addressed to Lieutenant 
General Semonite, the State of Louisiana specifically noted concerns 
with Chapter 12 guidance because of its inflexibility to the needs of 
individual projects, notwithstanding the fact that the guidance was 
last updated in May 1998.
    Question 6.a. What did the Corps do to address the comments made by 
the State of Louisiana through its Coastal Protection and Restoration 
Authority relative to Section 1115?
    Answer. The implementation guidance issued for Section 1115 takes 
into account the comments from the State of Louisiana through its 
Coastal Protection and Restoration Authority.

    Question 6.b. Are the state's comments addressed in the 
implementation guidance for Section 1115?
    Answer. The implementation guidance issued for Section 1115 takes 
into account the comments from the State of Louisiana through its 
Coastal Protection and Restoration Authority.

    Question 7. The State of Louisiana also submitted comments on other 
sections of WRDA 2018, including Sections 1111, 1116, 1120, 1143 and 
1176.
    Question 7.a. What effort has the Corps made to address those 
comments and incorporate them into the implementation guidance for WRDA 
2018?
    Answer. Comments received from stakeholders during the public input 
period including the comments provided by the State of Louisiana 
related to the listed provisions were considered as appropriate while 
drafting the implementing guidance.

Questions from Hon. Thomas Massie to Rob Innis, Plant Manager, Sparrows 
  Point, Maryland, Lafargeholcim, on behalf of Waterways Council, Inc.

    Question 1. In your testimony you mention that if you were to ship 
your commodities by truck it equates to over 365,000 additional trucks 
on the road. The locks on the river system are getting up there in age. 
What is something that Congress could do in the upcoming WRDA bill to 
ensure that this critical freight shipping option is available for 
years to come?
    Answer We believe the most important policy change to be included 
in the Water Resources Development Act of 2020 is changing the cost 
share for new Construction and Major Rehab of Inland Waterway Trust 
Fund (IWTF) supported projects from the current cost share of 50% 
General Treasury and 50% IWTF, to 75% General Treasury and 25% IWTF. We 
believe this would be the best value to the Nation based on what has 
achieved since 2015.
    Thanks to the good work of the T&I Committee, WRRDA14, contained a 
cost share changed for the remaining cost of the Olmsted project, from 
50% General Treasury and 50% IWTF, to 85% General Treasury and 15% 
IWTF, which allowed for efficient funding to flow for our priority 
projects the last six fiscal years. Since FY2015, we have seen an about 
$400 Million per fiscal year appropriated to IWTF projects. Also in the 
FY2019 Appropriation package there was a one-time change in the cost 
share of the Chickamauga project from 50% General Treasury and 50% 
IWTF, to 85% General Treasury and 15% IWTF.
    As a result of these cost share changes, we have seen the cost of 
completion decrease along with the projects becoming operational 
sooner. Some examples below:
    <bullet>  Olmsted Lock and Dam: Post Authorized Cost Report $3.099 
Billion, the USACE Cost Estimate at Completion is $2.841 Billion, a 
cost reduction of $258 Million.
    <bullet>  Lower Monongahela Project: Authorized at $1.23 Billion, 
the USACE Cost Estimate at Completion is $1.09 Billion, a cost 
reduction of $221 Million.
    <bullet>  Kentucky Lock Project: Authorized at $1.216 Billion, the 
USACE Cost Estimate at Completion is $1.048 Billion, a cost reduction 
of $168 Million.
    <bullet>  Chickamauga Lock Project: Authorized at $758 Million, the 
USACE Cost Estimate at Completion is $669 Million, a cost reduction of 
$89 Million.

    As you can see efficient funding, has led to an estimated cost 
reduction of approximately 12%, or $736 million below authorized cost 
of these four projects.
    The National Economics Benefits (NEB) for these projects being 
completed sooner. Once these projects are operational the country 
receives the economic benefits sooner.
    <bullet>  Olmsted Lock and Dam: $600 Million per year Net Benefits 
<greek-e> 4 years equates to $2.4 Billion net benefits that we can 
realize.
    <bullet>  Lower Monongahela Project: $220 Million per year Net 
Benefits <greek-e> 4 years equates to $880 Million net benefits that we 
can realize.
    <bullet>  Kentucky Lock Project: $100 Million per year Net Benefits 
<greek-e> 4 years equates to $400 Million net benefits that we can 
realize.
    <bullet>  Chickamauga Lock Project: $21 Million per year Net 
Benefits <greek-e> 4 years equates to $84 Million net benefits that we 
can realize.

    By changing the Cost share to 75% General Treasury and 25% IWTF we 
could realize a cost savings of $736 Million on these projects along 
with an annual Net Benefits of $3.764 Billion.
    Thanks again for the opportunity to clarify the reasoning for 
changing the cost share, on IWTF projects from 50% General Treasury and 
50% IWTF, to 75% General Treasury and 25% IWTF. We believe these 
results are the best value to the nation.

    Questions from Hon. Garret Graves to Derek Brockbank, Executive 
      Director, American Shore and Beach Preservation Association

    Question 1. Natural infrastructure is a key component of our 
defense system in Louisiana, where we are losing a football field of 
land every 100 minutes due to leveeing the Mississippi River, 
subsidence, erosion, and sea level rise. Our coastal networks of 
barrier islands and wetlands provide a critical line of defense for our 
communities, working as a complement to traditional levees and other 
flood infrastructure to keep communities safe.
    Question 1.a. What are the benefits and hurdles of using natural 
infrastructure alongside or instead of built, hard infrastructure?
    Question 1.b. Do you have any policy or process recommendations to 
ensure smooth coordination between the Corps and non-federal sponsors 
when working to restore and enhance natural infrastructure along the 
coast?
    Answers (a.-b.):
    Natural infrastructure is a key component of coastal risk reduction 
across the United States and the world. ``Ecosystem-based approaches to 
reduce risks from coastal storms, approaches which draw from the 
capacity of wetlands, beaches and dunes, biogenic reefs, and other 
natural features to reduce the impacts of storm surge and waves'' have 
increased in prominence across the country.\1\
---------------------------------------------------------------------------
    \1\ Bridges, T, et al. ``Use of Natural and Nature-Based Features 
(NNBF) for Coastal Resilience'', ERDC SR, 15-1; 2015. https://erdc-
library.erdc.dren.mil/xmlui/handle/11681/4769
---------------------------------------------------------------------------
    American Shore & Beach Preservation Association (ASBPA) is pleased 
to see greater support for and understanding of the way natural systems 
reduce risk for coastal communities, but we understand natural 
infrastructure alone cannot solve our nation's coastal flood risk, and 
there are challenges to using natural infrastructure in combination 
with ``traditional'' hard infrastructure exist. Additionally, the U.S. 
Army Corps of Engineers (USACE) has a central role in building and 
restoring natural infrastructure, but so do local communities, and 
healthy coastlines and efficient project delivery will take USACE 
coordinating well with local sponsors stakeholders.
    a. Natural infrastructure is most effective when used as part of a 
Multiple Lines of Defense strategy, where ecologically based flood and 
coastal storm risk reduction is combined with non-structural and 
structural solutions to keep people and property safe from coastal 
hazards.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Multiple Lines of Defense. Courtesy of Lake Pontchartrain Basin 
                               Foundation

    Natural infrastructure can provide multiple benefits to 
communities, including a) protection, b) ecologically valuable habitat, 
c) economic vitality, and d) recreation, as outlined in ASBPA's written 
testimony.\2\ The ecological, economic and recreation components are 
particularly important because this is what natural infrastructure 
provides that hard infrastructure cannot. Restoring the natural 
functions of a shoreline and the corresponding community benefits 
should not be treated as lagniappe--a little free bonus--on a flood 
protection project, it should be part of the central purpose of a 
project.
---------------------------------------------------------------------------
    \2\ Brockbank, D. ``Transportation & Infrastructure Committee 
Hearing Testimony, July 10, 2019'', July 10, 2019 http://asbpa.org/
wpv2/wp-content/uploads/2019/07/TI-Hearing-
Testimony_Final_ASBPA_Brockbank.pdf
---------------------------------------------------------------------------
    Additionally, natural infrastructure can provide protection to hard 
infrastructure by extending its lifespan. For example, a dune system 
with a structural (seawall) buried core, may be designed for the dune 
to withstand a 10-year coastal storm event and the core to withstand a 
100-year coastal storm event. The structure integrity of that seawall 
is likely to last longer since it is not exposed to ongoing corrosive 
effects of saltwater, wind and waves except for when it's exposed 
during coastal storms greater than 10-year events.
    Harder to quantify, but also important are the esthetic and safety 
enhancements natural infrastructure can provide in supplementing hard 
infrastructure. For example, even if a seawall provides a community all 
the flood protection it needs, an exposed seawall adjoining a beach can 
be considered an eyesore and can be dangerous for beach-goers to cross 
or for children to play on. A dune system will maintain the beach 
characteristics that define the community and that residents and 
tourists expect.
    However, there are challenges to combining natural infrastructure 
with hard infrastructure. Most prominently is how hard infrastructure 
can, if not designed properly, negatively impact the viability of 
natural infrastructure. For example a seawall or bulkhead can 
exacerbate the erosion of beach or marsh directly in front of it, due 
to the reflection of wave energy hitting the structure. Even a buried 
wall will adversely impact the beach and dune system as soon as it 
becomes exposed. Similarly, a levee system that restricts interchange 
of fresh and saltwater can fundamentally change the hydrology of a 
coastal marsh system, accelerating marsh loss, changing locations of 
oyster reefs and other biologically based natural infrastructure that 
has a narrow salinity gradient.

    b. One of the biggest structural challenges USACE has in 
coordinating with local project sponsors is its project-based budgeting 
system. Unique among federal agencies, USACE has a budget based nearly 
entirely on project delivery, with very little programmatic or 
unallocated staffing funds. Theoretically, this could help focus the 
USACE to achieve projects. However, in ASBPA's experience, we have 
found that this style of budgeting has led to a) an inability for USACE 
to work with local sponsors in the early stages of project development; 
b) challenges for USACE in working with local sponsors and stakeholders 
once a project (or study) is authorized if it is not funded, and c) 
USACE staff that could best be utilized to do outreach and coordination 
with locals being ``tied'' to projects, rather than learning from local 
communities.
    USACE has an incredible wealth of technical knowledge and 
expertise, but too often this cannot be accessed by non-federal 
sponsors, unless they are actively working on an authorized and funded 
federal project, or have requested support through one of USACE's small 
``technical assistance programs''.
    Similarly, USACE staff have challenges in providing insight and 
guidance on locally funded natural infrastructure projects, other than 
through the permitting and regulatory process. Local projects, from 
small living shorelines, to major coastal land-rebuilding projects 
could benefit from USACE's engineering review--particularly when they 
are adjacent to and/or impacted by federal projects. USACE can 
sometimes work this type of coordination into the project cost of an 
existing project, particularly if a locally funded project is likely to 
interact with a federal project, but that can appear to drive up the 
cost of the federal project when the real benefit is to the local 
project.
    Unfortunately, at this time ASBPA does not have specific 
recommendations for how to address this issue. Changing the USACE 
budget process is incredibly complicated with many potential 
operational challenges. We encourage the Transportation & 
Infrastructure (T&I) committee to consider how budgeting plays a role 
in the USACE's coordination with local sponsors and stakeholders, and 
consider structural changes to improve the budgeting process. As the 
Committee develops policy ideas, ASBPA would be honored to review and 
make recommendations for how we believe those policies would play out 
for coastal projects.
    Finally, the current interpretation of the ``Federal Standard'' has 
proved challenging for coordination between the Corps and non-federal 
sponsors when working to restore and enhance natural infrastructure 
along the coast. Local project sponsors who are taking the long view of 
managing sediment and know that future ecosystem restoration and 
natural infrastructure projects will need sediment, are too often 
prevented from beneficially using sediment dredged by USACE. Local 
sponsors are stymied by USACE interpretation of least coast disposal, 
that only looks at current costs, and doesn't calculate the value of 
the sediment (or the ``opportunity cost'' of beneficial placement) when 
disposing of dredged material. The solution here is not to 
fundamentally change or get rid of the federal standard, but to ensure 
it is being implemented in a way that considers all future costs for 
sediment needs that could otherwise be saved by beneficially using 
dredge material rather than dumping it offshore.
    Thank you for the questions and we look forward to working with the 
committee to support Natural Infrastructure in a 2020 Water Resources 
Development Act and other legislation coming from the T&I Committee.

  Questions from Hon. Grace F. Napolitano to F. Martin Ralph, Ph.D., 
   Director, Center for Western Weather and Water Extremes, Scripps 
    Institution of Oceanography, University of California San Diego

    Question 1. One of the sites being considered by your organization 
is Prado Dam in my region. I also know that all sites are different. 
What are the lessons learned from Lake Mendocino, and how can you apply 
that to other reservoirs, like Prado?
    Answer. The Lake Mendocino FIRO project has taught us many lessons 
that will help us evaluate the potential viability of FIRO at other 
reservoirs.
    a.  If storms that have the potential to produce flooding on the 
Russian River can be predicted well enough 3-5 days ahead, then there 
is potential for 10,000+ acre feet of water to be safely retained 
behind the dam, pending a 5-day forecast of such a storm. This is 
enough water for 10's of thousands of households for a year.
    b.  Floods on this river are cause by atmospheric river storms, and 
there is enough skill in predicting the inflow into Lake Mendocino from 
the precipitation produced by an atmospheric river, that FIRO could be 
used to provide enhanced water supply reliability without adding flood 
risk. Preliminary tests suggest that FIRO may also be able to improve 
flood protection by encroaching into the water supply 
(``conservation'') pool ahead of a storm.
    c.  Tools, including a prototype decision support system, have been 
created for Lake Mondocino that show the risk of an atmospheric river 
striking the region, and of inflow into the reservoir reaching a point 
that requires release of some of the extra 10,000+ acre feet of water 
ahead of the storm. With 5-days lead time, this water released would 
have moved downstream to the ocean, out of harms way and restoring the 
full flood pool in case it is needed for the incoming storm.
    d.  The formation of a steering committee that includes both water 
supply operators, flood control operators, regulators and scientists, 
charged with developing a workplan to carry out a FIRO viability 
assessment can successfully integrate weather, hydrology and climate 
science with engineering, water management and environment expertise to 
carry out the necessary studies to assess the viability of FIRO at that 
reservoir. And that such a committee can develop a culture that enables 
all perspectives to be heard and to make rapid progress on the 
technical problems.
    e.  Such a committee can develop enough credibility that it can 
prepare and submit a major deviation request that passes full review by 
USACE and is carried out as a test.

    All of these lessons apply to Prado Dam, although vital 
characteristics differ from lake Mendocino and require detailed 
technical evaluations. These include the reservoir purpose being 
primarily for flood control and being located in an urban area with 
many people in the flood plain, whereas Lake Mendocino is rural and has 
both a flood control and a water conservation pool. Endangered Salmon 
are a concern for Lake Mendocino, while bird species are the primary 
environmental issue at Prado. The Prado watershed is shorter in length, 
steeper, and significant areas are covered by manmade impervious 
surfaces. Some tools developed to improve weather forecasting for the 
Lake Mendocino area will also prove useful in the region surrounding 
Prado Dam, and elsewhere on the west coast, although additional 
tailoring of the forecasting tools and associated decision support 
system for each watershed will be required. Improved weather 
forecasting will benefit water management throughout the state. Prado 
Dam is being modified to substantially increase its flood control 
capacity and FIRO can feed into a water control manual update that will 
be needed anyhow due to the dam modifications.

    Question 2. Why is forecast informed reservoir operations important 
to consider, especially in the west?
    Answer. Precipitation prediction has long been one of the toughest 
challenges in weather forecasting and was not at a level of skill that 
could justify its consideration in operating major reservoirs. Thus, 
historically, most major reservoirs have been operated based on rules 
focused on ``water on the ground,'' i.e., in snowpack, streams, rain 
gauges or reservoirs, but not on weather forecasts. However, over 
recent decades, weather prediction skill has advanced substantially. 
Enough so to warrant consideration of the potential that now there is 
enough skill in precipitation and streamflow forecasting that 
operations at some reservoirs could safely consider them in day-to-day 
operations. In addition, or possibly partly in response to this 
improvement in forecasting, the USACE recently updated its water 
management engineer regulation to allow for the possible use of 
forecasts in operations. These developments have opened the door to 
explore the possibility of using skillful weather forecasts to enable 
reservoir operations decisions that could both increase water supply 
reliability (without increasing flood risk), as well as increasing 
flood mitigation capacity (without decreasing water supply 
reliability), while also improving environmental outcomes.
    The Western US experiences far more year-to-year variations in 
annual precipitation than elsewhere in the nation, and yet also is home 
to some of the most arid and yet also agriculturally productive, lands 
in the nation. The West is home to both thriving economies and diverse 
ecosystems that are at risk due to water supply reliability issues and 
to flood. The modern water management system does a remarkable job in 
supporting these. In some years this system still struggles when there 
is either too much or too little precipitation, i.e., drought or flood. 
Variations that are projected to become increasingly common and extreme 
as climate changes, thus increasing vulnerabilities and making FIRO a 
potentially useful climate adaptation method. Not only are the 
potential benefits of FIRO in this region immense, it so happens that 
forecasts of the heaviest precipitation events are more skillful in the 
West (during the wet winter season) than anywhere else nationally. 
Science has determined that atmospheric river storms are the cause of 
most major flooding in the West and can provide 25-50% of the annual 
precipitation each year. This allows science to focus on making better 
observations and forecasts of this type of storm, specifically. 
Offering true potential for predictions to reach a level of skill that 
can enable FIRO to be viable at some reservoirs, at least those with 
suitable characteristics and operating conditions.

Questions from Hon. John Garamendi to F. Martin Ralph, Ph.D., Director, 
 Center for Western Weather and Water Extremes, Scripps Institution of 
            Oceanography, University of California San Diego

    Question 1. Could you please describe Scripps research work with 
the Yuba Water Agency and California's Department of Water Resources? 
Specifically, can you please explain how this work will complement 
California's and Scripps' work with the Army Corps of Engineers on the 
Forecast Informed Reservoir Operations program, and Yuba Water Agency's 
plans to build the new secondary spillway at their dam, New Bullards 
Bar Dam and Reservoir?
    Answer. Scripps has begun working with Yuba Water Agency (YWA) and 
California Department of Water Resources (CDWR) to develop a technical 
workplan to assess the potential viability of FIRO on the combination 
of New Bullards Bar on the Yuba River (operated by the Yuba Water 
Agency) and Oroville Dam on the Feather River (operated by CDWR). 
Information derived from the FIRO work is envisioned to provide 
substantive input into updating the New Bullards Bar USACE Water 
Control Manual, which was issued in 1972, and this update is expected 
to provide support for potential benefits created from the construction 
of the New Bullards Bar Secondary Spillway. (Background information 
from YWA regarding the purpose and status of the secondary spillway is 
provided at the end of this reply).
    These rivers merge just downstream of the town of Marysville, which 
is in the region of substantial historical floods in 1955, 1986 and 
1997. The project brings local, state and federal agencies together in 
a steering committee to plan and execute an effort that applies 
research and innovation to enhance flood protection and aid water 
management. The project will extend experience with FIRO to include the 
complexities introduced by including two reservoirs, working in a 
region influenced strongly by snow and snowpack and that is located 
well inland from the coast. These factors, along with the sheer size of 
these reservoirs and the fact they are ``Section 7'' reservoirs (i.e., 
not directly operated by USACE, but where USACE has a key role in 
updating their water control manuals), differ substantially from 
conditions at Lake Mendocino and Prado Dam, where FIRO studies are 
underway. Thus, the Yuba-Feather FIRO project will extend the range of 
conditions explored with USACE in terms of the potential applicability 
of FIRO. In addition to developing the workplan, a handful of 
preliminary technical studies are starting, including research on the 
extreme storms that drive floods in the region, the role of snowmelt in 
such flooding and soil moisture impacts on flow.
    The development of a new spillway for New Bullards Bar, and the 
changes at Oroville that could be triggered from its Comprehensive 
Needs Assessment, each will require updates to their respective water 
control manuals, a step involving USACE. A strategy of the Yuba-Feather 
FIRO effort being envisioned is for it to produce outputs that can feed 
directly into these water control manual updates that would incorporate 
adaptive management methods informed by forecasts. Such an update would 
be intended to introduce greater flexibility for both enhanced flood 
mitigation capacity, as well as increased water supply reliability, 
while benefitting ecosystems (see response to the second QFR from 
Chairwoman Napolitano for a brief description of how FIRO works more 
generally to achieve such goals).
    The following is background information provided to me by Yuba 
Water Agency regarding the secondary spillway:

        ``As a result of the devastating 1986 and 1997 Yuba County 
        floods resulting in the loss of life and destruction of 
        property, Yuba Water Agency has spent two decades studying and 
        making decisions on how to improve flood protection in Yuba 
        County. The result has been a decision to build a Secondary 
        Spillway that will enable earlier release of flood waters 
        entering the reservoir so that there is more flood space to 
        handle the peak flood flow. This will result in lower 
        downstream flow, thus improving flood protection. Additional 
        benefits include a totally independent redundant spillway that 
        can handle the flood of record in case the primary spillway is 
        inoperable, the capability for having higher storage in dry 
        periods that can enhance water supply and the Secondary 
        Spillway will enhance dam safety of New Bullards Bar Dam, which 
        is the 5th tallest in the US. The YWA board has authorized $11 
        million for the design and permitting of the Secondary Spillway 
        and the plan is to complete construction by 2025. In this era 
        of climatic change, the Secondary Spillway is the best way YWA 
        can improve climatic resiliency for the people of Yuba 
        County.''

                                    
                                [all]
</pre></body></html>
